NO. ________________

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER 2020 TERM
____________________
RODNEY BERRYMAN – Petitioner
vs.
RON DAVIS – Respondent
____________________
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
APPENDICES TO PETITION FOR WRIT OF CERTIORARI
VOLUME 1
[CAPITAL CASE]
SAOR E. STETLER*
Law Offices of Saor E. Stetler
P.O. Box 2189
Mill Valley, CA 94941
Telephone: (415) 388-8924
Email: saorstetler@me.com
Tim Brosnan, CA SBN 75938
Attorney at Law
P.O. Box 2294
Mill Valley, CA 94942
415-962-7967
timothy_brosnan@sonic.net
Attorneys for Petitioner
RODNEY BERRYMAN, Sr.
*Counsel of Record

INDEX TO APPENDICES

Volume 1
th

APPENDIX A

Opinion, Berryman v. Wong, 954 F.3d 1222 (9 Cir. 2020)

APPENDIX B

Order Denying Petition for Rehearing and Petition for Rehearing En
th

Banc, Berryman v. Wong, Case No. 10-99004 (9 Cir. August 20,
2020)
APPENDIX C

Opinion, Berryman v. Wong, Case No.1:95-cv-05309-AWI (United
States District Court for Eastern California, January 15, 2010)
(pages 1-122)

Volume 2
APPENDIX C

Opinion, Berryman v. Wong, Case No.1:95-cv-05309-AWI (United
States District Court for Eastern California, January 15, 2010)
(pages 123-204)

APPENDIX D

Opinion, People v. Berryman, 6 Cal.4th 1048 (1993)

APPENDIX E

Opinion, In re Berryman, 1993 Cal. LEXIS 7651 (1993); Opinion, In
re Berryman, 1998 Cal. LEXIS 2633 (1998); Opinion, In re
Berryman, 1999 Cal. LEXIS 2420 (1999)

1

Neutral
As of: September 22, 2020 7:26 PM Z

Berryman v. Wong
United States Court of Appeals for the NinthCircuit
January 30, 2019, Argued and Submitted, University of San Diego, California; March 27, 2020, Filed
No. 10-99004

Reporter
954 F.3d 1222 *; 2020 U.S. App. LEXIS 9602 **

RODNEYBERRYMAN, SR., Petitioner-Appellant, v. ROBERT K. WONG, Respondent-Appellee.

Notice: PLEASE REFER TO FEDERAL RULES OF APPELLATE PROCEDURE RULE 32.1 GOVERNING THE
CITATION TO UNPUBLISHED OPINIONS.

Subsequent History: Rehearing denied by, En banc, Rehearing denied by Berryman v. Wong, 2020 U.S. App.
LEXIS 26529 (9th Cir. Cal., Aug. 20, 2020)

Prior History: [**1] Appeal from the United States District Court for the Eastern District of California. D.C. No. 1:95cv-05309-AWI. Anthony W. Ishii, District Judge, Presiding.
Berryman v. Wong, 2010 U.S. Dist. LEXIS 9910 (E.D. Cal., Jan. 15, 2010)
Berryman v. Chappell, 2013 U.S. Dist. LEXIS 122246 (E.D. Cal., Aug. 27, 2013)

Disposition: AFFIRMED.

Core Terms
seizure, phase, brain, guilt, killed, ineffective, shoe, neurological, confirmed, disorder, sentence, alcohol, sex, jurists,
violent, truck, rape, prejudiced, omission, trauma

Case Summary
Overview

Page 2 of 11
Berryman v. Wong

HOLDINGS: [1]-Denial of petition for a writ of habeas corpus was affirmed because reasonable jurists could
conclude that admission of evidence that petitioner was born prematurely, that he spent the first month of his life in
an incubator, or that his father was a womanizer would not have led to a reasonable probability of a different
sentence; [2]-Even if the neurological test results would have been admissible, petitioner could not establish a
reasonable probability that they would have changed the outcome as petitioner's experts stated that the test results
reinforced their penalty-phase testimony that petitioner had an organic brain disorder, but the state's experts strongly
disagreed with their interpretation.

Outcome
Judgment affirmed.

LexisNexis® Headnotes
Criminal Law & Procedure > ... > Review > Standards of Review > Contrary & Unreasonable Standard
HN1[

] Standards of Review, Contrary & Unreasonable Standard

Under 28 U.S.C.S. § 2254(d), an appellate court must defer to a state court's decision unless it was contrary to, or
involved an unreasonable application of, clearly established Federal law, or was based on an unreasonable
determination of the facts in light of the evidence presented in the State court proceeding. 28 U.S.C.S. § 2254(d).
Criminal Law & Procedure > Counsel > Effective Assistance of Counsel > Tests for Ineffective Assistance of
Counsel
HN2[

] Effective Assistance of Counsel, Tests for Ineffective Assistance of Counsel

To succeed on a ineffective assistance of counsel claim, a petitioner must show that his counsel's performance fell
below an objective standard of reasonableness, and that there is a reasonable probability that, but for counsel's
unprofessional errors, the result of the proceeding would have been different.
Criminal Law & Procedure > Counsel > Effective Assistance of Counsel > Sentencing
HN3[

] Effective Assistance of Counsel, Sentencing

In the penalty-phase context, favorable results means test results that could help convince a juror to vote for
life—that is, results whose absence could have affected the outcome within a reasonable probability.

Syllabus

Page 3 of 11
Berryman v. Wong

SUMMARY

*

Habeas Corpus
The panel affirmed the district court's denial of RodneyBerryman, Sr.'s federal habeas corpus petition challenging
his California state murder conviction and death sentence.
In Claim 65, as to which the district court granted a certificate of appealability, Berryman alleged that he was denied
his Sixth Amendment right to counsel at the penalty phase because his lawyers failed to present additional evidence
of his family history and social background. The panel held that fairminded jurists could conclude that the California
Supreme Court's conclusion that Berryman failed to show that he was prejudiced by any deficiency in his counsel's
performance was correct.
The panel granted Berryman's motion to expand the COA as to four additional claims.
In Claims 15 and 16, Berryman alleged that his trial lawyers were ineffective in (a) failing to present expert
psychological and psychiatric testimony at the guilt phase to support his argument that the killing was not
premeditated or intentional and (b) failing to seek out and develop [**2] social history evidence and additional expert
testimony to establish Berryman's brain disease and mental state for use at the guilty phase. The panel held that
the California Supreme Court's determination that Berryman was not prejudiced by counsel's failure to seek out or
present mens rea evidence at the guilty phase was reasonable.
In Claims 63 and 64, Berryman asserted that his lawyer was ineffective at the guilt and penalty phases for failing to
obtain the trial court's transport order and funding authorization for neurological tests. The panel held that the
California Supreme Court's conclusion that the tests lacked the capacity to produce results that might have moved a
juror to vote to acquit or to vote for life in prison was reasonable, and that it was therefore reasonable for the
California Supreme Court to conclude that Berryman suffered no prejudice from his defense counsel's failure to
seek out these tests and press this argument.
Counsel: Saor E. Stetler (argued), Mill Valley, California; Tim Brosnan, Mill Valley, California; for PetitionerAppellant.
Brian R. Means (argued), Deputy Attorney General; Kenneth N. Sokoler and Brian G. Smiley, Supervising Deputy
Attorneys General; Michael [**3] P. Farrell, Senior Assistant Attorney General; Xavier Becerra, Attorney General;
Office of the Attorney General, Sacramento, California; for Respondent-Appellee.

Judges: Before: M. Margaret McKeown, Morgan Christen, and Paul J. Watford, Circuit Judges.

Opinion
[*1223] PER CURIAM:

*

This summary constitutes no part of the opinion of the court. It has been prepared by court staff for the convenience of the reader.

Page 4 of 11
Berryman v. Wong

A California jury sentenced RodneyBerryman, Sr., to death for the 1987 murder of Florence Hildreth. The California
Supreme Court affirmed his conviction and sentence on direct appeal, see People v. [*1224] Berryman, 6 Cal. 4th
1048, 25 Cal. Rptr. 2d 867, 864 P.2d 40, 48 (Cal. 1993), and summarily denied his state habeas petition. This is the
appeal from the district court's denial of Berryman's federal petition for a writ of habeas corpus. We affirm.
I. Background
A. Guilt Phase
Berryman was convicted of murder with special circumstances: felony-murder-rape with the use of a dangerous
weapon. Id. at 47. The jury heard that Hildreth, the victim, was a 17-year-old high school student. Id. at 48. She and
Berryman were acquaintances. Id. Around 10:45 p.m. on the night of her death, Hildreth left one aunt's house to
walk to another's. Id. She never reached her destination, and her body was found the next morning sprawled on a
nearby dirt road. Id. at 48-49. Her clothes had been pulled partly off, and forensic evidence suggested that she had
been sexually assaulted. [**4] Id. at 49. Her death was caused by a shallow stab wound in her neck, which had
nicked her carotid artery. Id. A mark on her right cheek had evidently been left by the sole of a shoe, pressing down
on her head for several minutes as she died. Id.
Shoe prints in the dirt at the crime scene were similar to those of Berryman's shoes, and nearby tire tracks were
similar to the tracks left by the tires of Berryman's truck. Id. A blood stain on his shoe was consistent with Hildreth's
blood but not his own; it would have matched only 1 in 1,470 people who, like Hildreth, were African-American. Id.
Small golden chain links found at the scene were consistent with a broken necklace found in Berryman's truck. Id.
Berryman told the police that Hildreth had never been in his truck, but her thumb print was found inside the
passenger-door window. Id. He also said that he had not been on a nearby road the night of her death, but a witness
saw his truck in that location. Id. at 48-49. Berryman appeared to know that Hildreth had been stabbed before that
information was made public. Id. at 49.
Berryman's lawyer, Charles Soria, argued that the government's timeline did not add up and that Berryman could
not possibly have been present [**5] to commit the crime. Although he argued at length that the prosecution had
charged the wrong person, Soria briefly argued in the alternative that Berryman might have lost his temper after
consensual sex and was guilty only of voluntary manslaughter.
B. Penalty Phase
After the jury's guilty verdict, the State offered additional aggravating evidence at the penalty phase. The jury heard
that Berryman had previously been convicted of marijuana transportation and grand theft. Id. at 50. Two other
witnesses testified to uncharged misconduct. One witness had been in a fight with Berryman in which he alleged
that Berryman struck him with a tire iron. Id. The other witness, Berryman's father-in-law, recounted a scuffle
during which Berryman hit him on the nose. Id.
Berryman's lawyers called twenty-one witnesses in mitigation. Many of the witnesses were friends and relatives,
including Berryman's wife, siblings, and mother. Family and friends testified that Berryman was warm and loving
and always peaceful with women. Id. at 51. The jury heard that Berryman's parents had a bad marriage [*1225]
and that his father was violent with his mother. Id. at 50. The witnesses testified that Berryman was not given
enough attention and affection [**6] as a child. Id. The family moved often, and Berryman struggled in school. Id.
As a teenager, he began to abuse alcohol and, after a work-related injury to the head, he began experiencing
disabling headaches. Id.

Page 5 of 11
Berryman v. Wong

After Berryman got married in 1986, his life improved. He and his wife had a son, and Berryman was an active
participant in his father-in-law's church. Id. But after he lost his job, he began drinking heavily again, leading to "a
precipitous downward spiral." Id. He and his wife separated shortly before Hildreth's murder. Id. at 50-51.
Two expert witnesses testified about Berryman's mental health and development. Dr. William Pierce, a clinical
psychologist, diagnosed Berryman with an "alcohol induced organic disorder." Id. at 51. On psychological tests, he
saw "consistent signs of organicity"—a term then used to describe psychological disorders with apparent physical
origins, such as brain damage. Based on his observations, Dr. Pierce opined that further neurological testing was
required to "confirm or disconfirm the presence of an organic mental syndrome." But he explained that he had been
unable to administer the necessary tests because the Kern County hospitals would not grant him permission.
[**7] Dr. Samuel Benson, a psychiatrist, agreed that Berryman exhibited signs of "organicity." Id. He opined that
Berryman "does, in fact, suffer from an organic mental syndrome, that it's probably alcohol induced, but [that] other
factors in addition to his consumption of alcohol" also contribute, among them "head trauma." Id. He testified that
Berryman had sustained head trauma on other occasions, including a work-related fall from a crane or forklift, and
once when he was hit with a pipe. Dr. Benson agreed with Dr. Pierce that additional testing was necessary—in
particular, an electroencephalogram (EEG). This test would measure Berryman's brain activity to determine
whether he was suffering from seizures. Drs. Benson and Pierce testified that these seizures could have caused
Berryman to become violent and disoriented and experience blackouts. Dr. Benson would also have administered
an alcohol-induced EEG, which looks for seizures specifically brought on by alcohol. He, too, testified that local
hospitals refused to allow the tests.
On cross-examination, Dr. Benson agreed that he had no information that Berryman had ever experienced a
blackout or a seizure or that Berryman had ever become lost or disoriented. He explained that because he was
unable to perform the EEG tests, he did not know whether Berryman had a seizure disorder. He also conceded
that, while an individual might be violent during a seizure episode, [**8] it would not be possible for him to commit
rape.
During closing arguments, the prosecutor criticized the defense for failing to have the EEG tests performed. He
offered one possible explanation for that failure: "Because as it stands, they have something to talk about. . . . They
don't want that test to be performed because it will rule out [brain damage] and then they wouldn't have anything to
talk about." The prosecutor argued that even if there had been tests showing brain damage, they would not have
made a difference. The experts' hypothesis, he argued, did not fit the rape-murder facts of the case.
The jury returned a sentence of death. Id. at 47.
[*1226] C. Postconviction Proceedings
In state habeas proceedings, Berryman's new counsel presented additional mitigating evidence about Berryman's
early life. This evidence included declarations from Berryman's mother and sister, who offered more details about
Berryman's childhood and stated that they would have provided this information at the penalty phase if they had
been asked or adequately prepared.
Berryman's lawyers also offered new evidence about trial counsel Soria's failure to obtain the scientific tests his
experts had requested. Dr. Pierce stated [**9] in a declaration that he had told Soria that "further neurological
testing was required to determine whether Mr. Berryman suffered from organic brain damage." Dr. Pierce
suggested several tests, including an EEG and alcohol-induced EEG. He "told Mr. Soria that if further testing
confirmed the existence of brain damage, this information should be used in the guilt part of the trial in addition to
the penalty part of the trial."

Page 6 of 11
Berryman v. Wong

Dr. Benson agreed that confirmation of his diagnosis required further testing—specifically, an EEG, an alcoholinduced EEG, and a Positron Emission Tomography (PET) scan. He explained that after learning the local hospitals
would not perform the tests, he suggested to Soria that they have the tests performed in a different part of the State.
Soria, however, told him that the court would not authorize such expensive tests to be performed outside of Kern
County. Without the testing, Dr. Benson was unable to conclude with certainty that Berryman had brain damage.
Like Dr. Pierce, Dr. Benson told Soria that his testimony, especially if confirmed by testing, could be used at the guilt
phase to diminish Berryman's "culpability for the killing."
Soria explained in his [**10] own declaration that he never requested a transfer order to take Berryman out of Kern
County for testing. This was because he "believed at the time the court would not issue such an order." In a case
two years after Berryman's, however, Soria successfully obtained transfer orders from the same trial judge to get an
out-of-county EEG and PET scan for another client. Soria conceded there was "no reason why a similar order would
not have issued in [Berryman's] case" had Soria sought one.
Berryman's postconviction counsel asserted ineffective assistance of counsel claims, both on direct appeal and in a
state habeas petition. Berryman's conviction and sentence were affirmed on direct appeal in a reasoned opinion by
the California Supreme Court. See Berryman, 864 P.2d at 48. The same day, the California Supreme Court
summarily denied his habeas petition on the merits.
Berryman filed a federal petition for a writ of habeas corpus asserting numerous claims of error, all of which the
district court denied. The district court granted a certificate of appealability (COA) as to Claim 65, Berryman's
allegation of penalty-phase ineffective assistance of counsel for failure to present additional evidence of his family
history [**11] and social background. On appeal, Berryman presses that issue and requests that we expand the
COA to encompass fourteen other claims. We expand the COA to include four additional claims, discussed below,
but otherwise deny Berryman's request. See Hedlund v. Ryan, 854 F.3d 557, 565 (9th Cir. 2017).
II. Discussion
Because the California Supreme Court rejected each of the claims at issue here on the merits, the Antiterrorism and
Effective Death Penalty Act of 1996 applies. See28 U.S.C. § 2254(d). The parties disagree whether the relevant
decision is the California [*1227] Supreme Court's opinion on direct appeal, as Berryman asserts, or its summary
denial of his state habeas petition, as the State contends. We need not resolve that dispute because, even
accepting Berryman's argument, he still cannot prevail on any of his claims.
HN1[ ] Under § 2254(d), we must defer to a state court's decision unless it "was contrary to, or involved an
unreasonable application of, clearly established Federal law," or "was based on an unreasonable determination of
the facts in light of the evidence presented in the State court proceeding." 28 U.S.C. § 2254(d). For ineffective
assistance of counsel claims, the clearly established federal law is Strickland v. Washington, 466 U.S. 668, 104 S.
Ct. 2052, 80 L. Ed. 2d 674 (1984). HN2[ ] To succeed, Berryman must show that his counsel's performance "fell
below [**12] an objective standard of reasonableness," id. at 688, and that "there is a reasonable probability that,
but for counsel's unprofessional errors, the result of the proceeding would have been different," id. at 694.
We may grant Berryman habeas relief only if the California Supreme Court's application of Strickland was
"objectively unreasonable." Williams v. Filson, 908 F.3d 546, 563 (9th Cir. 2018) (internal quotation marks omitted).
That means we may issue the writ only if "there is no possibility fairminded jurists could disagree that the state
court's decision conflicts with [the Supreme] Court's precedents." Harrington v. Richter, 562 U.S. 86, 102, 131 S. Ct.
770, 178 L. Ed. 2d 624 (2011).
A. Claim 65
Berryman alleges that he was denied his Sixth Amendment right to counsel at the penalty phase because his
lawyers failed to present additional evidence of his family history and social background. The California Supreme

Page 7 of 11
Berryman v. Wong

Court held that Berryman failed to show that he was prejudiced by any deficiency in his counsel's performance. The
state court concluded that Berryman did not "establish ineffective assistance in defense counsel's asserted failure
to further investigate his background and character . . . . He [did] not demonstrate that such further investigatory
efforts would have yielded favorable results. Hence, he cannot demonstrate that their omission [**13] adversely
affected the outcome within a reasonable probability." Berryman, 864 P.2d at 78.
Fair-minded jurists could conclude that the California Supreme Court's application of Strickland was correct. Nearly
all of the "new" evidence that Berryman argues the jury should have heard was not new at all. The rest of the
evidence, a fair-minded jurist could conclude, would not have been sufficient to make a different result reasonably
probable.
We begin with a discussion of the "new" evidence that was cumulative of evidence the jury previously heard. First,
Berryman argues that his lawyers should have presented evidence that Berryman's mother "showed him little love
and affection during his early formative years." But during the penalty phase the jury heard evidence concerning the
emotional deficits in Berryman's relationship with his mother. Witnesses testified that his mother was largely absent,
that her children did not get "the attention that [they] should have," and that Berryman was left with "a hole in the
bucket around mothering and nurturance" that continued to affect his relationship with women in adulthood.
Second, Berryman maintains that his lawyers should have presented evidence concerning his turbulent [**14]
childhood. But the jury heard that Berryman's family moved often; that his father drank heavily; [*1228] that
Berryman developed problems with alcohol; and that he was devastated by his father's death and, for some period
of time, refused to accept that his father had died.
Third, Berryman faults his lawyers for not presenting evidence that his father beat his mother in front of him and his
siblings, including an incident in which his mother escaped by running into the street and was nearly hit by a car.
Although Berryman's mother did not provide the specifics of any particular incident, she did testify during the
penalty phase that Berryman's father was violent toward her.
Finally, Berryman contends that his lawyers should have introduced evidence that he did poorly in school, was
frequently placed in special education classes, and in the third grade had an IQ score of 75, which is in the
borderline intellectually disabled range. But the jury heard repeatedly during trial that Berryman had a learning
disability and intellectual deficiencies, and that he did poorly in school and was placed in specialized classes.
Berryman's habeas petition does offer some new evidence that was not presented at [**15] trial. The jury did not
hear that he was born prematurely, that he spent the first month of his life in an incubator, or that his father was a
1
womanizer. This new evidence, we will assume, should have been discovered and presented to the jury. And we
will assume that Berryman's lawyers should have presented some of the additional details not fully captured above,
such as the details concerning his low IQ score and his father's abuse of his mother. Nonetheless, even if this
evidence had been presented to the jury, it would not have significantly altered the character of the evidence
supporting mitigation. Reasonable jurists could therefore conclude that admission of this evidence would not have
led to a reasonable probability of a different sentence. See Cullen v. Pinholster, 563 U.S. 170, 200-02, 131 S. Ct.
1388, 179 L. Ed. 2d 557 (2011) (affirming a state court's finding of no prejudice notwithstanding new mitigation
evidence of roughly the same strength as that presented here).
B. Claims 15 and 16
Berryman requests that we expand the COA to encompass Claims 15 and 16. Claim 15 alleges that Berryman's
trial lawyers were ineffective in failing to present expert psychological and psychiatric testimony at the guilt phase to
1

Berryman also presents affidavits from his mother and sister, both of whom state that he told them after his arrest that he was
molested by two of his uncles when he was about eight years old. This evidence, however, is inadmissible hearsay. SeeFed. R. Evid.
801(c), 802-805. The district court therefore did not consider it, and neither do we. SeeFed. R. Evid. 1101(a)-(b).

Page 8 of 11
Berryman v. Wong

support his argument that the killing was [**16] not premeditated or intentional. Claim 16 alleges that his trial
lawyers were further ineffective in failing to seek out and develop social history evidence and additional expert
testimony to establish Berryman's brain disease and mental state for use at the guilt phase. We conclude that
"jurists of reason could disagree" with the district court's denial of these claims, and therefore expand the COA to
cover them. Miller-El v. Cockrell, 537 U.S. 322, 327, 123 S. Ct. 1029, 154 L. Ed. 2d 931 (2003); see28 U.S.C. §
2253(c)(2). Ultimately, though, we agree with the district court that the claims must be denied.
In rejecting these closely related claims, the California Supreme Court concluded:
Neither does defendant establish ineffective assistance in defense counsel's asserted failure to investigate his
mental [*1229] state at the time of the crime or to introduce evidence thereon. Here as well, he does not
demonstrate that the investigation would have yielded favorable results and hence cannot demonstrate that its
omission adversely affected the outcome within a reasonable probability.
Berryman, 864 P.2d at 61 (footnote omitted). In other words, the state court determined that Berryman was not
prejudiced by counsel's failure to seek out or present mens rea evidence at the guilt phase. That decision was
reasonable.
Berryman [**17] argues that his lawyers should have presented expert testimony supporting the theory that,
although he killed Hildreth, he did so without premeditating or forming the specific intent to kill. In support, he points
to Dr. Pierce's and Dr. Benson's testimony at the penalty phase, in which they offered their diagnosis of possible
organic brain syndrome, as well as both doctors' affidavits on state habeas review, in which they stated that they told
Soria their findings could be helpful at the guilt phase of trial.
Trial counsel's failure to present this evidence could have prejudiced Berryman only if the argument it supported
had the potential to sway a jury. But presenting this evidence during the guilt phase would have required admitting to
the jury that Berryman was present at the scene, had sex with Hildreth, and delivered the fatal cut to her neck. And
because the expert testimony was that it would have been impossible for Berryman to have had sex during a
seizure, his counsel would have been forced to argue that he and Hildreth engaged in consensual sex and that he
had the seizure only afterward. It is reasonable to assume that this argument would likely have been greeted with
extreme [**18] skepticism. The fact that Hildreth was found left on a dirt road with her clothes in disarray and a shoe
imprint on her face would have made it seem frivolous to argue that her killing had occurred during a seizure, or was
otherwise the product of unintentional conduct. The evidence was inconsistent with the shoeprint on her face being
inflicted in a momentary outburst or by accident. Berryman, 864 P.2d at 49 (estimating the mark took "more than
2
one minute and perhaps as long as three to five" to make).
The difficulty of persuading a jury of this theory would have been compounded by the lack of any case-specific
evidence in support of it. Although his experts could have opined that it was possible for Berryman to have had a
seizure and a fit of violence after consensual sex, Berryman does not suggest that he would have taken the stand
to testify that that is what happened. Nor is there any physical evidence to back up the account. Berryman argues
that "the absence of vaginal trauma and the victim's shoe being off established there was no rape, (i.e., the assault
occurred after consensual intercourse, the disarranged clothing being equally consistent with hurried voluntary
sexual interaction as with rape)." [**19] But the absence of vaginal trauma "establishes" nothing of the kind,
especially considering that Hildreth had pelvic abrasions and a knife wound in her neck, suggesting that the knife
may have been held to her throat. Whether or not the state of her shoes and clothing was "equally consistent" with
rape and consensual sex, it did nothing to support the theory that Berryman killed her unintentionally or without
premeditation.

2

The fact that Soria briefly posited the possibility of an unintentional killing as an alternative argument did not mean that he should
have pursued it more vigorously.

Page 9 of 11
Berryman v. Wong

By adopting this far-fetched theory, Berryman's lawyers would have lost the [*1230] ability to argue the more
straightforward theory that the police had arrested the wrong person. The circumstantial evidence tying Berryman to
the scene was not insurmountable. The strongest piece of evidence was the drop of blood on Berryman's shoe,
consistent with only 1 in 1,470 unrelated African-Americans. Berryman, 864 P.2d at 49. But Berryman had a ready
reply: The blood could have come from any of Hildreth's relatives, with whom he frequently had contact. As for the
fingerprint in his truck, his lawyers also had a response prepared: Even though Hildreth had never ridden in his
truck, she still could have left a print by leaning against the car while talking. The straightforward innocence
argument that Berryman's [**20] lawyers pursued was not a lost cause.
The California Supreme Court reasonably concluded that a mens rea defense theory would not have been
reasonably probable to persuade the jury to acquit. See28 U.S.C. § 2254(d)(1). Even if we assume that counsel
rendered deficient performance in failing to conduct further investigation, it was eminently reasonable for the court to
conclude that Berryman failed to show that the omission of this argument adversely affected the outcome, as
counsel was more likely to succeed in arguing that Berryman had not killed Hildreth at all.
C. Claims 63 and 64
Berryman also requests that we expand the COA to encompass Claims 63 and 64, which together assert that his
lawyer was ineffective at both the guilt and penalty phases for failing to obtain the trial court's transport order and
funding authorization for the EEG tests and PET scan. Berryman argues the tests "were necessary to support the
defense experts' conclusion" that he had brain damage, including a possible seizure disorder. We again conclude
that "jurists of reason could disagree" with the district court's denial of these claims, and therefore expand the COA
to encompass them. Miller-El, 537 U.S. at 327; 28 U.S.C. § 2253(c)(2).
In denying relief as to Claims 63 and 64, [**21] the California Supreme Court stated as follows:
[D]efendant does not establish ineffective assistance in defense counsel's asserted failure to pursue
neurological testing to determine whether and to what extent he suffered from an organic mental syndrome or
disorder. He does not demonstrate that such testing would have yielded favorable results. Hence, he cannot
demonstrate that its omission adversely affected the outcome within a reasonable probability.
Berryman, 864 P.2d at 78. As Berryman reads this decision, the California Supreme Court denied his claim
because he could not show what the results of the various tests would have been. And because the state court had
denied his requests for funding to have those tests performed, he argues that he was left in an "unreasonable catch22," penalized for not knowing what the state court would not let him find out.
Although we agree with Berryman that a ruling on the circular ground he describes would have been unfair, the
state court's use of the words "favorable results" is best understood more broadly. In the guilt-phase context, we
read the California Supreme Court's reference to "favorable results" to mean test results that could help convince a
juror to acquit. [**22] HN3[ ] And in the penalty-phase context, we read "favorable results" to mean test results that
could help convince a juror to vote for life—that is, results whose absence could have "affected [*1231] the
outcome within a reasonable probability." Id.
The California Supreme Court's conclusion that the tests lacked the capacity to produce results that might have
moved a juror to vote to acquit (or to vote for life in prison) was reasonable. See28 U.S.C. § 2254(d)(1). Berryman
had been convicted of the rape and murder of a teenage girl. In the best-case scenario, the tests his experts wanted
to conduct would have confirmed their diagnosis that he had brain damage. (The jury did hear Berryman's experts
opine that he suffered from organic brain disease.) This argument hinges on Berryman's assumption that the tests
could have confirmed that he had a seizure disorder, and that those seizures could have caused him to become
violent. Even assuming the efficacy and admissibility of the testing, the tests were not capable of showing that
Berryman had actually experienced seizures at any time in the past, much less that he was having a seizure when

Page 10 of 11
Berryman v. Wong

he killed Florence Hildreth. See Pizzuto v. Arave, 280 F.3d 949, 964 (9th Cir. 2002), as amended, 385 F.3d 1247
(9th Cir. 2004).
What's more, as Dr. Benson acknowledged, [**23] it would not have been possible for Berryman to commit rape if
he were having a seizure. This theory therefore would have required a jury to believe that Berryman first engaged in
sex with Hildreth and then had a seizure that caused him to lose control and kill her. The evidence showed,
however, that she was killed by a relatively shallow cut, not by "thrashing out" or other especially violent activity that
Dr. Benson described as possible in the course of a seizure. Berryman, 864 P.2d at 49. As discussed above with
respect to Claims 15 and 16, Berryman's lawyers would likely have had great difficulty persuading the jury to accept
this version of events, no matter what the test results showed. It was reasonable for the California Supreme Court to
conclude that Berryman suffered no prejudice from his defense counsel's failure to seek out these tests and press
this argument, either at the guilt phase or during the penalty phase.
As for the argument that obtaining conclusive proof of Berryman's alleged brain injuries might have persuaded the
jury to show Berryman more leniency in sentencing, Berryman's lawyers would have faced similar challenges. The
fact remains that neither Berryman nor anyone else reported [**24] that he had ever suffered a seizure, a blackout,
or disorientation. And while brain damage could have manifested itself in other ways, the jury was already well
acquainted with Berryman's trouble in school, alcohol abuse, head trauma, and other difficulties. Jurors knew that
he had areas of relative strength: He had married, held jobs, and had a year-long period of stability in which he
functioned as a good father, good husband, and dedicated member of his church. The state court reasonably
concluded that, even if testing could have made the expert diagnoses invulnerable to attack by the prosecution, the
fact of brain damage without further evidence of actual manifestations or identifiable impact on Berryman's life was
not reasonably likely to have made a difference in the jury's sentence.
Claims 63 and 64 are further undermined by the neurological testing that Berryman eventually obtained in 2001. In
the course of his federal habeas proceeding, the district court granted permission for Berryman to receive the
specialized neurological testing that Drs. Pierce and Benson requested. The 2001 test results confirm our conclusion
that the California Supreme Court did not unreasonably determine [**25] that Berryman was not prejudiced by the
omission of these tests at trial. [*1232] First, it is unclear whether the test results would have been admissible
under the thenprevailing standard for scientific evidence. In its opposition to the request for this testing in the district
court, the government strenuously argued that the tests were not generally accepted in the scientific community for
the purposes that Berryman's experts advocated. The government argued the tests should not be performed for
that reason. In its order denying Berryman's habeas petition, the district court acknowledged the controversy
regarding the admissibility of the tests and did not decide whether the test results would have met the standard for
admissibility.
Second, even if the neurological test results would have been admissible, Berryman cannot establish a reasonable
probability that they would have changed the outcome. Berryman's experts stated that the test results reinforced
their penalty-phase testimony that Berryman had an organic brain disorder, but the state's experts strongly
disagreed with their interpretation. Dr. Waxman stated that the PET scan results did not indicate temporal lobe
epilepsy and went [**26] on to suggest that Berryman's expert had presented an interpretation designed to
"mislead the reader." Dr. Nuwer stated that the EEG tests indicated "normal EEG brainwaves as seen in someone
who is intoxicated and drowsy." The disputed results from these neurological tests reinforce our conclusion that
Berryman was not prejudiced by his counsel's failure to authorize these tests during the guilt or penalty phase.
***
We therefore affirm the district court's denial of Berryman's habeas petition as to each of his claims. Berryman's
requests for judicial notice (Dkt. Nos. 190, 256) are GRANTED.
AFFIRMED.

Page 11 of 11
Berryman v. Wong

End of Document

Case: 10-99004, 08/20/2020, ID: 11796206, DktEntry: 363, Page 1 of 1

FILED

UNITED STATES COURT OF APPEALS

AUG 20 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

RODNEY BERRYMAN, Sr.,
Petitioner-Appellant,
v.
ROBERT K. WONG,

No.

10-99004

D.C. No. 1:95-cv-05309-AWI
Eastern District of California,
Fresno
ORDER

Respondent-Appellee.
Before: McKEOWN, CHRISTEN, and WATFORD, Circuit Judges.
The panel unanimously votes to deny the petition for panel rehearing and the
petition for rehearing en banc. The full court has been advised of the petition for
rehearing en banc, and no judge requested a vote on whether to rehear the matter
en banc. Fed. R. App. P. 35. The petition for panel rehearing and rehearing en
banc, filed July 8, 2020, is DENIED.

Page 1
2007 U.S. Dist. LEXIS 51738, *

RODNEY BERRYMAN, Sr., Petitioner, vs. Robert L. Ayers, Jr. as
Warden of San Quentin State Prison, * Respondent.
* Robert L. Ayers, Jr. is substituted for his predecessor, Jill Brown,
as Warden of San Quentin State Prison under Federal Rule of Civil
Procedure 25(d).
Case No. 1:95-CV-05309-AWI
UNITED STATES DISTRICT COURT FOR THE EASTERN
DISTRICT OF CALIFORNIA
2007 U.S. Dist. LEXIS 51738

July 10, 2007, Decided
PRIOR HISTORY: [*1]
People v. Superior Court (Berryman), 83 Cal. App. 4th 308, 99 Cal. Rptr. 2d 822, 2000 Cal. App.
LEXIS 677 (Cal. App. 5th Dist., 2000)

COUNSEL: For Rodney Berryman, Petitioner: Charles M. Bonneau, Jr., LEAD ATTORNEY, Law
Office of Charles M. Bonneau, Jr., Sacramento, CA.; Jessie Morris, LEAD ATTORNEY, Law
Offices of Jessie Morris, Jr., Sacramento, CA.; Joseph Schlesinger, LEAD ATTORNEY, Federal
Public Defender, Sacramento, CA.
For Jill L Brown, Warden of San Quentin State Prison, Respondent: Brian Roy Means, LEAD
ATTORNEY, California Department of Justice, Office of the Atty. Gen., Sacramento, CA.; Ward
Allen Campbell, California Department of Justice, Sacramento, CA.
For Eddie Ylst, Respondent: Brian Roy Means, LEAD ATTORNEY, California Department of
Justice, Office of the Atty. Gen., Sacramento, CA.; Margaret Garnand Venturi, William George
Prahl, LEAD ATTORNEYS, Attorney General's Office for the State of California, Sacramento,
CA.
For Robert L. Ayers, Jr., Respondent: Brian Roy Means, LEAD ATTORNEY, California
Department of Justice, Office of the Atty. Gen., Sacramento, CA.
JUDGES: Anthony W. Ishii, United States District Judge.
OPINION BY: Anthony W. Ishii
OPINION

Page 2
2007 U.S. Dist. LEXIS 51738, *

DEATH PENALTY CASE
MEMORANDUM DECISION AND ORDER DENYING PETITIONER'S [*2] REQUEST
FOR EVIDENTIARY HEARING AND DENYING PETITION ON THE MERITS
Table of Contents
I. Introduction.
A. Overview of the Case.
B. Overview of the Analysis.
II. Procedural History.
III. Summary of the State Trial Proceedings
A. Evidence Presented During Guilt Phase Proceedings and Jury
Deliberations.
B. Evidence Presented During Penalty Phase Proceedings and Jury
Deliberations.
C. Post-Verdict, Sentencing Proceedings.
IV. Standards of Review.
A. Applicable Standard for Reviewing State Court Denials Involving
the Application of Federal Law
B. Standard for Determining Presumption of Correctness of State
Court Rulings on Factual Issues
C. Applicable Standard for Granting an Evidentiary Hearing.
V. Berryman's Assertion He Was Denied Constitutionally Effective
Counsel on Account of the State Courts' Treatment of his Marsden
Motions (Claims 1, 2, and 3).
A. Statement of the Facts Relevant to the Marsden Claims.
B. Berryman's Contentions.
C. Analysis
1. Adequacy of the State Trial Court Hearings.
2. Grounds for Appointing Independent Counsel.
3. The Presence of an Actual Conflict of Interest.
4. Resulting Prejudice from the Alleged Inadequate
Representation of Counsel.
VI. Berryman's Assertion He Was Incompetent to Proceed to Trial and
Incompetent to have Waived His Rights Under Miranda v. Arizona (Claims
4, 5, 27, and 28).
A. Statement of the Facts Relevant to Berryman's Competence
1. Berryman's Mental Status
2. Berryman's Excessive Alcohol Consumption.
3. Evidence of and Relating to Berryman's September 7, 1987
Interview with Investigators.
B. Berryman's Contentions.
C. Analysis
VII. Berryman's Assertion He Was Denied a Fair Trial Due to the
Prosecutor's Status as an Elected Judge at the Time of Trial (Claims
7, 8, 9, 10, and 23).
A. Statement of the Facts Relevant to Mr. Moench's Status as an
Elected Judge
B. Berryman's Contentions.
C. Analysis
VIII. Berryman's Challenge to the Fair Cross Section of the Jury
(Claims 20 and 21).
A. Berryman's Presentation of the Claims
B. Analysis
IX. Berryman's Challenge to the Death Qualification of the Jury (Claim
22).
A. Statement of the Facts Relevant to the Death Qualification

Page 3
2007 U.S. Dist. LEXIS 51738, *
Process.
1. Questionnaire Inquiries
2. Death Qualification Voir Dire
a. Juror Billy Joe Honaker.
b. Juror LaVeta Morris.
c. Juror Mary Donovan Radman
d. Juror Helen Valdez.
e. Juror Steven Ray Greenwood.
f. Juror David Armendariz.
g. Juror Kimberly Kay Arnold.
h. Juror Jymme Lyn Ahl.
i. Juror Virginia Mae Douglas.
j. Juror Gene Henry Bibb.
k. Juror Michael A. Carr.
l. Juror Margaret Anne Shea.
B. Berrryman's Contentions.
C. Analysis
X. Berryman's Challenge to Juror David Armendariz (Claims 24 and 25)
A. Statement of the Facts Relevant to Juror Armendariz's Jury
Service
1. Trial Proceedings of Juror Armendariz's Revelation.
2. Declaration of David Armendariz, Executed February 4, 2001.
B. Berryman's Contentions.
C. Analysis
XI. Berryman's Assertion the State Interfered with his Communications
with his Attorneys (Claim 17)
A. Statement of Facts Relevant to the Interference with
Communications Claim.
B. Berryman's Contentions.
C. Analysis
XII. Berryman's Assertion that His Attorneys' Were Constitutionally
Incompetent for Failure to Present a Mental Defense at Guilt Phase
Proceedings (Claims 15 and 16).
A. Statement of the Facts Relevant to a Potential Mental State
Defense.
1. Evidence of Excessive Alcohol Consumption.
2. Evidence of Voluntary Intercourse.
3. Mental State Evidence Developed by Berryman.
a. Trial Testimony of Drs. Pierce and Benson.
b. Mental State Declarations Appended to the First State Habeas
Petition.
c. Mental State Declarations of Drs. Pierce, Benson, Guisado,
and Wu Developed in Federal Proceedings.
d. Social History Prepared by Gretchen White, Ph.D., dated
September 17, 2001
4. Strickland Expert Testimony.
5. Mr. Soria's Explanation for his Failure to Develop Mental
State Evidence at Guilt Proceedings.
6. Counter-Evidence Developed by the Warden
a. Declaration of Marc R. Nuwer, Executed May 10, 2002.
b. Reports of Alan Waxman, Dated May 14, 2002.
B. Berryman's Contentions.
C. Analysis
1. Overall Comments.
2. The Performance Prong.
3. The Prejudice Prong.
XIII. Berryman's Assertion that His Attorneys' Were Constitutionally

Page 4
2007 U.S. Dist. LEXIS 51738, *
Incompetent for Failure to Adequately Review and Develop Forensic Tire
Track Evidence (Claim 30)
A. Statement of the Facts Relevant to the Defense Criminalist
B. Berryman's Contentions.
C. Analysis
XIV. Berryman's Assertion of Trial Error for the Trial Court's
Overruling Defense Objection to Questions Concerning Compensation Paid
to Defense Forensic Expert (Claim 31).
A. Statement of Facts Relevant to Evidence of Defense Expert
Compensation.
B. Berryman's Contentions.
C. Analysis.
XV. Berryman's Challenges to Sufficiency of the Evidence of Criminal
Liability for Murder (Claims 32 and 33).
A. Statement of Facts Relevant to Berryman's Criminal Liability
for Murder.
B. Berryman's Contentions.
C. Analysis.
XVI. Berryman's Challenge to the Validity of the Special Circumstance
Finding Due to Omission of the Intent to Kill Requirement (Claims 34,
42, and 43).
A. Statement of the Facts and State of the Law Relevant to the
Intent to Kill Requirement.
B. Berryman's Contentions.
C. Analysis.
XVII. Berryman's Challenge to his First Degree Murder Conviction Due
Errors Regarding the Order of Deliberations (Claims 37 and 49)
A. Statement of the Facts Relevant to Instructions on the Order of
Deliberations.
B. Berryman's Contentions.
C. Analysis.
XVIII. Berryman's Challenges to Lesser Included Offense Jury
Instructions (Claims 39, 40, 41, 44, 45, 46, 47,48, and 51).
A. Statement of the Facts Relevant to Lesser Included Offense
Instructions.
B. Berryman's Contentions.
C. Analysis.
XIX. Berryman's Challenges to the Rape Conviction and Rape Murder
Special Circumstance Finding (Claims 12, 29, 35, 50, 71, and 71A).
A. Statement of the Facts Relevant to the Rape Conviction and Rape
Murder Special Circumstance Finding.
1. Relevant Trial Proceedings and Testimony.
2. Evidence Developed in Post-Conviction Proceedings.
a. Declaration of Charles J. Soria, Executed August 20, 2001.
b. Declaration of John E. Holloway, M.D., Executed July 25,
2001.
c. Declaration of Silvia O. Comparini, M.D., Executed October
10, 2001.
d. Declaration of David Armendariz, Executed February 4, 2001.
e. Declaration of Jesse Morris, Jr., Executed October 2, 2001.
B. Berryman's Contentions.
C. Analysis.
XX. Miscellaneous Guilt Phase Challenge of Prosecutorial Misconduct
(Claim 26).
A. Statement of the Facts Relevant to Miscellaneous Prosecutorial
Misconduct Challenges.
B. Berryman's Contentions.

Page 5
2007 U.S. Dist. LEXIS 51738, *
C. Analysis
XXI. Miscellaneous Guilt Phase Challenges of Ineffective Assistance of
Trial Counsel (Claims 18, 19, and 52).
A. Statement of the Facts Relevant to Berryman's Miscellaneous
Claims of Ineffective Trial Counsel.
B. Berryman's Contentions.
C. Analysis.
XXII. Berryman's Challenge to the Handling of the Berryman Family
Member Outburst (Claims 73 and 74).
A. Statement of the Facts Relevant to Family Outburst Claims.
B. Berryman's Contentions.
C. Analysis.
XXIII. Berryman's Challenge to the Lack of Notice on Penalty
Aggravating Evidence (Claims 13 and 14).
A. Statement of the Facts Relevant to the Lack of Notice on
Penalty Aggravating Evidence.
1. Selling Narcotics to School Children.
2. Extra-Marital Relations.
B. Berryman's Contentions.
C. Analysis.
XXIV. Berryman's Challenge to Evidence and Argument that He Stood on
the Victim's Face for Three to Five Minutes (Claims 29 and 75).
A. Statement of the Facts Relevant to Berryman's Challenge to
Evidence and Argument He Stood on the Victim's Face for Three to Five
Minutes
B. Berryman's Contentions.
C. Analysis.
XXV. Berryman's Challenge to Constitutionally Inadequate Investigation
Efforts and Resulting Failure to Develop Mitigating Evidence at
Penalty Proceedings (Claims 6, 63, 64, 65, 69, and 70).
A. Statement of the Facts Relevant to Investigator Inadequacies.
1. Qualifications of the Investigative Staff.
2. Efforts Undertaken to Have Berryman Tested for Neurological
Problems.
3. Mitigation Evidence Not Uncovered.
a. Pertinent Records Not Uncovered.
b. Declarations Of Berryman's Mother, Lestine Bonty.
c. Declaration of Ronnique Berryman Appended to Berryman's First
State Habeas Petition, executed August 26, 1993.
d. Other Family and Friend Declarations.
(1) Disbelief Regarding the Charges Against Berryman.
(2) Church Related Activities.
(3) Lack of Gang Affiliation.
(4) Childhood Neglect and Other Stressors.
(5) Pre-Marital Living Arrangements.
(6) Industrial Accident.
(7) Severe Headaches.
(8) Academics
(9) Employment.
(10) Relationship with Son
(11) Alcohol Consumption
(12) Mild Manner and Good Character.
e. Report From Counsel Regarding Great-Grandmother Thelma
Mitchell.
4. Appellate Counsel Mr. Posner's Opinion Regarding
Investigation Efforts.
B. Berryman's Contentions.

Page 6
2007 U.S. Dist. LEXIS 51738, *
C. Analysis
XXVI. Berryman's Assertion of Ineffective Assistance of Counsel for
Failure to Obtain a Social History of Berryman (Claim 59).
A. Statement of the Facts Relevant to the Obtaining a Social
History.
B. Berryman's Contentions.
C. Analysis
XXVII. Berryman's Challenges Arising from Miscellaneous Instances of
Alleged Prosecutorial Misconduct During Summation (Claims 76, 79, and
80).
A. Statement of the Facts Relevant to Miscellaneous Instances of
Prosecutorial Misconduct.
B. Berryman's Contentions.
C. Analysis.
XXVIII. Berryman's Challenge to Improper Cross Examination Suggesting
Berryman Subjected the Victim to Involuntary Oral Copulation (Claims
53 and 54).
A. Statement of the Facts Relevant to the Involuntary Oral
Copulation Suggestion
B. Berryman's Contentions.
C. Analysis.
XXIX. Berryman's Challenges Arising from Defense Misstatement About
the Burden of Proof (Claims 80 and 91).
A. Statement of the Facts Relevant to Defense Misstatements.
B. Berryman's Contentions.
C. Analysis.
XXX. Berryman's Challenges Arising From Evidence and Instructions
Concerning his Prior Convictions (Claims 56, 60, 62, 88, 89, 90 and
93).
A. Statement of the Facts Relevant to Berryman's Prior Convictions
B. Berryman's Contentions.
C. Analysis.
XXXI. Berryman's Challenges Arising from Miscellaneous Instructional
Errors During Penalty Proceedings. (Claims 81, 82, 83, 84, 85, 86, 87,
92, 93, and 94).
A. Double Counting of the Rape Conviction (Claim 81).
B. Failure to Adequately Instruct that Pity and Sympathy Could Be
Considered (Claims 82 and 93).
C. Instructions Implying A Single Mitigating Factor Could Not
Outweigh All Aggravating Factors (Claims 83 and 93)
D. Refusal of Instruction that Aggravating Evidence Was Limited to
the Statutory Factors (Claims 84 and 93).
E. Double Counting of the Murder Conviction (Claims 85 and 93).
F. Refusal of Instruction That Less Than Extreme Mental or
Emotional Disturbance Was Mitigating (Claims 86 and 93).
G. Refusal of Instruction Permitting Jurors to Consider Lingering
Doubt (Claims 87 and 93).
H. Failure to Request Deletion of Inapplicable Sentencing Factors
(Claims 92 and 93).
I. Failure to Request an Instruction that Defendant's Failure to
Testify Should Not Be Treated as an Aggravating Factor (Claim 94)
XXXII. Berryman's Assertion of Ineffective Assistance of Counsel for
Miscellaneous Short-Comings (Claims 58, 61, 66, 67, 68, and 72)
A. Statement of the Facts Relevant to Miscellaneous Attorney Short
Comings.
B. Berryman's Contentions.
C. Analysis.

Page 7
2007 U.S. Dist. LEXIS 51738, *
XXXIII. Berryman's Challenges Arising from the Automatic Modification
Hearing (Claims 95 and 96).
A. Statement of the Facts Relevant to the Automatic Modification
Hearing Challenges.
B. Berryman's Contentions.
C. Analysis.
XXXIV. Berryman's Assertion the Death Penalty Charged Against Him Was
Racially Motivated (Claim 11).
A. Berryman's Presentation of the Claim.
B. Analysis.
XXXV. Berryman's Challenges to the California Death Penalty Statute
(Claims 97, 98, and 100).
A. Berryman's Presentation of the Claims
B. Analysis.
XXXVI. Berryman's Assertion He Was Denied Meaningful Review on Direct
Appeal and State Habeas (Claims 99 and 101).
A. Berryman's Presentation of the Claims.
B. Analysis.
XXXVII. Order.

I. [*3] Introduction.
This matter is before the Court on the request of Petitioner Rodney Berryman, Sr. ("Berryman")
for an evidentiary hearing as to Claims 2, 8, 12, 13,14, 15, 18, 19, 24, 29, 37, 40, 46, 54, 56, 59, 60,
61, 63, 65, 66, 68, 69, 71A, 72, 75, 79, and 91. Respondent Robert L. Ayers, Jr. as Warden of San
Quentin State Prison (the "Warden") opposes the request. In addition to briefs submitted regarding
the evidentiary hearing request, the Court has before it the previously submitted briefs in support of
and opposition to each of Berryman's claims for relief. All claims and defenses are at issue and
properly before the Court for merits resolution.
A. Overview of the Case.
Berryman's present theory of the case, as presented in the briefing filed on his behalf by his
attorneys, is that the victim in this case, 17 year old Florence Hildreth, had voluntary intercourse
with Berryman prior to her death. According to this version, the intercourse was followed by a
verbal altercation which escalated into a violent confrontation and resulted in a shallow stab wound
to Ms. Hildreth's neck. Berryman argues that if his trial counsel adequately had presented this
theory, the jury would have acquitted [*4] him on the rape charge and returned a verdict of
manslaughter on the homicide. In contrast, Berryman alleges that the strategy utilized at trial, total
denial of responsibility, 1 was a sure loser, especially in light of forensic evidence connecting
Berryman to the crime.
1 The defense contesting Berryman's identity as the perpetrator of the crime was advanced
in the alternative. Trial counsel also attempted to raise a reasonable doubt due to
inconsistencies in the evidence and that if Berryman was responsible for the Ms. Hildreth's
death, he committed something less than first degree premeditated murder.
Berryman's alternative theory, the one that he advances in pro se documents transmitted to the
California Supreme Court, is that he did not commit any offense respecting the victim and that he
was, in fact, not present at the scene of her death, at all. Rather, he claims his conviction followed
the admission of circumstantial and planted evidence by the prosecution and he complains that his
trial attorneys (as well as his present habeas counsel) failed to subject this admitted evidence to

Page 8
2007 U.S. Dist. LEXIS 51738, *

appropriate testing. The fact of Berryman's pro se profession of total innocence and perception [*5]
that the various governmental agencies connected with his case (including government appointed
defense counsel) have conspired to secure and uphold his death sentence is further evidence,
according to his present counsel, of his mental illness. 2
2 None of Berryman's retained mental health experts have addressed this point.
B. Overview of the Analysis.
Each of the claims in the Petition, both those for which an evidentiary hearing is requested and
those Berryman concedes can be decided without an evidentiary hearing are addressed in
conjunction with one another. The claims are presented by subject matter rather than as numbered
in the Petition. With the exception of Claim 18, all requests for further evidentiary development are
denied. 3 Further, again with the exception of Claim 18, all claims presented in the Petition are
denied on the merits in this Memorandum Order.
3 With respect to Claim 18, the Court is directing Berryman to conduct further investigation
and/ or discovery to make an offer of proof as to the somnolence of one of his attorneys. Final
resolution of the claim will be reserved until Berryman presents his offer. See Part XXI.,
supra.
Because habeas relief is not being granted [*6] by this order, the Court completely eliminates
any discussion about procedural default. The "independent and adequate state ground" or
procedural default doctrine is not technically jurisdictional, but is "based on equitable
considerations of federalism and comity." Lambrix v. Singletary, 520 U.S. 518, 523, 117 S. Ct.
1517, 137 L. Ed. 2d 771 (1997). Since relief is not being granted, principles of federalism and
comity are not offended by this Court's decision to reach the merits of the claims. Moreover,
established precedent in this circuit dictates that a Court's decision with respect to evaluating
procedural default is to be informed by furthering the interests of "judicial efficiency" in addition to
the interests of federalism and comity. Boyd v. Thompson, 147 F.3d 1124, 1127 (9th Cir. 1998).
Thus, if deciding the merits of a claim proves to be less complicated and less time consuming than
adjudicating the issue of procedural default, a court may exercise discretion to follow this course of
action in its management of the case. Batchelor v. Cupp, 693 F.2d 859, 864 (9th Cir. 1982), quoted
by Boyd, 147 F.3d at 1127. In light of the complex system for determining procedural default [*7]
under present habeas jurisprudence, the Court opts for the more judicially efficient merits analysis.
The Court specifically declines to engage in a protracted analysis of independent and adequate state
grounds and the excuses of cause and prejudice or fundamental miscarriage of justice.
The ensuing analysis some times includes and some times omits a summary of the arguments
and contentions advanced by the Warden. When the Warden's contentions are not included, this
signals that the Court finds Berryman's contentions plainly unsupportable. A summary of the
Warden's contentions are included when the Court finds the Warden's additional argument is
helpful to merits resolution.
II. Procedural History.
Berryman's state trial for the September 6, 1987 murder and rape of Ms. Hildreth commenced
on August 11, 1988. Born on December 29, 1965, Berryman was 21 years old at the time of the
murder. Following jury selection, the prosecution and defense opening statements together with the

Page 9
2007 U.S. Dist. LEXIS 51738, *

examination of witnesses commenced on September 26, 1988. The jury returned guilty verdicts as
to both felony counts on October 18, 1988, and penalty proceedings thereafter began on October 24,
1988. Penalty deliberations [*8] commenced on October 27, 1988 and were completed on October
28, 1988 with a death verdict. Berryman's motions for a new trial and to strike the special
circumstances were denied on November 28, 1988. The trial court sentenced him to death on
December 5, 1988.
Direct appeal proceedings were completed on December 27, 1993 with the issuance by the
California Supreme Court of an opinion affirming the conviction, special circumstance findings,
and sentence. People v. Berryman, 6 Cal. 4th 1048, 25 Cal. Rptr. 2d 867, 864 P.2d 40 (1993). On
the same day, the state high court also summarily denied Berryman's state petition for habeas
corpus, which he had filed September 3, 1993. 4
4 The entire text of the state habeas denial is: "Petition for writ of habeas corpus DENIED
on the merits."
This present federal action commenced on April 27, 1995 with a request for appointment of
counsel and a request for a stay of execution. After counsel were appointed, a petition was filed on
November 4, 1996. On July 30, 1997, the Court ordered Berryman to exhaust state remedies for
certain claims presented in the original federal petition. Berryman complied with this order by filing
an exhaustion petition with [*9] the California Supreme Court, his second state petition, on March
20, 1998. On April 29, 1998, the California Supreme Court denied Berryman's exhaustion petition. 5
Berryman filed his First Amended Petition in this Court on November 6, 1998 (the "Petition").
Accompanying the Petition were supporting points and authorities filed on the same day. The
Warden filed his Answer on February 22, 1999. Thereafter, the parties conferred about the
exhaustion status of the Petition and it was determined that portions of Claims 4 and 11 were
unexhausted. Berryman filed a subsequent state habeas petition on April 2, 1999, which was his
third state habeas petition, to exhaust these allegations. The California Supreme Court denied that
petition on April 21, 1999. 6 The Warden then filed an Amended Answer on May 26, 1999 and
points and authorities in opposition to the Petition on September 15, 1999. Berryman filed his
traverse on June 15, 2000. After conducting investigation and further testing, Berryman filed his
request for an evidentiary hearing on October 10, 2001. The Warden filed an opposition to the
request for an evidentiary hearing on May 17, 2002, and Berryman filed his reply brief on July
[*10] 29, 2002. The matter has stood submitted since that time.
5 The first sentence of the state court's April 29, 1998 order is: "The petition for writ of
habeas corpus is denied on the substantive ground that it is without merit." Various specified
claims additionally were dismissed on the procedural grounds that they were untimely,
previously rejected on appeal, and successive.
6 The first sentence of the April 21, 1999 state court's order is: "The petition for writ of
habeas corpus is denied on the merits." The claims in the petition also were denied on the
procedural grounds that they were untimely, pretermitted, and successive.
During the briefing for the evidentiary hearing request, Berryman filed a fourth state habeas
petition in pro per on October 25, 2001. By order filed May 1, 2002, the California Supreme Court
denied this pro per petition in its entirety on the merits, and with respect to four of the five claims
presented, on procedural grounds as well.
III. Summary of the State Trial Proceedings.

Page 10
2007 U.S. Dist. LEXIS 51738, *

The evidence of the state trial proceedings consists of guilt phase proceedings; penalty
proceedings; and post-verdict sentencing proceedings. 7
7 Additional evidence relevant to Berryman's [*11] numerous claims are recounted in
conjunction with the discussion of those claims.
A. Evidence Presented During Guilt Phase Proceedings and Jury Deliberations.
Kern County officials were notified on the morning of September 7, 1987, Labor Day, that the
body of a young woman had been found on an agricultural access road by a farm employee. The
only clue to the victim's identity was a mail box key found on a key ring (along with a house key) in
one of her pockets. Officers eventually located a mail box which was opened by the key. Thereafter
they contacted Ms. Hildreth's mother and confirmed the victim's identity as Florence Hildreth.
The cause of Ms. Hildreth's death was a shallow stab wound to the right side of her neck, from
which she bled to death, mostly internally. The pathologist, John E. Holloway, M.D., testified that
the knife wound was only 3/4 of an inch deep, but because Ms. Hildreth was so thin, the depth of
the wound was fatal. Dr. Holloway also noted that Ms. Hildreth sustained a blow to the left side of
the back of her head, abrasions on both sides of her neck, a mild blunt force injury to her chest
cavity, and more abrasions over both of her hips and pelvis. All of these [*12] injuries were
inflicted while Ms. Hildreth was still alive, but her blood pressure was dropping due to internal
bleeding. Although there was no evidence of trauma to the vaginal area, a vaginal swab taken from
the body during the autopsy revealed recent sexual activity. The vaginal swab specimen was
comprised of a small amount of blood consistent with Ms. Hildreth's blood, and a small amount of
semen, which was verifiable only by the presence of spermatozoa. Prosecution forensic testing
revealed that the semen was of an insufficient quantity to determine the identity of the donor.
At the crime scene, investigators documented and photographed the condition of the body and
surrounding area, noting distinctive tire tracks, shoe impressions, a gold colored chain link that
appeared to have been broken from a gold chain link necklace, circular impressions in the dirt, drag
marks in the dirt, impressions that appeared to have been made by the victim's buttocks and thighs,
and a hand print. Off to the side, away from her body was a discarded wine cooler bottle. Ms.
Hildreth was laying on her back with her lower garments pulled off her right leg completely but still
around her left ankle and [*13] blood soaked upper garments pulled above her breasts, a stab
wound in the right front neck region, abrasions on both sides of her neck, abrasions on her right
pelvis, dried reddish or brownish fluid staining on her abdomen, a dried deposit of fluid on her left
thigh, and a patterned abrasion on her face over her right cheek and jaw. 8 The deposit of fluid on
her left thigh was contiguous to the external genitalia. Dr. Holloway opined that Ms. Hildreth's
body, including her left thigh and abdomen were covered with dust from a struggle in the dirt and
then the fluid was deposited. Although Dr. Holloway did not test the fluid, it was tested by a
government laboratory, but the results were negative for blood or semen. Ms. Hildreth's legs were
separated and her arms were extended out to the sides of her body with her elbows bent over her
head suggesting she had been pinned down on the dirt. Dr. Holloway testified that due to her
slender build, the stab wound, which was very shallow, cut across her jugular veins and nicked her
carotid artery. Her survival time from this wound was only three to five minutes. Although Ms.
Hildreth was bare-foot, no bare foot prints were observed at the scene. [*14] One thong sandal was
found near the body, but there also were no tracks from that (nor from a matching sandal) at the
scene.

Page 11
2007 U.S. Dist. LEXIS 51738, *

8 Very little testimony described the appearance of the victim at the crime scene. Numerous
photographic exhibits of her appearance at the crime scene and at the autopsy were
introduced into evidence.
After authorities confirmed Ms. Hildreth's identity, they began questioning family members and
friends to determine her last contacts. This investigation revealed that Ms. Hildreth was last seen
about 10:45 p.m. on Sunday, September 6, 1987, visiting the home of one of her maternal aunts,
Brenda Clark. Ms. Hildreth had come to Mrs. Clark's house in order to use the telephone, but when
she arrived, she found the telephone was engaged by Mrs. Clark's daughter, Crystal Armendariz.
Ms. Hildreth's presence at the Clark residence was noted by Crystal Armendariz (who heard her
cousin's voice), by Nathaniel Jackson a maternal uncle, and by Andrew Bonner, another cousin (and
the younger brother of Crystal Armendariz). Mr. Jackson testified that he stayed at the Clark
residence until 12:35 a.m. the next morning, watching a movie that began at 11:00 p.m. Before he
departed from [*15] the Clark residence, Mr. Jackson roused his nephew Andrew from the couch
where he (Andrew) had been sleeping. He did not observe his niece, Crystal or Berryman at the
time he departed. Nor did he observe Berryman's pick up truck parked outside when he departed.
At that time, and for the preceding three weeks, Berryman had been staying at the Clark
residence as a guest and boyfriend of Ms. Armendariz. He shared sleeping quarters in a garage
converted into an apartment occupied by Ms. Armendariz's brother Andrew Bonner and their stepbrother Ricky Aubrey. Before residing at the Clark residence, Berryman had been living with his
young wife and infant son in Los Angeles County until July of 1987, in an apartment they rented.
Berryman's wife, Carol, and the couple's baby, Rodney, Jr. moved in with her parents the first few
days of August 1987. By that time, Berryman already was staying with friends, including
girlfriends, in Delano. 9 Although Berryman was recently separated from his wife and son, he
evidently established an abiding relationship with Ms. Armendariz. On the afternoon Florence
Hildreth was killed, Berryman and Ms. Armendariz had visited Bakersfield to look for an apartment
[*16] they apparently intended to share, along with Ms. Armendariz's eight-month old twins. 10
While in Bakersfield Berryman was drinking malt liquor. After returning to the Clark home at 8:30
p.m., Ms. Armendariz testified that Berryman stayed for about an hour and then left the house. 11
9 A hospital record appended to Berryman's first state habeas petition indicates that he
visited an emergency room in West Covina just before midnight on August 10, 1987. The
Court discerns from this that Berryman was traveling between eastern Los Angeles County
and Delano, at least until August.
10 In an initial statement to police investigators, Ms. Armendariz told officers that she and
Berryman left Delano to visit the apartment in Bakersfield between 5 and 5:30 p.m. and
returned at 9:30 p.m.
11 Testimony of other witnesses indicate that Ms. Armendariz's estimate of when she and
Berryman returned to the Clark residence and/or how long Berryman stayed at the Clark
residence was inaccurate. He apparently departed the Clark residence at or just before 9 p.m.
When Berryman departed from the Clark residence, he first went to the home of Donna Faye
Warner, who lived nearby to the Clark residence. Ms. Warner testified [*17] that he arrived at her
house about "ninish." He asked Ms. Warner if she wanted to go for a ride to a liquor store, but she
declined. He then proceeded to the home of Melinda Pena, also nearby, where he arrived at
approximately 9:20 p.m. After coming out of her house and getting into to his Mitsubishi pick up
truck, Berryman and Ms. Pena stopped at two liquor/ convenience stores to purchase alcohol and

Page 12
2007 U.S. Dist. LEXIS 51738, *

then rode out east of Delano to a nearby park where Lake Woollomes is located. They talked and
had sexual intercourse over a period of approximately 40 minutes. They then returned to Ms. Pena's
house, talked a bit more, and Berryman left.
While Berryman and Ms. Pena were at Lake Woollomes, Berryman's truck was observed by a
witness racing with another vehicle at about 10 p.m. This witness, David Castillo, had been at the
lake fishing with two brothers and a cousin. Mr. Castillo and his companions left the park (and
lake) at approximately 10:30 p.m. Mr. Castillo first dropped his cousin home, since he lived nearest
the lake on the east side of Delano. When he was on his way to take his brothers home, on the west
side of Delano, he again observed Berryman's Mitsubishi pick up truck at convenience [*18] store
on Cecil Avenue. Mr. Castillo's brother, Andrew Castillo, also testified. Although he testified first
that he and his companions (brothers and cousin) were out at the lake for two hours beginning at
9:30 p.m., on cross examination by the prosecutor, Deputy District Attorney Romero J. Moench, he
agreed with his brother, David, that he believed he saw Berryman's pick up truck at the convenience
store on west Cecil Avenue at approximately 11 p.m. Lorene Louis also testified that she saw
Berryman's truck parked along the shoulder of Cecil Avenue at about 11 p.m., 12 not far from the
convenience store at which he was observed by David and Andrew Castillo. Ms. Louis recognized
Berryman's truck because she had seen him racing his truck in the vicinity of her house with her
daughter's boyfriend earlier in the evening. 13
12 The dirt road where Ms. Hildreth's body was found was off Cecil Avenue. The location
Ms. Louis observed Berryman's pick up truck was near the crime scene.
13 Although none of the testimony is clear regarding time and sequences, it appears the
description of Berryman racing with the boyfriend of Ms. Louis's daughter referred to a time
before Berryman and Ms. Armendariz [*19] went apartment hunting in Bakersfield.
About an hour and a half after being observed on Cecil Avenue, Berryman returned to the Clark
home sometime around 12:30 a.m. early the next morning, but, apparently after Nathaniel Jackson
left the Clark residence at 12:35 a.m. Berryman first awakened Ms. Armendariz, visited with her for
a short time (in her bedroom), asked her to warm up some leftovers, and retired to the apartment
(converted from the garage) in the rear of the house. 14 She could smell alcohol on his breath, but did
not know if he was intoxicated. No one else was in the living room (particularly Nathaniel Jackson
or Andrew Bonner) when Ms. Armendariz and Berryman came out of her room to heat up the
leftovers. Berryman returned to the main house briefly to obtain a glass of water. Within another
half hour, Ms. Armendariz received a collect call from Edward Armendariz, the father of her infant
twins. 15 According to a telephone bill introduced into evidence, the time that telephone conversation
commenced was 1:24 a.m., slightly less than an hour after Berryman had returned to the Clark
home from his outing. Andrew Bonner testified that when Berryman returned to the garage
apartment, [*20] he could smell the alcohol on Berryman's breath.
14 The time of Berryman's return to the Clark home is sketchy. Ms. Armendariz testified
that after she and Berryman had been talking for a about a half hour, she went into the kitchen
to heat up some leftovers and noticed that the time was 35 minutes after the hour of either 11
p.m. or 12 midnight. Based on her testimony about the span of time between Berryman's final
departure for the garage apartment and her acceptance of a collect telephone call (see text),
the Court discerns that, if the kitchen clock was accurate, the time was 12:35 a.m. This
estimate conflicts with Nathaniel Jackson's testimony the least.

Page 13
2007 U.S. Dist. LEXIS 51738, *

15 Ms. Armendariz testified at the preliminary examination hearing that Edward
Armendariz was incarcerated at Folsom State Prison on this occasion.
The circular patterns in the dirt at the crime scene were said by prosecutor Mr. Moench, to have
indicated a struggle whereby Ms. Hildreth was trying to avoid Berryman's advances. This evidence
was emphasized in addition to the state of Ms. Hildreth's clothing (with the upper garments pulled
up to her shoulders and the lower garments down around her left ankle). The broken chain link and
[*21] the fact that three more broken chain links as well as a broken chain link necklace were found
in Berryman's pick up truck also were said to have indicated a struggle. The final evidence of a
struggle was the observation of a scratch below Berryman's right eye the day after Ms. Hildreth's
murder. Berryman's contention was that the scratch was inflicted on him during a game of pick up
basketball. He specifically asserted that one of Ms. Armendariz's young cousins, Brooks Riopelle,
caused the scratch, a fact which Brooks denied on the witness stand. In support of this theory
Berryman's lead counsel, Charles J. Soria, recalled Ms. Armendariz, Mr. Bonner, and Ms. Pena to
testify. Ms. Armendariz testified that when Berryman returned to the Clark residence after being out
from 9:00 (or 9:30) until sometime after midnight, he looked no different than he had when he left.
Specifically, she observed no scratches or blood on his face. She also stated that he wasn't dirty. Mr.
Bonner testified that the next day when he and Berryman along with other relatives and friends
were playing basketball, he noticed a scratch under Berryman's eye, but he only noticed it after his
cousin, Brooks, brought [*22] it to his attention. Ms. Pena testified that she was watching
Berryman play basketball (with the cousins and friends of Ms. Hildreth and Ms. Armendariz). She
first observed a scratch under Berryman's eye during a break in the game. At that time, the scratch
was bleeding. On summation, in a final refutation of the notion that Ms. Hildreth inflicted the
scratch under Berryman's eye the night before in a struggle, Mr. Soria argued that nothing in the
autopsy records supported the prosecution contention. One of the procedures of the autopsy was
that the clinicians examined Ms. Hildreth's fingernails to see if any skin had collected, indicating
she scratched someone. None was found. Notwithstanding the conflicting evidence on this point,
based on witness testimony of Brooks Riopelle that Berryman's scratch was observed prior to the
basketball game, Mr. Moench argued that Berryman sustained the scratch during his struggle with
Ms. Hildreth the previous night.
Besides the eye witness testimony regarding Berryman's pick up truck being observed near the
crime scene approximately 15 minutes after Ms. Hildreth was last seen alive and the fact that she
apparently had been engaged in a struggle [*23] before she died, forensic evidence connecting
Berryman to Ms. Hildreth's death was introduced at trial. After identifying Berryman as a potential
suspect, investigators conducted comparison tests between evidence observed (and documented) at
the crime scene and Berryman's property.
There were positive tire track comparisons between impressions documented at the crime scene
and the left front tire on Berryman's pick up truck, the right rear tire on Berryman's pick up truck,
and a limited spare tire, which had been seen on Berryman's truck earlier, 16 but when seized was
leaning up against the backyard fence of the Clark home. 17 Of significance to the defense case was
that the limited spare tire found in the yard of the Clark property was not mounted on a wheel.
16 Ms. Armendariz's young step-brother. Ricky Aubrey, had observed the limited spare in
the left rear position of Berryman's pick-up truck earlier in the week, whereas the sheriffs
technician testified that at the crime scene the limited spare had been mounted in the right
front position.

Page 14
2007 U.S. Dist. LEXIS 51738, *

17 Mr. Clark testified that the limited spare tire was not a size that was suitable for any of
his family member's vehicles. It was, however, a [*24] suitable size for Berryman's
Mitsubishi pick up truck.
There also were positive comparisons between shoe impressions at the crime scene and the high
top Brooks athletic shoes seized from Berryman at the time of his interview by investigators,
including shoe tread marks of the soles and the side of at least one shoe, showing it to be a high top
athletic shoe. Dr. Holloway and the criminalist, Gregory Laskowski, separately also made
comparisons between the patterned bruise on Ms. Hildreth's right cheek and the sole pattern on
Berryman's shoe, finding similarities. Dr. Holloway specifically testified that the bruise resulted
more from sustained pressure rather than quick, sudden pressure. On summation, Mr. Moench
combined Dr. Holloway's testimony about Ms. Hildreth's survival time from the wounds (three to
five minutes) and the fact that the bruise on her face was caused by sustained pressure. He argued to
the jury that Berryman pressed his shoe into Ms. Hildreth's face for three to five minutes as she lay
bleeding to death. Mr. Moench then reiterated this theory of Berryman standing on Ms. Hildreth's
face for from three to five minutes during penalty proceedings.
In addition there was [*25] a positive correlation between a gold-colored chain link found at
the crime scene and three gold-colored chain links found on the floor board of the cab of
Berryman's Mitsubishi pick up truck. Besides the chain links found on the floor of Berryman's pick
up truck cab, there were two broken gold-colored chain link necklaces hanging over the rear view
mirror of the truck, one of which contained chains found to have similarities to the links found on
the cab floor and at the crime scene. In particular, similar tool marks were noted on the edges of
each link.
A latent fingerprint lifted off the inside passenger window of Berryman's pick up truck matched
the print of one of Ms. Hildreth's thumbs taken at the autopsy. One of two pubic hairs found on Ms.
Hildreth's face was said to have borne substantial similarities to Berryman's pubic hair samples. 18
Finally, a forensic serologist testified that blood found on the canvas and on a shoe lace from
Berryman's right shoe was consistent with Ms. Hildreth's blood type, but inconsistent with
Berryman's blood type. Also, it should be noted that although independent testing could not be
conducted separately by the defense litigation team (due to [*26] insufficient quantity of the
sample), a defense serological expert was present and observing when the prosecution serologist
conducted this testing.
18 The other pubic hair was said to have come from Ms. Hildreth herself.
Another factor that authorities used to connect Berryman to Ms. Hildreth's death was his
knowledge about the fact of her death and how she was killed. The prosecution evidence brought
out that Berryman seemed to know Ms. Hildreth had been killed before members of her
immediately family had disclosed this information to the rest of the family and friends. Specifically,
the prosecution called Berryman friend, Thellas Sanders, who had partied with Berryman on Labor
Day, the day after Ms. Hildreth disappeared. Berryman asked Mr. Sanders for a gun because Ms.
Hildreth had been stabbed. At that time, circumstances of Ms. Hildreth's death, particular the cause
of death by a knife wound, were not known to her friends and family members.
After the prosecution put on its case in chief (and before the defense began its case), Berryman's
attorneys moved for judgment of acquittal pursuant to Penal Code § 1118.1 on the grounds the
prosecution had not established the intercourse, if [*27] there had been intercourse, occurred while

Page 15
2007 U.S. Dist. LEXIS 51738, *

Ms. Hildreth was still alive. Defense counsel also argued the absence of trauma to the victim's
vaginal vault signified the absence of non-consensual intercourse.
The trial judge denied the motion on the grounds that the presence of the victim's blood on the
vaginal swab specimen indicated she was alive during intercourse. Next, the trial judge found
sufficient evidence of penetration even though semen had been deposited on Ms. Hildreth's body,
outside of her vagina. Finally, the trial judge found that the victim's body position and the state of
her clothing was consistent with making her available for sexual intercourse.
Defense counsel Mr. Soria and Mr. George Peterson, called their own forensic expert,
criminalist Stephan A. Schliebe, to cast doubt on the comparison evidence of shoe tracks, goldcolored chain links, pubic hairs, and tire tracks. 19 With respect to the shoe tracks, Mr. Schliebe
concluded Berryman's Brooks athletic shoes could have been the source of the prints in the crime
scene photographs, but that there were too many variables, including differences between the
composition of the ground at the crime scene and the composition [*28] of the test mark, to be
certain. He stated he could not be at all sure that the impression on the victim's cheek, as depicted in
the autopsy photograph, was made by Berryman's shoe for the reason that a significant line on the
shoe sole was not replicated on the check. Although the bruise on the victim's face could have been
made by Berryman's shoe, the bruise mark was much longer than the shoe. With respect to the goldcolored chain links, Mr. Schliebe testified the photographs of the necklace chain links were of very
little analytical value because they were out of focus and lacked detail. He offered that the positive
comparison by the prosecution expert was a matter of subjective determination. 20 On cross
examination, Mr. Schliebe further clarified that similarities found between disconnected chain links
and/or links still intact on a necklace are not persuasive for establishing a positive comparison since
metal composition of chains varies widely from link to link (since links are put together in random
order). Mr. Schliebe also found the hair analysis to be sorely lacking. First an insufficient number
of hair samples were gathered. Second, there was no indication of where in [*29] the pubic area the
hair samples were taken. Third, any comparison made should have been made by comparing actual
hairs, not photographs of hairs. Finally regarding the tire tracks, Mr. Schliebe testified there was a
consistent pattern regarding left front tire and the crime scene impression. The spare tire test
impressions showed some markings consistent with the crime scene impressions, but these
consistencies appeared to be more a manufacturing similarity rather than a unique wear
characteristic. The only way to check this would be to obtain several tires manufactured by the
same company and then conduct a comparison. 21
19 No evidence was introduced to contradict the serologic evidence presented by the
prosecution.
20 The defense expert did not actually conduct his own tests on the chain links at issue,
although the evidence was available for this purpose.
21 On cross examination, the defense expert conceded that he had not actually examined the
tires (which were available to the defense).
On summation, Mr. Soria stressed that the position of the limited spare impression at the crime
scene was said to have been in the right front position by the technical investigator, but the actual
[*30] limited spare tire that was found was in the Clark yard, completely off Berryman's truck and
not mounted on a wheel. Moreover, Ricky Aubrey, who earlier had observed a limited spare on
Berryman's truck, said that it was in the left rear position. Mr. Soria argued that for Berryman to
have removed the limited spare tire from the wheel rim after supposedly attacking Ms. Hildreth
would have been a dirty and time-consuming job, yet he was not observed by Ms. Armendariz to be

Page 16
2007 U.S. Dist. LEXIS 51738, *

dirty when he returned in the very early hours of the next morning and, overall, he was not gone
long (after being observed by Ms. Louis and the Castillo brothers at 11 p.m. near the crime scene.)
Ms. Armendariz's equivocation as to whether Berryman returned at 11:35 p.m. or 12:35 a.m. was
also referenced by Mr. Soria to raise a reasonable doubt in Berryman's favor. On rebuttal, Mr.
Moench argued the discrepancy between eye witness testimony that a limited spare was mounted on
the left rear position on Berryman's pick up truck and the police investigators' conclusion that the
limited spare had been mounted on the right front wheel when Berryman was at the crime scene,
was explainable by the fact that Berryman had moved [*31] the tire to the front position in the
interim.
Separate and apart from the defense forensic expert, defense counsel recalled Andrew Bonner to
testify that Berryman was not wearing Brooks-brand athletic shoes on the day of Ms. Hildreth's
death. Rather Mr. Bonner testified Berryman had been wearing Eagle-brand athletic shoes. Mr.
Soria argued this inconsistency during his guilt phase summation along with his other arguments.
As presented at trial, the guilt phase defense theory was to raise a reasonable doubt about
Berryman's guilt. This was accomplished in two ways. First, Mr. Soria suggested it would have
been impossible for Berryman to have attacked and killed Ms. Hildreth and then remove the limited
spare from a wheel on his truck within the brief window of time from Ms. Hildreth's last appearance
and he returned to the Clark residence. Mr. Soria argued all the evidence of Berryman's guilt was
circumstantial; there were no eye witnesses. Mr. Soria further argued that from the initial interviews
given by members of Ms. Hildreth's family to the testimony given at trial, some of the time
estimates had changed in order to incriminate Berryman, because they didn't like him and wanted to
[*32] make him responsible for the crime. 22 This theory was consistent with Berryman's story when
he was first interviewed by authorities the night after Ms. Hildreth's death. Specifically, he denied
having been out on Cecil Avenue the night of Ms. Hildreth's murder and he denied that Ms.
Hildreth had ever been in his car. 23 A tape of his statements to investigators was played for the jury,
as more fully discussed in connection with Claims 27 and 28. See Part VI., infra. Mr. Soria also
suggested that perhaps Ms. Hildreth had been killed by the person or persons she was trying to
reach by telephone when she came over to the Clark residence.
22 Mr. Soria did not introduce any inconsistent statements from those reports at trial. The
Court has not been provided copies of any investigative reports from Sheriffs deputies.
23 This latter denial has been retracted. During penalty proceedings, Mr. Peterson argued
that Berryman and Ms. Hildreth had an on-going sexual relation and she wanted him to give
up his relationship with Ms. Armendariz. Similarly, in Berryman's pro se habeas petition, he
states that Ms. Hildreth had been inside his pick up truck on many occasions and accordingly,
her finger prints [*33] should have been observed throughout the cab of his truck, and not
merely on the inside of the passenger window (the print of which he also argued was a print
of his thumb, not Ms. Hildreth's).
In the alternative, Mr. Soria argued that if Berryman had been with Ms. Hildreth on the night
she died, the killing was either felony murder, 24 second degree murder, voluntary manslaughter, or
an accident. Mr. Soria also tried to create a reasonable doubt about Berryman's responsibility for the
shoe sole impression on Ms. Hildreth's cheek. He pointed out that the pattern on the face bruise did
not match the shoe tread. He conceded, however, that the perpetrator of the crime had stepped on
Ms. Hildreth's face for approximately three to four minutes. Next he argued that since the victim
was bleeding profusely, and from an artery, there would have been more splatter on Berryman's

Page 17
2007 U.S. Dist. LEXIS 51738, *

shoes if he had been standing near Ms. Hildreth, or stepping on her face, as she lay bleeding to
death.
24 That Mr. Soria argued for felony murder, when that is a death eligible offense, is
puzzling.
The instructions were read to the jurors in three phases. First, there were pre-trial instructions,
which included a reading [*34] of the information as well as some general instructions about direct
versus circumstantial evidence and witness credibility, as well as more specific instructions about
malice, willfulness, felony murder, special circumstances, first and second degree murder,
manslaughter, and reasonable doubt. A second set of instructions were given after both parties
rested, but prior to summation of the prosecutor and defense counsel. These pre-summation
instructions repeated the substantive instructions read in the pre-trial instructions, and in addition
specifically delineated between first degree murder, second degree murder, and voluntary
manslaughter. The concept that first degree felony murder and the felony murder special
circumstance predicated on completed or attempted rape also were read. The third and final set of
guilt phase instructions were given just before the jurors retired to deliberate. These postsummation instructions focused on explaining the various special verdict forms that needed to be
completed for first degree murder, the lesser included offenses of first degree murder, and the death
eligibility special circumstances. When the trial court completed jury instructions it [*35] was
12:30 p.m. At that time, the court took a lunch recess and the jurors were to commence
deliberations directly after lunch, without the necessity of reconvening court. At 1:45 p.m., the
jurors requested a tape player (to listen to the tape of Berryman's interview with authorities). At
3:50 p.m. a note from the foreperson informed the court that the jurors had reached a verdict on
Count 1 (the murder charge). The bailiff advised the jury to continue to deliberate as to Count 2. At
4:12 p.m., the jury noted it had reached a verdict on Count 2. Court was reconvened and guilty
verdicts were read on both counts at 4:50 p.m.
The verdict on Count 1 was guilty of first degree murder with the rape murder special
circumstance. An additional special finding was made as to the murder charge -- that the killing of
Ms. Hildreth was intentional. On Count 2, the jury found Berryman guilty of committing a
completed rape.
B. Evidence Presented During Penalty Phase Proceedings and Jury Deliberations.
The prosecution case in support of the death penalty focused mainly on the circumstances of the
crime under the sentencing factor codified at Penal Code § 190.3(a). This statutory provision
specifies that [*36] the jury shall take into account the circumstances of the crime of which the
defendant was convicted and any special circumstances found to be true. To a lesser extent, the
prosecution case relied upon two prior violent acts not resulting in criminal convictions, under §
190.3(b) (the presence or absence of criminal activity which involved the use or attempted use of
force or violence or the express or implied threat of using force or violence), and evidence of two
prior felony convictions, under § 190.3(c) (the presence of absence of any prior felony conviction).
Finally the prosecution made a considerable and forceful effort to undermine mitigation evidence
presented by the defense.
The prosecution filed two notices regarding the evidence that it intended to present during
penalty proceedings. The first notice was filed March 3, 1988 and included three categories of
evidence. First was evidence under § 190.3(a), the circumstances of the present offense and all acts

Page 18
2007 U.S. Dist. LEXIS 51738, *

committed by Berryman in furtherance of the crimes committed. Second was evidence under §
190.3(b) regarding an assault on a fellow inmate housed at the County Jail. 25 Third was evidence
under § 190.3(c) regarding Berryman's [*37] prior felony convictions. On April 22,1988, the
prosecution filed an amended notice setting forth five categories of evidence intended to be
presented during penalty proceedings. The second notice reiterated the first three categories, and in
addition added two more instances of prior violent acts which did not result in convictions under §
190.3(b): an altercation between Berryman and his father-in-law, Howard Fuller, in August 1987
and an attack on motorist David Perez with a wheel lock bar in July 1987. During pre-trial
proceedings, Mr. Soria mentioned that he had received notice of the prosecution's intended
aggravating evidence. He stated that he would object if the prosecution introduced any evidence in
aggravation that wasn't listed in the notice.
25 This evidence was not introduced at trial.
The initial evidence presented in aggravation was a stipulation the prosecutor, Mr. Moench,
secured from Berryman's trial counsel to the effect that Berryman suffered two felony convictions
in Los Angeles County. The first conviction involved three counts of marijuana transportation in
March 1984 and second involved one count of grand theft in August 1984. 26 The purpose of the
stipulation [*38] regarding these convictions, as discussed in court, was to avoid having the details
of the crimes presented to the jury. Mr. Moench agreed to a "sterile" presentation of the fact of the
prior convictions so long as the defense team didn't attempt to downplay the significance of the
marijuana transportation conviction. Although the defense did not offer evidence or argue in any
way that the marijuana transportation conviction was insignificant, Mr. Moench breached the
stipulation on many occasions in his cross examination of defense witnesses by repeatedly
mentioning the fact that Berryman sold drugs to high school students (even though this wasn't the
offense for which Berryman was convicted). Defense counsel objected only to Mr. Moench's
characterization of the three count conviction as three separate arrests rather than a single
transaction. The objection did not address the fact that Mr. Moench repeatedly informed the jury
about Berryman's sales activities.
26 Berryman was 18 years old when both of these convictions were imposed.
Next, the prosecution presented evidence under § 190.3(b). The first witness was David Perez, a
stranger Berryman encountered on the streets Los Angeles, [*39] and who Berryman attacked with
an iron (wheel lock) bar after a dispute about blocking a public road. The facts leading up to the
attack are that three vehicles on a city street were completely blocking the road, preventing Mr.
Perez, who was driving behind the trio, from moving forward. Two of the vehicles were pick up
trucks, one occupied by two males and the other occupied by Berryman, alone. The middle vehicle
was a small car occupied by two females with whom the men in the pick up trucks were talking.
When Mr. Perez sounded his horn for the pick up trucks to move, the passenger in the first pick up
(not driven by Berryman) made a disrespectful hand gesture to Mr. Perez. A short time later, when
the road block dissolved, Mr. Perez challenged the occupants of that pick up truck, whereupon the
passenger exited the truck and began kicking Mr. Perez's pick up truck. Following this occurrence,
Mr. Perez and that passenger became involved in mutual combat, to which the driver of the pick up
and Mr. Perez's passenger also joined. Mr. Perez testified that when the driver of this first pick up
entered the fight, he (the pick up driver) grabbed Mr. Perez from behind. Then, Berryman entered
[*40] the fray by striking Mr. Perez on the back of the head with a tire iron. Mr. Perez was clear
that he saw Berryman approaching, and he saw Berryman trying to strike him a second time, this

Page 19
2007 U.S. Dist. LEXIS 51738, *

time on the face, although he didn't see Berryman deliver the blow to the back of his head. In light
of Mr. Moench's later cross examination of defense witnesses, it must be emphasized that Mr. Perez
at no time testified that Berryman struck him with the tire iron while the driver from the other pick
up truck was holding him. 27 After Berryman's failed second attempt to strike Mr. Perez, Mr. Perez
fled. He was pursued by Berryman as well as the driver and passenger of the first pick up while the
pursuers (including Berryman) were yelling "L.A. Cryps."
27 Like Mr. Moench's argument, the Warden recites in his rendition of the facts that
Berryman hit Mr. Perez on the back of the head with an iron bar while another of the
combatants was holding him. The Court has re-read the trial transcript and finds that version
not sustainable. The driver of the first truck grabbed Mr. Perez from behind as Mr. Perez was
fighting with the passenger of that truck. Then, Mr. Perez's passenger got out of Mr. Perez's
pick [*41] up truck and pulled the other pick up driver off of Mr. Perez. See RT-27: 3550. It
was while all four of these individuals were fighting that Berryman came over and struck Mr.
Perez on the head. As soon as Berryman struck Mr. Perez on the back of the head, Mr. Perez
turned around and blocked the second blow. Id.: 3551. He did not testify he was being
restrained at that time.
The other act of violence which did not result in a felony conviction under § 190.3(b) involved
an altercation between Berryman and his father-in-law, Reverend Howard Fuller. This evidence
was presented on rebuttal. The facts leading to this altercation involve the separation of Berryman
from his wife, Carol. Rev. Fuller, a pastor at the Friendship Missionary Baptist Church in Los
Angeles County, testified that on August 4, 1987, Carol and her baby (Berryman's son) moved back
home (having lost the apartment they had shared with Berryman). On the next day, Berryman came
by to collect Carol and their infant son to move to Delano. According to Rev. Fuller, when
Berryman arrived at the house, Carol had decided not to go with him to Delano. Rev. Fuller would
not allow Berryman to come into the house, but Berryman did [*42] come to the door. When Rev.
Fuller reiterated that Berryman could not come inside the house, he and Berryman began pushing
each other and finally Berryman struck his father-in-law on the bridge of the nose. Rev. Fuller
summoned the police. Both the jury instructions and Mr. Moench's summation clarified that the
facts comprising these prior acts of violence had to be established beyond a reasonable doubt.
The defense case consisted of 16 friends and relatives, who testified about Berryman's favorable
character, one former San Quentin inmate, who testified about death row, the criminalist, Mr.
Laskowski, and one of the detectives who testified to having observed two bibles in Berryman's
truck during the search, and two mental health experts. The 16 friends and relatives included
Berryman's wife, his two brothers, his sister, his mother, two grandmothers, a cousin, a maternal
aunt, and Melinda Pena, as well as other friends from the Los Angeles area. Mr. Peterson elicited
from each of these witnesses that Berryman was not a violent person and he never demonstrated
any aggressive behaviors towards girls and/or women. In addition to eliciting testimony that
Berryman was a nice guy and a [*43] non-violent gentlemen toward women, Mr. Peterson
succeeded in having each witness affirm that he or she had not spoken to any member of the
defense team before testifying and that he or she would not lie for Berryman. Many witnesses
attested to the fact that Berryman was very popular with girls and dated two or three at a time. His
older brother, Ronald, Jr., described him as a "Casanova." To accentuate Berryman's non-violent
conduct toward women, evidence was presented that on one occasion, Carol Berryman 28 struck
Berryman, but Berryman did not respond physically. On the same or another occasion, Berryman
reportedly yelled at his wife after she and Berryman's younger brother, Bryan Berryman, became

Page 20
2007 U.S. Dist. LEXIS 51738, *

embroiled in a heated verbal argument. Relatives also testified that Berryman was affectionate and
respectful to his older relatives and often attended family reunions with his wife and infant son
accompanying him. His sister, Ronnique Berryman, testified that Berryman drank a lot of beer and
she knew he had an alcohol problem, drinking morning, noon, and night. Nonetheless, he was not
violent when he drank.
28 Carol Berryman filed to dissolve her marriage to Berryman sometime after his [*44]
detention at San Quentin State Prison. Although she now uses her maiden name, Fuller, as
her last name, she is referred to in this Memorandum Order as Carol Berryman.
Various friends of Berryman testified similarly, starting with Melinda Pena, his occasional
paramour in Delano. Ms. Pena added that every time he visited her during his stay in Delano up
until his arrest, he was drinking beer, about a quart at a time. On cross examination, Mr. Moench
elicited that Berryman wasn't drunk as a result of his drinking, in that he could still operate his truck
and perform sexually. Berryman's wife, Carol, also testified about Berryman's drinking, which she
referred to as excessive and the basis for conflict in their marriage. His drinking also interfered with
work, so much so that he just stopped going to work. She further testified that the more Berryman
drank, the more he strayed from church. His response to his wife's nagging was to drink more
(never to be physically abusive). Sometimes he drank so much, he staggered. During these times,
when Berryman was drinking excessively, Carol Berryman testified that he complained of bad
headaches and backaches. With respect to the backaches, she testified [*45] they followed from an
accident whereby Berryman fell from a forklift. With respect to the headaches, she personally
observed veins in his head pulsating. The onset of the headaches was sudden and lasted about five
minutes. While the headache problem usually occurred while Berryman was drinking (a couple
times a week), Carol recalled one occasion when a headache struck Berryman while he was sober.
The headaches were so severe that Berryman said he couldn't drive when he was afflicted with one.
On one occasion he went to the hospital. He was taken there by his friend Yolande Rumford.
During Ms. Rumford's testimony, she confirmed that she took Berryman to a hospital emergency
room because his head was hurting and he was dizzy. A cousin of Berryman's mother, Maxine
Coleman, also testified about her knowledge of Berryman's drinking problem. She testified that
Berryman came to her and talked about his problem. The last time she spoke to him, he told her his
drinking was under control and he was trying to get straight because he had a son. The testimony
about Berryman's drinking was foundational for the expert testimony which followed and is
discussed in detail below.
The Court notes that [*46] Mr. Moench's cross examination was quite aggressive with respect
to the friend witnesses. Two examples suffice. During his examination of 19 year old Tamara
Pearson, he suggested that Berryman struck a man with a tire iron while he was being held by
another and with respect to the present crime, stood on the victim's face for three to five minutes
while she was bleeding to death. Mr. Moench similarly suggested during his cross examination of
family friend Yolande Rumford that Berryman transported drugs to the high school he was
attending, hit someone on the head with a tire iron while that person was being held, and with
respect to this crime, tricked a 17 year-old girl to go out into the countryside, beat her, raped her
and then tried to force her to orally copulate him.
Berryman's maternal grandmother testified that the Berryman children sometimes stayed with
her while their mother worked and that Berryman's parents experienced a tumultuous marriage that
finally ended in divorce. Berryman's mother, Lestine Bonty, additionally testified that after she and
Berryman's father, Ronald Berryman, Sr. were divorced and her boys went to go live with their

Page 21
2007 U.S. Dist. LEXIS 51738, *

father, she was estranged from the [*47] boys for approximately three years. Ms. Bonty testified
that while the boys were living with their father, she chose not to communicate with them at all. Her
conduct was laid out as foundation for the expert testimony about Berryman's emotional problems
resulting from lack of maternal nurturing. Even Berryman's sister, who lived with the mother,
testified she received inadequate maternal guidance and encouragement. When Berryman's father
died and Berryman came back to live with his mother, the mother-son relationship did not improve.
Berryman's paternal grandmother described Berryman's and his brothers' lives with their father
after the separation from their mother. The father, Ronald, Sr., apparently had numerous girlfriends
himself and the boys were taken from girlfriend to girlfriend when they were young. They also
stayed with their great grandmother. The paternal grandmother stated that the boys were bounced
from house to house. The fact that the father and boys moved around a lot was echoed by the
testimony of Berryman's older brother, Ronald, Jr..
Besides explaining further about the circumstances of Berryman's conviction for marijuana
transportation, Ronald, Jr., a convicted felon, [*48] also testified about the trouble convicted rapists
have in prison. Ronald, Jr. testified that convicted rapists tend to be raped or subjected to violence
in prison by other inmates. In order keep safe, a convicted rapist must exhibit violent behavior to
avoid being targeted for violence. A rebuttal witness called by the prosecution refuted this notion.
That witness, another Kern County Deputy District Attorney, testified that during his tenure in the
District Attorney's Office prosecuting crimes committed in the County's state prisons, he had not
observed that any particular number of convicted rapists had been victims of criminal conduct in
prison. 29
29 Mr. Peterson's only impeachment tool for this testimony was that the witness was under
the supervision of Mr. Moench at the time of his testimony.
The former San Quentin inmate called by the defense described the degrading prison conditions
at San Quentin, as well as Folsom prison (where, among other correctional facilities he had at one
time been incarcerated). He echoed the testimony of Berryman's older brother, Ronald, Jr., that
child molesters and rapists are the most reviled inmates by other inmates and that they're often hurt.
[*49] This witness had information about how the gas chamber operated, since he wrote for a prison
newspaper and worked for a public relations group while at San Quentin. He described the process
for executing a condemned inmate in the gas chamber, including the excruciating pain suffered and
the lengthy duration of the agony. He also assured the jurors that if a defendant is sentenced to life
without the possibility of parole, there would, in fact be no parole; the defendant would spend the
rest of his life in prison. On cross examination, Mr. Moench asked a question suggesting that
Berryman may be a gang member, and as a lifer (sentenced to life without possibility of parole),
would be most likely to be assigned a "hit" behind prison walls for his gang. At the culmination of
this testimony, one of the jurors, Ms. Mary Radman, informed the judge that this former inmate
witness made an aside remark to the jury which she heard but did not understand.
The prosecution criminalist, Mr. Laskowski, who also was a technical investigator for Kern
County testified that during the search of Berryman's truck (pursuant to a warrant), two bibles were
found, but not seized. One of the sheriffs investigating [*50] officers, Detective Culley, who also
was present during the execution of the search warrant of Berryman's truck also noted that one or
two bibles were observed in the truck cab. Detective Culley did not know what had become of
them. 30

Page 22
2007 U.S. Dist. LEXIS 51738, *

30 Apparently Detective Culley's partner in the Berryman case investigation, Detective
Lage, seized the bibles. See summary of declarations of Jesse Morris, Jr. and Charles
Bonneau, discussed in connection with Claim 72, Part XXXII., infra.
The last two defense witnesses were Dr. William Pierce, a clinical psychologist and founding
member of the National Association of Black Psychologists, and Dr. Samuel G. Benson, a
psychiatrist, who in addition to his medical degree, held doctorate degrees in psychology and
pharmacology. A large part of Dr. Pierce's expertise was in the development of black identity
among black adolescents. Dr. Benson's practice specialty was performing consultations for
physicians in other disciplines to determine whether there was "a psychiatric overlay to a particular
illness."
Dr. Pierce indicated he became involved with Berryman's case in March of 1988 (seven months
before his October 1988 testimony) at the request of Mr. Soria. [*51] He interviewed and
administered psychological tests to Berryman for approximately 12 to 13 hours. He additionally
reviewed numerous documents and interviewed Berryman's mother, sister, wife, and mother's
cousin, all of whom testified at the penalty phase. The battery of psychological tests he
administered were to help him determine whether Berryman's behavior was influenced by central
nervous system damage, brain damage, or other organic versus functional cause. For Berryman, Dr.
Pierce's axis one diagnostic impression was "alcohol induced organic disorder, alcohol intoxication
and rule out organic mental syndrome, not otherwise specified." 31 His axis two diagnostic
impression of Berryman was personality disorder, not otherwise specified, with dependent
narcissistic and depressive features. 32
31 An axis one diagnosis refers to symptoms a person is experiencing at the time of the
evaluation.
32 An axis two diagnosis would refer to long-standing personality characteristics that had
been occurring over a longer period of time.
Dr. Peirce's conclusions were influenced by a number of factors, including Berryman's early
history. As a child, Berryman and his siblings, particularly his brothers [*52] were subjected to a
great deal of moving around, chaos in the marriage of his parents, and him living with different
relatives. During the time Berryman lived with his father, there was quite a bit of moving. School
records Dr. Pierce reviewed showed seven to eight different schools during that period. To
compound the interruption of education experience, Berryman was identified as a slow learner in
the third grade. His learning ability also suggested minimal brain syndrome. He had difficulty
reading and writing. Dr. Pierce stated this history would not be atypical of people who developed
personality disorders in reaction to their environments. Another fact was the lack of maternal
nurturing Berryman experienced as a child through puberty. Berryman's mother told Dr. Pierce she
was not close to Berryman when he was growing up. As a consequence, Berryman exhibited a great
need to get his dependency needs fulfilled. In his youth, although Berryman's mother didn't provide
the nurturing he needed, he had a way of finding people who would take him in, because they liked
him. In the meantime, when Berryman was 15, his father was lost in an airplane accident and never
found. 33 Berryman demonstrated [*53] to Dr. Pierce that he had a difficult time believing his father
actually was dead. After his father was gone, Berryman was more difficult to control as a teenager.
While still in his mid-teens, he started running away from home and began to show "asocial"
behavior and alcohol abuse.

Page 23
2007 U.S. Dist. LEXIS 51738, *

33 It is not clear how old Berryman was when his father disappeared and was presumed
dead. Other evidence in the record relays that Berryman was 17 when his father died. See
discussion of Claims 15 and 16, Part XH.AJ.d., infra.
Berryman's attempts at obtaining employment were largely frustrated by his lack of education
because he could not keep up with the requirements of the jobs he obtained -- being unable to read
or write well. In Berryman's marriage, there also were conflicts. He attempted to carry out the "male
role" in having a job, attending church, and raising a family, but was not well-equipped to handle
his role. When he lost his job, everything unraveled. His attempts to find other employment
decreased as his drinking increased. Ultimately, his family was evicted from the apartment. Then
there was his avoidance behavior and increase alcohol usage.
Dr. Pierce explained Berryman's apparently compulsive [*54] attraction and intimate
relationships with numerous females. The attraction was driven by Berryman's "need for nurturance
he missed in his early childhood. It wasn't so much [Berryman's] attraction to sexuality that
impelled him, as his need to be around someone who would treat him nicely. . . . There was a hole
in the bucket around mothering and nurturance, and . . . part of [Berryman's] behavior was to try to
fill that hole in his interpersonal relationships, particularly with women."
Dr. Pierce reported that Berryman also had an old head injury from a 1983 fall from a crane
while he was installing insulation. 34 He became unconscious and was taken to the hospital.
Following this accident, he began to report recurrent intense headaches. The headaches had sudden
onset, were intensely painful, lasted 15 to 20 minutes, 35 and then suddenly terminated. Dr. Pierce
opined that these episodes were seizure equivalents. Corroborating this opinion, Dr. Pierce saw
consistent signs of organicity, in the psychological test results. Specifically, Berryman had
difficulty performing perceptual motor tasks, indicating a central nervous system problem. He also
had difficulty in visual perceptual organization [*55] and in immediate recall. The signs of
organicity included his history of learning disabilities, head trauma, intense headaches, increased
alcohol intake, particularly between May and August 1987 (just prior to Berryman's move to
Delano), and asocial, maladaptive behavior (referring to the attack on Mr. Perez). 36 Dr. Pierce
specifically mentioned three to four arrests for driving under the influence in the few months prior
to his move to Delano. 37 To confirm the existence of an organic problem affecting Berryman's brain
and central nervous system, Dr. Pierce wanted to have additional tests performed. That is why he
called upon Dr. Benson for assistance in obtaining the needed tests.
34 No other evidence about a fall from a crane while installing insulation was introduced at
the trial. It cannot be discerned whether this crane fall is the same as the fall from the forklift
accident described by Berryman's wife, Carol. The Court notes that in the testimony of
Berryman's wife, she stated that the forklift fall accident resulted in backaches. She didn't
attribute Berryman's headaches to any particular cause. Berryman's mother told the social
historian hired by Berryman's federal habeas [*56] counsel that Carol was the cause of
Berryman's headaches. During an argument, she hit him over the eyebrow with a metal
flashlight and requiring him to go to the hospital. See Part XH.A.3.d., infra.
35 The testimony of Berryman's wife, Carol, was that the headaches lasted five minutes.
36 The attack on Mr. Perez was referred to by Dr. Pierce as asocial on direct examination
and maladaptive on cross examination.
37 On rebuttal, this basis for Dr. Pierce's conclusions was vitiated. The prosecution evidence
was that there were only two stops for driving under the influence, one in June 1986, and the
other in the spring of 1987.

Page 24
2007 U.S. Dist. LEXIS 51738, *

Dr. Pierce observed that Berryman's customary pattern of behavior when he became angry at his
failures was to "leave the field." Accordingly, he felt that the crime involving Ms. Hildreth didn't
"fit" Berryman's typical and historical response to frustration. Dr. Pierce referred to the crime as a
"very bizarre act" on Berryman's part. This was another basis for Dr. Pierce's belief that Berryman
suffered some sort of seizure or alcohol induced seizure on the night Ms. Hildreth was killed and
the reason he wanted certain tests conducted. He called upon Dr. Benson to arrange [*57] the
needed tests, for without empirical evidence in the form of test results, Dr. Pierce had only the
symptomatology he obtained.
On cross examination, Mr. Moench minimized Dr. Pierce's reliance on the fact that Berryman
suffered from intense headaches, because he himself had never observed Berryman having one. Dr.
Pierce could not explain to Mr. Moench why the desired tests were not performed; that information
needed to be obtained from Dr. Benson. Mr. Moench belittled Dr. Pierce's opinions because they
were based on everything except the fact that Ms. Hildreth had been raped and murdered. Dr. Pierce
denied this. Mr. Moench then asked Dr. Pierce what Berryman would have done if he came across a
woman that didn't "buy into his needs, that absolutely reject[ed] him." Dr. Pierce explained that
Berryman's pattern was to try to get his needs fulfilled, and if he couldn't, to "avoid the field or
become frustrated." Dr. Pierce confirmed that Berryman had the capacity to become angry and
demonstrate the entire range of human emotions. But, his typical pattern was not to leave someone
as he left the victim in this case. Then Mr. Moench's questions became quite caustic. He asked Dr.
Pierce to [*58] confirm that Berryman had the capacity for violence and frustration because he
wasn't a successful father, worker, or husband, and that, having abandoned his wife and son in Los
Angeles, he was living with one woman while dating two or three others and didn't want them to
find out about one another. Dr. Pierce responded that he did not recall that Berryman didn't want the
various girlfriends to find out about one another. On the contrary, the people in Berryman's life did
know each other, though he did not disclose his relationships. Dr. Pierce did not recall, or didn't
hear Berryman's taped statement where he mentioned to authorities he didn't want Ms. Armendariz
to find out about his other girlfriends. 38 Dr. Pierce confirmed to Mr. Moench that Berryman did not
suffer from severe psychological dysfunction, such as psychosis, schizophrenia, or Alzheimer's
syndrome, but that he had long standing personality problems. He emphasized that the "rule out
organic mental syndrome not otherwise specified" referred to his attempt to determine whether
Berryman suffered from "some brain disease."
38 By the time of this interview by the investigators, Berryman had already telephoned Ms.
Pena from [*59] the Clark residence to have her confirm to Ms. Armendariz that he had been
with her at the time Ms. Hildreth went missing, and not, as a family friend Lorene Louis
stated, parked on Cecil Avenue (near the crime scene).
Dr. Benson was next to testify. As indicated in Dr. Pierce's testimony, Dr. Benson was brought
in because Dr. Pierce's findings indicated the possibility of an organic problem that may have
accounted for the violent killing of Ms. Hildreth. Dr. Benson interviewed Berryman on three
separate occasions. The soft signs of organicity confirmed by Dr. Benson included Berryman's
memory loss, poor performance in school, perceptual visual motor coordination difficulties, visual
organization difficulties, ringing in his ears, and stress related headaches. Dr. Benson opined that
Berryman suffered from an organic mental syndrome, which he believed was largely alcohol
induced, but with other contributors as well, including head trauma (referring to the 1983 fall from
a crane). Dr. Benson also mentioned that Berryman had been hit over the head with a metal pipe at
one point, but no date for this injury was mentioned. 39 The headaches were accompanied by facial

Page 25
2007 U.S. Dist. LEXIS 51738, *

contortions, ringing [*60] in his ears, and the sensation he was smelling oil or gas just prior to the
headaches. This olfactory sensation was referred to as an aura, commonly known to precede a
seizure. Dr. Benson was not able to rule out epilepsy or other seizure disorder as the cause for
Berryman's behavior the night of the crime. On cross examination, he explained that without
sophisticated tests, he could not say that Berryman did not suffer from petit or gran mal seizures.
He further explained on cross examination that people who suffered from temporal lobe seizures
had been known "to do all kinds of things, and particularly violent sort of things," but, he conceded
that committing rape was not among them. Dr. Benson concluded that Berryman was an alcoholic
based on reports from investigators. 40 According to information conveyed to Dr. Benson, Berryman
started drinking around age 14 and became a heavy drinker at age 16, continuing since that time.
Further, in the late spring of 1987, Berryman's unemployment was accompanied by increased
alcohol consumption and he received four driving under the influence in three or four months. 41 On
cross examination, Dr. Benson stated that this information was derived [*61] from Dr. Pierce's
notes. Mr. Moench then suggested that in fact Berryman only had two driving under the influence
arrests, a year apart, and that witnesses who recounted a greater number of arrests either were
mistaken or purposefully deceptive. Dr. Benson responded that exaggeration by Berryman of his
drunk driving arrests would not alter his opinion because there were other sources for the fact that
he drank excessively. That Berryman had a drinking problem was corroborated by many people,
even though those reporting his drinking in August and September 1987 did not report that he was
visibly intoxicated, had been picked up for drunk driving in Kern County, was falling down drunk,
or vomited. Dr. Benson explained the concept of tolerance developed by alcoholics. He explained
that for alcoholics to get the feeling they want, they drink more and more, and would not appear to
be intoxicated, yet, would have alcohol blood levels much higher than individuals who were not
tolerant. Being tolerant, however, would not mean that the alcoholic would know where he was or
was coherent. Organic brain disease most commonly would develop in an individual who drank on
a daily basis, like Berryman [*62] did.
39 There was no evidence presented regarding this injury. The Court has no way of
discerning whether this injury was connected with the report of Berryman's social historian
that Berryman's wife hit him in the forehead with a metal flashlight.
40 The content of those reports was not presented in evidence and is otherwise unknown.
41 The number of driving under the influence arrests during the months prior to the crime
apparently was exaggerated, which Mr. Moench brought out on cross examination, rebuttal,
and summation.
The clinical diagnosis for Berryman included learning disability and middle brain dysfunction.
At this point in the proceedings, Mr. Moench interrupted Dr. Benson's testimony and requested a
copy of the notes he was using in delivering his statements. Mr. Peterson then spoke up, as if he
heard nothing of the proceedings: "I'm sorry, your Honor, I was engaged in some other activity
here. You asked him about notes, you wanted to know if he can make copies of his notes, is that the
question?" After that issue was resolved, the testimony continued. In reaching his clinical opinion,
Dr. Benson considered Berryman's dependency, particularly on women, in wanting to be taken
[*63] care of. He tended to get very close and obtain nurturing by being charming and somewhat
immature. The clinical opinion also largely was based on Berryman's excessive and consistent
drinking. Whereas in February of 1987, Berryman was doing well -- nice wife, new apartment, baby
son, church activities and a job, when he lost his job, his alcohol consumption increased, he couldn't
find another job, and he exhibited a real streak of aggression exemplified by his altercation of Mr.
Perez, the confrontation with his father-in-law, and his anger at his mother because she would not

Page 26
2007 U.S. Dist. LEXIS 51738, *

replace the tires on his pick up truck. 42 With all of this and the break up of his marriage, Berryman
ran away to Delano rather than try to deal with his problems. His dependency needs, particularly
with young women, increased in Delano, as did his alcohol consumption. In someone Berryman's
age in September 1987 (21 years old), it was rare to see signs of chronic alcoholism which he
displayed. Dr. Benson testified that one of the signs of chronic alcoholism Berryman displayed was
the onset of blackouts with aggressive behavior during the blackouts, the nature of which behavior
was reported to Berryman afterwards. [*64] 43 On cross examination, however, Dr. Benson
conceded that no one Dr. Benson interviewed informed him that Berryman ever suffered a blackout,
disorientation, or inability to identify people as a result of his drinking. Customarily, Berryman
would start drinking first thing in the morning, usually malt liquor, and continue his drinking
throughout the day. Berryman's father likely was an alcoholic, and alcoholism is subject to genetic
predisposition.
42 No evidence was offered about Berryman's anger at his mother because she would not
replace his tires. Although presumably Berryman's mother still was available to testify, she
was not recalled. During deliberations, the jurors asked for a read back of Dr. Benson's
testimony about the dispute between Berryman and his mother over his truck tires.
43 Although Berryman apparently told Dr. Benson about blackouts, there was no
corroborating evidence presented supporting the notion that he suffered from blackouts, other
than the attack on Ms. Hildreth. The attacks on Mr. Perez and Berryman's father-in-law were
not described in this manner.
Independent of Dr. Pierce, Dr. Benson determined that further testing was necessary. He wanted
to compare the [*65] results of an EEG, with an alcohol induced EEG to measure changes in brain
waves consistent with a seizure. When inquiries were made at the local hospital, the defense team
was turned down by the hospital administrators.
The first question asked of Dr. Benson on cross examination was his billing rate and how much
he expected to bill the County. Dr. Benson responded that his billing rate was $ 250 per hour and he
anticipated billing for 32 hours ($ 8,000). This amount included one full day for an intended visit
with Berryman in the jail, which could not be accomplished because Dr. Benson, and Dr. Pierce,
who had accompanied him, were denied entry.
On rebuttal and closing, Mr. Moench belittled the foundation for the expert testimony. Rather
than three to four driving under the influence arrests in the few months before his move to Delano,
Berryman suffered only two driving under the influence citations, a year apart, one in June 1986
and one in the spring of 1987. An attempt by Mr. Peterson to undermine the testimony about
official reports of drunk driving arrests only served to confirm that the prosecution view was fully
supported by current Department of Motor Vehicles records. Mr. Moench [*66] also called on
rebuttal an officer assigned to court services in the transportation section to testify that if defense
counsel had obtained an order from the court, court services would have transported Berryman to
any medical facility listed on the order. On summation Mr. Moench argued that the reason the tests
were not performed was that the defense experts failed to pursue that course diligently.
Alternatively, he suggested that the defense purposefully did not make arrangements to have the
neurological tests discussed conducted in order give the experts "something to talk about" during
their testimony.
Other issues discussed during closing arguments focused on the circumstances of the crime
(under § 190.3(a)). Significantly, Mr. Moench characterized Berryman as having no remorse for his

Page 27
2007 U.S. Dist. LEXIS 51738, *

cold blooded killing of Ms. Hildreth. He emphasized that after the crime, Berryman came back to
the Clark residence and woke up the victim's cousin so he could get something to eat. Mr. Moench
stated sarcastically that Berryman couldn't heat up his own food, but needed a woman to do it for
him. Women were "supposed to take care of him, . . . to come running out of the house and jump in
his car and [*67] go have intercourse with him any time he want[ed]." But, Mr. Moench continued,
Berryman had to keep his women separate. He stated that Berryman eliminated Ms. Hildreth so he
wouldn't be inconvenienced if she told her cousin, Ms. Armendariz what had happened. Another
factor Mr. Moench emphasized in his argument that the killing was cold-blooded was the fact that
after authorities identified Ms. Hildreth as the victim, Berryman tried to cause a diversion by
getting a gun with the intent of shooting up the home of Lorene Louis, one his detractors. 44
Emphasizing Berryman's callousness, Mr. Moench reminded the jurors his view that Berryman
stood on Ms. Hildreth's face for three to five minutes as she lay bleeding to death.
44 The evidence adduced at trial was that Berryman attempted to obtain a gun from another
family friend, because he said he knew who had killed Ms. Hildreth, that is, someone from
Los Angeles. He wasn't able to obtain the gun and he never indicated that he was going to
shoot up anyone's house.
There were further misstatements when Mr. Moench characterized the testimony of the experts.
Without objection, he stated that Dr. Pierce testified Berryman had "an [*68] amoral personality,"
when in fact, Dr. Pierce testified that Berryman exhibited a asocial and maladaptive behavior. Mr.
Moench's interpretation of the experts' testimony was that Berryman would do anything he thought
he could get away with.
Moving to the sentencing factor under § 190.3(d), Mr. Moench argued that the defense evidence
did not establish that the offense was committed while Berryman was under the influence of
extreme mental or emotion disturbance. He was neither psychotic nor neurotic at the time of the
commission of the crime. Rather, he had a personality disorder, which was no more serious than
overeating or overusing caffeine. Emphasizing the expert diagnosis that Berryman's personality had
dependent and narcissistic features, Mr. Moench argued that Berryman was a "spoiled brat" who
was in love with himself and required everyone else to be too.
As relevant to Berryman's mental state, Mr. Moench minimized the significance of the moving
around he experienced as a child. Mr. Moench also emphasized that even if the experts' opinions
were accepted, Berryman still had the capacity for violence and he knew the difference between
right and wrong. He further suggested that Berryman's [*69] extreme headaches were nothing more
than hangovers (ignoring the testimony that Berryman was afflicted with headaches while he was
intoxicated). He also argued that the psychological test results were invalid because Berryman
purposefully performed poorly on them. He argued that the experts stated that Berryman's mental
disorder would have impeded his ability to play basketball or baseball, and since Berryman played
all the time, he couldn't have any organic brain disorder. 45 With respect to the "soft signs" of
organic brain disorder, Mr. Moench argued they must be discounted because they were based on
what Berryman told the experts. He criticized the experts' collective assessment that Berryman's
crime was atypical for his behavior pattern on the grounds that it involved circular reasoning, that
is, Mr. Moench characterized their testimony that Berryman didn't commit the crime because he's
not the type of person who would commit the crime. 46 In addition to criticizing the experts for
basing their opinion about Berryman's compromised mental state at the time of the crime on four
drunk driving arrests, Mr. Moench further argued there was no indication Berryman was drunk or
out of [*70] control the night of the murder. Rather, Mr. Moench asserted, Berryman acted

Page 28
2007 U.S. Dist. LEXIS 51738, *

deliberately. In the same vein, Mr. Moench argued Dr. Benson's assessment that Berryman was an
alcoholic lacked foundation. The basis of the assessment was that Berryman's father was an
alcoholic, which was neither established by evidence nor necessarily relevant to Berryman's
condition. In a personal attack on Dr. Benson, Mr. Moench argued to the jury that he muttered
through is testimony as if they (the jurors) were idiots and treating him (Mr. Moench) as if he were
asleep. 47
45 Neither Dr. Pierce nor Dr. Benson stated that Berryman's mental disorder would interfere
with his playing sports. No objection was interposed.
46 The argument did not well represent the experts' collective opinion, as neither said
Berryman didn't commit the crime. The argument drew no objection.
47 Although the argument did not draw an objection, Mr. Peterson did comment on his own
summation that Mr. Moench's personal attack on the experts was unprofessional and
unwarranted.
Regarding the alcohol EEG discussed by the experts, Mr. Moench argued that even if it had
been performed, the results wouldn't have altered the aggravating nature [*71] of Berryman's
conduct. Mr. Moench then, incorrectly reviewed the experts' testimony that if Berryman were
experiencing a seizure he could not commit rape and murder. 48 Under Mr. Moench's theory of the
facts, Berryman became angry at Ms. Hildreth because she refused to have sexual intercourse with
him and threatened to tell her cousin, Ms. Armendariz, about Berryman's advances. Even if this
made Berryman angry, he killed Ms. Hildreth in cold blood, not in a rage. Moreover, there was no
remorse. The next day, Berryman expressed no sorrow and carried on as usual.
48 In fact what Dr. Benson said was that during a seizure Berryman could not commit rape.
Committing a homicide during a seizure would be possible, and in fact was offered by
Berryman's trial attorneys as the defense.
Mr. Moench argued other statutory sentencing factors were not applicable to Berryman. Ms.
Hildreth was not a participant in Berryman's homicidal act under § 190.3(e) (whether the victim
was a participant in the defendant's homicidal conduct or consented to the homicidal act). To
illustrate the point, he argued that Ms. Hildreth was not playing Russian roulette with Berryman;
nor were they both involved in committing [*72] a robbery. Berryman did not have a reasonable
belief that his crime was justified under § 190.3(f) (whether the defendant reasonably believed the
offense was committed under circumstances that were a moral justification or extenuation of his
conduct). Mr. Moench added that although Berryman may have thought that the crime was
acceptable, since Ms. Hildreth wasn't willing to play by his rules, his belief wasn't reasonable. Nor
was Berryman acting under extreme duress or under the substantial domination of another pursuant
to § 190.3(g). It was a single offender crime. Next, he argued, Berryman wasn't incapable of being
able to appreciate the criminality of his conduct or conform his conduct to the requirements of the
law due to mental impairment, disease, or defect, including intoxication under § 190.3(h). Mr.
Moench emphasized there was no evidence of any sort of psychotic break. Similarly, Berryman's
age at the time of the crime, that is, three months shy of his twenty-second birthday, was not
mitigating under § 190.3(i). Berryman had long been out of school; he was a grown man, yet still
continued his "hustle." The sentencing factor under § 190.3(j) was irrelevant because Berryman
[*73] was the principal of the crime, not an accomplice. Finally, § 190.3(k), the catchall factor,
didn't apply. With respect to sympathetic evidence, Mr. Moench described the defense witnesses as
susceptible to Berryman's "con" over the years. The testimony of the female witnesses, in

Page 29
2007 U.S. Dist. LEXIS 51738, *

particular, was not reliable because they all said that Berryman couldn't have or wouldn't have
committed the crime of which he already had been convicted. The testimony of Berryman's older
brother that Berryman was a "Casanova" was emphasized as a factor in aggravation.
The defense summation was comprised of an amalgam of theories. Mr. Peterson began by
complimenting the trial judge and jurors for their intellect, while criticizing Mr. Moench's personal
attacks on the experts. Later in his summation, however, Mr. Peterson criticized the jurors as well
for their guilt phase verdict, which they reached after really only 15 minutes of deliberation. 49
49 Mr. Peterson recounted that after instructions and closing arguments in the guilt phase
proceedings, the jurors were entrusted to the care of the bailiff at 12:35 p.m., whereupon they
went to lunch. Upon completion of lunch until 1:45 p.m. they determined they [*74] needed
a tape recorder and requested one. A tape player was provided at 2:15 p.m. and the jurors
listened to the 45 minute tape until 3 p.m. and then at 3:15 p.m. notified the court they had a
verdict. There is no indication in the record, however, as to how long the jurors were at lunch,
nor that they abstained from deliberation from 1:45 p.m. to 2:15 p.m., nor that they listened to
the entire 45 minute tape without deliberating. Moreover, according to the Clerk's Transcript,
the jurors did not advise the court they had a verdict on Count 1 (the murder) until 3:50 p.m.
(Rather than 3:15 p.m.) and on Count 2 (the rape) until 4:12 p.m. The verdict was read in
court at 4:50 p.m.
Turning to the sentencing factors, Mr. Peterson argued that Berryman's lack of capacity to
appreciate the criminality of his conduct under § 190.3(h) due to intoxication, should not be
discounted merely because he had developed a tolerance to alcohol and did not appear intoxicated.
He reviewed the testimony that Berryman consumed alcohol for the better part of the day,
beginning in the morning, then, when he went out with Melinda Pena and another when he was with
Ms. Hildreth. The alcohol he consumed was from [*75] 40 ounce containers of ale. Mr. Peterson
emphasized that despite Mr. Moench's belittling of the experts, no prosecution evidence was
presented to contradict the conclusions of the defense experts.
Under the catchall factor, § 190.3(k), Mr. Peterson argued that Berryman didn't just "use"
women, he also had time for "the old and disfigured." Separately, he argued that life was sacred. A
death sentence would only be appropriate for someone who was a brutal and savage murder, not a
human being. Even Mr. Moench didn't argue that. Mr. Peterson discussed two purposes of the death
penalty, retribution and deterrence. Retributive punishment was the infliction of that amount of
pain, suffering, and deprivation which was justified by the nature of the offense. A condemned
inmate suffers more than merely death. He also suffers psychological torture. If the jurors were to
sentence Berryman to death, Mr. Peterson invited them to come to the execution. Given the
excruciating pain of death in the gas chamber, Mr. Peterson argued it wasn't certain that the death
penalty was the necessary or appropriate punishment in Berryman's case. He stressed that a verdict
for life in prison without the possibility [*76] of parole would condemn Berryman to die in prison
and that life in prison was a harsh sentence appropriate for first degree murder. He would never
again see the sun rise or set; it would be severe, and he would not receive parole under a life
without parole sentence. The possibility of commutation of his sentence by the governor was
extremely remote. He implored the jurors not to be too harsh on a man who had sinned, unless they
could be certain they had not also sinned.
Under the circumstances of the crime factor, § 190.3(a), he argued that even if Berryman
forcefully pulled Ms. Hildreth from his pick up truck, she entered it voluntarily. He also argued that

Page 30
2007 U.S. Dist. LEXIS 51738, *

no evidence ever was introduced to tie the murder weapon to Berryman. He suggested that Ms.
Hildreth herself brought the knife and perhaps threatened to use it on Berryman unless he
discontinued his relationship with her cousin, Ms. Armendariz. Berryman's response could have
been to go into a seizure.
Addressing the prior acts of violent conduct, under § 190.3(b), Mr. Peterson stressed that in the
altercation between Berryman and Mr. Perez, Mr. Perez was an active participant in the injury he
sustained.
On rebuttal, Mr. Moench recoiled [*77] in his argument about how reprehensible it was for Mr.
Peterson to have criticized the jurors for deliberating for too brief a period on the guilt phase issues.
He suggested that his own feeling of indignation would be shared by the jurors. He cautioned the
jurors not to engage in mechanical counting of aggravating versus mitigating factors and told them
they were free to assign whatever moral or sympathetic value they deemed appropriate to each of
the various sentencing factors. The jurors also were at liberty to determine whether evidence
presented constituted mitigating or aggravating circumstances. Mr. Moench launched into a
criticism of the former inmate defense witness (who discussed execution procedures). He
complained that this witness was brought in to improperly influence the jurors, because none of the
evidence he presented fit into any of the sentencing categories. Mr. Moench conceded that the
catchall factor (§ 190.3(k)) might apply but argued the evidence was wholly unrelated to the issue
of extenuation. He insisted that the manner in which the execution is carried out should not be part
of the jury's consideration.
On sur-rebuttal, Mr. Peterson resorted to calling Mr. [*78] Moench and his arguments insipid,
repeatedly. He stood by his earlier criticism of the jurors for taking only 15 minutes (even though it
actually was longer) to reach a verdict on the guilt phase issues. He stated it was his job to question
the jury's verdict.
After reading the closing instructions, the jurors retired to deliberate at 3:47 p.m. At 4:48 p.m.,
the jurors requested a read back of Carol Berryman's testimony. After listening to her testimony on
direct examination, the jurors went home for the evening. The jury resumed deliberations the
following morning at 9:00 a.m. without the necessity of the court reconvening. At 12:05, the
foreman requested a read back of portions Dr. Pierce's testimony, in particular, the paragraphs
before and after the statement that the way the victim's body was left was not consistent with
Berryman's behavior. The jury also wanted a read back of Dr. Benson's testimony about Berryman
getting angry with his mother because she wouldn't buy him new tires for his truck and about
Berryman's increasing aggressive acts. Mr. Peterson objected to the selective reading back of expert
testimony, asking that if part of the testimony was read back, then all of [*79] it should be read
back. The objection was overruled. At 1:56 p.m., portions of the defense expert testimony was read
back to the jurors and deliberations recommenced on 2:08 p.m. The court received a note from the
jury foreman showing the time to be 2:50 p.m. indicating that the jury had reached a verdict. The
jury was called in and the verdict imposing the death penalty was read at 3:28 p.m.
C. Post-Verdict, Sentencing Proceedings.
During pre-trial and trial proceedings, Berryman insisted that he had nothing to do with Ms.
Hildreth's death. He stated that he wasn't on Cecil Avenue the night of the crime, but rather was
with Ms. Pena for the evening, remaining with her until he returned to the Clark home. He
reiterated his denial to the probation officer who prepared the pre-sentence report (dated November
28, 1988), attributing the verdict against him to poor legal representation.

Page 31
2007 U.S. Dist. LEXIS 51738, *

IV. Standards of Review.
This action is subject to the review provisions of the Anti-terrorism and Effective Death Penalty
Act of April 24, 1996 ("AEDPA"), codified in amended 28 U.S.C. § 2254. Berryman did not file his
initial petition until November 4, 1996, over six months after the effective date of AEDPA. [*80] 50
Under controlling United States Supreme Court precedent, it is the filing of "an application for
habeas relief seeking an adjudication on the merits of petitioner's claims" that triggers applicability
of AEDPA. Woodford v. Garceau, 538 U.S. 202, 207, 123 S. Ct. 1398, 155 L. Ed. 2d 363 (2003).
Cases with petitions on file prior to April 24, 1996 are not subject to AEDPA. Cases with petitions
filed subsequent to that date are. Under AEDPA, three standards apply to the present proceedings.
The first involves a determination of when habeas corpus relief may be granted in the face of a state
court denial of those same claims on appeal and post-conviction proceedings. The second standard
establishes when state court findings of fact are presumed correct. The third is the standard for
granting an evidentiary hearing.
50 Berryman's operative pleading his is First Amended Petition, filed on November 6, 1998,
as noted in the Procedural History, Part II., supra.
A. Applicable Standard for Reviewing State Court Denials Involving the Application of
Federal Law.
Under AEDPA, a federal court is without authority to grant a writ of habeas corpus "with
respect to any claim that was adjudicated on the [*81] merits in State court proceedings unless the
adjudication of the claim [ ] resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court of the United
States." 28 U.S.C. § 2254(d)(1). The United States Supreme Court has construed subsection (d)(1)
of § 2254 in (Terry) Williams v. Taylor, 529 U.S. 362, 413-14, 120 S. Ct. 1495, 146 L. Ed. 2d 389
(2000):
Under the "contrary to" clause, a federal habeas court may grant the writ if the state
court arrives at a conclusion opposite to that reached by this Court on a question of law
or if the state court decides a case differently than this Court has on a set of materially
indistinguishable facts. Under the "unreasonable application" clause, a federal habeas
court may grant the writ if the state court identifies the correct governing principle
from this Court's decisions but unreasonably applies that principle to the facts of the
prisoner's case.

The Supreme Court has further explained that "A state determination may be set aside under this
standard if, under clearly established federal law, the state court was unreasonable in refusing to
extend the [*82] governing legal principle to a context in which the principle should have
controlled." Ramdass v. Angelone, 530 U.S. 156, 165-66, 120 S. Ct. 2113, 147 L. Ed. 2d 125 (2000).
In sum, to grant a writ of habeas corpus under § 2254(d)(1), a federal court must find that the state
court decision to the contrary was objectively unreasonable. Bell v. Cone, 535 U.S. 685, 699, 122 S.
Ct. 1843, 152 L. Ed. 2d 914 (2002). With specific reference to a state court's harmless error review,
federal courts must practice deference unless the holding was in conflict with Supreme Court
precedent, or the state court "applied harmless-error review in an objectively unreasonable manner."

Page 32
2007 U.S. Dist. LEXIS 51738, *

Mitchell v. Esparza, 540 U.S. 12, 18, 124 S. Ct. 7, 157 L. Ed. 2d 263 (2003). If a state court
harmless-error holding is found to be contrary to Supreme Court precedent or objectively
unreasonable, "then no deference is owed." Inthavong v. LaMarque, 420 F.3d 1055,1059 (9th Cir.
2005). In that event, federal courts "revert to the independent harmless error analysis" they "would
apply had there been no state court holding." Id. That harmless error analysis requires resort to the
standard described in Brecht v. Abrahamson, 507 U.S. 619, 113 S. Ct. 1710, 123 L. Ed. 2d 353
(1993), [*83] namely that an error is not harmless if it has a "substantial an injurious effect or
influence in determining the jury's verdict." Id. at 637. The federal habeas review process requires a
two-step analysis:
To grant relief where a state court has determined that a constitutional error was
harmless, we must both determine (1) that the state court's decision was "contrary to"
or an "unreasonable application" of Supreme Court harmless error precedent, and (2)
that the petitioner suffered prejudice under Brecht from the constitutional error.

Inthavong, 420 F.3d at 1059.
Making the initial "contrary to" or "unreasonable application" determinations, however, are
somewhat hampered where the state court merits decision is unaccompanied by any ratio decidendi,
as is the case at bar. See Greene v. Lambert, 288 F.3d 1081, 1088-89 (9th Cir. 2002); Delgado v.
Lewis, 223 F.3d 976, 982 (9th Cir. 2000). "When a state court does not furnish a basis for its
reasoning, [a reviewing court has] no basis other than the record for knowing whether the state
court correctly identified the governing legal principle into a new context." Delgado, 223 F. 3d at
981-82. The solution devised by the Ninth Circuit for [*84] this dilemma is for federal reviewing
courts to undertake "independent review" of the record. Id.; accord Bailey v. Newland, 263 F.3d
1022, 1028 (9th Cir. 2001). The Ninth Circuit has cautioned, however, that federal habeas review in
these circumstances is not de novo. Delgado, 223 F.3d at 982. Although a federal court is to
undertake independent review of the record in the absence of a reasoned state court decision, the
federal court must "still defer to the state court's ultimate decision." Pirtle v. Morgan, 313 F.3d
1160, 1167 (9th Cir. 2003). Since the state court decision cannot furnish any analytical foundation,
the focus of this review is on Supreme Court cases for purposes of determining "whether the state
court's resolution of the case constituted an unreasonable application of clearly established federal
law." See Greene v. Lambert, 288 F.3d 1081, 1089 (2001). Federal district courts within the Ninth
Circuit also look to Ninth Circuit law for persuasive authority in applying Supreme Court law and
in determining whether a particular state court decision is an "unreasonable application" of Supreme
Court precedent. Davis v. Woodford, 384 F.3d 628, 638 (9th Cir. 2004).
B. Standard [*85] for Determining Presumption of Correctness of State Court Rulings on
Factual Issues.
A corollary to the standard for evaluating whether the state court application of federal law is
unreasonable is the standard for determining the presumption of correctness of state court rulings.
This standard addresses the finding of facts by state court tribunals. Under subsection (d)(2) of §
2254, an application for a writ of habeas corpus cannot be granted on factual grounds unless the
state court adjudication "resulted in a decision that was based on an unreasonable determination of
the facts in light of the evidence presented in the State court proceeding." Subsection (e)(1) of §
2254 further clarifies that a state court determination of a factual issue is "presumed to be correct,"
with the applicant bearing "the burden of rebutting the presumption of correctness by clear and

Page 33
2007 U.S. Dist. LEXIS 51738, *

convincing evidence." In a situation where the state court post-conviction denial does not supply a
reasoned analysis for the decision, and no evidentiary development was permitted in advance of
that denial, the Ninth Circuit indicates that the AEDPA standard of review is inapplicable. See
Killian v. Poole, 282 F.3d 1204 (9th Cir. 2002).
For [*86] claims for which no adjudication on the merits in state court was possible,
however, AEDPA's standard of review does not apply. Hence AEDPA deference does
not apply to Killian's perjury claim in this case because the state courts could not have
made a proper determination on the merits. Evidence of the perjury, after all, was
adduced only at the hearing before the [federal] magistrate judge. Having refused
Killian an evidentiary hearing on that matter, the state cannot argue now that the
normal AEDPA deference is owed the factual determination of the California courts.
See Weaver v. Thompson, 197 F.3d 359, 363 (9th Cir. 1999) (less deference accorded
where the state court fails to make finding of fact); cf Michael Williams v. Taylor, 529
U.S. 420, 444, 120 S. Ct. 1479, 146 L. Ed. 2d 435 (2000) (state court denial of
evidentiary hearing establishes cognizable cause for procedural default in not
presenting claims to state court).

Id. at 1207-08 (emphasis added).
In light of this precedent, the Court will apply the presumption of correctness under subsection
(e)(1) of § 2254, only as to state court factual decisions rendered after receiving and evaluating
relevant evidence. Otherwise, the [*87] Court will, as instructed by the Ninth Circuit in Delgado
and its progeny, undertake an independent review of the record to determine whether the state court
conclusions that bear on factual issues were reasonable under § 2254(d)(2).
C. Applicable Standard for Granting an Evidentiary Hearing.
The standard for granting an evidentiary hearing requires Berryman to make a preliminary
showing he is entitled to relief if the facts alleged can be proved.
A habeas petitioner is entitled to an evidentiary hearing as a matter of right on a
claim where the facts are disputed if two conditions are met: (1) the petitioner's
allegations would, if proved, entitle him to relief; and (2) the state court trier of fact has
not, after a full and fair hearing, reliably found the relevant facts.

Jones v. Wood, 114 F.3d 1002, 1010 (9th Cir. 1997) (citing Hendricks v. Vasquez, 974 F.2d 1099,
1103 (9th Cir. 1992)); see Rich v. Calderon, 187 F.3d 1064, 1067-68 (9th Cir. 1999); Caro v.
Calderon, 165 F.3d 1223, 1226 (9th Cir. 1999); Correll v. Stewart, 137 F.3d 1404, 1411 (9th Cir.
1998). See also Townsend v. Sain, 372 U.S. 293, 312, 83 S. Ct. 745, 9 L. Ed. 2d 770 (1963),
overruled in part, Keeney v. Tamayo-Reyes, 504 U.S. 1, 112 S. Ct. 1715, 118 L. Ed. 2d 318 (1992).
[*88] The first prong commonly is referred to as the requirement of asserting a "colorable claim."
Siripongs v. Calderon, 35 F.3d 1308, 1310 (9th Cir. 1994). The six factors identified in Townsend
v. Sain inform the judicial evaluation of the second prong of this test. When any one or more of
these factors is present, the state court trier of fact has not reliably found the relevant facts:
1. the merits of the factual dispute were not resolved in the state hearing;

Page 34
2007 U.S. Dist. LEXIS 51738, *

2. the state factual determination is not fairly supported by the record as a whole;
3. the factfinding procedure employed by the state court was not adequate to afford
a full and fair hearing;
4. there is a substantial allegation of newly discovered evidence;
5. the material facts were not adequately developed at the state court hearing; 51
6. for any reason it appears that the state trier of fact did not afford the habeas
applicant a full and fair hearing.

372 U.S. at 313. In addition to being entitled to an evidentiary hearing as of right when the
petitioner presents a cognizable claim and the state court has not reliably found the relevant facts, a
federal court retains discretionary authority to conduct an evidentiary hearing. Id. 318; [*89] Seidle
v. Merkle, 146 F.3d 750, 753 (9th Cir. 1998).
51 In Tamayo-Reyes, the Court modified Townsend by adopting a stricter standard for
granting an evidentiary hearing under the fifth enumerated factor. Before Tamayo-Reyes, so
long as the petitioner did not deliberately bypass the opportunity to develop facts at the state
level, an evidentiary hearing on federal habeas still was available. See Fay v. Noia, 372 U.S.
391, 438, 83 S. Ct. 822, 9 L. Ed. 2d 837 (1963). Under the standard stated in Tamayo-Reyes, a
habeas petitioner must demonstrate cause for failure to develop facts in the state court
proceedings and actual prejudice resulting therefrom, consistent with the reasoning in
procedural default cases. 504 U.S. at 8, 11. In the absence of cause and prejudice, the habeas
petitioner must demonstrate a fundamental miscarriage of justice, also consistent with the
analysis of procedural default cases. Id. at 12. AEDPA further modified the fifth Townsend
factor, as fully explained in the ensuing text, infra.
As relevant to the present proceedings, the impediment Berryman faces is meeting the
"colorable claim" requirement. A "colorable claim," for purposes of determining entitlement to an
[*90] evidentiary hearing, is a claim which would entitle the petitioner to relief if the facts alleged
were proved. It is indistinguishable from a prima facie case under California law. 52 More than just
the allegations in the petition, however, must be considered when determining the existence of a
colorable or prima facie claim for federal habeas purposes. The Court will look to the entire record,
including the evidence adduced at trial and the numerous offers of proof developed post-conviction,
to assess whether any of Berryman's claims are "colorable." In the recent Ninth Circuit case, Earp v.
Ornoski, 431 F.3d 1158 (9th Cir. 2005), the court refers to the "colorable claim" standard as having
a "low bar." Id. at 1170. In the context of the opinion, however, this description refers not to
persuasiveness of the evidence, but to the form of the evidence. Thus, the "low bar" language does
not signify that the offers of proof need not be persuasive of a petitioner's entitlement to relief.
52 In California, where summary denials by the California Supreme Court are routine on
habeas corpus cases, the state court action signals its finding that all of the claims in the
petition failed to state [*91] a prima facie case. See In re Robbins, 18 Cal. 4th 770, 814, n.
34, 77 Cal. Rptr. 2d 153, 959 P.2d 311 (1998); People v. Duvall, 9 Cal. 4th 464, 474-75, 37
Cal. Rptr. 2d 259, 886 P.2d 1252 (1995); In re Clark, 5 Cal. 4th 750, 769, n. 9, 21 Cal. Rptr.
2d 509, 855 P.2d 729 (1993).

Page 35
2007 U.S. Dist. LEXIS 51738, *

In that case, the petitioner, Earp, presented significant declaration testimony in support of his
claim that the trial prosecutor committed prejudicial misconduct. Specifically, Earp's trial defense
team had located a witness who would have cast great doubt on the veracity of the chief prosecution
witness, including pointing the finger at that prosecution witness as the perpetrator of the crime for
which Earp was convicted (the rape and murder of a toddler). The proffered declaration testimony
not only deflected blame from Earp, but also described how the witness was strong-armed by the
prosecution and law enforcement to recant his own story to defense investigators. The Ninth Circuit
found the evidence submitted was substantial enough to have warranted an evidentiary hearing in
state court, and definitely should have resulted in an evidentiary hearing before the district court. Id.
at 1169. The district court, [*92] however, denied Earp an evidentiary hearing on the grounds that
statements of the defense witnesses were "inherently untrustworthy and not worthy of belief." Id.
(internal quotes omitted). This was error. The appellate court held, in circumstances where
declarations are submitted as offers of proof for an evidentiary hearing, the veracity of the
declarants cannot be determined without conducting a hearing where witness credibility and
demeanor can be assessed by the judge. Id. at 1170.
In specifically mentioned the colorable claim requirement, the court noted that Earp had only to
raise allegations that would support his prosecutorial misconduct claim; he did not actually have to
prove the prosecution committed misconduct. Id. (citing Phillips v. Woodford, 267 F.3d 966, 973
(9th Cir. 2001). Although the credibility and colorable claim issues are discussed separately, they
are components of a single concept. Earp presented allegations, which if established, would warrant
relief under the theory of prosecutorial misconduct. The allegations were comprised in part of the
proffered declarations. The key to establishing entitlement to an evidentiary hearing is whether the
allegations point [*93] to grounds for relief. The form of the allegations is less crucial than the
substance, although, the form of the allegations isn't completely discounted. As noted above, the
allegations and proffered evidence also must be evaluated against the evidence in the record and
against counter evidence proffered by the Warden.
V. Berryman's Assertion He Was Denied Constitutionally Effective Counsel on Account of
the State Courts' Treatment of his Marsden Motions (Claims 1, 2, and 3).
Three claims fall within Berryman's assertion he was deprived his constitutional rights on
account of the state courts' treatment of his motions under People v. Marsden, 2 Cal. 3d 118, 84
Cal. Rptr. 156, 465 P.2d 44 (1970). In Claim 1, Berryman challenges the trial court's denial of his
motions, thus leaving him with counsel who did not adequately advocate and protect his interests.
Claim 2 alleges a conflict of interest by counsel because Berryman was represented at the Marsden
hearings by Mr. Soria, the very attorney he wanted replaced. Claim 3, which is closely related to
Claim 2, alleges trial error for the trial court's failure to appoint independent counsel sua sponte at
the Marsden hearings. Berryman requests [*94] an evidentiary hearing with respect to Claim 2.
A. Statement of the Facts Relevant to the Marsden Claims.
Berryman made his initial Marsden motion orally, on December 15, 1987, at the culmination of
the hearing on a prosecution motion to obtain from him, blood, hair, and saliva samples. The judge
presiding set a hearing on Berryman's Marsden motion for the following Thursday, December 17,
1987, before another judge, who it turns out was the eventual trial judge. At the hearing, Berryman
complained that Mr. Soria failed to call a witness at the preliminary examination hearing he
(Berryman) had requested, that Mr. Soria told other jail inmates he (Mr. Soria) believed Berryman
was guilty, and that Mr. Soria was in complicity with the prosecutor, Lisa Green, 53 to obtain his

Page 36
2007 U.S. Dist. LEXIS 51738, *

conviction. In response, Mr. Soria denied telling other inmate clients he thought Berryman was
guilty, although he did inquire of them about how they perceived Berryman was adjusting to the
jail. In addition, Mr. Soria reported that his relationship with Berryman had been poor all along
because Berryman wanted a Los Angeles attorney to represent him, but the family could not afford
one. The trial court denied the Marsden [*95] motion, finding no incompetence for counsel's
failure to present defense witnesses at the preliminary examination hearing, that jailhouse gossip
was rarely beneficial, and that the court was certain no conspiracy existed between Mr. Soria and
Ms. Green. In fact, the judge explained in detail how Mr. Soria had presented a forceful discovery
motion which at first was vigorously resisted, only to have the prosecutor ultimately accede. 1MRT:
2-10.
53 Ms. Green originally was assigned to prosecute Berryman's case in September 1987.
Sometime after June 1988, Mr. Moench was assigned to take Ms. Green's place because she
took maternity leave.
The second Marsden motion hearing was conducted over two days, May 5 and 9, 1988, before a
different judge, and based on a memorandum of points and authorities dated May 3, 1988 filed by
Mr. Soria and supported by a declaration over his signature. 54 In pertinent part, the motion recites:
Berryman "does not feel that court appointed counsel can effectively represent him and that there is
a conflict between him and this counsel that will not allow counsel to competently represent him
effectively." Mr. Soria's supporting declaration relates that Berryman wished [*96] to address the
court about the basis for his dissatisfaction with counsel. During the first day of the hearing, on
Thursday, May 5, 1988, the major conflict aired at this proceeding had to do with trial strategy and
forensic testing of body fluid specimens. Messrs. Soria and Peterson had apparently settled on trial
strategy that although Berryman may have been responsible for the homicide of Ms. Hildreth, the
charged sexual contact was consensual, and thus, there was no rape to make Berryman death
eligible. Berryman, on the other hand, wanted to proceed with a total denial defense, that he had not
even been present at the crime scene, even in the face of substantial circumstantial evidence
developed by the prosecution to the contrary. 55 While Mr. Soria was explaining this position,
Berryman interrupted the presentation and exclaimed, "Because I wasn't out there."
54 By This time, second counsel, George Peterson, had been appointed -- on April 6, 1988.
55 Specifically, Mr. Soria mentioned tire tracks, a portion of a gold chain necklace, and shoe
prints connecting Berryman to the scene of the crime. Mr. Soria also informed the trial judge
that a prosecution witness was prepared to testify [*97] she believed she saw Berryman's
truck near the location where Ms. Hildreth was killed. All of this evidence, in fact, was
presented at trial.
The confusing part of the hearing presentation came when Mr. Soria was describing problems
the defense team had encountered with DNA testing of samples taken from the victim's vaginal
swab specimen in comparison with blood and saliva specimens eventually obtained from Berryman.
Mr. Soria started out by saying that specimens from the victim had been sent to a laboratory in New
Jersey, but that the laboratory had misplaced the specimens. (In fact, as the record reveals, the
laboratory was in Valhalla, New York, and went by the name of Life Codes.) Because of the
reported loss of the specimens, Mr. Soria directed his investigator to fly out to New Jersey (New
York) to retrieve the specimens. Unfortunately, Mr. Soria continued, the investigator missed his
connection in Santa Barbara or Los Angeles, but in the meantime, the laboratory employee called

Page 37
2007 U.S. Dist. LEXIS 51738, *

back to say that the specimens had been located. Following this discovery, Mr. Soria directed that
the specimens be mailed to another laboratory in Southern California.
The veracity of this scenario was [*98] undermined when Berryman was allowed to speak and
he produced a letter he received from an employee at Life Codes Laboratory saying that the
laboratory never lost the specimens -- rather the specimens were sent without any written
instructions as to what tests to perform. Mr. Soria than had to back pedal and point out that the
letter Berryman received was explainable by the fact that all communications between counsel and
the laboratory had been verbal. The defense team didn't want testing on the specimens to take place
(again, these are body fluid specimens from Berryman and the vaginal swab specimen from the
victim) until after the prosecution laboratory in Oakland, California completed its testing. Once that
testing was done, then the defense team wanted to conduct its own testing. According to Mr. Soria,
when he received notice that the prosecution laboratory completed its testing, and in fact could not
identify Berryman as the source of the semen found on the victim's vaginal swab specimen, he then
called the New Jersey (New York) laboratory and learned the specimens were missing (a fact
Berryman vigorously disputed at the hearing).
A second specimen also was discussed at the hearing, [*99] separate and apart from the semen
taken from the victim's vaginal swab specimen, and that was blood found on the shoe lace of one of
Berryman's Brooks athletic shoes as well as blood on the canvas of one of his shoes (hereafter the
"blood-stain evidence"). Mr. Soria described this as the most damaging evidence because the
prosecution laboratory detected a genetic marker unique to the victim and that is what he
understood the prosecution intended to rely upon to place Berryman at the scene of the crime. 56 He
stated that no testing of the blood-stain evidence had yet been conducted by the defense. 57
56 As the recitation of the facts discloses, there were numerous circumstantial indicators in
evidence placing Berryman at the scene of the crime, which Mr. Soria mentioned when
explaining the divergent strategies Berryman and his attorneys wanted to follow.
57 As set forth in the factual summary, the prosecution serologist who analyzed the bloodstain evidence testified at trial that there wasn't a sufficient quantity to turn over any bloodstain evidence to the defense after the prosecution tested it. However, Mr. Soria's statement
that no defense testing had been conducted yet implies that [*100] the defense team planned
to do so. If the serologist trial testimony was accurate, there was nothing for the defense to
test, contrary to Mr. Soria's suggestion. This conflict is not explained or addressed by the
parties.
The other matter that was particularly irksome to Berryman was Mr. Soria's failure to obtain
Berryman's personal belongings from his Mitsubishi pick up truck before the truck was released to
the finance company (on a writ of possession). Berryman reported that Mr. Soria told him he (Mr.
Soria) didn't have to get his "junk." At the hearing Berryman also reiterated his suspicion that Mr.
Soria and the prosecutor (Ms. Green) "got something going on and [he] would like both of them
dismissed from [his] case."
The court was concerned that without laboratory test results on the specimens, it was really too
early to determine a trial strategy. There was considerable discussion about testing the specimens
mailed back from the New Jersey (New York) laboratory -- but from the context of the discussion,
it also is clear that the court had in mind the blood-stain evidence with the clear genetic markers
rather than the semen on the victim's vaginal swab specimen. Since Mr. Soria [*101] had
represented the prosecution laboratory could not identify Berryman as the source of the seminal

Page 38
2007 U.S. Dist. LEXIS 51738, *

fluid on the victim's vaginal swab, the trial court ascribed greater significance to the genetic marker
said to have been detected by the prosecution in the blood-stain evidence. The court also subtly
reprimanded Mr. Soria and his investigator for not recovering Berryman's personal belongings from
the pick up truck. The trial court directed counsel to find out about the status of the testing and to
retrieve Berryman's personal belongings prior to the continuation of the hearing on Monday, May 9,
1988. Supp.MRT:3-21.
At the reconvened hearing, much of the proceeding was taken up with discussing Berryman's
back injury, his need for a wheelchair in order to be ambulatory, and the fact that Mr. Soria was
unable to visit him in jail since the last hearing on account of his non-ambulatory status. With
respect to Berryman's personal belongings left in his truck, Mr. Soria stated that his investigator
attempted to contact both the prosecution criminalist, Mr. Laskowski, who would not turn anything
over, and an employee of the finance company, with whom there was no meaningful discussion.
The [*102] status of the laboratory testing was simply that the vaginal swab and Berryman's bodily
fluid specimens originally in the possession of the New Jersey (New York) laboratory were
transferred to a laboratory in Southern California, but due to a backlog there, in turn were
transferred to another laboratory run by a criminalist who ultimately testified for the defense. At the
time of this hearing, the defense criminalist had not yet performed any tests on the specimens. The
criminalist recommended a DNA expert in northern California to conduct further more complicated
DNA testing -- possibly to eliminate Berryman as the source of the semen found in the vaginal
swab specimen. Mr. Soria posited that the same DNA testing might be performed on the blood-stain
evidence, but that the specimen was still with the prosecution forensic people and a court order was
needed to transfer it to the defense team. 58 The court, mainly focusing on the blood-stain evidence,
indicated that until the test results were complete, trial strategy determinations were premature. In
ruling on the Marsden motion, the court found that Mr. Soria was not a fault for the mix-up with
Life Codes Laboratory. The court further [*103] found Mr. Soria and Mr. Peterson competent in
their representation and that the major source of Berryman's dissatisfaction had to do with the
failure of his attorneys to recover his personal belongings from the truck. Those items, however,
were not considered to have any evidentiary value. 59 Since Mr. Soria represented that the defense
team would be recovering those belongings, the motion to remove counsel was denied. 2MRT: 315.
58 In light of the testimony of the prosecution serologist mentioned in the preceding
footnote, 57, supra, Mr. Soria's suggestion that further defense testing would be considered
for the blood-stain evidence appears to based on misinformation or misrepresentation. Again,
neither party addresses this discrepancy in Mr. Soria's representations.
59 As is set out below in the summary of Berryman's contentions, he argues two bibles
found in the truck did have evidentiary value.
One of two declarations over the signature of investigator Bruce Binns which Mr. Soria
submitted to the court on May 9, 1988 60 specifically addresses efforts of the defense team to recover
Berryman's personal belongings from his repossessed Mitsubishi pick up truck. Those efforts were
undertaken [*104] by an employee, Doug Lemmons, of the defense investigator Bruce Binns.
About a month after Berryman's truck was released to the finance company (following a hearing on
a writ of possession conducted on March 3, 1988), Mr. Lemmons attempted to track down the nowrepossessed pick up truck to ascertain the location of the personality. He received a run-around
from the dealer in possession. Mr. Lemmons also attempted to find out if anyone from the state
might have removed personalty from the truck before Mitsubishi took possession of it. The person

Page 39
2007 U.S. Dist. LEXIS 51738, *

in charge was the prosecution criminalist Mr. Laskowski. Mr. Lemmons left a message for Mr.
Laskowski on April 12, 1988 and followed up on May 5, 1988. Mr. Laskowski said he had no
personalty from the truck. Also, on May 5, 1988, Mr. Lemmons followed up with the dealer, who
said he would call back after checking. The dealer, however, did not return Mr. Lemmons' call.
Earlier, on March 17, 1988, Mr. Lemmons had contacted Deputy District Attorney Lisa Green. At
that time, Ms. Green, Mr. Laskowski, and District Attorney Investigator Mike Mara all reported
that they had no authority to release personalty from the truck. On March 21, 1988, Mr. Lemmons
[*105] reported his findings to Mr. Soria and Mr. Soria told Mr. Lemmons not to spend any more
time on the matter. Finally, on May 6, 1988 Mr. Lemmons received a call from the dealer who gave
him the telephone number of the actual recovery company. The recovery company insisted on
having a notarized authorization signed by the Berryman or a court order before property would be
released. 61 The recovery company, however, refused to provide an address, although there was an
appointment for May 10, 1988 to return property. It is unknown whether the personalty in the pick
up truck ever was recovered. Presumably it was not, in as much as other evidence in the record
indicates that the personalty of greatest significance, two bibles, was noted by investigating
detective Mike Lage, but never introduced into evidence. 62 DEC-B1.
60 Both of Mr. Binns' declarations were made part of the state record on a motion by the
State of California before the California Supreme Court during record certification. They are
lodged by the Warden in the state record as DEC-B1 and DEC-B2.
61 In fact, the judge had issued such an order on May 6, 1988.
62 Although Detective Lage was called on to testify in the guilt phase [*106] defense case,
he was not asked about the bibles (or any other personalty found in the truck).
The other declaration, executed by Bruce Binns, provides an explanation about efforts Mr.
Binns personally made to track the bodily fluid and hair specimens taken from Berryman and the
vaginal swab specimen taken from the victim from Life Codes in New York. His account is
consistent with both Mr. Soria's representations about Life Codes having misplaced the specimens
and the letter Berryman presented to the effect that no written request for specific testing had been
transmitted. Specifically, Mr. Binns states that he was in telephone contact with the manager of Life
Codes and when the specimens were first transmitted, the manager was asked to store the
specimens in the freezer. One week later, however, on March 7, 1988, Mr. Binns contacted the
manager and "gave permission to run DNA prints" on the specimens. In April, Mr. Binns' assistant,
Mr. Lemmons, was instructed to call Life Codes to ascertain the results of the testing, and it was at
that time that Mr. Lemmons was told the specimens could not be located. When the director (as
opposed to the manager) of Life Codes informed Mr. Lemmons [*107] there was no log of receipt
of the specimens, Mr. Binns made plans to go to New York to straighten out the matter in person.
The rest of his declaratory explanation is consistent with Mr. Soria's representations to the trial
court. DEC-B2.
As relevant to forensic testing, a third in camera hearing, conducted during the actual trial
proceedings, on October 4, 1988, revealed that Mr. Soria still intended to conduct further tests on
the blood-stain evidence (from Berryman's shoe). In spite of the prosecution serologist testimony to
the contrary, Mr. Soria told the trial court that the blood-stain evidence had been delivered to a
DNA specialist to determine, conclusively, whether the blood-stain evidence could be connected to
the victim. Mr. Soria continued that the testing was not, at that time, complete. He represented to
the court that the defense would call the DNA specialist to testify if the test results showed that the
blood was not the victim's, but would not if he confirmed it was hers or if the results were

Page 40
2007 U.S. Dist. LEXIS 51738, *

inconclusive. In fact, the specialist was not called to testify, leading to the understanding that either
the blood-stain evidence could not be ruled out as belonging to the [*108] victim, or more likely,
no testing could be conducted because all of sample had been used up during testing by the
prosecution serologist. 63
63 No documentation for work conducted by this DNA specialist is referenced by either
party, and the Court observed none in its review of the record.
In addition to the two actual Marsden hearings, Berryman has complained about the
representation he received from his lawyers on three more occasions prior to his sentencing. First,
members of his family, on his behalf, complained bitterly to the court that Berryman's lawyers were
incompetent and inexperienced. These sentiments were expressed during a hearing following an
outburst by family members directed at Berryman's jurors during penalty proceedings. The facts
surrounding this incident are more fully discussed in connection with the analysis of Claims 73 and
74. See Part XXII, infra.
The second post-Marsden hearing occasion where Berryman expressed his dissatisfaction with
appointed counsel was to the probation officer who prepared his pre-sentence report. 64 According to
the probation officer, Berryman said that he did not commit the offenses for which he had been
convicted and believed he was [*109] found guilty because his lawyers did not represent him very
well. Berryman further relayed to the probation officer that he felt his attorneys "did not bring up
some things about his case that would have helped him," although he declined to specify what those
things were.
64 The probation officer's report is part of the state record lodged by the Warden.
Third, Berryman complained at his actual sentencing on November 28, 1988. He remarked:
There's a lot of things that I feel that my lawyers could have done in this case, but,
you know, I just feel that he didn't represent me properly, [P] I asked to get rid of him a
couple of times, but you all wouldn't let me -- not you, but the other judges wouldn't
relieve him, so I had to stick with him, and we had a conflict of interest between us
since day one. [P] And just on that, I feel I had an unfair trial.

The final relevant fact to the Marsden motions is the legal opinion of Strickland expert Stanley
Simrin 65 in a declaration executed June 4, 2001 and appended to Berryman's evidentiary hearing
motion. Mr. Simrin opines that when Berryman presented his Marsden motions, the trial judges
should have appointed independent counsel to question Mr. [*110] Soria. Mr. Simrin believes the
appointment of independent counsel was compelled because Mr. Soria provided the only testimony
credited by the presiding trial judges.
65 Although his declaration discloses he is a long time practitioner in Bakersfield, no
recitation of qualifications or a curriculum vitae are provided for Mr. Simrin.
B. Berryman's Contentions.
Two of Berryman's arguments regarding the foregoing factual summary are directed at the state
trial court, and one is directed at his appointed counsel. He maintains the trial court deprived him of

Page 41
2007 U.S. Dist. LEXIS 51738, *

his constitutional rights by failing to grant his motion for replacement counsel (Claim 1) and not,
sua sponte, appointing independent counsel to represent him at the Marsden hearings (Claim 3). He
assails his appointed attorneys for continuing to represent him at these hearings even though they
labored under a conflict of interest, also in violation of his constitutional rights. (Claim 2.) He
requests an evidentiary hearing regarding the conflict of interest claim, and although he doesn't
spell out precisely what evidence he wants to develop, the Court understands that he seeks to
explore the nature and extent of the alleged conflict of [*111] interest suffered by counsel.
The primary justification Berryman advances for assigning error to the trial court's denial of his
Marsden motions is the court's failure to adequately inquire into the extent of the breakdown in
attorney-client relationship. He claims that what began in December 1987 as a serious breakdown in
the attorney-client relationship evolved into an "irreconcilable conflict" by May 1988 as to
appropriate defense strategy. Berryman maintains the trial court hearings did not permit full
development of the existence of this conflict.
The problem is said to have been Mr. Soria's pretrial preparation and investigation. Since
favorable laboratory results on the victim's vaginal swab would have advanced the total denial
defense favored by Berryman, Mr. Soria's failure to request testing from the Life Codes Laboratory
in New York promptly was particularly maddening to Berryman. Mr. Soria was unprepared for trial
because of his failure to resolve the serology question, without which it was impossible to agree on
an appropriate defense strategy. Mr. Soria's cover-up of his mishandling of the specimen issue and
his mismanagement of the retrieval of Berryman's personal belongings [*112] from the truck were
cause for engendering further distrust by Berryman. Berryman contends the procrastination of the
defense team in having the blood-stain evidence tested was equally irresponsible and contributory
to the continued breakdown in the attorney-client relationship. Ultimately, and certainly before the
commencement of the actual trial proceedings, in August 1988, Berryman contends he was unable
and unwilling to confide and communicate in his attorneys. The most promising defense, that
Berryman was responsible for Ms. Hildreth's death, but did not commit rape or murder (as opposed
to manslaughter), was sacrificed in order to mollify Berryman's complaints, with disastrous results.
Berryman equates these facts to the situation in Johnson v. Baldwin, 114 F.3d 835, 838-39 (9th Cir.
1997), where the court found ineffective assistance of counsel for counsel's failure to investigate his
client's false and "incredibly lame" denial defense. Berryman claims the only reason trial counsel
originally agreed to advance the lack of identity defense was that the serology results had not been
obtained. By that time Berryman's trust and confidence were gone.
He also notes that the personal [*113] belongings never retrieved from his truck, namely the
two bibles previously mentioned, were important to his case. At penalty proceedings, these bibles
could have been, but were not, offered to show that his Christian beliefs were honestly and
genuinely held. He claims this information could have mitigated his sentence.
Berryman stresses that he repeatedly raised his argument that his attorneys were not effectively
representing him. He not only advanced Marsden motions on two occasions before the trial, but his
family complained of the incompetence of counsel after the guilt proceedings concluded and
Berryman again raised the issue to the probation officer (who prepared the pre-sentence report) and
to the judge at sentencing.
Berryman argues that under Ninth Circuit authority a defendant's motion to substitute counsel
should be granted where the defendant makes a showing the attorney sought to be replaced was
incompetent for failure to conduct timely investigation, citing, Johnson v. Baldwin, 114 F.3d 835.
He claims the trial court (as well as the California Supreme Court) seriously erred for ignoring his

Page 42
2007 U.S. Dist. LEXIS 51738, *

complaints and that his attorneys were seriously incompetent for not promptly having [*114]
forensic materials tested. He further argues no presumption of correctness should attach because the
state court findings are unsupported by the record.
Because of the failure to timely conduct testing of forensic evidence, an appropriate strategy
could not be devised. The defense strategy ultimately followed, a combination of a total denial
defense, the contention that the offense was not first degree murder, and the theory there was no
rape, was improbable, unbelievable and "doomed to failure." Berryman argues that had Mr. Soria
conducted a prompt investigation (ultimately producing negative results for the total denial
defense), attorney-client communications would have improved and Berryman would have acceded
to a reasonable defense of voluntary intercourse and an unintentional homicide following a "verbal
altercation which escalated [in]to a violent confrontation."
Separate and apart from the failure of the trial court (involving two different judges) to grant his
Marsden motions, Berryman argues that Mr. Soria's representation of his (Berryman's) interests at
the hearing is grounds for finding a conflict of interest. In light of this, he claims the trial court
judges should have, [*115] sua sponte, appointed independent counsel to represent Berryman at the
Marsden hearings and that appointment of separate counsel is supported by United States v. Del
Muro, 87 F.3d 1078, 1080 (9th Cir. 1996). The procedure actually followed placed Mr. Soria in the
untenable position of having to question "his own professional competence" when arguing for the
substitution of counsel. Further, had the trial court appointed separate Marsden counsel, the
mishandling of the laboratory testing would have been uncovered. The defense investigation
problems were not brought to light by Messrs. Soria and Peterson "because they had a vested
interest in not disclosing their own lack of preparation." Under Cuyler v. Sullivan, 446 U.S. 335,
100 S. Ct. 1708, 64 L. Ed. 2d 333 (1980), Berryman claims he is not required to show prejudice
once he demonstrates a conflict of interest.
C. Analysis.
The California Supreme Court held in People v. Marsden, 2 Cal. 3d 118, 84 Cal. Rptr. 156, 465
P.2d 44 (1970) that an indigent criminal defendant may request the trial court to discharge
appointed counsel and substitute new counsel if the defendant's right to counsel otherwise would be
substantially impaired due [*116] to professional incompetence of the original attorney. Id. at 123.
Because a Marsden motion implicates Berryman's Sixth Amendment right to counsel, the claim is
cognizable on federal habeas corpus. See Hudson v. Rushen, 686 F.2d 826, 829 (1982). To prevail
in habeas corpus proceedings on his Marsden challenge, Berryman must demonstrate that the denial
violated his constitutional rights because the conflict between him and his attorneys prevented
effective assistance of counsel as required by the Sixth Amendment. Schell v. Witek, 218 F. 3d 1017,
1026 (9th Cir. 2000) (en banc). The first step in analyzing these claims is to review the adequacy of
the state trial court hearings. Id. at 1025. Second is assessing whether the trial court's failure to
appoint and trial counsel's failure to request independent counsel violated Berryman's constitutional
rights. The third step entails an assessment of whether counsel's representation of Berryman at the
Marsden hearings was marred by an actual conflict of interest, which Berryman contends would
entitle him to habeas relief without showing prejudice. See Cuyler v. Sullivan, 446 U.S. at 349. In
the absence of a conflict of interest, the final step [*117] is determining whether the alleged
representational inadequacies resulted in prejudice. With respect to each of these steps, and the to
extent the state courts have issued reasoned decisions, AEDPA requires deference to those state
decisions under 28 U.S.C. § 2254(d)(1) and (2).

Page 43
2007 U.S. Dist. LEXIS 51738, *

1. Adequacy of the State Trial Court Hearings.
"An accused's right to be represented by counsel is a fundamental component of our criminal
justice system," United States v. Cronic, 466 U.S. 648, 653, 104 S. Ct. 2039, 80 L. Ed. 2d 657
(1984). To give effect to this right, the accused must receive "a reasonably competent attorney,
whose advice is within the range of competence demanded of attorneys in criminal cases." Id. at
655 (quoting McMann v. Richardson, 397 U.S. 759, 770, 90 S. Ct. 1441, 25 L. Ed. 2d 763 (1970))
(internal quotations omitted). With respect to indigent defendants, the Sixth Amendment requires
more than the mere appointment of counsel. "The right to counsel prevents the States from
conducting trials at which persons who face incarceration must defend themselves without adequate
legal assistance." Cuyler v. Sullivan, 446 U.S. at 344. Accordingly, the adequacy of the state trial
court hearing [*118] for substitution of counsel is measured by the extent to which the trial court
explored the nature and extent of the conflict between defendant and appointed counsel. The
ultimate issue is whether "the conflict deprived [the defendant] of the representation to which he
was entitled by the Sixth Amendment." Schell, 218 F.3d at 1027. This is precisely the standard
applied by California courts under Marsden. Under California law, in order to "thoughtfully
exercise its discretion in this matter," the trial court must permit the defendant to specify the reasons
"for requesting a change of attorneys." 2 Cal. 3d at 123.
Determining the existence of a conflict, even an irreconcilable conflict, however, does not
entitle an indigent defendant to substitute counsel in all situations, even where the motion is timely.
This follows from the fact that indigent defendants, like Berryman, have no right to "a meaningful
relationship" with appointed counsel; rather they are entitled to "competent representation." Schell,
218 F.3d at 1026 (citing Morris v. Slappy, 461 U.S. 1, 13-14, 103 S. Ct. 1610, 75 L. Ed. 2d 610
(1983)). Accordingly, a mere personality conflict, or even a strategy disagreement concerning
[*119] a matter committed to the judgment of the attorney does not result in the abridgement of the
right to effective counsel. Id. Sometimes, the inquiry by the trial court is whether the defendant
himself has "sabotaged the [attorney-client] relationship or failed to make reasonable efforts on his
end to develop the relationship." Id. at 1027.
The California Supreme Court analyzed the assignment of error to the trial court's failure to
grant Berryman's Marsden motion on direct appeal. With respect to Berryman's initial motion in
December 1987, the court found that Berryman and Mr. Soria were not "embroiled in such an
irreconcilable conflict that ineffective assistance of counsel in violation of the Sixth Amendment
was likely to result." People v. Berryman, 6 Cal. 4th at 1070 (internal quotation marks and brackets
omitted). The court specifically found that Berryman's lack of trust and inability to get along with
Mr. Soria were insufficient to meet the constitutional standard. Id. The court then summarily
dispatched Berryman's claim regarding the May 1988 motion, concluding, "[t]o the extent that he
may be understood to assert that the [trial] court erred by denying a similar motion he made [*120]
on May 5, 1988, he is not persuasive." Id. at 1070-71 (footnote omitted). The corollary claims that
the trial court erred for failure to sua sponte appoint independent counsel and appointed counsel
were ineffective for failure to request appointment of independent counsel at the Marsden hearings
were denied summarily on Berryman's initial state habeas petition.
In the present case, Berryman does not argue that the state courts invoked the wrong legal
principles. See 28 U.S.C. § 2254(d)(1). Rather, Berryman argues that the trial court (in the two
hearings) failed to inquire adequately into the extent of the breakdown in the attorney-client
relationship, which he characterizes as "serious" in December 1987 and an "irreconcilable conflict"
by May 1988. This alleged failing implicates the reasonableness of the trial court's application of

Page 44
2007 U.S. Dist. LEXIS 51738, *

clearly established Supreme Court precedent to the facts of Berryman's case under § 2254(d)(1) and
the reasonableness of the trial court's factual determination under § 2254(d)(2).
Neither trial court denial of Berryman's Marsden motions was an unreasonable application of
law or an unreasonable factual determination. Berryman's primary complaint presented [*121]
during the December 1987 hearing was the notion that Mr. Soria actively was working against him.
Support for this contention was comprised of Berryman's complaint about the lack of defense
witnesses called at the preliminary examination hearing, alleged comments Mr. Soria made to other
County Jail inmates about Berryman's guilt, and a perceived conspiracy between Mr. Soria and the
originally assigned prosecutor to obtain Berryman's conviction. After hearing Mr. Soria's
explanation that he had merely asked other inmates how Berryman was adjusting, the trial court
reasonably rejected Berryman's contention, noting that jailhouse gossip was rarely beneficial and
that any cordiality observed between Mr. Soria and Ms. Green followed a vigorously contested
defense discovery motion in which the prosecution ultimately conceded. 66 Since the trial court
denial was reasonable, it follows that the California Supreme Court determination on the same issue
also was reasonable.
66 Berryman does not contend in this proceeding that appointed counsel were in any way
incompetent for failure to call certain witnesses at the preliminary examination hearing, as he
did at the December 1987 Marsden hearing.
Addressing [*122] the May 1988 hearing is more complicated, largely because Berryman's and
Mr. Soria's respective representations to the trial court were contradictory. Indeed, Berryman's chief
complaint regarding the conflict between his attorneys and him was that Mr. Soria had not obtained
the promised forensic testing, and then misrepresented efforts to do so to the trial court. Berryman's
secondary complaint concerns personalty left in his truck (that by the time of the hearing had long
been repossessed). In fact, as the record reveals, there is merit to Berryman's complaints. Mr.
Soria's version of the facts regarding the testing of Ms. Hildreth's vaginal swab specimen against
samples obtained from Berryman was not entirely accurate. Only the subsequently filed declaration
of investigator Bruce Binns explained all of the details. There was a "mix-up" with the laboratory,
but it cannot be said that the laboratory was completely at fault, because as the letter Berryman
provided to the trial court established, Mr. Soria and his investigators in fact did not initially ask the
laboratory to perform any tests. Although the trial court credited Mr. Soria's explanation about the
forensic testing and referred [*123] to the entire set of circumstances as a mix-up that was not Mr.
Soria's fault, the emphasis of that discussion was more focused on the fact that testing was going to
be conducted in California, and that the results of that testing would determine a defense strategy on
which both Berryman and his counsel could agree.
Based on the facts presented at the May 1988 Marsden motion hearing, this Court is compelled
to find that even though Mr. Soria did misrepresent facts to the trial court, the trial court's denial of
the motion was not unreasonable under § 2254(d)(1) or (2). The primary reason is that tests left
unperformed by the New York laboratory were soon to be performed by a laboratory in California.
The trial judge stressed this fact in rendering his decision. Further, a separate specimen, namely a
blood-stained shoelace, was to be tested for genetic markers that the trial judge was told could rule
out Ms. Hildreth as the source of that blood. With this as a back drop, Mr. Soria represented to the
trial court that he and Berryman were conflicted as to what trial strategy to follow, with Berryman
urging total denial of any complicity in Ms. Hildreth's death or sexual assault at all, [*124] and
counsel favoring Berryman acceptance of responsibility for the homicide, but claiming the
homicide was not murder (or at least not first degree murder) because the sex was consensual. Mr.

Page 45
2007 U.S. Dist. LEXIS 51738, *

Soria clearly represented to the trial court that he was still willing to alter his preferred trial strategy
if results favorable to Berryman's total denial defense were returned by either laboratory. Moreover,
in conducting the May 1988 hearing, the presiding judge had the impression that Berryman's main
bone of contention with Mr. Soria (and Mr. Peterson) was centered around the failure to recover his
personal belongings from his truck. Since an order issued by the trial court resolved this matter, and
counsel represented (through their investigator Mr. Binns) that they would retrieve Berryman's
belongings, this issue was considered settled. Whether the belongings were or were or not retrieved,
however, had no bearing on the presentation of evidence at trial (as far as the judge presiding
knew). It is true that no one informed the trial judge of the potential importance the two bibles
found in the truck would have as mitigation evidence during penalty proceedings. As more fully
discussed below [*125] in connection with the analysis of Claim 72. See Part XXXII, infra,
prejudice from failure to actually produce the bibles at the trial was significantly ameliorated
because the fact that the bibles had been found in the truck was brought out at trial.
While it is regrettable that the California Supreme Court did not provide an analysis of its denial
of relief respecting the May 1988 hearing, the omission is not an impediment. Based on the
presentation of the matter to trial court, the trial judge was more than reasonable to conclude that
the trial strategy conflict could be resolved once forensic testing was complete. The judge had no
basis to doubt that favorable forensic test results might still be forthcoming and could resolve the
dispute between Berryman and his counsel about the appropriate defense strategy. The state trial
court decisions were entirely appropriate and reasonable. Under Schell, 218 F.3d 1017, the court
clearly did not ignore the motion or fail adequately to inquire into the nature of the conflict between
Berryman and counsel. See id. at 1025.
In reaching this conclusion, the Court does not overlook the fact that Mr. Soria's representations
about being able to conduct [*126] further testing on the blood-stain evidence appear to be
misrepresentations, whether innocent, negligent, or intentional. By May 1988, when the second
Marsden motion hearings were being conducted, the blood-stain evidence was already used up
during prosecution testing (and defense observation). The Court cannot reconcile the testimony of
the prosecution serologist with Mr. Soria's statements to the Marsden hearing judge in May 1988
that the defense still wanted to conduct further tests of the blood-stain evidence to finally determine
an appropriate defense strategy. Even more perplexing are Mr. Soria's representations to the trial
judge in October 1988 that blood-stain evidence had been delivered to a DNA specialist for further
testing and that the DNA specialist would be called to testify if the results could eliminate Ms.
Hildreth's blood as the source of that blood-stain evidence. Neither the record nor the parties
explain the discrepancy of representations, so the Court cannot make a definitive determination. It
is clear, however, that the Marsden hearing judge at the May 1988 proceedings had no way of
knowing that the blood-stain evidence was used up. Thus, the ruling denying [*127] the Marsden
motion on the grounds that deciding on a defense strategy in advance of forensic testing was
premature cannot be said to be unreasonable, or even erroneous. The discrepancy in representations
about the further testing of the blood-stain evidence is addressed in the discussion of prejudice
arising from presumed incompetent representation. See Part V.C.4, infra.
The Court further distinguishes the present ruling that Berryman suffered no constitutional
violation on account of the Marsden motion denials from the recent Ninth Circuit decision in
Plumlee v. Del Papa, 465 F.3d 910 (9th Cir. 2006), which did find a such constitutional violation.
First and foremost, Plumlee is referred to in the opinion as both an "unusual case" and a case
presenting "extraordinary circumstances." Id. at 913, 924. Second, that holding follows from the
finding that Plumlee "reasonably and in good faith believed that [his appointed attorneys from] the

Page 46
2007 U.S. Dist. LEXIS 51738, *

[] Public Defender's Office were leaking information about his case to another suspect in the case
and to the District Attorney." Id. at 913. Evidence adduced at a state court evidentiary hearing
established that the chief deputy Public Defender was [*128] acquainted with Plumlee's former
roommate, which roommate also was a suspected co-perpetrator in the crime, and Plumlee
reasonably believed the chief deputy and the suspected co-perpetrator had discussed the case. Id. at
913. Separate and apart from that circumstance, the first deputy Public Defender appointed to
represent Plumlee accepted a position with the District Attorney's Office during his representation
of the defendant. Plumlee reasonably believed the attorney-client privilege had been compromised
during that relationship because he told this deputy Public Defender about the potential evidentiary
value of his car to the defense, and thereafter, the vehicle, which was in police custody, was
destroyed. Plus, Plumlee claimed this deputy Public Defender lied about having accepted a job with
the District Attorney's Office. Id. Finally, the second deputy Public Defender assigned to Plumlee's
case denied the existence of a bail order in the case, although it turns out there was one, and when
Plumlee insisted on this fact, the deputy Public Defender told him he (Plumlee) needed psychiatric
treatment. Id. In finding a complete breakdown of the attorney client relationship, the Ninth [*129]
Circuit was influenced by the trial judge's comments and findings that Plumlee's distrust of the
Public Defender's Office was understandable and reasonable, even though the state trial judge also
found no misconduct by members of that office. Id. at 915, 916-17, 921-22. Although there was no
"actual conflict of interest" affecting the performance of the Public Defender deputies, the resulting
distrust produced an irreconcilable conflict and a complete breakdown in communication between
counsel and client" constructively resulting in the deprivation of counsel altogether. Id. at 922. The
Ninth Circuit also was influenced in its holding that the breakdown was not caused by "the
defendant's obstinance or delaying tactics," id., distinguishing other cases where the conflict was of
the defendant's own making. Id. at 924 (citing Schell, 218 F.3d at 1026).
Berryman's case does not rise to this level of extraordinary circumstances. His claim at the
Marsden hearings that Mr. Soria and the prosecutor were involved in a relationship and were
colluding to obtain his conviction was unfounded and the first hearing judge told him so. His belief
in the existence of a conspiracy was not reasonable. [*130] On habeas corpus, Berryman does not
now advance this conspiracy theory as grounds for the claimed irreconcilable breakdown in the
attorney client relationship. Rather he focuses on the attorneys' lack of prompt investigation of the
case through forensic testing and adhering to a viable defense.
The Court also must acknowledge a very recent Ninth Circuit case, Daniels v. Woodford, 428
F.3d 1181 (9th Cir. 2005), which embraces a different analytical model in addressing the trial
court's failure to grant a motion to substitute counsel. In Daniels, the court found an irreconcilable
conflict between the defendant and his attorneys due to the defendant's lack of confidence in their
ability to represent him, and in the case of lead counsel, ties to the District Attorney's Office.
Indeed, the court found appointed counsel to be ineffective for overlooking a viable mental state
defense and putting on a factually unsupportable denial defense. Utilizing the abuse of discretion
review standard previously disapproved by Schell, 218 F.3d 1017, the court found that the
defendant was entitled to habeas relief because the extent of the conflict was beyond repair (largely
due the defendant's clinical [*131] paranoia), the trial court failed to question the appointed
lawyers individually to really address the defendant's concerns, and the motions to substitute
counsel were timely. Because Daniels is a pre-AEDPA case, however, the appellate court there
reviewed the state court conclusions de novo. In the present case, this Court must give deference to
the state court findings and conclusions under 28 U.S.C. § 2254(d)(1) and (2). Berryman is not
entitled to de novo review. Moreover, even though the denial defense advanced at Berryman's trial

Page 47
2007 U.S. Dist. LEXIS 51738, *

was unbelievable in light of substantial circumstantial evidence, that defense was urged by
Berryman throughout the trial, direct appeal proceedings, and state habeas corpus proceedings. In
contrast, the denial defense advanced in Daniels was developed and advanced by his appointed
attorneys. Berryman cannot cast the total blame for his defense on counsel. They walked a fine line
between trying maintain his trust and presenting a viable defense. Indeed much of cause for the
alleged faulty trial strategy is attributable to Berryman's obstinance, insisting, as he did that he was
neither responsible for Ms. Hildreth's death nor even present at the crime [*132] scene. There was
no constitutional infirmity with the manner in which the trial court conducted the Marsden
hearings. Claim 1 is denied.
2. Grounds for Appointing Independent Counsel.
The contention that independent counsel should have been appointed sua sponte under the
authority of United States v. Del Muro, 87 F.3d 1078, must be analyzed from the perspective of
what the two hearing judges had before them. During the first hearing, the judge determined there
was no conflict on account of the conduct of the preliminary examination hearing, jailhouse gossip,
and the alleged collusion between Mr. Soria and Ms. Green. During the second hearing, the judge
understood that the conflict over defense strategy was capable of resolution after further forensic
testing and that Berryman's unhappiness over personal property left in his pick up truck was not
material to the defense. Given this perspective, the claim that the trial judge should have appointed
independent counsel, sua sponte, is foreclosed by LaGrand v. Stewart, 133 F.3d 1253 (9th Cir.
1998). In LaGrand, the petitioner advanced an identical claim of entitlement to independent counsel
when making his motion for substitution counsel [*133] at trial. The Ninth Circuit rejected his
contention, finding it a "novel extension of the right to counsel." 133 F.3d at 1277. The court
determined that the "defendant's self-interest and his lawyer's continuing professional obligation are
sufficient to enable the trial court to make the necessary determination." Id. The Ninth Circuit's
characterization of the petitioner's claim in LaGrand as "novel," implicates the Teague doctrine. See
489 U.S. at 310. Even without a Teague-bar, Berryman's reliance on Del Muro is unavailing.
Del Muro involved a motion for new trial from the defendant's conviction of immigration laws,
where he claimed his appointed defense counsel "rendered ineffective assistance by failing to
interview [and] subpoena witnesses suggested by Del Muro." 87 F.3d at 1080. Specifically, Del
Muro requested appointment of substitute counsel to present the new trial motion and elicit
testimony to prove the ineffective assistance of counsel claim. The result of the trial court's denial
of Del Muro's motion was that his trial attorney was required to elicit testimony from witnesses and
argue that his (the attorney's) "own failure to investigate and call [these] witnesses prejudiced
[*134] Del Muro's case." Id. The Ninth Circuit agreed that "the district court created an inherent
conflict of interest by forcing trial counsel to prove his own ineffectiveness and thereby deprive Del
Muro of his Sixth Amendment right to effective assistance of counsel." Id.
No analogous conflict infected Berryman's case, since neither Mr. Soria nor Mr. Peterson were
asked to establish their own ineffectiveness at either Marsden hearing. The Court specifically does
not view Mr. Soria's explanations about the delay in completing forensic testing and retrieving
Berryman's personal belongings from his pick up truck as efforts to establish ineffective assistance
of counsel. Rather, those explanations were presented to assist the trial courts ascertain the nature of
the asserted conflict. Having reasonably determined the absence of a true conflict, the trial judges
would have discerned no need for independent counsel. The trial court did not commit error in not
appointing independent counsel to represent Berryman at the Marsden motions. There was no abuse
of discretion, let alone a constitutional violation. Claim 3 is denied on the merits.

Page 48
2007 U.S. Dist. LEXIS 51738, *

3. The Presence of an Actual Conflict of Interest.
When [*135] counsel labors under an actual conflict of interest affecting his/her performance
the defendant has been deprived of his Sixth Amendment right to counsel because the attorney "fails
to subject the prosecution's case to meaningful adversarial testing." Cronic, 466 U.S. at 659 (citing
Cuyler v. Sullivan, 446 U.S. at 335). Failure of this nature would include a conflicted defense
attorney not cross examining or calling a particular witness, or not resisting the introduction of
inadmissible evidence in order to assist a co-defendant. Sullivan, 446 U.S. at 348-49 (quoting
Glasser v. United States, 315 U.S. 60, 72-75, 62 S. Ct. 457, 86 L. Ed. 680 (1942)). However, the
mere "possibility of a conflict is insufficient to impugn a criminal conviction." Id. at 350.
Berryman's alleged conflict in the present case falls far short of establishing an actual conflict
under Cronic and Sullivan. His trial attorneys certainly did not make any strategic decisions to
compromise his defense for the benefit of another suspect in Ms. Hildreth's murder, and Berryman
does not contend they did. Rather, he complains that they (especially Mr. Soria) countered
assertions of mishandling the forensic testing in order [*136] to save face before the trial judges,
that is, for their own personal benefit. Recent Ninth Circuit authority, however, limits the
circumstances under which an attorney conflict of interest claim maybe considered to cases of joint
representation of multiple clients with conflicting interests. Earp, 431 F.3d at 1184-85. Thus, in
Earp, the court rejected the petitioner's claim that his trial counsel labored under a conflict of
interest warranting a presumption of prejudice on account of her romantic involvement with him
during the trial. Id. at 1185. Relying on United States Supreme Court authority in Mickens v.
Taylor, 535 U.S. 162, 176, 122 S. Ct. 1237, 152 L. Ed. 2d 291 (2002), the Ninth Circuit noted that
as of 2002, the issue of whether a Sullivan conflict of interest extended beyond joint representation
remained "an open question." Earp, 431 F.3d at 1184; see also Foote v. Del Papa, 492 F.3d 1026,
1030, 2007 U.S. App. LEXIS 15822, 2007 WL 1892862, *4 (9th Cir. 2007). Absent clear authority
handed down by the Supreme Court, lower courts are not at liberty find state court rulings contrary
or unreasonable applications of Supreme Court precedent under 28 U.S.C. § 2254(d)(1). See Kane
v. Garcia Espitia, 546 U.S. 9, 10, 126 S. Ct. 407, 408, 163 L. Ed. 2d 10 (2005). [*137] The
contention that Berryman was deprived of Sixth Amendment representation under the presumed
prejudice standard described in Cronic and Sullivan is without merit. Claim 2 is denied on the
merits and Berryman's request for an evidentiary hearing as to Claim 2 also is denied.
4. Resulting Prejudice from the Alleged Inadequate Representation of Counsel.
Although Claims 1, 2, and 3 do not allege prejudice as an element of any of his claims,
prejudice is argued in his points and authorities. For the sake of completeness, that prejudice must
be addressed. The primary source of prejudice Berryman emphasizes is the unsuccessful and
conflicting defense presented as a result of counsel's unpreparedness, which he equates with the
"incredibly lame" denial defense trial counsel presented in Johnson v. Baldwin, 114 F.3d 835.
Under the familiar legal standard for evaluating prejudice pursuant to Strickland v. Washington,
466 U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984), Berryman "must show that there is a
reasonable probability that, but for counsel's unprofessional errors, the result of the proceeding
would have been different" with a "reasonable probability" being one sufficient to undermine
[*138] confidence in the outcome" of the trial. Id. at 694. To conclude that his attorneys' alleged
incompetent representation undermines confidence in the outcome of the trial, Berryman resorts to
a layered process. He maintains that if his attorneys had timely conducted their investigation, he

Page 49
2007 U.S. Dist. LEXIS 51738, *

(Berryman) would have learned early that forensic testing could not and did not exculpate him from
the crime. Accordingly, the lack of identity defense would have been abandoned, attorney-client
communications would have improved, and Berryman would have agreed to a reasonable defense
of voluntary intercourse followed by an unintentional homicide, rather than the two-pronged
inconsistent defense that was presented.
In the present case the Court proceeds on the assumption that Berryman's counsel were
ineffective for their mishandling and unwarranted delay of forensic testing, followed by less than
candid representations to the trial court. The Court further notes that Mr. Soria's repeated insistence
that additional testing could resolve the defense strategy dispute is disturbing in that the samples
were so small, only limited testing could be and already had been performed. While the record
discloses [*139] the results of the prosecution serologic testing on the vaginal swab and blood-stain
evidence, there is no indication of defense forensic testing results. No defense serologist testified at
all, and the defense criminalist did not testify about the results of specimen comparison tests. The
only testimony on this forensic testing came from the prosecution serology expert, and his
testimony was not dispositive. The prosecution serologist noted that from the vaginal swab
specimen, there was a small amount of blood and an even smaller quantity of semen (verifiable
only by the presence of spermatozoa). He testified that the blood was consistent with Ms. Hildreth's
blood, but the semen was of an insufficient quantity to determine anything about the donor. Hence
Berryman could not be identified as the source of the semen from that specimen. 67 Testing of the
blood-stain evidence also was somewhat inconclusive due to the small quantity of the specimen
available. Comparing that specimen with only a few of 17 genetic markers present in Berryman's
and the victim's blood, the prosecution serologist concluded the blood-stain was consistent with Ms.
Hildreth's blood, but inconsistent with Berryman's [*140] blood. Because the testing procedure was
observed by the defense serologist, there was no disagreement on this conclusion -- as far as it
went. In light of these results, particularly the inconclusive nature of those results due to insufficient
quantities, Mr. Soria's representations to the trial court during the Marsden hearings about needing
to send the specimens off to a specialized DNA laboratory in another part of the state appears at
best, disorganized, and at worst, disingenuous. Whether or not he truly didn't know about the
insufficient specimen quantities, his representations served only to delay the inevitable conclusion
that forensic testing would not support Berryman's lack of identity defense.
67 Indeed, given this inconclusive result and the small quantities the serologist had to work
with, it's unclear why retesting the vaginal swab specimen was deemed so crucial. From the
beginning it was doubtful a more favorable result could be obtained by defense retesting, and
in the end, that was exactly the outcome.
Turning to the issue of prejudice, despite the delay in reaching this inevitable conclusion,
nothing in the record or in the post-conviction evidence presented even vaguely [*141] indicates
that Berryman would have acceded to the defense advocated by Berryman's appointed attorneys
(and advanced on habeas corpus). Even after the serology issue finally was resolved, and
presumably conveyed to Berryman, with neither the retesting of the vaginal swab nor the testing of
the blood-stained shoe lace yielding results which favored Berryman, he still has persisted in
claiming innocence. As noted, he told the probation officer preparing a pre-sentence report that he
did not commit the offenses for which he had been convicted. 68 See Part III.C., supra. Next, in his
pro se state habeas petition, filed in 2001, he argues that numerous evidentiary inconsistencies
about tire track evidence connecting him with the crime scene create doubt that his pick up truck
was even at the crime scene. Similarly, he argues that other tire track evidence was planted. He

Page 50
2007 U.S. Dist. LEXIS 51738, *

makes the same argument about the presence of broken gold necklace chain links. Next, he calls
into question the veracity of all evidence showing that the blood-stain evidence (from his shoes)
belonged to the victim. He claims both inconsistencies in the evidence and intentional governmental
manipulation resulted in a wrongful [*142] and unwarranted conviction.
68 Berryman quotes from portions of the probation officer's report to make the point that he
continued to complain about the representation he received throughout the trial proceedings.
The Court, therefore, views any hearsay objection to the statements of the probation officer or
of Berryman as attributed by the probation officer to be waived.
Berryman's post-trial statements (including those to the pre-sentencing probation officer) show
that even with the serology issue resolved as to both the vaginal swab specimen and the blood-stain
evidence, he was not and may still not be amenable to accepting any responsibility for Ms.
Hildreth's death, even with consensual sexual relations and an unintentional homicide. Rather, he
has continued to focus on governmental malfeasance in obtaining his conviction by the alleged
planting of inculpatory evidence and manipulating facts. The argument that trial counsel's prompt
investigation and completion of forensic testing would have motivated Berryman to accept what is
said to be the reasonable defense strategy embraced by trial counsel early on in the representation is
mere speculation. His reliance on Johnson, 114 F.3d 835 [*143] is misplaced.
In Johnson, the defendant was charged with three counts of forcible rape. A physical
examination of the victim shortly after the incident, as well as her clothing and the bed on which the
rape was said to have occurred, revealed no physical evidence that she had been subjected to sexual
intercourse. The prosecution theory that Johnson committed rape was predicated solely on the
victim's testimony. At trial, Johnson testified that he had not been at the residence where the rape
occurred. After being convicted of three counts of rape, Johnson again testified at the sentencing,
admitting that he had been at the residence at the time and place at issue, but denying that rape had
occurred. Johnson also explained that "his attorney had told him to say he was not there." 114 F.3d
at 836. On state habeas corpus, Johnson alleged, among other things, that his trial attorney had not
adequately investigated the case, had not adequately conferred with him, and had encouraged him
to testify falsely. Following a state court evidentiary hearing, the state court found the trial attorney
had met with Johnson on only two occasions and had conducted a cursory investigation, only
briefly interviewing [*144] two witnesses. The state court also found that Johnson had not carried
his burden of establishing that his attorney suborned perjury. Id. at 837. When the matter reached
the Ninth Circuit, the alibi defense was referred to as "incredibly lame" because no details of where
Johnson may have been at the time of the alleged crime were elicited on direct examination and no
corroboration for the alibi was presented. Id. at 839. The attorney's failure to adequately investigate
was held to be constitutionally incompetent and prejudicial. Had he investigated the proffered alibi
defense, he would have discovered the implausibility of the story and encouraged Johnson to follow
a reasonable trial strategy which didn't include lying to the jury and likely would have resulted in an
acquittal. Id. at 839-40.
In the present case, even after Berryman was confronted with the fact that his lack of identity
defense was not empirically supportable, he still clung to it throughout his trial and well into postconviction proceedings. Berryman cannot establish prejudice for his attorneys' alleged
incompetence for failing to promptly investigate the case. All residual allegations of Claims 1, 2,
and 3 regarding [*145] errors and omissions in the trial court's and the defense attorneys' handling
of his Marsden motions are denied. No further evidentiary development is warranted.

Page 51
2007 U.S. Dist. LEXIS 51738, *

VI. Berryman's Assertion He Was Incompetent to Proceed to Trial and Incompetent to
have Waived His Rights Under Miranda v. Arizona (Claims 4, 5, 27, and 28).
Claims 4 and 5 of the Petition allege that Berryman was incompetent to understand the trial
proceedings against him or to assist his appointed attorneys in his own defense. In addition, in
Claims 27 and 28, he claims that he was incompetent to waive his rights under Miranda v. Arizona,
384 U.S. 436, 86 S. Ct. 1602, 16 L. Ed. 2d 694 (1966), to consent to an interview by authorities on
the night of his arrest, September 7, 1987. Berryman does not seek an evidentiary hearing with
respect to any of these four claims.
A. Statement of the Facts Relevant to Berryman's Competence.
Berryman relies on the opinions of retained mental health experts to establish his alleged
compromised mental state both at the time of his September 7, 1987 interview and at trial. In
addition, as relevant to his statements made during the September 7, 1987 interview, he points to
his chronic alcoholism [*146] and intoxication. The substance of the September 7, 1987 interview
also must be considered, along with the defense and prosecution comments about the admissibility
of his statement at trial.
1. Berryman's Mental Status.
The two mental health experts who testified at Berryman's trial also have provided postconviction declarations expounding on their earlier assessments of Berryman's mental state. The
trial opinions of these two experts, psychologist William Pierce, Ph.D. and psychiatrist Samuel
Benson, M.D. are recounted above in the Summary of the State Trial Proceedings, Part III.B. Their
post-conviction declarations in conjunction with Berryman's first state habeas petition (filed
September 3, 1993) and the present federal habeas petition are more fully recounted in connection
with the analysis of Claims 15 and 16. See Part XII.A.3., infra. Dr. Pierce opines that Berryman
suffers from alcohol organic disorder and an organic mental syndrome or seizure disorder, now and
at the time of the offense. Dr. Benson's assessment of Berryman is that he suffers from organic
brain disease and possible alcohol seizure induced behavior.
2. Berryman's Excessive Alcohol Consumption.
Berryman recites [*147] in his moving papers that numerous friends and relatives could have
testified, and have provided evidence, that he was a chronic and heavy drinker, including at the time
of the crime and his September 7, 1987 interview with authorities. In fact, some did give trial
testimony to this effect. The testimony of friends and relatives who did and could have testified to
Berryman's excessive alcohol consumption is recounted in connection with Claims 15 and 16,
below. See Part XII.A.1., infra. For purposes of analyzing these incompetence claims, evidence of
Berryman's excessive alcohol consumption is accepted as true.
3. Evidence of and Relating to Berryman's September 7, 1987 Interview with Investigators.
The content of Berryman's statements to authorities were introduced into evidence during the
guilt phase proceedings. Although initially, defense counsel moved to exclude the substance of the
interview from the jury, and Mr. Moench indicated he would not introduce it except in rebuttal, an
edited version of the statement was presented to the jury during the prosecution case in chief. 69 The
edited version of the interview was read to the jury by Mr. Moench. In addition to this reading, an

Page 52
2007 U.S. Dist. LEXIS 51738, *

[*148] edited transcript of the interview was admitted together with a tape recording of the
interview.
69 The portions excised from the statement pertained to Berryman's prior arrest (for
possession of marijuana) and the fact that he had a parole officer in Los Angeles County.
The transcript records that Berryman was told he had the right to remain silent, that anything he
said could and would be used against him in a court of law, that he had the right to speak to a
lawyer before proceeding with the questioning, and that if he couldn't afford an attorney, one would
be appointed. After confirming his understanding of these rights and waiving them, Berryman
denied having seen Ms. Hildreth or having being on Cecil Avenue the previous night. He told
officers he had been with Melinda Pena, but he didn't want his girlfriend, Crystal, to know this,
because he and Melinda engaged in sexual relations. After returning Melinda to her home, he stated
he went to a convenience store to purchase a beer and telephone another girlfriend. 70 He then
returned to the Clark residence, where he awakened Crystal and they talked a while. In the course of
delivering this chronology, Berryman told detectives that he [*149] had consumed a couple of
beers earlier in the day, but that he was not disabled in anyway from continuing with the interview
and had no problem talking with the detectives.
70 The evidence at trial was that he telephoned the other girlfriend before going to
Melinda's house.
Detective Lage, one of the questioners, observed that Berryman had a "busted wheel" on the
right side of his truck. Berryman explained that earlier in the day (September 7, 1987) someone cut
in front of him on the road, and when he chased that person, he ran his truck into a curb. He also
denied having ever given Ms. Hildreth a ride in his truck. He claimed that the scratch on his face
was the result of playing basketball (that day), and that Crystal's younger brother, Andrew Bonner,
inflicted the scratch. When Detective Lage informed Berryman that his truck was seen on Cecil
Avenue the previous night, Berryman concluded that the person who told authorities this
information did so because she had a grudge against him. When Detective Lage told Berryman that
tire tracks matching the treads of his tires were found at the crime scene, Berryman persisted in his
denial of having been on Cecil Avenue or anywhere near the [*150] crime scene. Berryman gave
officers permission to look at his clothes for "trace evidence."
On April 22, 1988, Berryman's defense counsel presented ten in limine motions, including one
to exclude his September 7, 1987 statement on the grounds it was insufficiently reliable for a capital
prosecution. In support of this motion, Mr. Soria wrote in a declaration: "The statement made by
[Berryman] in no way admits responsibility for the alleged crimes. It is neither a confession nor an
admission. [P] That for the reasons stated above, the 'Custodial Statement' taken from [Berryman] is
not reliable and should be excluded as evidence." The prosecution filed a response to this particular
motion which stated: "The People do not intend to introduce defendant's statement during its case in
chief and the People are seeking an order prohibiting the defendant from questioning any officers
about the contents of the defendant's statements on the grounds it is inadmissible hearsay."
At the August 15, 1988 in limine motion hearing, the trial court declined to rule on this
particular motion because the prosecution only intended to use the statement for impeachment
purposes, if at all. If the defense raised [*151] the statement, the trial court noted that the
prosecutor would "ask for a hearing as to the propriety of going into his statement." Since it is clear
that the September 7, 1987 interview statement (as edited) was introduced during the prosecution

Page 53
2007 U.S. Dist. LEXIS 51738, *

case-in-chief, either the issue was raised as described in the trial court's ruling, or counsel had a
change of strategy. 71
71 The record before the Court sheds absolutely no light on this matter.
Mr. Moench brought up the substance of the interview during his rebuttal argument at guilt
phase proceedings. Of significance to Berryman is the fact that Mr. Moench used the statement to
show that Berryman was untruthful. Specifically, Mr. Moench pointed out that when Berryman
perceived suspicion was focused on him, he developed an alibi, emphasizing his verifiable
whereabouts at the time Ms. Hildreth was killed, even though authorities had not yet released
information regarding the timing of her death to members of the family, and certainly not to
Berryman.
B. Berryman's Contentions.
Berryman's claimed mental impairments and deficiencies are legion. He is said to suffer from
permanent pre-existing mental disorders, severe mental and emotional impairments, [*152] the
pervasive effects of organic brain disease with resulting limited intellectual and cognitive capacity,
overwhelming developmental trauma including neglect, abandonment, physical abuse, emotional
abuse, sexual abuse, plus, from the death of his father, post-traumatic stress disorder, depression,
paranoia, and substance abuse, all which qualified (at the time of his interview by authorities and at
trial) as a developmental disability. Because of these many impairments, Berryman claims he was
incompetent to stand trial because he neither understood the proceedings against him nor was able
to assist trial counsel. He advances a corresponding argument regarding his waiver of rights under
Miranda v. Arizona relative to his September 7, 1987 interview.
The legal basis regarding Berryman's competence to be tried is comprised of three arguments.
First, there is a straight due process substantive incompetency, as described in Medina v. California,
505 U.S. 437, 453, 112 S. Ct. 2572, 120 L. Ed. 2d 353 (1992). Second there is trial error because the
trial court did not sua sponte order a competency hearing when counsel requested authorization to
have Berryman examined by mental experts to determine [*153] his mental condition at the time of
the offense. For this proposition, Berryman relies on Miles v. Stainer, 108 F.3d 1109, 1112 (9th Cir.
1997). In his traverse, Berryman emphasizes that the trial court was on notice from early on that he
had difficulty grasping the meaning of the proceedings, especially distinguishing issues at his
Marsden hearings and his fixation with what became of his personal belongings left in his
repossessed pick up truck. Third, Berryman charges that his attorneys were constitutionally
incompetent for not requesting a competency hearing. Berryman notes that his mental and
emotional impairments were exacerbated between his arrest and trial due to conditions of
confinement, 72 the lack of necessary communication with his lawyers, and fear he would not
receive a fair trial. With respect to all three theories, Berryman maintains that if mental health
experts had examined him regarding his competence to stand trial (in addition to his mental
condition at the time of the offense), "they would have concluded that [Berryman] lacked the ability
to assist counsel with a reasonable degree of understanding, and lacked a rational as well as factual
understanding of the [*154] proceedings."
72 Except for the the presence of an intercom device in the attorney room at the County Jail,
no description is offered of these conditions of confinement. The presence of the intercom
device is discussed in Claim 17. See Part XI., infra.

Page 54
2007 U.S. Dist. LEXIS 51738, *

Berryman relies on the same foundational underpinning of actual incompetence to support his
claim that the content of his September 7, 1987 interview should have been excluded. His theory is
that because of his many impairments resulting in limited mental ability, plus, the fact that he was
intoxicated at the time of the interview and not otherwise sophisticated in matters of criminal justice
process, he was not sufficiently mentally competent to understand and waive his right to remain
silent. The corollary ineffective assistance of counsel claim is that his trial attorneys were
constitutionally incompetent for failure to press for a ruling on the in limine motion to exclude the
September 7, 1987 statement. As far as prejudice, he claims that but for the admission of the pretrial
statement, he would not have been convicted.
C. Analysis.
The standard for competence to stand trial is whether the defendant has "sufficient present
ability to [*155] consult with his lawyer with a reasonable degree of rational understanding" and
has "a rational as well as factual understanding of the proceedings against him." Dusky v. United
States, 362 U.S. 402, 402, 80 S. Ct. 788, 4 L. Ed. 2d 824 (1960)(per curiam), quoted by Godinez v.
Moran, 509 U.S. 389, 398, 113 S. Ct. 2680, 125 L. Ed. 2d 321 (1993). Berryman bears the burden of
establishing his incompetence by preponderance of the evidence. Hayes v. Woodford, 301 F.3d
1054, 1078, n. 28 (9th Cir. 2002) (citing Simmons v. Blodgett, 110 F.3d 39, 41 (9th Cir. 1997)).
Traditionally, conduct which supports a determination of incompetence to stand trial includes
"either extremely erratic and irrational behavior during the course of the trial [citation], or lengthy
histories of acute psychosis and psychiatric treatment [citation]." Boag v. Raines, 769 F.2d 1341,
1343 (9th Cir. 1985). In more recent opinions, the court has held that a defendant's calm demeanor
at trial is not dispositive.
Whether a defendant is capable of understanding the proceedings and assisting
counsel is dependent upon evidence of the defendant's irrational behavior, his
demeanor in court, and any prior medical opinions on his [*156] competence. Drope v.
Missouri, 420 U.S. 162, 180, 95 S. Ct. 896, 43 L. Ed. 2d 103, [ ] (1975). None of these
factors is determinative. Any one of them may be sufficient to raise a reasonable doubt
about competence. Id.

Miles v. Stainer, 108 F.3d 1109, 1112 (9th Cir. 1997). The recent Ninth Circuit opinion in Odle v.
Woodford, 238 F.3d 1084 (9th Cir. 2001), further holds that "[c]alm behavior in the courtroom is
not necessarily inconsistent with mental incompetence. Some forms of incompetence manifest
themselves through erratic behavior, others do not." Id. at 1088.
Berryman's evidence, taken separately or cumulatively does not establish his incompetence to
stand trial. The Court has carefully reviewed the entire trial proceedings. In the first place,
Berryman's conduct at trial was not unusual. It was certainly not erratic or disruptive. At most, he
could be said to have been sullen because he did not agree with the defense strategy favored by his
appointed attorneys. Even his insistence on a denial defense, though presumably unwise, does not
establish mental incompetence or even confusion, and no expert has said so. Second, his history of
mental impairments are not indicative of a pervasive [*157] mental disability. Further, none of his
retained experts have offered an opinion that Berryman's alleged alcohol induced seizure disorder in
any way compromised to his ability to assist counsel at trial and understand the trial proceedings

Page 55
2007 U.S. Dist. LEXIS 51738, *

against him or rendered him incapable of knowingly and intelligently waiving his rights under
Miranda v. Arizona. Moreover, the fact that Berryman did not assist counsel does not demonstrate
he was incapable of doing so. Indeed, Berryman offers absolutely no additional evidence from his
retained experts that he was incompetent at the time of trial. Although he states in his traverse (at
least with respect to Claim 4) that his ability to communicate with and assist counsel must be
resolved by an evidentiary hearing, he hasn't asked for one. The Court concludes that Berryman has
failed to meet his burden of establishing mental incompetence through record evidence or an offer
of proof. This finding forecloses relief on all four of his incompetence allegations in Claims 4, 5,
27, and 28.
An additional legal impediment precludes relief as to Claims 27 and 28. The standard for setting
aside an waiver of Fifth Amendment rights under Miranda v. Arizona is [*158] slightly different
from the standard for determining competence to be tried. Miranda itself holds that the defendant
may waive the rights conveyed in the warnings "provided the waiver is made voluntarily,
knowingly and intelligently." 384 U.S. at 445, quoted by Moran v. Burbine, 475 U.S. 412, 421, 106
S. Ct. 1135, 89 L. Ed. 2d 410 (1986). In Moran v. Burdine, the Court sets out the two parts to a
valid Miranda waiver:
First, the relinquishment of the right must have been voluntary in the sense that it was
the product of a free and deliberate choice rather than intimidation, coercion, or
deception. Second, the waiver must have been made with a full awareness of both the
nature of the right being abandoned and the consequences of the decision to abandon it.
Only if the "totality of the circumstances surrounding the interrogation" reveal both an
uncoerced choice and the requisite level of comprehension may a court properly
conclude that the Miranda rights have been waived.

475 U.S. at 421 (quoting Fare v. Michael C, 442 U.S. 707, 725, 99 S. Ct. 2560, 61 L. Ed. 2d 197
(1979)). Berryman focuses the second prong, that is, his awareness of the nature of the right and
consequences for abandonment [*159] of that right.
It is well-settled, however, that even if the Court were to find Berryman suffered from a mental
impairment, such a finding, alone, would not support vacating his conviction based on an invalid
confession. This follows because the purpose the exclusionary rule under the Fifth Amendment is to
deter police overreaching in obtaining confessions, Colorado v. Connelly, 479 U.S. 157, 166, 107 S.
Ct. 515, 93 L. Ed. 2d 473 (1986), and that purpose could not be effectuated by excluding the
statement unless the Court also were to find that the detectives questioning Berryman on September
7, 1987 were aware of his mental infirmities and then exploited the circumstances to extract
inculpatory statements. See id. at 165. In this case, Berryman cannot establish such official
overreaching. In fact, the detectives were careful in their questioning to ensure that Berryman was
not intoxicated or otherwise incapable of giving a statement. They specifically asked him if he had
consumed any alcohol, and when he responded affirmatively, he assured them he was not disabled
in any way from continuing with the interview and had no problem talking with them. Further, his
responses to those inquiries [*160] betray no confusion or lack of comprehension.
Nor can Berryman establish the prejudice component to & Miranda waiver challenge. In order
to vacate a state court conviction based on an erroneously admitted confession, it must be
determined that the confession had a substantial and injurious effect on the verdict. Taylor v.
Maddox, 366 F.3d 992, 1016 (9th Cir. 2004) (quoting Brecht v. Abrahamson, 507 U.S. at 637-39).

Page 56
2007 U.S. Dist. LEXIS 51738, *

As argued by Mr. Soria in his in limine motion, Berryman's statement was largely exculpatory.
Berryman told detectives he was elsewhere at the time Ms. Hildreth was killed. He now claims,
however, that the prosecutor relied on the September 7, 1987 statements to demonstrate his
untruthfulness. This prosecution argument, however, was merely a small part of the prosecution
case. Even without the argument bearing on Berryman's untruthfulness or reference to the content
of the statement, there was more than enough evidence to establish Berryman's guilt of Ms.
Hildreth's rape and murder. The issue of Berryman's credibility at trial was minor. Claims 4, 5, 27,
and 28 are denied on the merits.
VII. Berryman's Assertion He Was Denied a Fair Trial Due to the Prosecutor's Status as
[*161] an Elected Judge at the Time of Trial (Claims 7, 8, 9,10, and 23).
Claims 7, 8, 9, 10, and 23 all revolve around the fact that the prosecutor, Mr. Moench, was a
Municipal Court judge-elect at the time he tried Berryman's case. As a result, Berryman alleges Mr.
Moench exercised judicial powers in violation of the Separation of Powers Clause. Further, Mr.
Moench's participation in the proceedings is said to have violated Berryman's right to a fair trial and
effective representation because the trial judge and defense counsel were aware of his judge-elect
status and consequently, out of deference, did not challenge his many alleged prosecutorial
misdeeds. Finally, Berryman alleges his jury was not impartial because an unknown number of the
jurors also were aware that Mr. Moench had been elected to the Municipal Court and were
influenced by his status as a judge-elect. Berryman requests an evidentiary hearing with regard to
Claim 8, which alleges ineffective assistance of counsel for the failure of Messrs. Soria and
Peterson to move to recuse Mr. Moench from prosecuting Berryman's case.
A. Statement of the Facts Relevant to Mr. Moench's Status as an Elected Judge.
The fact of Mr. Moench's [*162] election to the Municipal Court bench is undisputed. On June
7, 1988, he was elected to serve as a judge in the Taft-Maricopa District of the Kern County
Municipal Court. On June 30, 1988, he signed a notarized oath of office 73 in which attested he
would "support and defend the Constitution of the United States and the Constitution of the State of
California," that he would bear "true faith and allegiance to the Constitution of the United States
and the Constitution of the State of California," that he took "this obligation freely, without any
mental reservation or purpose of evasion," and that he would "well and faithfully discharge the
duties upon which [he was] about the enter." His term as a Municipal Court judge thereafter
commenced on January 1, 1989. Mr. Moench's first appearance in Berryman's case was on August
1, 1988 (when the previously assigned prosecutor, Lisa Green, took a leave of absence). Mr.
Moench continued as the prosecutor in the case until the trial court handed down Berryman's death
sentence on November 28, 1988.
73 The Oath of Office is appended to Berryman's second state habeas petition.
Certain excerpts from the trial record are pertinent to this group of claims, [*163] particularly
in support of Berryman's allegations of prosecutorial misdeeds. First, during the his guilt phase
summation, Mr. Moench misspoke when explaining the order of deliberations on the various
degrees of homicide. He stated, "Only if everyone of you, beyond a reasonable doubt believed that
he [Berryman] did not commit a first degree murder, then and only then would you go down and
consider murder second, or voluntary manslaughter." The misinformation in this statement is in the
notion that before deliberating about a degree of homicide less than first degree murder, the jurors
had to agree beyond a reasonable doubt (as well as unanimously) that Berryman was not guilty of

Page 57
2007 U.S. Dist. LEXIS 51738, *

first degree murder. In fact, as the trial judge instructed, the only requirement for proceeding to
deliberate about the next lesser offense was that the jury had to unanimously agree Berryman was
not guilty of first degree murder. After Mr. Moench made the above quoted misstatement, the trial
court called a side bar conference and pointed out the error. When argument resumed, Mr. Moench
explained, correctly, that a first degree murder guilty verdict required a unanimous, beyond a
reasonable doubt finding, but [*164] a first degree murder not guilty verdict simply had to be
unanimous before the jury properly could consider second degree murder or manslaughter.
Next, during penalty proceedings, Mr. Moench elicited from motorist David Perez that as he
(Mr. Perez) was fleeing from Berryman and the other combatants, his attackers (including
Berryman) were yelling out "L.A. Cryps" while one of them continued to kick the quarter panel of
Mr. Perez's truck. The specific question which produced this information was, "Did he [meaning
Berryman] say anything to you while he was doing this [hitting Mr. Perez with a tire iron]?" In
reference to another claim alleged in the petition, Berryman submits a declaration from Strickland
expert Mr. Simrin, in which Mr. Simrin observes that the "L.A. Cryps" statement was included in
police reports of David Perez which reports were made available to defense counsel prior to trial." 74
74 Mr. Simrin's declaration to this effect is attached to Berryman's motion for evidentiary
hearing in connection with Claim 61. No other evidence establishes that a police report
containing this information was included with the discovery material turned over to defense
counsel. For purposes [*165] of this Memorandum Order the Court will treat this notion as a
fact. Mr. Moench also mentioned the name of this gang again during his cross examination of
former inmate E.J. Corum. This reference is discussed in connection with Claim 61, see Part
XXXII.A., infra.
During penalty proceedings, Mr. Moench elicited from Berryman's older brother, Ronald, Jr.,
details about the conviction he and Berryman suffered for selling marijuana to students at West
Covina High School. As noted in the Summary of the Facts, Part III.B., supra, this conduct was
contrary to the agreement the parties worked out before penalty proceedings commenced. When
cross examining Yolande Rumford, Mr. Moench also managed to mention that Berryman had been
involved in supplying drugs to high school students. No objections to Mr. Moench's questions were
interposed. In the same manner, during cross examination of Ms. Yolande Rumford, Mr. Moench
suggested proof existed that Berryman subjected Ms. Hildreth to forced oral copulation. See Part
III.B., supra. As noted in this summary of the penalty phase evidence, the only fact that could
conceivably lend support to the notion Berryman forced Ms. Hildreth to orally copulate him [*166]
was the presence of a pubic hair found on her face and said by the prosecution criminalist to be
consistent with a sample of Berryman's pubic hair. Mr. Moench also characterized Berryman's
physical altercation with his father-in-law, Rev. Fuller, as an act of violence (whereas Berryman
apparently views it as a "minor fist fight").
The list of prosecutorial misdeeds continues with Mr. Moench's penalty phase argument that
Berryman stood on Ms. Hildreth's face for a full three to five minutes while she lay helplessly
bleeding to death. To emphasize this "fact," Mr. Moench timed a three-minute interval for the jury.
In contrast to Mr. Moench's argument, the testimony of Dr. Holloway was that Ms. Hildreth's
survival time from her wounds was from three to five minutes and that the patterned bruise on her
face was caused to sustained pressure of the perpetrator's shoe on her cheek. There was no
testimony that the sustained pressure lasted three minutes, or any other duration. Next, is Mr.
Moench's misstatement (whether deliberate or negligent) that Berryman's expert, Dr. Pierce,
testified Berryman was "amoral" (when in fact the testimony was that Berryman had exhibited

Page 58
2007 U.S. Dist. LEXIS 51738, *

asocial behavior). Mr. [*167] Moench also argued that Berryman was not mentally impaired and
did have the capacity to harbor the requisite intent for the crimes charged because none of the
experts, or anyone else, indicated that Berryman experienced any sort of psychotic break. The final
argument relevant to the present group of claims concerns Mr. Moench's characterization of
Berryman's philandering as a factor in aggravation of his sentence. As set out in Part III.B., supra,
Mr. Moench brought out the fact that Berryman had multiple sexual relationships during cross
examination of Berryman's older brother, Ronald, Jr., his aunt, Karen Bonty, his younger brother,
Bryan Berryman, and his wife, Carol.
Post-conviction evidence relevant to this group of claims consists of the June 4, 2001
declaration testimony from Strickland expert Mr. Simrin, from trial counsel Mr. Soria, and from
juror David Armendariz. Mr. Simrin opines that Berryman's trial counsel were incompetent for not
having objected to the assignment of Mr. Moench as the prosecutor of this case in as much as his
presence in the case was "bound to have an influence on the trial judge and the attorneys." Mr.
Simrin believes a juror questionnaire should have [*168] been employed to ascertain if any of the
jurors were aware of or would have been influenced by Mr. Moench's judge-elect status.
In his declaration, Mr. Soria confirms that he and Mr. Peterson were aware of Mr. Moench's
judge-elect status and states his belief that the trial judge also was aware of the election results. 75 He
did not know, however, whether any of the jurors were aware of Mr. Moench's judge-elect status.
Mr. Soria explains that he did not challenge the assignment of Mr. Moench to the case because he
did not recognize a constitutional or legal basis for doing so.
75 Mr. Soria prefaces all of his declarations with the disclaimer that his memory of
representing Berryman in 1987 and 1988 "is not perfect."
The declaration testimony of Mr. Armendariz clears up some of the mystery about what the
jurors knew concerning Mr. Moench's judge-elect status. Although Mr. Armendariz did not know at
the time of the trial proceedings that Mr. Moench had been elected to the position of municipal
court judge, he believes that the trial judge informed the jurors of Mr. Moench's election after the
penalty phase of the trial. 76
76 In reviewing the reporter's transcripts, the Court has observed [*169] no record of the
trial judge saying anything about Mr. Moench's election to the bench. Further, Berryman has
not directed the Court's attention to any specific record reference supporting juror knowledge
of Mr. Moench's judge-elect status.
In response to Berryman's 1999 investigation funding request to interview jurors (to see if they
were aware of Mr. Moench's judge-elect status at the time of the trial), the Court reviewed proffered
articles from the Bakersfield Californian. Three articles published in advance of the election, the
last of which was published over a month prior to the election, revealed the support, endorsement,
and views of Mr. Moench. No publicity concerning Mr. Moench's status as a judge-elect during the
trial was offered, and as far as the Court is aware, no such publicity exists (or existed). To
determine whether any of the potential jurors lived in the Taft-Maricopa Judicial District, and may
have voted in the election where Mr. Moench's name appeared on the ballot, the Court reviewed the
jury questionnaires that are part of the record. 77 That review reveals that none of the prospective
jurors were from the Taft-Maricopa area.

Page 59
2007 U.S. Dist. LEXIS 51738, *

77 Juror questionnaires are part [*170] of the state record as Additional Clerk's Transcript,
in five volumes, numbered page 1 through page 1295.
B. Berryman's Contentions.
Berryman maintains that as a judge-elect, Mr. Moench actually was exercising the powers of a
judicial officer when he was prosecuting the case, in contravention to the Separation of Powers
doctrine. Berryman relies on Coolidge v. New Hampshire, 403 U.S. 443, 450, 91 S. Ct. 2022, 29 L.
Ed. 2d 564 (1971), for the controlling principle that a prosecutor may not operate as a judicial
officer in the same case. He also relies on Mistretta v. United States, 488 U.S. 361, 404, 109 S. Ct.
647, 102 L. Ed. 2d 714 (1989), for the proposition that judges must be sure not to impugn the
integrity of the judiciary when performing non-judicial tasks. Aside from the identified problem of
having the prosecutor exercising executive and judicial authority at the trial, Berryman points out
that defense counsel were placed in an "impossible conflict" forcing them to sacrifice their client's
interests to further their own future careers, appeasing Mr. Moench to ensure future favorable
rulings on appointments and fee requests. He emphasizes instances where Mr. Peterson was actually
[*171] "fawning" over Mr. Moench when working out differences concerning the admissibility of
Berryman's prior marijuana transportation conviction. The fact that defense counsel failed to object
to Mr. Moench's misstatements during his guilt and penalty closing arguments is said to support the
conclusion that Berryman was prejudiced by Mr. Moench's status as a judge-elect. There also is the
suggestion that the trial judge presiding at Berryman's trial failed to call Mr. Moench to task on his
various misdeeds because it would be unseemly for a member of the bench to criticize a colleague.
Berryman also challenges the constitutional effectiveness of his appellate counsel, Paul Posner, for
failing to raise on direct appeal the challenge to Mr. Moench's assignment to the case. Finally, and
consistent with the text of Mr. Simrin's supporting declaration, Berryman argues ineffective
assistance of trial counsel because no effort was made, such as by use of questionnaires, to
determine if members of the jury panel were aware of or influenced by Mr. Moench's judge-elect
status. Berryman concludes the prejudice from jury awareness would be an unavoidable
consequence.
C. Analysis.
Although the Warden [*172] has interposed a Teague-bar defense to each of the claims which
comprise this group, a merits analysis nonetheless is appropriate. The Teague matrix simply does
not fit these circumstances. There are two varieties of cases amenable to a Teague-bar defense. The
first type involves a petitioner's reliance on a decision announced after his conviction became final.
In the second, the petitioner relies on a decision announced before his conviction became final, but
which is to be applied in a novel setting, thereby extending precedent in the present case. See
Stringer v. Black, 503 U.S. 222, 228, 112 S. Ct. 1130, 117 L. Ed. 2d 367 (1992). Although in both
instances, the Teague inquiry is to be resolved before courts address the merits, Caspari v. Bohlen,
510 U.S. 383, 389, 114 S. Ct. 948, 127 L. Ed. 2d 236 (1994), in the present case such a threshold
inquiry is pointless, because there is no rule supporting Berryman's contentions. It's not a matter of
whether a new rule was announced after Berryman's conviction became final, or alternatively
whether an old rule is being applied in a new way. There is simply no rule, period. Based on the
state record, the evidence offered, and Berryman's [*173] arguments, Claims 7, 8, 9, 10, and 23
cannot be sustained. In many cases, the facts simply do not support the allegations. In others, no
controlling precedent supports Berryman's contentions.

Page 60
2007 U.S. Dist. LEXIS 51738, *

The primary example of unsupported allegations is the total lack of evidence that Berryman's
jurors were aware of Mr. Moench's judge-elect status. The Court already has expended considerable
effort on this finding in the context of investigation authorization requests in 1999 and 2000. In the
Court's prior orders it concluded Berryman had not made a colorable claim that further investigation
would uncover possible juror knowledge of Mr. Moench's judge-elect status. First, Mr. Armendariz
denied such knowledge, and second, the Court's own careful review of juror questionnaires failed to
turn up any indication that any member of the venire resided in the judicial district where Mr.
Moench's election took place. Berryman has not offered any evidence to suggest the contrary.
Another prime example of lack of factual support relates to Berryman's alleged Separation of
Powers challenge. Contrary to the fundamental underpinning of his argument, there is absolutely no
indication that Mr. Moench was exercising [*174] judicial or quasi-judicial powers at the time he
was prosecuting Berryman's case. At all times during the trial, as apparent from the record, he was
functioning as a prosecutor, notwithstanding his notarized signature on the oath of office he
executed on June 30, 1988. Thus, even though Berryman's citation to Coolidge v. New Hampshire
and Mistretta v. United States, are accurate, they are inapposite.
Similarly, there is no factual bases for Berryman's complaint that Mr. Moench committed
misconduct for presenting Rev. Fuller's testimony about his altercation with Berryman in August
1987. Contrary to Berryman's complaint, evidence of the altercation was entirely relevant as a prior
violent act under Penal Code § 190.3(b). Berryman struck his father-in-law on the bridge of his
nose. It cannot be seriously disputed that striking someone in the face is an act of violence. The
factual underpinning for this claim is revisited in the discussion of Claim 60 (together with Claims
56, 62, 88, 89, 90, and 93). See Part XXX., infra.
Berryman also misstates the record when he argues Mr. Moench's judge-elect status caused the
trial judge to hold back from criticizing Mr. Moench out of professional [*175] courtesy. In fact,
the trial judge did correct Mr. Moench, as noted, in connection with the misstatement of the law
regarding the order of deliberations on degrees of homicide. There also is no direct evidence that
Messrs. Soria and Peterson were seeking to curry favor with Mr. Moench for future appointments
and fee requests. Mr. Soria's declaration is absolutely' silent on the matter.
On the other hand, there is indirect evidence suggesting the failure of defense counsel to object
to misstatements made during Mr. Moench's summation was motivated by a desire not to alienate a
future judge. Assuming this is true, even though Mr. Soria's declaration does not substantiate it, the
prejudicial value of Mr. Moench's arguments must be evaluated. In each instance of misstatement
and/or improper argument, the Court is persuaded that the jury's verdicts were not adversely
affected. See Brecht, 507 U.S. at 637.
First, while it is true Mr. Moench argued Berryman's innocence had to be proved beyond a
reasonable doubt before a lesser included offense could be considered, the erroneous statement did
not go unconnected. The trial court called a side bar conference and informed Mr. Moench of the
error. [*176] Mr. Moench then correctly stated the law in his argument and the trial court gave the
correct instruction. Any prejudicial effect of the misstatement was cured. See discussion of Claims
37 and 49, Part XVII., infra.
Next is Berryman's complaint that Mr. Moench improperly argued the jury should not consider
Berryman to have suffered from an impaired mental state because no one testified he sustained a
psychotic break. Again, contrary to Berryman's characterization of this argument as improper, it
was entirely proper for Mr. Moench to argue that Berryman was not mentally impaired and that he

Page 61
2007 U.S. Dist. LEXIS 51738, *

did have the mental capacity to understand the unlawfulness of his conduct. That is the purpose of
summation, as discussed in connection with Claims 76, 79, and 80, see Part XXVII.C., infra, and
Claims 86 and 93, see Part XXXI.F., infra.
The third instance involves, Mr. Moench's alleged misconduct for eliciting a reference to "L.A.
Cyrps" from David Perez. Because of the existence of a police report which apparently includes Mr.
Perez's statement that his attackers yelled "L.A. Cryps," the Court rejects the Warden's contention
that Mr. Moench could not have known the reference would be made when he [*177] was
conducting his direct examination. On the other hand, since Mr. Moench did nothing in his follow
up to emphasize the reference and it wasn't mentioned again during the examination of other
witnesses or summation, the Court cannot agree that eliciting the comment was prejudicial. Rather,
the Court finds the gang reference was merely tangential, and not significant enough, alone or in
conjunction with other circumstances, to have swayed the jury to vote for death. See discussion of
Claim 61, Part XXXII., supra.
The fourth alleged misconduct pertains to the agreement of the parties to limit admissibility of
Berryman's prior marijuana transportation conviction by stipulation only. Contrary to this
agreement, Mr. Moench actively elicited evidence that Berryman was selling marijuana to high
school students. The Court is at a loss as to why Mr. Moench would go back on his agreement, why
the trial court didn't put an end to Mr. Moench's misleading questions after at least the second time
the proscribed evidence was elicited, and why defense counsel did not object. The impact of the
marijuana sales, however, remains relatively insignificant. As the Court reads the record, the
evidence was [*178] emphasized by Mr. Moench to establish Berryman's opportunistic character,
namely, he would even sell drugs to high school students to advance his own personal objectives.
But Berryman's selfishness was portrayed in many other ways as well. He was clearly a young man
who constantly tried to get attention and consistently lied about his abilities and/or actions to avoid
unpleasant consequences. Even Dr. Pierce referred to his personality has having Narcissistic
elements. But selling marijuana is not, in an of itself, a heinous crime. It does not conjure up in the
mind images of school children suffering the effects of a painful addiction. The Court is convinced
that the fact of Mr. Moench's misconduct regarding revelation of the marijuana offense had no
impact on the jury's death verdict. See discussion of Claims 56, 60, 62, 88, 89, 90, and 93, Part
XXX., infra.
Fifth, Mr. Moench's false suggestion that Berryman forced Ms. Hildreth to orally copulate him,
while much more serious than selling marijuana, also would not have tipped the scales in favor of
death. By the time Mr. Moench suggested this theory of sexual abuse, the jury already had
convicted Berryman of first degree murder, rape, [*179] and use of a knife to commit both
offenses. While an objection from defense counsel and an admonition by the trial court would have
been preferred, the absence of objection and admonition certainly were not dispositive. If anything
the suggestion of forced oral copulation was merely cumulative, not prejudicial. See discussion of
Claims 53 and 54, Part XXVIII., infra.
Sixth, the erroneous argument about the length of time Berryman stood on the victim's face as
she lay dying actually constitutes one of the least prejudicial prosecutorial misdeeds. The evidence
adduced at the trial was that a patterned bruise on Ms. Hildreth's face bore similarities to the tread
design of the bottom of Berryman's Brooks athletic shoes. Dr. Holloway opined that the bruise was
the result of sustained pressure of the perpetrator's foot on Ms. Hildreth's face. Thus, even if
Berryman had not planted his foot on the victim's face for the entire three to five minutes Dr.
Holloway stated was her maximum survival time from the nicked carotid artery, the fact remains

Page 62
2007 U.S. Dist. LEXIS 51738, *

that he did apply sustained pressure of his foot for some significant amount of time (perhaps less
than three minutes) in order to generate the patterned [*180] bruise. Had Mr. Moench advanced an
argument more consistent with Dr. Holloway's testimony, the argument still would have been
highly prejudicial. The incorrect information about the exact duration of the sustained pressure was
not significant. See Claims 29 and 75, Part XXIV., infra.
Seventh, Mr. Moench's erroneous characterization of experts calling Berryman "amoral" (rather
than "asocial") also is relatively minor in light of the entire argument. Mr. Moench forcefully urged
the jury to impose the death penalty on Berryman because he had extinguished the life of a 17 year
old high school senior, who was loved by many, many people. He belittled Berryman's background
and sarcastically referred to Berryman as a man who wanted women to do his bidding for him. Mr.
Moench actually described an amoral character. Though it was wrong to attribute this
characterization to the experts, Berryman's conduct, as described by Mr. Moench, fit the amoral
label. The misstatement was not prejudicial. See discussion of Claims 76, 79, and 80, Part XXVII.,
infra.
Eighth, the Court agrees that Mr. Moench crossed the line of proper argument when he argued
that Berryman's philandering should be viewed by the [*181] jurors as a factor in aggravation of
the sentence. However, this is not the only statement Mr. Moench made about Berryman's exploits
with women. Running from one woman to the next, to the next, until finally Ms. Hildreth said "no"
was a circumstance of the crime, a proper subject for argument. And the fact that in the course of a
single evening, Berryman was in contact with four women, and spent time in the company of three,
one of which he killed, properly is characterized as an aggravating factor. Berryman transported
Ms. Hildreth to the secluded area off of Cecil Avenue to have sex with her and avoid the reality of
his self-created mess of a life at the Clark residence. He was a philanderer and the jury surely was
presented with evidence of this fact from both the prosecution and the defense. It was not improper
to argue that Berryman's character, as exhibited during the commission of the crime, was
aggravating. To be sure, it was prejudicial, but that is the goal of the prosecution, to present
prejudicial evidence that is properly admitted. In this case that standard was met. See discussion of
Claims 13 and 14, Part XXIII., infra.
Since the evidence and argument advanced did not [*182] violate Berryman's constitutional
rights, his appellate counsel was not in any way ineffective for failing to challenge Mr. Moench's
judge-elect status on direct appeal. Nor, was there any break down in defense counsel's professional
competence for not bringing the fact of Mr. Moench's judge-elect status to the forefront of the
potential jurors' outlook for the case. Just as Mr. Soria averred that he left Mr. Moench's assignment
to the case unchallenged because he was aware of no legal or constitutional basis for objection, the
Court also finds no legal or constitutional basis for a challenge. Had counsel asked any of the jurors
if they knew Mr. Moench had been elected to the Municipal Court bench prior to trial, the potential
for prosecutorial bias complained of in this group of claims certainly would have occurred. Claims
7, 8, 9, 10, and 23 are denied on the merits. Berryman's request for an evidentiary hearing as to
Claim 8 is denied.
VIII. Berryman's Challenge to the Fair Cross Section of the Jury (Claims 20 and 21).
In Claims 20 and 21 Berryman challenges the composition of his jury because no African
Americans were on the jury venire or jury panel from which his jury was drawn. [*183] Claim 20
is pleaded in terms of a straight constitutional violation for violation of the fair-cross section

Page 63
2007 U.S. Dist. LEXIS 51738, *

requirement. Claim 21 alleges ineffective assistance of trial counsel for failure to object to the jury
composition.
A. Berryman's Presentation of the Claims.
Berryman offers no factual support for his claim. The Court is not supplied with any
information about the proportionate racial composition of Kern County or the proportion of African
Americans (if any) who were on jury venires at the time of his trial. No evidentiary development for
these claims is requested. The only law Berryman cites in his moving papers is Batson v. Kentucky,
476 U.S. 79, 106 S. Ct. 1712, 90 L. Ed. 2d 69 (1986), for the proposition that racial discrimination
in jury selection is unconstitutional. In his traverse, Berryman recognizes that Claims 20 and 21 are
controlled by the Ninth Circuit case of Thomas v. Borg, 159 F.3d 1147 (9th Cir. 1998), and that he
cannot prevail unless the Ninth Circuit reexamines the issue, or Thomas is reversed by the United
States Supreme Court.
B. Analysis.
The starting place for a fair-cross section challenge under the Sixth Amendment is Duren v.
Missouri, 439 U.S. 357, 99 S. Ct. 664, 58 L. Ed. 2d 579 (1979). [*184] 78 Duren holds:
In order to establish a prima facie violation of the fair-cross-section requirement, the
defendant must show (1) that the group alleged to be excluded is a "distinctive" group
in the community; (2) that the representation of this group in venires from which juries
are selected is not fair and reasonable in relation tot he number of such persons in the
community; and (3) that this under representation is due to systematic exclusion of the
group in the jury-selection process.

Id. at 364.
78 Duren is not cited by Berryman at all.
The first Duren prong is established, as African Americans are a distinctive group for purposes
of Sixth Amendment analysis. Establishment of the second prong requires Berryman to show that
representation of African Americans in Kern County venires from which juries were selected at the
time of his trial was not fair and reasonable in relation to the number of African Americans in the
community. Thomas v. Borg, 159 F.3d at 1150. This showing requires proof of an absolute
disparity between the percentage of the distinct group represented in the total community
population and the percentage of the distinct group represented on the master jury wheel. [*185] Id.
(quoting United States v. Sanchez-Lopez, 879 F.2d 541, 547 (9th Cir. 1989)). Typically proof of
this disparity is presented in the form of statistical data. To establish that under representation of
African Americans is due to systematic exclusion under the third Duren prong, Berryman must
demonstrate that African Americans are actually subjected to a different treatment in the jury
selection process from other prospective jurors.
Since Berryman has neither presented nor asked to develop evidence which would support an
absolute disparity, the second prong of the Duren test cannot be established. Nor has Berryman
offered any facts about the jury selection process in Kern County, much less information about the
specific treatment of prospective African American jurors. Since no cognizable constitutional

Page 64
2007 U.S. Dist. LEXIS 51738, *

violation is presented regarding the fair cross section requirement, it follows that Berryman's trial
counsel cannot have been constitutionally ineffective for their failure to raise the issue. Claims 20
and 21 are denied on the merits.
IX. Berryman's Challenge to the Death Qualification of the Jury (Claim 22).
In Claim 22, Berryman asserts that his trial counsel were ineffective for [*186] failing to
ascertain whether prospective jurors held the belief that capital punishment should be automatically
imposed in every case in which it is authorized. He claims the subject was not adequately covered
in the juror questionnaires or by the death qualification process conducted on voir dire. He does not
request an evidentiary hearing.
A. Statement of the Facts Relevant to the Death Qualification Process.
Each of the twelve jurors who served on Berryman's jury were given questionnaires to complete
and in addition were subject to individual death qualification voir dire.
1. Questionnaire Inquiries.
Question 25 of the questionnaire (which every prospective juror completed), asked: "Do you
believe you should hear and review all the circumstances surrounding the killing before you decide
whether the State should impose the death penalty?" A-CT-1:6. In the same vein, question 26 asks:
"Could you set aside your own personal feelings regarding what the law ought to be and follow the
law as the Court explains it to you?" Id. at 7. All of the jurors responded affirmatively.
2. Death Qualification Voir Dire.
During individual voir dire, the jurors generally were asked whether they would automatically
[*187] vote against the death penalty, whether they would automatically vote for the death penalty,
and whether they would carefully weigh evidence presented by both the prosecution and the
defense. The Court has carefully reviewed the death qualification voir dire of the twelve jurors who
served on Berryman's jury.
a. Juror Billy Joe Honaker.
The death qualification voir dire of Mr. Honaker, conducted by the trial judge, proceeded as
follows:
Q. [by the trial judge]... And if the People prove their case beyond a reasonable doubt
that Mr. Berryman did, in fact murder this young lady in the course of raping her, then
there would be a second phase of the trial in which that jury would be asked to make a
recommendation as to whether or not the death penalty should be imposed or whether a
penalty of life without the possibility of parole should be imposed. Those are the only
two choices. [P] Do you have any feelings about the death penalty that would preclude
you from making that choice[?] In other words, would you automatically refuse to
apply the death penalty regardless of what the evidence was?
A. No sir. I wouldn't.
Q. On the other side of that coin, would you automatically apply the death penalty
[*188] if Mr. Berryman was found to eligible for it?

Page 65
2007 U.S. Dist. LEXIS 51738, *

A. No sir, not automatically.
Q. So, in other words, [you would] listen to all of the evidence that would be
presented in that second phase of the trial?
A. Yes sir.
Q. And you would carefully weigh that evidence and deliberate that evidence with
your fellow jurors to come to -- to attempt to come to a decision for yourself and then
as a group of jurors on that issue?
A. Yes, sir.

RT-5: 404-05.
b. Juror LaVeta Morris.
The death qualification of Ms. Morris by the trial judge, Mr. Soria, and Mr. Moench proceeded
as follows:
Q. [by the trial judge] Okay. Now Mrs. Morris, I mentioned on Friday, that due to the
-- or on Monday, rather, of last week, that due to the nature of the charges, that if the
People, the District Attorney's Office, representing the People, are able to prove their
case to the jury, in the guilt phase of the trial, beyond a reasonable doubt, in other
words, to establish in the first phase of the trial, that Mr. Berryman did rape and murder
this young lady, that the jury then will have to go through a second phase of the trial, in
which the jury will have to determine whether or not to impose the death penalty. First
of all, do you [*189] have feelings about the death penalty that would make it
impossible for you to vote for the death penalty, under any circumstances.
A. No.
Q. On the other side of that coin, do you have feelings about the death penalty, that
in the event that your jury, in the first phase of the trial, found beyond a reasonable that
Mr. Berryman did rape, and in the course of that rape, murder this young lady?
A. Uh-huh.
Q. That you would automatically impose the death penalty, without hearing any
further evidence concerning the issue of penalty?
A. No.
Q. All right. You understand in the second phase of the trial, the so-called penalty
phase, the jury would not only consider all of the evidence that they previously heard in
the guilt phase, but also would be hearing evidence from the People, evidence in what
we call aggravation, that would tend to support the death penalty, for example, and
evidence from the defense, in mitigation, things that maybe Mr. Berryman had done
during his life, exemplary things and so forth, that would tend to establish that life in
prison without the possibility of parole would be the proper penalty?
A. Uh-huh.

Page 66
2007 U.S. Dist. LEXIS 51738, *

Q. Do you think you could listen to that evidence fairly and weigh [*190] that
evidence as you'd be instructed to do so by the Court?
A. Yeah, I think I could.
...
Q. [by Mr. Soria] And if that [reaching the penalty phase] were to happen, just
saying if that were to happen, Rodney Berryman would stand before you guilty of the
charges alleged, murder, and murder during the course of rape, [P] Could you still give
Rodney Berryman a fair hearing regarding evidence we would present, regarding his
life, or life in prison with the possibility of parole, as opposed to Mr. Moench,
representing the People, that he thinks would warrant death. In other words, in the
second phase, you weigh, you have an option of death, and an option of life in prison
without the possibility of parole, [P] Do you think you could listen to the evidence
fairly at that point?
A. Yes.
...
Q. [by Mr. Moench] Do you think that you would be able to go through and if the
evidence warrants the death penalty, do you think you could vote for that, and then
come into court and say so in open court? That's really the bottom line on this.
A. Yeah. If I felt that it was warranted, I could do it. I don't know if that -- if I'd be
that happy about doing that.

RT-6: 506-07, 513-14, and 524-25.
c. Juror Mary [*191] Donovan Radman.
The death qualification voir dire of Ms. Radman was conducted by the trial judge:
Q. [by the trial judge] So I need to ask you some questions about your feelings on the
death penalty.
A. Uh-huh, sure.
Q. Do you feel or are your feelings on the death penalty such that there is no
situation, no case in which you could vote for the imposition of the death penalty?
A. Sir, you're saying that under no circumstances would I say, you know, I mean, I
would refuse the death penalty, either -- regardless, right?
Q. Regardless, right.
A. No. Unh-unh.
Q. If your jury, for example, did convict Mr. Berryman in the guilt phase of the
murder and rape, are you of a feeling in that situation, about the death penalty, that you
would automatically impose the death penalty at that point?
A. No.

Page 67
2007 U.S. Dist. LEXIS 51738, *

Q. Or would you listen -- would you be able to listen to all of the evidence on the
penalty phase, both from the People and the defense, and carefully weigh that
evidence?
A. Oh, yeah.

RT-6: 565-66.
d. Juror Helen Valdez.
Ms. Valdez's death qualification voir dire also was conducted by the trial judge, as follows:
Q. [by the trial judge] ... In the first phase, the jury doesn't involve itself with penalty,
and would [*192] be expressly instructed not to concern itself with penalty, at all. [P]
But in the second phase, the jury would hear additional evidence from both the People
and the defense, about the proper penalty to apply, and would you be able to consider
that evidence, along with all of the evidence they heard in the guilt phase. [P] The two
penalty choices that they would have would be either death or life in prison without the
possibility of parole.
A. Uh-huh.
Q. So, as you can see, the death penalty is a very serious consideration in this case.
A. Uh-huh.
Q. I need to ask you, do you have feelings about the death penalty that would make
it impossible for you to vote for the death penalty under any circumstances?
A. I don't know. I don't know how I feel about it, I really don't know.
Q. All right. As you sit there right now, and having heard what I've told you thus
far this afternoon, have you -- do you have any feelings about the death penalty at this
point, one way or the other?
A. No, I don't.
Q. All right. Do you feel that if you were selected on this jury, and, you know, went
through the first phase, and you and your fellow jurors determined that Mr. Berryman
did, in fact, rape and murder this [*193] young girl, do you think that you could listen
to the additional evidence that was presented and fairly consider whether or not to
apply the death penalty or life in prison without the possibility of parole? Do you think
you could do that?
A. I think I could.

RT-6: 635-36.
e. Juror Steven Ray Greenwood.
The death qualification voir dire of Mr. Greenwood was conducted by the trial judge, as
follows:

Page 68
2007 U.S. Dist. LEXIS 51738, *

Q. [by the trial judge] The questions I need to ask you are as follows, first question is
this, are your feelings about the death penalty such that you could not vote for the death
penalty under any circumstances?
A. Under any circumstances? No, sir.
Q. All right. Are your feelings about the death penalty such that if you reach that
penalty phase.
A. Uh-huh.
Q. And Mr. Berryman was convicted by you and 11 other jurors of the rape and
murder of this young girl, would you automatically apply the death penalty?
A. No, sir.
Q. All right. So I take it what you're telling us, you would consider all of the
evidence in the penalty phase and the evidence that you previously heard, you would
weigh that evidence, and make your decision on the basis of all the evidence?
A. Yes, sir. You know, it would have to be [*194] proven that was warranted, yes.

RT-7: 718.
f. Juror David Armendariz.
Death qualification voir dire of Mr. Armendariz was conducted by the trial judge and Mr.
Moench:
Q. [by the trial judge] ... I have to ask you some questions on how you feel about the
death penalty, [P] First question I want to ask you is this, are your feelings about the
death penalty such that you would not be able to vote for the death penalty, under any
circumstances?
A. No, I feel I could vote for that.
Q. All right.
A. I mean, depending on what my fellow jurors come up with, but as far as
personally speaking, no, I wouldn't have any problem with it, once all the evidence has
been weighed and everything.
Q. All right. On the other side of that coin, since in that second phase of the trial,
Mr. Berryman would already have been convicted of the rape and murder of this girl,
would you, based on the feelings that you have about the death penalty, automatically
apply the death penalty, or would you consider all of the other evidence before making
that decision?
A. I'd have to consider everything involved.
...

Page 69
2007 U.S. Dist. LEXIS 51738, *

Q. [by Mr. Moench] ... But do you feel that this particular kind of murder, that is
murder in the course of a rape, would [*195] be one that you feel is appropriate [for
the death penalty]?
A. I can't judge it right now. I don't know the immediate, you know, facts in
between. But it -- if the -- do you want me to speculate that if, indeed, the jury, you
know, whatever special circumstances were involved.
Q. Uh-huh.
A. I knew the outcome was a rape, are you asking me if I could say yes, when the
death penalty should be implemented?
Q. What I need to know is if this is the type of case where, if -- obviously it has to
be proven, and once that's proven, do you think it's appropriate to seek the death
penalty in those type of cases?
A. If it's proven, then yes.

RT-7: 735, 744-45.
g. Juror Kimberly Kay Arnold.
Ms. Arnold's death qualification voir dire was conducted by the trial judge and Mr. Soria, as
follows:
Q. [by the trial judge] Okay. Do you understand, under California law, that the death
penalty is not automatic?
A. (Affirmative nod.)
Q. In other words, the jury in that second phase of the trial, would be required to
weigh all of the evidence again, under a different method, but weigh all of the evidence
that it's already heard, it wouldn't be presented again, you'd already heard it.
A. Yeah.
Q. But you'd weigh that evidence, [*196] along with the additional evidence that I
talked about a moment ago, and weigh it all together, and then decide fairly and
impartially which of the 2 penalties would be the appropriate penalty. That's the job of
the jury in that situation.
A. Uh-huh.
Q. I guess what you've indicated is that you could vote for the death penalty, if the
evidence was appropriate.
A. Yeah.
Q. The other question, though, I need to ask you, is this. If Mr. Berryman stood
before you already convicted of the rape and murder.
A. Uh-huh.

Page 70
2007 U.S. Dist. LEXIS 51738, *

Q. Would you then automatically apply the death penalty, or would you listen to
this additional evidence?
A. I'd listen to the additional evidence.
Q. And you would give it fair consideration?
A. Uh-huh.
...
Q. Now, the other one thing that we ask you, also, to do in completing the
questionnaire, is to indicate to us any areas in the questionnaire that you would prefer
to talk to us about privately, as opposed to out in open court, so some of these areas can
be further inquired into [P] Two of the areas you did initial, one is the belief in the
adage an eye for an eye. What did you want to tell us about that?
A. I just wanted to give an opinion myself on how I feel that if he's had a [*197]
fair trial, and he's convicted, then I'm for eye for an eye, but, you know -Q. Now, when you say a fair trial, are you talking about the first phase of the trial,
in other words -A. Well, both.
Q. All right. Because if you're talking just about the first phase, and we get back to
that question about automatically applying the death penalty.
A. Yeah.
Q. Which you said you would not do, or consider all the evidence.
A. Uh-huh.
...
Q. [by Mr. Soria] [Regarding Ms. Arnold's concern that people are sentenced to
death, but no one is executed,] I think you would agree that somebody would have the
right to appeal their case.
A. Yeah.
Q. That's what that is. Your duty as a juror is not to consider what happens
afterwards, if it were to reach the penalty phase and you'd have to make a
determination.
A. That's true.
Q. You would be instructed by the Court that you're not to consider what happens
after, you're just to consider what the evidence is the courtroom is, and make a decision
on the evidence that's presented to you in the courtroom.
A. Uh-huh.
Q. And based on that, in the penalty phase, you have 2 choices, either life in prison
without the possibility of parole or death, and that's what you concern [*198] yourself
with.

Page 71
2007 U.S. Dist. LEXIS 51738, *

A. Uh-huh.
Q. And that would be your duty as a juror. Do you think you could fulfill that duty?
A. Yes, I could.
Q. And you can put all the concerns mentioned here out of your mind?
A. Oh, yeah.

RT-7: 764-65, 766, 768-69.
h. Juror Jymme Lyn Ahl.
Ms. Ahl's death qualification voir dire was conducted by the trial judge and Mr. Soria, as
follows:
Q. [by the trial judge] Now, if, in that [the guilt] phase of the trial, you and 11 other
jurors determine that Mr. Berryman is guilty of the rape and murder of this young girl,
then there would be a second phase of the trial, and in that phase of the trial, the jury
would have to weigh all of the evidence, including the evidence in the first phase, plus
any additional evidence that would be presented by either the People or the defense, on
the question of penalty.
A. Uh-huh.
Q. And decide whether or not to impose the death penalty or impose life in prison
without the possibility of parole.
A. (Affirmative nod.)
Q. So it's important that we know some of your inner feelings about the death
penalty. The first question I want to ask you is this, under those circumstances, if you
and your fellow jurors came to the point of considering penalty, [*199] are your
feelings about the death penalty such that you could not vote for the death penalty
under any circumstances?
A. No, they're not. I think -- are you asking that if it came down to it, and it looked
like the death penalty was warranted, whether or not I personally could do it?
Q. Yes.
A. I could personally do it.
Q. All right. On the other side of that coin, if you and your fellow jurors had found
Mr. Berryman guilty of the rape and murder, and had the choice between death or life
in prison without the possibility of parole, would you automatically apply the death
penalty, or would you consider -A. No, sir.
Q. - all of the evidence?
A. No, sir.

Page 72
2007 U.S. Dist. LEXIS 51738, *

Q. So I take it you would consider all of the evidence that would be presented, and
make the weighing process that the law requires?
A. Yes, sir.
...
Q. [by Mr. Soria] But in the abstract, you do believe that the death penalty should
exist?
A. I believe it's applicable in some situations.
Q. All right. But not in every situation.
A. No, sir.
Q. All right. And that's what we're concerned about, as the defense, if we reach the
second stage, and we only reach that if Mr. Berryman, my client, is found guilty of the
charges alleged by the prosecutor. Do [*200] you believe if that were to happen, you
would still be listening to us with regards to considering whether he should live or die?
A. Yes, sir.

RT-9: 1032-34, 1037-38.
i. Juror Virginia Mae Douglas.
The trial judge conducted the death qualification voir dire of Ms. Douglas:
Q. [by the trial judge] The first question I need to ask you concerning your feelings
about the death penalty is this, are your feelings about the death penalty such that you
could not vote for the death penalty, as a trial juror in this case, under any
circumstances?
A. I would have difficulty, but I would have to hear the evidence.
Q. Okay.
A. And all of the ramifications, as far as what reasons for it.
Q. All right. So I take it, if you -- you know, if the evidence was such that you felt
the penalty was proper, you could, in that situation, vote for the death penalty?
A. Yes.
Q. Okay. On the other side of that proposition, if you got to the penalty phase of the
trial, Mr. Berryman would have already been convicted of the charge of rape and
murder, by you and 11 other jurors.
A. Uh-huh.
Q. And in that situation, could you consider both possible penalties, or would you
automatically vote for the death penalty?
A. No, I would [*201] -- I would consider both of them.

Page 73
2007 U.S. Dist. LEXIS 51738, *

Q. Okay. Do you feel you could consider and weigh all of the evidence that you
would hear in that respect?
A. I would try to.
Q. Do you think you could do so fairly and impartially to both sides?
A. Hopefully.

RT-11: 1311-12.
j. Juror Gene Henry Bibb.
Mr. Bibb's death qualification voir dire was conducted by the trial judge and Mr. Soria:
Q. [by the trial judge] In that second phase of the trial, the jury would be instructed
that they should weigh and consider all of the evidence that they heard in the first part
of the trial, together with any additional evidence that would be presented on the issue
of penalty. So it's important, as you can tell, we need to know something about your
feelings about the death penalty.
A. Uh-huh.
Q. The specific questions I need to ask you are as follows, first one is this, are your
feelings about the death penalty such that you could not, as a juror, vote for the death
penalty, under any circumstances?
A. No, they're not.
Q. All right. Are your feelings such that if you were selected as a juror in this case,
and Mr. Berryman was convicted by you and your fellow jurors of the rape a murder of
this young girl, would you in the penalty [*202] phase of this trial, automatically
impose the death penalty?
A. No, I don't believe it would be automatic.
Q. Then you I think are telling me, that you would weigh and consider all of the
evidence that would be presented, and make an independent determination for yourself
what the proper penalty would be?
A. Yes.
Q. Do you feel you can do that fairly and impartially to both sides?
A. Yes, I do.
...

Q. [by Mr. Soria] My concern is question 22 [of the questionnaire], about the
enforcement of the penalty.
A. Uh-huh.
Q. You realize that cannot be a concern?

Page 74
2007 U.S. Dist. LEXIS 51738, *

A. Yes, I understand.
Q. But what your belief is, whether that is enforced or not, you would have to put
that aside?
A. Yes, I understand.
Q. And I believe the Court would instruct you that you're not to think about what is
to happen after your decision, just apply what you hear in the courtroom, though the
witness stand and properly admitted exhibits and the law the court gives you, could you
do that?
A. Yes.
Q. Give both sides a fair shake?
A. Yes.

RT-12: 1405-06, 1408.
k. Juror Michael A. Carr.
The trial judge conducted the death qualification voir dire of Mr. Carr, as follows:
Q. [by the trial judge] So it's -- as you can understand, it's necessary that [*203] we
know generally your feelings about the death penalty. [P] I want to ask you a couple of
questions in that respect. First question is this, if you were selected as a juror in this
case, are you feelings about the death penalty such that you could not vote for the death
penalty under any circumstance?
A. No, I -- if all the evidence weighed out, I -- you know, I could vote that way,
yes.
Q. All right. Let me ask you this, that if you were on this jury, and you and your
fellow jurors had found Mr. Berryman guilty of the rape and the murder this young girl
in the course that rape, in the penalty part of the trial, would you automatically vote for
the death penalty?
A. I would want to hear everything that was presented.
Q. Okay. You would then follow the instructions and carefully weigh all of the
evidence that was presented?
A. Yes.
Q. Do you think you could do that fairly and impartially to both sides?
A. Yeah.

RT-12: 1420-21.
l. Juror Margaret Anne Shea.
Ms. Shea's death qualification voir dire also was conducted by the trial judge, as follows:

Page 75
2007 U.S. Dist. LEXIS 51738, *

Q. [by the trial judge] The first question I need to ask you is this, are your feelings
regarding the death penalty such that if you were selected as [*204] a juror in this case,
that you could not under any circumstance, vote for the death penalty?
A. No.
Q. Okay. Are you feelings about the death penalty such that if you and your fellow
jurors had convicted Mr. Berryman of the rape and murder of this young girl, and
thereby got to the penalty phase of the trial, would you in that penalty phase
automatically vote for the death penalty?
A. No.
Q. Okay. So I gather what you would do is what I mentioned moments ago, that
you would carefully consider all [ ] of the evidence and weigh that evidence and make
a decision for yourself, based on all of the circumstances, what the proper penalty
should be?
A. Yes, I would.
RT-13:1622.
B. Berrryman's Contentions.
Berryman recognizes that the controlling authority for Claim 22 is Wainwright v.
Witt, 469 U.S. 412, 424, 105 S. Ct. 844, 83 L. Ed. 2d 841 (1985) and Morgan v. Illinois,
504 U.S. 719, 729, 112 S. Ct. 2222, 119 L. Ed. 2d 492 (1992). He states Witt stands for
the proposition that a prospective juror is unqualified to sit on a capital jury if the
juror's views on capital punishment would prevent or substantially impair the
performance of the his or her duties as a juror in accordance with the court's [*205]
instructions. He further correctly asserts Morgan holds a court may not refuse defense
counsel's question as to whether jurors would impose the death penalty automatically
on a finding of guilt, regardless of facts presented in mitigation. He continues, that
under Morgan, even if one juror is empaneled who would automatically vote for the
death penalty where authorized, without consideration of mitigating and aggravating
circumstances, the death verdict is void and must be set aside.
Although the Court already has reviewed the death qualification process conducted
on voir dire, and determined Berryman's assertions to be unsubstantiated, 79 Berryman
asks that the Court reconsider its position in light of the reasoning in an Oklahoma state
court case, Jones v. State, 1999 OK CR 8, 990 P.2d 247 (Okl. 1999), particularly with
respect to jurors Michael A. Carr, Jymme Lyn Ahl, Helen Valdez, and LaVeta Morris.

79 This determination was made in connection with an order filed September 9, 1999
largely denying Berryman's request for investigative funding.
C. Analysis.
Morgan holds that a juror who will automatically vote for the death penalty in every case is one
who "will fail in good faith to [*206] consider the evidence of aggravating and mitigating

Page 76
2007 U.S. Dist. LEXIS 51738, *

circumstances as the instructions require," and may be challenged for cause. 504 U.S. at 729. "If
even one such juror is empaneled and the death sentence is imposed, the State is disentitled to
execute the sentence." Id. Berryman's reliance on the reasoning in Jones is misplaced. Jones adds
nothing to the well-established rule in Morgan. As Berryman notes in his traverse, defense counsel
in Jones was permitted to ask one juror: "Do you feel that because he [the defendant] admits to the
crime . . . that he should be given the death penalty without further consideration?" Jones, 990 P. 2d
at 249. The court characterizes this question as the only question, of many, asked of prospective
jurors which explored "a juror's inclination to impose the death penalty automatically." Id. Had this
question been asked of all the prospective jurors (or at least all the jurors who ultimately were
selected for jury service), the Constitution would not have been violated. But, counsel was only able
to ask a single juror this question. "The fact that counsel succeeded in asking this question of one
juror, but was prevented from similarly questioning any [*207] other panel member, does not cure
this error." Id.
Although the inclination of Berryman's jurors to automatically impose the death penalty was not
explored in the juror questionnaires, during death qualification voir dire, each of the jurors, except
for Helen Valdez, specifically was asked ifs/he would automatically impose the death penalty in the
event s/he and his/her fellow jurors found Berryman guilty of murder and rape. Jurors Morris, Ahl,
and Carr specifically were asked these questions. See Part IX.A.2.b., h., and k., supra, respectively.
No further inquiry concerning their impartiality on the automatic imposition of the death penalty is
warranted.
Notwithstanding that Juror Valdez was not asked if she automatically would vote for the death
penalty in the event the jury found Berryman guilty of murder and rape, her voir dire responses
clearly indicate her impartiality on this issue. Ms. Valdez equivocated when the trial judge asked
her if she would refuse to vote for that punishment under any circumstances. She responded, "I
don't know. I don't know how I feel about it, I really don't." See Part IX.A.2.d., supra. Next, when
asked whether she had "any feelings" about the death [*208] penalty, "one way or the other," she
responded, "No, I don't." See id. Finally, when asked whether she could listen to additional
evidence presented during penalty proceedings and "fairly consider whether or not to apply the
death penalty or life in prison without the possibility of parole," she responded, "I think I could."
See id.
Based on these responses, there can be no doubt but that Ms. Valdez was not predisposed, and
did not believe she was predisposed, to vote automatically for the death penalty in the event
Berryman became death eligible. She could not answer definitely when asked whether she would
refuse to vote for the death penalty, she affirmed that she had no feelings one way or the other about
the death penalty, and she affirmed that she would consider penalty phase evidence before deciding
to vote for death or life in prison without parole. The fact that the trial judge did not use the precise
phrase "would you automatically vote for the death penalty?" is not dispositive. The Constitution
"does not dictate a catechism for voir dire, [ ] only that the defendant be afforded an impartial jury."
Morgan, 504 U.S. at 729. What is required is that the voir dire is adequate [*209] to identify
unqualified jurors. While the adequacy of voir dire is not easily reviewed, the key is that "certain
inquiries must be made to effectuate constitutional protections." Id. at 730. Those inquiries were
adequate in the case of Ms. Valdez. The Court finds that the voir dire inquiries established her
impartiality.
Since Ms. Arnold also equivocated on her belief in the automatic imposition of the death
penalty, in terms of the "an eye for an eye" concept, her voir dire responses also warrant further

Page 77
2007 U.S. Dist. LEXIS 51738, *

evaluation. First, Ms. Arnold indicated by an affirmative nod that she understood the death penalty
was not automatic, even in the event Berryman were convicted of murder and rape. See Part
IX.A.2.g., supra. Second, she agreed to weigh all the evidence presented during penalty
proceedings before deciding on the two available punishments. See id. Third, she specifically
affirmed that she would listen to all the evidence before making her decision. See id. When asked
about her views on "an eye for an eye," Ms. Arnold first responded that if Berryman had a fair trial
at both the guilt phase and penalty phase, she would be for "an eye for an eye." When the trial judge
reminded her this [*210] was the equivalent of believing in the automatic imposition of the death
penalty, a decision she said she would not make, Ms Arnold agreed that she would not
automatically impose the death penalty. See id. This questioning was then followed up by Mr. Soria
who asked for further clarification about Ms. Arnold's concern about death penalty enforcement.
She clarified during this exchange that she would follow the trial court's instructions and not
consider enforcement matters, but would focus her consideration on the evidence presented during
the trial. Id. The Court finds these inquiries sufficient to ascertain Ms. Arnold's impartiality about
imposition of the death penalty under Morgan, 504 U.S. at 729.
Claim 22 is denied on the merits.
X. Berryman's Challenge to Juror David Armendariz (Claims 24 and 25).
In Claims 24 and 25, Berryman alleges his conviction, the special circumstance finding, and
penalty were obtained in violation of his Fifth, Sixth, Eighth, and Fourteenth Amendment rights
because the trial court failed to excuse David Armendariz from the jury after it was revealed that he
had what Berryman characterizes as "a close family relationship" to the victim's family. Claim 24
[*211] presents a straight juror bias, structural error challenge. Claim 25 is pleaded in terms of
ineffective assistance of counsel for the trial attorneys' failure to challenge Juror Armendariz for
cause. Berryman requests an evidentiary hearing with respect to Claim 24.
A. Statement of the Facts Relevant to Juror Armendariz's Jury Service.
The facts relevant to Juror Armendariz's jury service consist of a review of trial proceedings
where he revealed his potential connection to Crystal Armendariz and a declaration he executed
during the investigation of Berryman's federal claims.
1. Trial Proceedings of Juror Armendariz's Revelation.
After Crystal Armendariz completed her testimony during which she mentioned receiving a call
from Edward Armendariz, the father of her infant twins, Juror Armendariz informed the trial court,
privately, that he thought the Edward Armendariz referred to by Ms. Armendariz was a cousin of
his. Upon being questioned by the trial judge, Mr. Armendariz stated that he was not close to his
cousin and this fact would not affect his ability to deliberate or be impartial. The dialogue between
Mr. Armendariz and the trial judge is as follows:
THE COURT: Let the record reflect [*212] that all of our jurors are excused, with
the exception of juror number 8, Mr. Armendariz. I've asked Mr. Armendariz to remain
behind for just a couple of moments. He apparently expressed a bit of concern to our
bailiff that possibly there may be some possible relationships between Crystal
Armendariz, the witness that testified just prior to Mr. Jackson, and himself, and that it
might bother him in his function as a juror. [P] Mr. Armendariz, do you have some
concern about that at this point?
THE JUROR: No, I don't think it would bother me as far as my abilities as a juror
or anything.

Page 78
2007 U.S. Dist. LEXIS 51738, *

THE COURT: All right.
THE JUROR: The thing that rang a bell, I've never seen the witness before in my
life.
THE COURT: Okay.
THE JUROR: It's just that when she mentioned that the father of her twins was
Edward, which I have a cousin named Ed, but I've never heard [of] him as Edward.
THE COURT: Having twins.
THE JUROR: That kind of rang a bell, because like I said, when I stated in the
peremptory and everything else, that I know -- I'm not tight at all with my cousins, I'm
just the type of person, I don't -THE COURT: All right. We can simply leave the matter alone or we can certainly
find out more about the [*213] witness or, you know, her husband or the father of the
twins or whatever the case may be, if you would feel more comfortable if you knew.
THE JUROR: No, I feel fine now.
THE COURT: All right. Well, if you have any concern or any problem about it,
again, as Bill [the bailiff] suggested to you, and very properly so, let him know or write
a note.
THE JUROR: Yeah, I was in the process of leaving you something, and I only got
as far as Judge Wallace, and then we came in.
THE COURT: All right. If it does become a problem, please bring to our attention,
and we'll certainly be happy to get some additional information for you, if necessary, or
whatever it may take to help you. You know, either determine that it would be a
problem, or satisfy yourself that it won't be. [P] At this point, I assume it's not a
problem, and I will assume that to be the case unless we hear from you to the contrary.
THE JUROR: Okay. I'm perfectly satisfied.
THE COURT: All right.
THE JUROR: Like I said, I don't have much contact with my cousins.
THE COURT: All right. If it becomes a problem, let us know.
THE JUROR: It's just a concern, because I know the magnitude of the case, and I
just want to be honest.

RT-18: 2502-04.
2. [*214] Declaration of David Armendariz, Executed February 4, 2001.
In the declaration, Mr. Armendariz confirms what he thought might be true during the trial, that
the Edward Armendariz referred to by Crystal Armendariz during her testimony, in fact is his first
cousin. He explains that the father of Ms. Armendariz's twins was his cousin Eddie Armendariz, son
of Mr. Armendariz's uncle Diego Armendariz. In the 15 years prior to 1996 (when Berryman's
current investigator interviewed him), Mr. Armendariz had visited his uncle, Diego Armendariz on

Page 79
2007 U.S. Dist. LEXIS 51738, *

two occasions. He was not close to his cousin, Eddie, but knew that "he is trouble." At the time of
Berryman's trial, Eddie Armendariz was in prison. At the time Mr. Armendariz executed his
declaration, Eddie Armendariz was in prison again.
B. Berryman's Contentions.
Berryman relies on the concurring opinion of Justice O'Connor in Smith v. Phillips, 455 U.S.
209, 102 S. Ct. 940, 71 L. Ed. 2d 78 (1982), in which she recognizes "extreme circumstances" in
which a court would appropriately find "implied bias" of a juror or prospective juror. Id. at 222. As
recited in the concurring opinion, those circumstances include: "a revelation that a juror is an actual
[*215] employee of the prosecuting agency, that the juror is a close relative of one of the
participants in the trial or the criminal transaction, or that the juror was a witness or somehow
involved in the criminal transaction." Id. (emphasis added). He maintains that Mr. Armendariz's
relationship to his cousin Edward, and through him to Crystal Armendariz was sufficiently close to
have triggered an finding of implied bias. He argues that the death in the family of Crystal
Armendariz "undoubtedly affected" Mr. Armendariz's jury service. Berryman further notes that the
"case was closely balanced as to penalty" and thus the familial relationship between Mr.
Armendariz and Ms. Hildreth's family likely was a factor in the ultimate unfavorable verdicts. In his
traverse, Berryman acknowledges that Mr. Armendariz denies his relationship to the victim's family
had any effect on his judgment, but that Mr. Armendariz's self-assessment should be viewed with
suspicion. He claims the only way to resolve the dispute is for the Court to grant an evidentiary
hearing.
C. Analysis.
As a preliminary matter, Claim 24 is not Teague-barred. In Dyer v. Calderon, 151 F.3d 970 (9th
Cir. 1998) (en banc), the court rejected [*216] the notion that implied bias constitutes a "new rule"
barred by Teague v. Lane. Rather, "[i]mplied bias may indeed be the single oldest rule in the history
of judicial review." Id. at 984-85; see also Fields v. Brown, 431 F.3d 1186, 1195 (9th Cir. 2005). In
Dyer, the majority acknowledged the dissent's complaint that no Supreme Court case actually had
announced implied bias as a rule of constitutional procedure. But, the majority responded, "a rule
needs to be announced for purposes of Teague only if it's new. What we have here is the antithesis
of Teague -- a rule so deeply embedded in the fabric of due process that every one takes it for
granted." 151 F.3d at 984.
Nonetheless, Berryman has not presented a colorable claim of implied bias sufficient to warrant
an evidentiary hearing and has not shown entitlement to relief under Strickland v. Washington. Mr.
Armendariz's representations to the trial judge after the testimony of Crystal Armendariz, as well as
his declaration testimony belies the notion that he had a close relation with Crystal Armendariz,
much less the victim, Ms. Hildreth. He stated he was not close with his cousin, Ed, rarely saw his
uncle, and had never met Crystal [*217] Armendariz. The cases relied on by the Warden are
instructive. In Andrews v. Collins, 21 F.3d 612, 620 (5th Cir. 1994), the Fifth circuit upheld the
district court's finding that there was no implied bias where a juror's daughter had been married to
the victim's deceased grandson. In Howard v. Davis, 815 F.2d 1429, 1431 (11th Cir. 1987), the
Eleventh Circuit found that the trial court had not committed an abuse of discretion for not excusing
a juror who actually was a close friend of the murder victim, where the juror assured the trial court
he could be impartial. In United States v. Freeman, 514 F.2d 171, 174 (8th Cir. 1975), the Eighth
Circuit similarly found there was no abuse of discretion for the trial court failing to excuse a juror
who had been acquainted with the victim's family through a mutual friend, a fact the juror disclosed
to the trial court after she had been selected as a juror, but before evidence was presented.

Page 80
2007 U.S. Dist. LEXIS 51738, *

Berryman's case presents even less justification for excusing Mr. Armendariz. First, despite the fact
that his and Crystal's last names were the same, he did not at first appreciate the fact that Crystal
could have been the woman who bore the twins of his [*218] (Mr. Armendariz's) incarcerated
cousin Ed Armendariz. Second, even when he informed the trial court about his suspicion to the
contrary, he was not certain of the connection (although his suspicion later was confirmed). Third,
Mr. Armendariz was not close with his cousin and was only vaguely familiar with Ed Armendariz's
life situation. Finally, Mr. Armendariz assured the trial judge he could be impartial; that the
possibility he may have been connected with Crystal Armendariz through his aloof cousin would
not affect his duties as a juror.
Berryman's contention that Mr. Armendariz's assurances of impartiality should not be credited,
but should be further explored during an evidentiary hearing, is unpersuasive. There is nothing to
indicate that Mr. Armendariz would change his testimony were he examined live, before the Court.
No other information or offer of proof is suggested to cast doubt on the veracity of Mr.
Armendariz's account of his relationship with Edward Armendariz or his confidence in his own
impartiality. The Court finds that Berryman has failed make an offer of proof sufficient to warrant
an evidentiary hearing on Claim 24. Further, in the absence of a showing that a cause [*219]
challenge to Mr. Armendariz would have resulted in his discharge from jury service, the ineffective
assistance of counsel claim also must fall. Claims 24 and 25 are denied on the merits.
XI. Berryman's Assertion the State Interfered with his Communications with his
Attorneys (Claim 17).
In Claim 17, Berryman argues that his communications with his attorneys, and consequent trial
preparation, were severely hindered because of an intercom device in the County Jail interview
room. Although Berryman does not claim that the device actually was connected, he maintains it
had the appearance of being connected, and thus gave him the impression that his conversations
with counsel were being overheard. Berryman does not request an evidentiary hearing with respect
to this claim.
A. Statement of Facts Relevant to the Interference with Communications Claim.
Berryman's current investigator inspected the attorney interview room at the Lerdo branch of
the Kern County Jail. He observed an intercom connection in the attorney visiting room "which
could be connected, and has the appearance of being connected, to custodial officers." No
information is supplied as to whether at the time of Berryman's detention [*220] on the Lerdo
facility the intercom devise actually was connected or his conversations with counsel were being
recorded.
B. Berryman's Contentions.
In his traverse, Berryman clarifies the nature of Claim 17. He does not contend his
conversations were monitored by authorities, but rather that the presence of the intercom device
gave the appearance of being a monitoring device, and that this interfered with his ability to freely
communicate with his attorneys. As a result, he felt constrained to communicate by writing notes to
his attorneys, an ineffective means for someone with limited academic skills. Further, the inhibition
caused by the presence of the intercom device contributed to the breakdown of attorney-client
communications addressed in Claims 1, 2, and 3. See Part V., supra. As a consequence, Berryman
alleges, important information for the defense was not relayed to counsel. Relying on Lakin v. Stine,
44 F.Supp.2d 897 (E.D. Mich. 1999), he claims that he was essentially forced to relinquish his right

Page 81
2007 U.S. Dist. LEXIS 51738, *

to counsel because the level of state interference made meaningful attorney-client communication
impossible.
C. Analysis.
As the Warden points out in his opposition brief, a Sixth Amendment [*221] violation for
intrusion into the attorney-client relationship requires actual and intentional governmental conduct.
See United States v. Roper, 874 F.2d 782, 790 (11th Cir. 1989). Further, the intrusion must have
resulted in disclosure of information which inured to the benefit of the prosecution and to the
detriment of the defendant. United States v. Morrison, 449 U.S. 361, 365, 101 S. Ct. 665, 66 L. Ed.
2d 564 (1981); United States v. Irwin, 612 F.2d 1182, 1186-87 (9th Cir. 1980); United States v.
Glover, 596 F.2d 857,863-64 (9th Cir. 1979); Cinelli v. Revere, 820 F.2d 474, 478 (1st Cir. 1987).
The more recent decision by the Ninth Circuit in Williams v. Woodford, 384 F.3d 567 (9th Cir.
2004), clarifies the standard:
When the government deliberately interferes with the confidential relationship
between a criminal defendant and defense counsel, that interference violates the Sixth
Amendment right to counsel if it substantially prejudices the criminal defendant.
[Citations.] Substantial prejudice results from the introduction of evidence gained
through the interference against the defendant at trial, from the prosecution's use of
confidential information pertaining to defense plans and [*222] strategy, and from
other actions designed to give the prosecution an unfair advantage at trial. [Citation.]
Id. at 584-85.

Berryman can satisfy neither the deliberate interference requirement, nor the substantial
prejudice requirement. He has alleged only an unfounded fear that his conversations might have
been monitored, not that they were, or that the prosecution benefitted from any information
obtained as a result. The Court also notes that the Michigan District Court decision, Lakin, 44
F.Supp. 2d 897, relied on by Berryman was been reversed by the Sixth Circuit for the very reason
that the lower court granted relief without a showing of prejudice. Lakin v. Stine, 229 F.3d 1152
(6th Cir. 2000). 80 In the present case, Berryman suffered no actionable interference in his Sixth
Amendment right to counsel. Claim 17 is denied on the merits.
80 Berryman's current litigation team reasonably did not know of the reversal of the Lakin
case because the Sixth Circuit opinion was decided on July 13, 2000 and Berryman's traverse
was filed a month earlier, on June 7, 2000.
XII. Berryman's Assertion that His Attorneys' Were Constitutionally Incompetent for
Failure to Present a Mental Defense at Guilt [*223] Phase Proceedings (Claims 15 and 16).
In Claims 15 and 16, Berryman alleges his attorneys were ineffective for not investigating,
developing, and presenting evidence to defeat the prosecution case of premeditation, deliberation,
intentional killing, and rape or attempted rape. In Claim 15, he alleges that trial counsel should have
presented at the guilt proceedings a minimum of the same evidence presented at the penalty phase
to develop a mental state defense. This includes the trial testimony of Drs. Pierce and Benson, as
well as lay testimony supporting the fact of his excessive alcohol consumption. In Claim 16, he
contends counsel should have presented mental state evidence at the guilt phase above and beyond

Page 82
2007 U.S. Dist. LEXIS 51738, *

what was presented at the penalty phase. Berryman requests an evidentiary hearing with respect to
Claim 15.
A. Statement of the Facts Relevant to a Potential Mental State Defense.
The proffered evidence for Claims 15 and 16 focuses on evidence that could have been
presented regarding the numerous causes for Berryman's alleged mental deficiencies, including
excessive alcohol consumption, diminished intellectual functioning, and mental impairments
stemming from his difficult upbringing. [*224] This section also includes a summary of the social
history report of psychologist Gretchen White, Ph.D., opinion testimony of Strickland expert Mr.
Simrin, and explanation of efforts to develop mental state evidence by Mr. Soria, and counter
evidence presented by the Warden.
1. Evidence of Excessive Alcohol Consumption.
The evidence supporting Berryman's excessive alcohol consumption is largely provided by lay
witnesses, some who testified at his trial. In each instance of a trial witness testifying about
Berryman's alcohol consumption, the testimony was elicited by defense counsel. During guilt phase
proceedings, see Part III.A., supra, witness Thellas Sanders testified that Berryman was drinking a
40 ounce bottle of malt liquor, which he shared with Mr. Sanders during their conversation about
the death of Ms. Hildreth, the day after her death. Ms. Armendariz testified that Berryman was
drinking malt liquor during their outing to Bakersfield (before Ms. Hildreth went missing) and that
she could smell alcohol on his breath when he returned (after Ms. Hildreth was killed). Her younger
brother, Andrew Bonner confirmed the smell of alcohol on Berryman's breath when he returned to
their [*225] garage apartment late Sunday night/ early Monday morning (following Ms. Hildreth's
death). Melinda Pena testified that when she was out with Berryman, the night of the killing,
Berryman was drinking. Finally, Berryman points to the fact that a wine cooler bottle was found at
the crime scene. 81 Berryman's statement to interrogating detectives also reveals that he had been
drinking the day Ms. Hildreth was killed and on the evening of the interview. See Part VI.A.3.,
supra. Penalty phase evidence also confirms Berryman's alcohol indulgence, including from
Melinda Pena, Berryman's sister, Ronnique Berryman, his mother, Lestine Bonty, his wife, Carol
Berryman, and his cousin, Maxine Coleman. See Part III.B., supra.
81 No evidence actually connected this wine cooler bottle to Berryman, a point emphasized
in the Warden's opposition papers.
In addition to evidence elicited from witnesses at trial (by the defense team) about Berryman's
alcohol consumption, numerous post-conviction declarations developed on federal habeas corpus
shed light on the extent of his drinking. 82 Family friend Johnnetta Reed was aware that Berryman
drank prior to his arrest in Delano. Although she reports she didn't [*226] see him much in six to
eight months prior to his arrest and cannot recall "a particular problem" arising because of
Berryman's alcohol consumption, Ms. Reed was aware that Berryman stopped attending church,
began using bad language, and hung out with "the fellows." Berryman's cousin, Maxine Coleman
was interviewed by a "black doctor" or investigator prior to her trial testimony about Berryman's
drinking. A few days before Berryman was arrested, he told Ms. Coleman he was "concerned he
was drinking too much." Ms. Coleman never saw Berryman when he was drinking.
82 These declarations actually are offered in support of Berryman's request for an
evidentiary hearing regarding Claims 68 and 69 regarding the failure of trial counsel to

Page 83
2007 U.S. Dist. LEXIS 51738, *

adequately develop mitigation evidence at the penalty proceedings, see Part XXV., infra, but
they are relevant here as well.
Berryman's former wife, Carol Berryman, 83 avers that he drank socially when she met
him in 1985. He stopped drinking completely for six months when they were living together,
and then resumed, drinking more and more. Ms. Berryman was concerned about Berryman
driving after or while drinking, particularly after they argued. She avers that [*227] his
"DUIs usually happened after one of these confrontations when he would leave [her] and go
off driving." Berryman and his wife separated because of his excessive drinking and
unfaithfulness. His drinking affected his ability to work as well as their marital relationship.
Ms. Berryman hoped the separation would motivate Berryman to stop drinking and get his
life together. When Berryman moved to Delano, he told Ms. Berryman "he had a warrant out
on him" and wanted to spend time with his great-grandmother before turning himself in. Ms.
Berryman's sister, Margie Garcia, avers that she did see Berryman drink socially, but doesn't
"ever recall seeing him drunk or out of line from drinking too much."
83 The declaration actually was executed under the name Fuller, but for consistency the
Court refers to Ms. Fuller as Carol Berryman or Ms. Berryman, as she is referenced in other
parts of this Memorandum Order.
Berryman's maternal uncle, Lester Bonty avers that he is "somewhat aware that Rodney
[Berryman] drank excessively." Mr. L. Bonty's awareness, however came from reports of
Berryman's drunken behavior from other family members, not from his own observations. Besides
this, Mr. L. Bonty [*228] heard that Berryman had a "run-in" with his step-father (Jon January).
When Mr. L. Bonty saw Berryman at the home of his (Mr. L. Bonty's) mother (Berryman's
grandmother), Berryman seemed fine.
In contrast to the foregoing witnesses, Odesser Pearson, the grandmother of two of Berryman's
female high school friends, did not observe any changes in Berryman's behavior in the time she
knew him. Nor did she observe him drinking alcohol. Similarly, long-time friend Kandy Rumford
did not observe Berryman consume alcohol and was unaware Berryman had a drinking problem. A
maternal aunt, Linda Mitchell, avers that she did not know Berryman was "a drinker." She states
she never saw him drink. Maternal aunt, Carolyn Bonty, did see him drink occasionally, but was not
aware "that he had a problem with it." She concedes, however, that she saw less of Berryman when
he was a teenager because she was moving around so much. Similarly, maternal aunt Terrie Bonty
knew Berryman occasionally drank, but not that he "was having a problem with alcohol." Like Ms.
C. Bonty, Ms. T. Bonty was not around Berryman so much to have noticed. Maternal aunt Karen
Bonty similarly cannot recall ever seeing Berryman with a [*229] drink. Her twin sister, Sharon
Bonty also states she is not aware he had a problem. Maternal great aunt (in-law) Ann Bonty is
unaware Berryman had any problems with alcohol consumption.
Maternal uncle Emery Bonty recalls a family reunion in Pasadena where Berryman was "stone
drunk and behaving badly." Berryman was only 15 or 16 at the time. Mr. E. Bonty confronted
Berryman about his behavior at this time. 84 Maternal uncle (in-law) Perry McBride states that while
he didn't see Berryman drink, he learned that Berryman's father was "a drinker."
84 The chronology reported here is confusing, since other evidence indicates that Berryman
was living with his father in Sacramento at the time he was 15 or 16, and often was under the
jurisdiction of juvenile authorities. In addition, Berryman's mother, Lestine Bonty, reports

Page 84
2007 U.S. Dist. LEXIS 51738, *

that she had no contact with Berryman from the time he moved out of her house at age 12,
until he came back to live with her when he was 17. It may be that the incident described
occurred after Berryman returned to live with his mother, when he was 17.
2. Evidence of Voluntary Intercourse.
In his moving papers, Berryman argues his trial counsel knew "there was evidence that
[*230] the victim voluntarily went with her assailant to a secluded spot and that there was
consensual intercourse." Although there is no such statement in any of Mr. Soria's offered
declarations, one of Berryman's attorneys in this federal action, Jessie Morris, Jr. provides a
declaration appended to the second state habeas petition that the proprietors of a refreshment
stand at the Lake Woollomes recreational park remembered Berryman coming out to the lake
with Ms. Hildreth a week or two before her death. According to Mr. Morris's 1998
declaration, the concessionaires gave a statement to this effect, although no statement is
provided. Mr. Morris also reports interviewing Ms. Armendariz and her mother, Brenda
Clark, in this same declaration. Had they been asked at trial, both would have testified that
Ms. Hildreth had been in Berryman's pick up truck prior to the night of her death. This
declaration was updated by Mr. Morris with the execution of a new declaration on October 2,
2001. In the updated declaration, he reiterates that he interviewed Crystal Armendariz and her
mother, Brenda Clark in February 1996. As documented by his interview notes, Mrs. Clark
could have testified that Berryman [*231] gave Ms. Armendariz and Ms. Hildreth a ride in
his pick up truck and Ms. Armendariz could have testified that she drove Berryman's pick up
truck on one occasion, with Ms. Hildreth as a passenger. Mrs. Clark also informed Mr.
Morris that Ms. Hildreth did not care for Berryman and didn't know why her cousin (Crystal)
would get involved with him. Mrs. Clark further reported that she felt Berryman "eyeballing"
her. Mr. Morris was not able to obtain declarations from Mrs. Clark or Ms. Armendariz
because they "are to some extent hostile." Mrs. Clark specifically told Mr. Morris not to
return. The offered purpose of this testimony is to establish that Berryman and Ms. Hildreth
were well enough acquainted for her to have been in his pick up truck prior to the night of her
death, and that she may well have gone with Berryman voluntarily to the agricultural field to
have sexual intercourse. 85
85 The sufficiency of the evidence of rape and the rape murder special circumstances is
separately addressed in Claims 12, 29, 35, 50, 71 and 71A. See Part XIX., infra.
3. Mental State Evidence Developed by Berryman.
The mental state evidence consists of trial and declaration testimony of Drs. Pierce and [*232]
Benson, the test results of two neurological tests, an alcohol induced EEG and a Positron Emission
Tomograph ("PET scan"), and the social history report of Dr. White. Drs. Pierce and Benson each
have provided two declarations, one each attached to Berryman's first state habeas petition, and one
each appended to his evidentiary hearing request in this federal action. In connection with the EEG
and PET scan, the experts who performed those tests, neurologist Paul Guisado, M.D. and
neurologist Joseph C. Wu, M.D., respectively also provide background declarations as to their
qualifications.
a. Trial Testimony of Drs. Pierce and Benson.
The trial testimony of Drs. Pierce and Benson is recounted in the summary of the penalty phase
proceedings. See Part III.B., supra. To summarize, the gravamen of Dr. Pierce's testimony is that
Berryman suffered a personality disorder, largely due to his neglected and dysfunctional childhood.

Page 85
2007 U.S. Dist. LEXIS 51738, *

Separately, Dr. Pierce opined that Berryman was afflicted with a seizure disorder triggered by
alcohol consumption. Dr. Pierce believed the seizure disorder also was associated with a head
injury Berryman sustained. 86 Dr. Pierce and Dr. Benson both wanted to have Berryman [*233]
submit to an alcohol induced EEG to confirm the presence of the seizure disorder, as they believed
Berryman's aberrant behavior in committing a violent act on Ms. Hildreth was caused by a seizure
disorder that would be detectable by the alcohol induced EEG. Dr. Benson's diagnosis was that
Berryman suffered from a learning disability as well as organic mental syndrome, manifested by
seizures, largely alcohol induced. Berryman's past head injury 87 also was said by Dr. Benson to be a
cause of his organic mental syndrome. The seizures were described by Berryman and his wife as
being preceded by the smell of gasoline or oil and accompanied by facial contortions, severe
headaches, ringing in the ears, blackouts, and aggressive behavior. Dr. Benson ascribed the cause of
Berryman's attack on Mr. Perez, the altercation with his father-in-law, a heated argument with his
mother (over replacing tires on his pick up truck), and the killing of Ms. Hildreth to aggressive
behavior during seizures, explaining that people who suffer from temporal lobe seizures had been
known "to do all kinds of things, and particularly violent sort of things." Nonetheless, he also
conceded that committing rape was [*234] not among the violent acts that people experiencing a
seizure would do.
86 The cause of the head injury could have been from Berryman falling down from a forklift
or crane at a job-site, or from being struck on the head with a flashlight by his wife.
87 Dr. Benson referred to the cause of the head injury as being hit with a metal pipe.
b. Mental State Declarations Appended to the First State Habeas Petition.
Dr. Benson executed a declaration dated August 17, 1993 which largely reiterates his trial
testimony, notably that after examination, he concluded Berryman suffered from organic mental
syndrome, probably aggravated by excessive alcohol consumption and two head injuries (which in
turn resulted in recurrent severe headaches). Because of Berryman's scholastic history of having
been placed in special education classes and his head traumas, Dr. Benson arrived at a diagnosis of
middle brain dysfunction. To confirm this diagnosis. Dr. Benson sought an alcohol induced EEG,
compared to a regular EEG (for determination of impact of alcohol on brain function), and a PET
scan. When Dr. Benson learned that the tests could not be conducted in Kern County, he suggested
to Mr. Soria that the tests [*235] be conducted outside the county. Mr. Soria replied, however, that
the trial court would not grant an order allowing such expensive tests to be performed, particularly
outside of the county.
Dr. Benson believed Berryman's neurologic dysfunction was relevant to his guilt, in addition to
sentencing. He was not, however, called to testify at guilt proceedings. Since his trial testimony, Dr.
Benson learned that Berryman was the victim of sexual molestation by an uncle when he was seven
or eight years old, consisting of anal intercourse and oral copulation. 88 Such molestation certainly
would have contributed to Berryman's personality disorder, particularly as this involved his
relationship with women and excessive alcoholism. Knowing this information would have
supported his and Dr. Pierce's respective diagnoses. Although Dr. Benson's diagnosis could not be
confirmed with an alcohol induced EEG or a PET scan at the time of trial, he adhered to his
conclusion based on his own observations, even without empirical confirmation.
88 As will be discussed in connection with Berryman's penalty phase arguments, see Claims
6, 63, 64, 65, 69, and 70, the foundation for Berryman's sexual abuse as a child [*236] is not
established by any reliable evidence or offers of proof. See Part XXV.C., infra.

Page 86
2007 U.S. Dist. LEXIS 51738, *

Dr. Pierce's declaration executed on August 31, 1993, similarly reiterated the basis for his trial
diagnostic impressions, including Berryman's chaotic, unstable childhood and family history, an
early learning disorder, low self-esteem, excessive alcohol usage, head injury traumas, sudden onset
and termination of severe headaches, a declining marital relationship, and failed parental role. Dr.
Pierce's diagnosis was two pronged: alcohol induced organic disorder and personality disorder, not
otherwise specified with dependent narcissistic and depressive features. Dr. Pierce related his
findings to Mr. Soria and urged further neurologic testing to confirm brain damage. Any such brain
damage, in turn, would have been relevant to a determination of Berryman's guilt. Like Dr. Benson,
Dr. Pierce felt that the post-trial discovery of sexual molestation inflicted on Berryman would have
been significant to his poor male image development and relationship with females. The
molestation would have been very important in the support of Dr. Pierce's diagnosis.
In appellate counsel Paul Posner's meetings with Drs. [*237] Pierce and Benson, he learned
that defense counsel never provided them with any foundational material regarding Berryman's
scholastic, psychological, medical, or injury history. This omission was a basis for Mr. Posner's
opinion that Berryman's trial counsel were constitutionally ineffective.
c. Mental State Declarations of Drs. Pierce, Benson, Guisado, and Wu Developed in
Federal Proceedings.
Dr. Pierce's most recent declaration, executed October 4, 2001, incorporates a report he
authored the same day the declaration was executed. In preparation for his report, he consulted with
Dr. Benson, interviewed Berryman on three occasions (over and above prior interviews), reviewed
prior records and his prior trial as well as declaration testimony, examined the EEG report of Dr.
Guisado and examined the PET scan report of Dr. Wu. In his present report. Dr. Pierce reiterates
that during the period of his pre-trial evaluation of Berryman, he urged Mr. Soria to subject
Berryman to neurological testing to confirm the existence of brain damage and that if brain damage
could be confirmed by empirical test results, that information should be presented during guilt
phase proceedings. The tests Dr. Pierce [*238] requested were an EEG and an alcohol induced
EEG.
Dr. Pierce states that the test results from Dr. Wu (PET scan) and Dr. Guisado (alcohol induced
EEG) confirm his initial diagnoses given in 1988, i.e., that Berryman suffers and suffered from an
alcohol organic disorder and an organic mental syndrome or seizure disorder. Dr. Wu opines that
his preliminary impression of the PET scan was abnormal. Dr. Guisado reports abnormalities in the
alcohol induced EEG based on "increased right temporal slowing and focal left temporal sharp
wave activity . . . consistent with bilateral temporal lobe dysfunction and alcohol induced left
temporal paroxysmal activity." Dr. Pierce concludes that Berryman's alcohol consumption prior to
the killing of Ms. Hildreth "could have produced a seizure in Mr. Berryman, resulting in an altered
state of consciousness . . . leaving him amnestic or having no memory of the acts with which he was
charged."
Dr. Benson's most recent declaration incorporates his report which is dated October 2, 2001. He
describes the EEGs (resting and then alcohol induced) and the PET scan performed by Drs. Guisado
and Wu, respectively, as objective tests that measure activity and function [*239] of the brain. He
opines that the positive results support of the "diagnoses of organic brain disease and possible
alcohol seizure induced behavior."
Dr. Benson's assessment of Berryman additionally is based on his understanding of Berryman's
childhood and adolescent history. He reports there had been discord between the parents before

Page 87
2007 U.S. Dist. LEXIS 51738, *

their divorce when Berryman was nine or ten, that a learning disability had been recognized by the
time Berryman was in the third grade, that Berryman became a chronic abuser of alcohol by the age
of 14, that Berryman sustained two significant head injuries during his adolescence, both causing
brief periods of unconsciousness, that by age 21, Berryman was a chronic alcoholic, and that a
seizure disorder was indicated due to sudden disabling headaches, ringing in the ears and the
phantom smell of oil or gasoline.
Dr. Benson reports that the results of the alcohol induced EEG show increased wave activity in
the right temporal and focal left temporal areas of Berryman's brain. When Berryman's blood
alcohol level exceeded 0.1 mg, he suffered "intermittent seizure-like electrical activity." This was
consistent with Dr. Wu's impression based on the PET scan that [*240] Berryman suffers bilateral
temporal lobe dysfunction and also with alcohol induced left temporal paroxysmal activity. 89 Dr.
Benson concludes, "The importance of these findings is that while the brain is seizing, the subject is
incapable of conscious choice in his thoughts or behavior."
89 Dr. Peter Vaulk, who oversaw the administration of Berryman's PET scan, read the study
as normal.
To qualify Drs. Wu and Guisado as appropriate experts in their fields, some background
information additionally is provided with Berryman's reply brief in support of his evidentiary
hearing request. In a declaration executed July 18, 2002, Dr. Wu describes his qualifications as a
medical doctor and the Clinical Director of the Brain Imaging Center at the University of
California, Irvine. He states that the PET scan described in July 18, 2001 report was based on
techniques available at the Irvine "facility and elsewhere in 1988." He stresses there was "an
appropriate database" for the conclusion of an abnormal scan. Dr. Wu also refers to the Warden's
opposition declaration of Dr. Alan Waxman dated May 14, 2002. Dr. Wu points out that although
Dr. Waxman "purports to be[ ] opposed to the use of functional [*241] brain imaging for
assessment of brain trauma, [Dr. Waxman] . . .himself has utilized functional brain imaging to study
mild head trauma." Dr. Wu describes three cases where Dr. Waxman utilized brain imaging
procedures to study the patients' respective brain function. Dr. Guisado states that he is a medical
doctor licensed to practice medicine in California. Referring to his July 28, 2001 alcohol induced
EEG examination report, he states that the techniques used in that examination "were readily
available in many locations in 1988." He stresses that even after reviewing the report of the
Warden's EEG expert, Marc Nuwer, M.D., Ph.D. dated May 10, 2002, he (Dr. Guisado) still
adheres to the conclusions of his report. He also notes that the abnormality observed in Berryman's
EEG tracing is evident visually and did not rely on the QEEG procedure. 90
90 The Court does not observe a reference to a QEEG procedure in Dr. Guisado's July 28,
2001 report. QEEG is described in Dr. Nuwer's declaration, as summarized in Part XII.A.6.a.,
infra.
d. Social History Prepared by Gretchen White, Ph.D., dated September 17, 2001.
In Claim 16, Berryman asserts that a social history would have given an accurate [*242] picture
of his difficult upbringing and development in support of a mental state defense. The actual social
history which Berryman's present litigation team obtained, however, is offered is support of his
evidentiary hearing request for Claim 59, discussed below. See Part XXVI., infra. Because it also
serves as the basis for Berryman's ineffective assistance of counsel guilt phase claims. Dr. White's
findings and conclusions are recited here.

Page 88
2007 U.S. Dist. LEXIS 51738, *

To prepare this report, Dr. White reviewed declarations of family members and investigative
reports of family members. She did not interview Berryman or his wife Carol Berryman. She could
not interview either of Berryman's brothers, as the older brother, Ronald, Jr. was the victim of a
homicide in 1992, and the younger brother, Bryan Berryman was out of the country at the time she
was preparing her report. 91
91 The foundational support for Dr. White's report is largely verifiable in other declarations
and documents that are part of the record, particularly declarations of Berryman's mother,
sister, and numerous school, juvenile, and medical records. The documentary evidence is
appended to Berryman's first state habeas petition.
She describes Berryman [*243] as a person born from an unwanted pregnancy to a teenage
mother and irresponsible father. Because of the constant turmoil in his childhood, he made no
attachments to any adult in his life and was left to find his own way to adulthood. There is quite a
bit of background about Berryman's parents -- that his mother became pregnant with her first child
(Berryman's older brother, Ronald, Jr.) at age 15, to the shame of both families, that she was
unprepared for and didn't enjoy motherhood, that she was uprooted from her family when
Berryman's father joined the Air Force and they moved to Wyoming, that she was unhappy to leam
other second pregnancy (with Berryman) when the first child was only four months old, and that
Berryman's father began engaging in a long line of extra-marital affairs during this difficult time.
Berryman was born two months premature and remained in the hospital for a month. At the time,
his young mother was anxious to leave her unfaithful husband and return to her family as soon as
possible.
Dr. White points out that premature infants are at considerable risk for cognitive impairments
and brain damage. They are four times less likely to graduate from high school -- [*244] as was the
case with Berryman. Berryman's impairments were compounded by the fact that his mother never
bonded with or wanted him. Within the first 18 months of Berryman's life, his mother became
pregnant on two more occasions, one ending in a miscarriage, and the other ending with the death
of a premature sister. Within another year, Berryman had a little sister, Ronnique Berryman, a still
depressed mother, and an philandering father. During this period, Berryman's father was physically
abusive to his young wife, on one occasion choking her until she passed out.
Berryman's mother reported to Dr. White that Berryman was a sickly infant and on several
occasions was taken out of the family home in Wyoming to be nursed back to health in Delano with
relatives. With the birth of his sister, Berryman was shuttled to the homes of various relatives
because his mother was unable (or unwilling) to care for him. Dr. White observes that nurturing
was sorely lacking in Berryman's young life.
During Berryman's early childhood, the family left Wyoming, moved to Delano and then to Los
Angeles. While in Los Angeles, there were numerous moves to various apartments. There also was
the initial separation [*245] between Berryman's parents. The parents reconciled and resumed
cohabitation in San Jose with the father's parents, but the problems were not dispelled. During a
subsequent separation, the fourth Berryman child was born -- Bryan. The parents apparently
reconciled again, but the father remained very demanding, abusive, and unreasonable. Dr. White
learned from a friend of Berryman that Berryman had reported observing several occasions where
his father physically and seriously abused his mother. Even after the parents separated, and the
father went to live in Delano while the mother and four children continued to lived in San Jose, the
father visited. During the last of those visits there was a violent exchange that resulted in the mother

Page 89
2007 U.S. Dist. LEXIS 51738, *

running away from his assault, falling down a flight of stairs into the street, and almost being run
over by a car. All of this was observed by Berryman and his siblings.
When the couple finally separated for the last time, Berryman's mother endeavored to complete
her high school education, vocational school, and work to support her children. During her long
absences from home, her four children were left with their maternal grandparents and their mother's
[*246] many siblings (some of whom were younger than Berryman). Berryman's sister, Ronnique,
reported to Dr. White that the Berryman children were unwanted, ridiculed, unsupervised, uncared
for, and unfed. Ronnique told Dr. White that one their mother's younger brothers, Kanda Bonty,
lived in the Berryman household for a year, and was charged with the task of babysitting the
Berryman children. Ronnique claimed that Kanda molested Berryman and her. 92 Dr. White
additionally was informed by Berryman's mother that another one of her brothers, Lester Bonty,
molested Berryman. 93
92 This report is consistent with Ronnique's August 26, 1993 declaration appended to
Berryman's first state habeas petition. See Part XXV.A.3.c., infra.
93 This report is consistent with Lestine Bonty's August 28, 1993 declaration appended to
Berryman's first state habeas petition. See Part XXV.A.3.b., infra.
There were a number of years when Berryman's mother was completely absorbed in her own
pursuits, and what little attention she did bestow on her children was reserved for Berryman's older
brother, Ronald, Jr. Ronald, Jr. went to live with his father when Berryman was ten years old. The
next year, when Berryman was 11 [*247] and in the fifth grade, school records showed he had
great scholastic difficulties, with an I.Q. of 75, reading at the first grade level, and being resistant to
school. His mother did not follow through with programs to assist Berryman and informed school
officials she had a hard time wanting Berryman. After a year of special education and assistance,
Berryman's scholastic functioning improved to the point that he was re-introduced into regular
classes, hi Dr. White's opinion, Berryman's positive response to structure in his life demonstrates
that "he was not beyond reach" but that "schools and institutions can rarely make up for parents'
failure to nurture their children."
Home life in his mother's home for Berryman at this time was tumultuous. His mother began
living with an older man, Jon January, who was like Berryman's father in that he was a philanderer.
They broke up and the mother married another man, but reported to Dr. White that she divorced
him after six months and resumed her relationship with Jon January. Berryman and January did not
get along and Berryman started to rebel. Then the family finances plummeted and the mother
returned to her parents' house. Apparently Berryman [*248] did not join his mother, but instead
went to live with his father in Long Beach. Dr. White received conflicting reports as to whether
Berryman was "kicked out" of the house by his mother, or he ran away to his father's home.
Berryman was 12 years old at the time.
Family stability was shaky with his father as well. Dr. White states that the father was working
full time, living with one woman and seeing another when his sons (eventually the youngest, Bryan,
joined them as well) came to live with him. Dr. White reports that Berryman first came to the
attention of juvenile authorities in Long Beach when he was 14 and on the streets. 94 The family
moved to Sacramento that same summer (1980). In the next two and one-half years Berryman
moved five times during which he attended seven different schools. During this period, Berryman
had four out-of-home placements, two at a local group home, one with his great-grandparents in
Delano, and one at Sacramento Boys Ranch. The father was still gone long hours and expected

Page 90
2007 U.S. Dist. LEXIS 51738, *

Berryman to babysit his younger brother, which Berryman resented. Juvenile records indicate that
Berryman wished for his father to spend more time with him. The records also indicate [*249] that
when a probation officer contacted Berryman's mother, she was uncooperative, refusing even to
provide her current address. During this period Berryman was totally unsuccessful at school, with
fighting, truancies, and poor grades the hallmarks of his existence. One probation officer observed
that Berryman displayed symptoms of rejection and appeared to be acting out his rejection by
physical means. Berryman's performance improved in the juvenile hall and group home settings.
Berryman, however, committed a "sustained battery" against a female teenager while in the group
home and was sent back to juvenile hall in August 1981. His father then requested to have
Berryman back in the home and Berryman began making a positive adjustment. Due to a change in
the father's employment, however, he chose to move Berryman to Delano to live with Berryman's
great-grandparents. The great-grandparents returned Berryman to Sacramento by bus after he
engaged in a fight at his new school. Berryman's father could not receive him, so Berryman
returned to the group home, where he made solid progress.
94 Juvenile reports that are appended to Berryman's first state habeas petition indicate
Berryman's first [*250] run in with authorities was in Sacramento, when he was 14 1/2 years
old.
Berryman entered the Sacramento Boys Ranch in January 1983 (when he was 17). His
adjustment to the Boys Ranch was the best it had been since he received special assistance in the
fifth grade. His adjustment was described as "outstanding." Dr. White again notes that Berryman,
even at the age of 17, was "responsive to intervention." When it was time for him to leave the Boys
Ranch, it was unclear where Berryman would live. His father had decided to move to the Bahamas,
and did not want to take Berryman with him. His mother told authorities she was experiencing
marital and personal problems and didn't want Berryman to live with her either. Berryman's greatgrandparents in Delano agreed to take him, and when Berryman learned he was wanted by
someone, his attitude changed.
In the summer of 1983, Berryman and his older brother, however, ended up at their mother's
house, shared with Jon January and a new toddler brother. 95 They were 17 and 18 years old,
respectively. Then they received the news that their father was killed in a plane crash, his body
never recovered. The father's death affected Berryman, his brother, Ronald, [*251] Jr. and his
mother, who deeply mourned her former husband. For his part, Berryman refused to go to school
after his father's death, 96 which led to more conflict between him and January. At that point his
mother kicked him out of the house and did nothing to ascertain where he might have gone and did
not keep in contact with him for the next three years. Berryman lived with the family of a girlfriend,
Tamara Pearson, and the ex-husband. Perry McBride, of one of his mother's sisters (Donna
McBride).
95 Younger sister Ronnique Berryman and younger brother Bryan Berryman presumably
also were in the house.
96 Apparently he was still enrolled in high school, because during this school year, he was
arrested for involvement with distributing marijuana. The conviction was for three counts of
transporting marijuana.
Because of his innate charm and good looks, Berryman attracted a lot of female attention, which
Dr. White reports "he seldom resisted." He followed his father's pattern of maintaining several

Page 91
2007 U.S. Dist. LEXIS 51738, *

relationships simultaneously. With his father as a role model and his mother withholding affection,
Berryman was "hungry for female approval and attention."
His employment endeavors were no more [*252] successful than his education pursuits. Dr.
White reports that he began working at a series of labor jobs. In December 1984, shortly before his
19th birthday, Berryman fell from a forklift and either hit his chest or suffered a blow to his chest
when a crate fell on him. When he was able to return to work, he was discharged. Dr. White then
describes that he was convicted on three counts of transporting marijuana, 97 and five months later of
grand theft. He spent eight months in the County Jail. Following this, Berryman met his wife, Carol,
in 1985. After she became pregnant (with Berryman's baby), Berryman moved in with her and her
family in February 1986. She and Berryman were married in May and their baby was born in
August. Life seemed to be going well; Berryman "had all the accouterments of adulthood," but, Dr.
White stresses, he was ill-equipped to succeed.
97 The actual incident of marijuana transportation occurred the preceding year, while
Berryman was still enrolled at West Covina High School.
The chronology of Dr. White's history becomes a little confused at this point. She states that
Berryman "received a drunk driving conviction in June," but doesn't say if that is in 1986 [*253] or
1987. 98 After the baby was born, Carol moved back in with her parents. 99 As reported by
Berryman's mother, at Thanksgiving time, Carol and Berryman engaged in an argument and she hit
him over the eyebrow with a metal flashlight, giving him two black-eyes and causing him a great
deal of pain in the frontal area of his head and nasal area. 100
98 Evidence presented at his trial by the prosecution indicates that he was stopped for
driving under the influence in June 1986 and again in the spring of 1987. Neither party
presents a clear picture of Berryman's drunk driving incidents to the Court.
99 It's not clear where Berryman went when the couple separated.
100 This incident is supported by emergency room records from November of 1986 during
which Berryman complained of a frontal headache.
In February 1987, Berryman, Carol, and their baby moved into their own apartment. Berryman
received a settlement from his industrial accident (from December 1984) and he bought (or put a
down payment on) his Mitsubishi pick up truck. Dr. White reports that Berryman received another
drunk driving violation that month. 101 As his drinking increased, he stopped going to work, and then
he lost his job and [*254] stopped looking for work. Dr. White states that Berryman complained of
frequent severe headaches since being hit with the flashlight (by his wife) a few months before. Dr.
White observes that within a few months, his marriage was the mirror-image of his parents'
marriage, except that he was not abusive to his wife. He was unemployed, drank excessively, and
continued to see women outside of his marriage. He tried to get counseling from his mother and his
mother's cousin, Maxine Coleman. By June 1987, he and Carol were "separated" though they still
shared the same apartment. In July, Berryman assaulted David Perez with a tire iron (or iron wheel
lock bar) and then left Los Angeles for Delano, where he moved in with another family and started
up a relationship with another woman (Crystal Armendariz).
101 No evidence in the record supports the existence of this citation.
Dr. White received reports from both Berryman's grandmother (possibly his maternal
grandmother) and his mother that his drinking had escalated following his marriage to Carol

Page 92
2007 U.S. Dist. LEXIS 51738, *

Berryman. His mother reported that he seemed never to be without an open bottle (of liquor), even
while driving. Notwithstanding Berryman's departure [*255] for Delano, he came back to his
father-in-law's house to collect his wife and baby to move them to Delano in August of 1987. Dr.
White reports he had been drinking and got into an altercation with this father-in-law during which
Berryman ended up hitting his father-in-law in the nose. In Delano, life was not promising for
Berryman the month before Ms. Hildreth's death. Berryman was not working or looking for a job.
At the same time, he was drinking heavily and had liaisons with numerous young women.
Based on her professional training and research, Dr. White concludes that children, like
Berryman who do not bond with their mothers, "are vulnerable, throughout their lives, to depression
and to chronic difficulties in interpersonal relationships." Neither of Berryman's parents provided
attention, affection, guidance, or supervision. As a result, Berryman grew up with a sense of
insecurity regarding his self-worth. Dr. White further stresses that Berryman's sense of safety as a
child was very compromised, based on the physical abuse he witnessed his father inflict on his
mother as well as the sexual abuse to which he and his sister were subjected. Dr. White further
opines that Berryman's [*256] premature birth, low I.Q., and poor school achievement suggest the
possibility of compromised brain functioning. The numerous moves and family instability
undermined his ability to form stable attachments that might have compensated for the indifference
he felt from his parents. Dr. White concludes that Berryman's family history suggests a
predisposition to substance abuse and depression. She states his mother was chronically depressed,
his older brother was addicted to cocaine and attempted suicide, five relatives on his mother's side
suffered from drug or alcohol abuse, 102 and his father also had a drug and/or alcohol abuse problem.
In response to Berryman's woeful lack of personal resources to cope with adult life, he began
drinking, which Dr. White describes as a temporary solution that only compounded his problems.
102 Nothing observed in the record corroborates that Berryman's brother attempted suicide
or that maternal relatives suffered from alcohol or substance abuse.
With respect to Dr. Pierce's trial testimony, Dr. White points out that due to inadequacies in trial
preparation, his diagnosis of possible organic brain damage was neither well-documented nor wellreceived by [*257] the jurors. Evidence which would have strengthened Dr. Pierce's clinical
observations include the juvenile records from Berryman's residence with his father from age 12 to
17, particularly the lack of supervision by the father, the father's ambivalence in wanting to care for
his son, and the outright rejection by his mother. The trial testimony of Berryman's mother and
sister at trial did not capture the mother's total un-involvement with her children. The jurors were
not informed that when Berryman lived with his mother after the parents' divorce, that she relied on
her parents to care for the children. Nor were the jurors (or Dr. Pierce) aware that Berryman had
been molested by two of their mother's brothers. The fact that Berryman sustained a frontal blow to
his head (from his wife striking him with a flashlight) in 1986 also was not made known to Dr.
Pierce for him to figure into his evaluation. It was this injury, and not the 1984 industrial accident
which preceded Berryman's debilitating headaches and a change in his previously docile behavior
to someone who was violent (as in the assault on Mr. Perez).
4. Strickland Expert Testimony.
In support of Claim 15, Berryman's retained [*258] Strickland expert, Stanley Simrin, has
supplied a declaration in which he testifies about deficiencies at both the penalty and guilt phase
proceedings. He opines that the testimony of Drs. Pierce and Benson presented during penalty
proceedings would have been far more persuasive had Messrs. Soria and Peterson obtained the

Page 93
2007 U.S. Dist. LEXIS 51738, *

empirical test results from the PET scan and alcohol induced EEG finally conducted in the year
2001. In Mr. Simrin's opinion, trial counsel were constitutionally incompetent for not exerting
further effort to obtain these tests. He further opines that the testimony of these experts coupled
with the testimony of the doctors who conducted the empirical tests would have made a significant
difference to the guilt phase proceedings. The supported diagnoses of Drs. Pierce and Benson
would have challenged the prosecution burden of establishing intent to kill, the intent to rape,
premeditation, and deliberation.
5. Mr. Soria's Explanation for his Failure to Develop Mental State Evidence at Guilt
Proceedings.
Two of Mr. Soria's declarations are relevant to the discussion of mental state evidence
development. In a declaration dated August 20, 2001, he discusses his failure to [*259] obtain an
alcohol induced EEG or a PET scan. He states he tried to obtain the appropriate neurological tests
in Kern County, but that a PET scan wasn't available in Kern County, and efforts of defense
investigator Doug Lemmons to obtain an alcohol induced EEG in Kern County were rebuffed. Mr.
Soria did not attempt to obtain an order to have Berryman transported outside of the county to
complete the tests because he "did not know if the [trial] court would approve the transportation
order." Later, in 1990, he learned that such a transportation order was available, when he and Mr.
Peterson represented subsequent capital defendant in Kern County, John Lee Holt. A transportation
order for Mr. Holt to submit to a PET scan in Orange County (University of California at Irvine)
was approved.
In a separate declaration, executed September 17, 2001, Mr. Soria explains his failure to
commission a social history of Berryman's background was because he "had not been introduced to
the practice of obtaining social histories in capital cases." Despite this omission, Mr. Soria did have
one his investigators, Mr. Beadle, interview family members to get a general idea of Berryman's
family history.
6. Counter-Evidence [*260] Developed by the Warden.
The Warden proffers one declaration and two reports with his opposition brief to Berryman's
evidentiary hearing request. The declaration is subscribed by board certified neurologist and
psychiatrist Marc R. Nuwer, a professor in the Department of Neurology at the U.C.L.A. School of
Medicine. The reports are over the signature of board certified specialist in Nuclear Medicine, Alan
Waxman, M.D., who, at the time of his declarations was director of the Nuclear Medicine
Department at Cedars-Sinai Medical Center in Los Angeles. There are additionally eight exhibits
attached to Dr. Waxman's reports.
a. Declaration of Marc R. Nuwer, Executed May 10, 2002.
Dr. Nuwer reviewed the EEG recordings obtained and reported on by Dr. Raul Guisado. The
measurement of Berryman's brain activity was performed in three trials. The first trial was
conducted without alcohol, the second was with six ounces of alcohol and the third was with an
additional six (for a total of 12) ounces of alcohol. All three were undertaken while Berryman was
awake (although he became drowsy during the third trial) and included respective three minute
intervals during which Berryman hyperventilated.
Dr. [*261] Nuwer reports that the "changes in the three EEGs are consistent with Mr. Berryman
having become severely intoxicated over the course of these tests.... [not showing] any other effects
beyond drowsiness. In particular, there is no evidence of any epileptic activity or seizure-related
activity or any other pathological abnormality in the recording." Dr. Nuwer disagrees with Dr.

Page 94
2007 U.S. Dist. LEXIS 51738, *

Guisado's conclusion that the tracings shown on the third trial are consistent with anything
pathological or seizure-related. Even if there had been any seizure-related epileptic spikes or sharp
wave discharges in the third trial EEG (which Dr. Nuwer insists there were not), "that would not
necessarily be a sign of a seizure disorder." Such spikes and wave discharges in fact are common in
patients who experience no seizures. Further, EEGs, in general, are not diagnostic, but, rather, used
to confirm a clinical suspicion. Actual seizures are identifiable by the patient's conduct, specifically,
falling to the ground (convulsion) or succumbing to a blank stare (partial seizure), both followed by
disorientation and sleepiness. After a seizure, a person may try to run away and may resist people
who try to restrain them. [*262] Violent activity committed during this period would be simple and
non-directed. Complex tasks, as in being able to "carry out a plan of action" are not performed by
people in a convulsion, a partial seizure, or in the state of disorientation which follows. Dr. Nuwer
further opines that people in these states generally do not commit violent acts. Under the facts in the
case. Dr. Nuwer concludes that Berryman's conduct (disrobing the victim, stabbing her, and having
sexual intercourse) were inconsistent with him having had a seizure.
Dr. Nuwer also comments on the Quantitative EEG (QEEG) test results (i.e., topographic maps
showing bilateral temporal slowing of electrical waves) obtained by Dr. Guisado. First Dr. Nuwer
opines that the results show normal EEG brain waves. Second, he states that the QEEG has a poor
reputation for accuracy in the medical community and definitely was not accepted in 1988.
b. Reports of Alan Waxman, Dated May 14, 2002.
Dr. Waxman gives extensive information about his knowledge and qualifications to testify
about brain imaging procedures, particularly PET scans. He begins his report by explaining his
"understanding" of the current view that "PET scanning has [*263] not been generally accepted by
the scientific community as a means of diagnosing traumatic brain injury, [e]specially in minor
head trauma when the scans are performed at a time remote from the injury." Later in his report, he
states, "It would be counter intuitive to assume that functional brain imaging would have been
acceptable in 1988" for mild head trauma or alcoholism.
Dr. Waxman explains that in order to properly interpret PET scan results, there must be a
control group of normal database subjects to which individuals with alcoholism and/or mild head
trauma can be compared. Further, interpretation of results would have to be accomplished by
readers who are "blind" to whether results being interpreted are from afflicted or normal subjects.
Because of the paucity of information for evaluating mild head trauma patients, the Society of
Nuclear Medicine as well as the American Academy of Neurology have suggested caution using
PET brain studies. Dr. Waxman continues that "[s]ensitivity, specificity, accuracy, negative and
positive predictive value must be determined to be acceptable before a test can be widely used. This
has not been done for head trauma or toxic exposure (including [*264] alcohol)." (Double
emphasis in original.) Rather accepted uses for functional brain imaging (PET scans) include
evaluating stroke, dementia (especially Alzheimer's), and epilepsy. Poor study designs not using a
double blinded technique contribute to inaccurate results. Interpretative errors are also a risk.
Dr. Waxman opines that Dr. Wu's report of Berryman PET scan demonstrates interpretative
error. First Dr. Waxman points to Dr. Wu's conclusion that metabolic activity was lower in the right
temporal pole than in the left. In Dr. Waxman's view, this difference is inconsequential because
temporal asymmetry increases as a person ages. The difference in Berryman's temporal lobes is not
significant for a man of 36 years old. 103 In any event, Dr. Waxman, himself, was unable to detect
any significant temporal asymmetry. Dr. Waxman notes that the physician who initially read the
PET scan at the Northern California PET Center, Dr. Peter Vaulk, also found the scan to be normal,

Page 95
2007 U.S. Dist. LEXIS 51738, *

i.e., did not detect any significant abnormalities (including temporal asymmetry). In fact, the result
of Berryman's study "is entirely within normal limits with no significant asymmetries identified."
103 Berryman actually [*265] was 35 when the scan was performed in July 2001.
Dr. Waxman further points out that the control database which Dr. Wu used to compare
Berryman's scan results fails to show any real differences. In fact 15 of the 56 subjects in the
database show temporal asymmetries equal to or greater than those shown on Berryman's scan. 104
Based on the fact "that there are no metabolic abnormalities demonstrated on the Berryman's scan,
Dr. Waxman's opines that Dr. Wu "incorrectly analyzed the scan on Rodney Berryman." Dr.
Waxman agrees "entirely" with the physician at the site where the PET scan was conducted, Dr.
Vaulk, that Berryman's scan was within normal limits.
104 The exact language in the report is "at least 15 of the 56 normal subjects with temporal
asymmetries present which are equal to greater than the PET brain scan on Rodney
Berryman." The Court interprets the phrase, "equal to greater than" to mean, "equal to or
greater than . . ." The Court views the omission of the word "or" to be a typographical
omission.
In his second report, Dr. Waxman discusses a supplemental report which Dr. Wu prepared
concerning Berryman's PET scan. Specifically, Dr. Wu provided a quantitative assessment showing
[*266] the difference in temporal lobe function (between the right and the left) of 33.8%, whereas
the mean temporal lobe difference in the normal database was 1%. Dr. Waxman explains that this is
intended to imply that Berryman's temporal lobe differential is abnormal. In Dr. Waxman's opinion,
these figures are not valid for demonstrating a disparity in the functioning of Berryman's right and
left temporal lobes. This follows from the fact that the 1% mean temporal lobe difference Dr. Wu
found in his normal database subjects was achieved by averaging the mean differences, which has
the effect to minimizing normal asymmetries. Dr. Waxman indignantly states that Dr. Wu's method
in this regard "is intended to mislead the reader by suggesting that normal individual subjects have
no asymmetries of the temporal lobe." (Emphasis in original.) Dr. Waxman describes the whole
quantitative comparison as inappropriate: "It is much worse than comparing apples to oranges, it is
comparing apples to bricks."
Next, addressing scientific acceptability of PET scans, Dr. Waxman notes that only recently,
and certainly not in 1988, have PET scans been approved for epilepsy reimbursement as a clinically
accepted [*267] procedure. But the significant findings for finding epilepsy are mesial temporal
lobe decreases. In Berryman's scan, there are no asymmetric regions in the mesial temporal regions
to suggest temporal lobe epilepsy.
B. Berryman's Contentions.
As noted in the discussion of Claims 4, 5, 27, and 28, see Part VI., supra, Berryman's claimed
mental impairments and deficiencies are numerous. He is said to suffer from permanent pre-existing
mental disorders, severe mental and emotional impairments, the pervasive effects of organic brain
disease with resulting limited intellectual and cognitive capacity, overwhelming developmental
trauma including neglect, abandonment, physical abuse, emotional abuse, sexual abuse, plus, from
the death of his father, post-traumatic stress disorder, depression, paranoia, and substance abuse.
Berryman argues that evidence adduced during guilt phase proceedings, coupled with what was
presented at penalty proceedings, would have supported a mental state defense to defeat the

Page 96
2007 U.S. Dist. LEXIS 51738, *

prosecution burden of establishing intentional killing, rape (or attempted rape), premeditation and
deliberation. He claims he was too impaired to have known what he was doing when he stabbed
Ms. [*268] Hildreth, maintaining either that he did not become impaired until after the two
engaged in consensual intercourse or alternatively that the sexual attack possibly also was seizure
related. Relying solely on the evidence developed for the penalty phase, as actually presented, to
support a mental state defense, Berryman focuses on his excessive alcohol consumption. Although
Penal Cole § 25(a) prohibited evidence of diminished mental capacity at the time of his trial,
voluntary intoxication or other mental conditions nonetheless could have been considered by the
jury. In support of this argument, Berryman cites to People v. Molina, 202 Cal. App. 3d 1168, 1173,
249 Cal. Rptr. 273 (1988) (holding "an expert may testify regarding the defendant's mental
condition so long as the expert gives no opinion on the ultimate question of whether or not the
defendant actually had the requisite mental state"), disapproved on other grounds, see People v.
Saille, 54 Cal. 3d 1103, 1114, 1115-16, 2 Cal. Rptr. 2d 364, 820 P.2d 588 (1991), and People v.
Rangel, 11 Cal. App. 4th 291, 302, 14 Cal. Rptr. 2d 529 (1992) (holding evidence of voluntary
intoxication would be admissible on the issue of a defendant's [*269] capacity to harbor the
requisite mental state).
The expert testimony of Dr. Benson, in particular, would have been key to establishing that the
increase in Berryman's alcohol consumption caused seizures manifested by the escalation of angry
and violent incidents (such as the altercation with motorist David Perez). A finding of such resultant
seizure activity would have challenged the jury finding that Berryman intentionally killed Ms.
Hildreth, a finding that was required under then existing California law. See Carlos v. Superior
Court, 35 Cal. 3d 131, 142, 197 Cal. Rptr. 79, 672 P.2d 862 (1983). Berryman argues that his trial
attorneys failed to consult adequately with the retained experts in advance of the guilt phase, and
thus the decision not to put on a mental state defense was uninformed.
Berryman further argues that the medical opinions of Drs. Pierce and Benson really only
supplied a partial mental defense and that trial counsel should have done much more, including
commissioning a social history, and obtaining neurological tests, notably an alcohol induced EEG
and a PET scan.
C. Analysis.
The analysis of Claims 15 and 16 follows the standard in Strickland v. Washington, 466 U.S.
668, 104 S. Ct. 2052, 80 L. Ed. 2d 674. [*270] To obtain habeas relief, Berryman must establish
both deficient performance and prejudice. With respect to deficient performance, he carries the
burden of demonstrating that his attorneys' performance fell below an "objective standard of
reasonableness." Id. at 688. This assessment, however, must be made "from counsel's perspective at
the time," so as "to eliminate the distorting effects of hindsight." Id. at 689. In assessing trial
counsel's performance, there is a "strong presumption that counsel's conduct falls within the wide
range of reasonable professional assistance." Accordingly, "[j]udicial scrutiny of counsel's
performance must be highly deferential." Id. To establish prejudice, Berryman must show "a
reasonable probability that, but for counsel's unprofessional errors, the result of the proceeding
would have been different." Id. at 694. A reasonable probability is a probability "sufficient to
undermine confidence in the outcome." Id. Where individual deficiencies are not by themselves
sufficient to meet the Strickland prejudice standard, relief may be available when the deficiencies
are considered cumulatively. See Harris v. Wood, 64 F.3d 1432, 1438 (9th Cir. 1995). Before
[*271] addressing the performance and prejudice prongs, the Court registers overall comments
about both parties' arguments.

Page 97
2007 U.S. Dist. LEXIS 51738, *

1. Overall Comments.
As a preliminary matter, the Court is puzzled by Berryman's proffer of evidence in support of an
evidentiary hearing regarding Claim 15. Whereas Claim 15 alleges ineffective assistance of counsel
for the failure to present at the guilt phase proceedings the evidence that actually was presented
during penalty proceedings, the proffered evidence consists of new declarations of the trial experts
based on neurological tests that were not performed during the state trial proceedings. Reliance on
this additional evidence contradicts the gravamen of Claim 15, and conflates Claim 15 with Claim
16 (that additional evidence should have been presented). 105
105 The primary reason Claims 15 and 16 are discussed together is that the Court views the
evidence proffered with the evidentiary hearing request actually supports Claim 16 more than
Claim 15.
On the Warden's side, the Court similarly is baffled by the repeated insistence that Drs. Pierce
and Benson did not (at trial) request further expert assistance in diagnosing Berryman's organic
brain dysfunction. To the [*272] contrary, both have provided declaration testimony, and even trial
testimony, that they repeatedly urged trial counsel to obtain the neurologic tests to confirm their
diagnostic impressions. Similarly, both doctors have provided post-conviction testimony that they
believed their impressions of Berryman would have been helpful in formulating a mental state
defense to the capital murder charge during guilt proceedings. Another wholly unsupported
argument is that the experts testified Berryman did not suffer from any serious psychological
disorder. This was the very argument Mr. Moench advanced both during cross examination of Dr.
Pierce and on summation. During cross examination, his efforts to label degrees of psychological
impairment, however, were curtailed by the trial judge. Whether psychosis is more serious than
neurosis was determined by the trial judge to be irrelevant to Dr. Pierce's testimony. Both Dr. Pierce
and Dr. Benson believed that Berryman's organic brain disorder was a serious psychological
impairment. Putting these matters aside, Berryman's ineffective assistance of counsel claims are
reviewed under Strickland v. Washington.
2. The Performance Prong.
With respect to [*273] the claim that a social historian should have been retained, no evidence
is offered (notably from Berryman's Strickland expert, Mr. Simrin) to the effect that the standard
capital defense practice in 1987 and 1988 dictated that Kern County counsel should to obtain a
social history. Thus, Mr. Soria's declaration that he was unacquainted with the practice for
commissioning social histories in 1987 and 1988 is accepted as reasonable attorney performance
under Strickland.
The matter of whether counsel were constitutionally deficient for failure to press for
neurological tests in or outside of Kern County is less clear cut on the present showing. Berryman's
theory of attorney incompetence is the failure of Messrs. Soria and Peterson to provide Drs. Pierce
and Benson with the means to confirm their diagnostic impressions that Berryman suffers from an
alcohol induced seizure disorder. Indeed, the prosecutor, Mr. Moench, emphasized at trial there was
no empirical support for this diagnosis. He even went so far as to suggest that the defense team
purposefully failed to obtain the indicated neurological tests so the experts would have "something
to talk about" during their testimony. From the [*274] defense stand point, what was lacking was
empirical support for the notion that Berryman suffered from an alcohol induced seizure at the time
of the crime.

Page 98
2007 U.S. Dist. LEXIS 51738, *

In this case, alleged deficient performance necessarily overlaps with whether empirical test
results would support the existence of a seizure disorder. Evidence establishing existence of a
seizure disorder, in turn, is an element of the prejudice inquiry. If the empirical test results would
have supported the experts' diagnostic impression of the existence of a seizure disorder, the Court
could conclude counsel were constitutionally ineffective for failing to obtain those tests. 106 The
parties' respective experts, however, do not agree on the import of the test results. Drs. Pierce,
Benson, Wu, and Guisado claim the tests do support the existence of a seizure disorder. Drs.
Nuwer, Vault, and Waxman conclude they do not. 107
106 The other significant element of prejudice is whether the verification of a seizure
disorder supports the contention that Berryman was mentally impaired on the night of the
crime.
107 The Warden's argument extends even further -- to the contention that the test results
themselves are not admissible because they [*275] are not and were not accepted in the
scientific community, now or at the time of trial, citing People v. Kelly, 17 Cal. 3d 24, 30,
130 Cal. Rptr. 144, 549 P.2d 1240(1976), and Daubert v. Merrell Dow Pharms., 509 U.S.
579, 113 S. Ct. 2786, 125 L. Ed. 2d 469 (1993).
The Court is not able to resolve the conflict without further examination, including cross
examination, of the experts and the data relied on by the experts. The Court would need to assess
witness demeanor and credibility. See Earp v. Ornoski, 431 F.3d at 1170 (holding that where
declarations are submitted as offers of proof for an evidentiary hearing, the veracity of the
declarants cannot be determined without the court conducting a hearing where credibility and
demeanor are assessed by the judge). For the sake of proceeding with the second element of
prejudice, that is, whether the presence of a seizure disorder would have supported a viable mental
state defense, the Court will assume arguendo that the test results do support the existence of a
seizure disorder.
3. The Prejudice Prong.
What really is at issue here is the relative impact between what was presented during guilt
proceedings, and what Berryman alleges could have [*276] been presented, both in terms of what
was presented during penalty proceedings and the additional proffered evidence, plus the evidence
submitted by the Warden. See Wiggins v. Smith, 539 U.S. 510, 534, 123 S. Ct. 2527, 156 L. Ed. 2d
471 (2003) (holding that in analogous examination of penalty phase claim, assessing prejudice
requires re-evaluating the prosecution evidence against the totality of available defense evidence).
Undertaking this task, the Court finds no reasonable probability that the outcome of the guilt phase
proceedings would have been different if the penalty phase and/or additional evidence had been
introduced (and admitted) at Berryman's guilt phase proceedings. See Strickland, 466 U.S. at 694.
Drs. Pierce, Benson, and White all have carefully documented Berryman's history, revealing a
tumultuous childhood, with unhappy parents, turmoil, changing schools, and lack of supervision.
These factors have led the experts to opine that Berryman suffers from a personality disorder. The
doctors additionally document that Berryman, a charming and good-looking young man,
experienced a great deal of difficulty in intellectual functioning, possibly due to his premature birth
and [*277] poor post-natal care. Drs. Benson and Pierce further opine that Berryman suffers from
an organic brain disorder which could have caused alcohol induced seizures and the type of
aggressive behavior consistent with killing Ms. Hildreth in a rage. The three factors offered in
support of this conclusion are (1) the EEG and PET scan results, (2) Berryman's excessive alcohol

Page 99
2007 U.S. Dist. LEXIS 51738, *

consumption and/or alcoholism, and (3) two head injuries within the two years prior to Ms.
Hildreth's death. 108
108 For purposes of this analysis, the Court accepts the fact that Berryman sustained one or
more head injuries with two years prior to Ms. Hildreth's death, and that these injuries were
caused by a fall from construction equipment and being struck on the head by a metal
flashlight.
With respect to the post-conviction "discovery" that Berryman was sexually molested as a child
by two of his mother's brothers, the Court specifically rejects the notion that Berryman's mental or
emotional problems are attributable to sexual abuse. The proffered evidence of Berryman's
molestation, that is, declarations of Berryman's mother and sister about what Berryman told them
when they visited him in the Kern County Jail for [*278] the present offense, even setting aside
hearsay considerations, see Federal Rules of Evidence, 802, 803 and 804, is not reliable. Neither
Berryman's mother nor his sister are independently competent to testify about what happened to
Berryman as a little boy, because they were not percipient witnesses and only learned about the
alleged sexual abuse years later. Moreover, Berryman never told any of his examiners, the social
historian, or even counsel about his sexual abuse. The Court concludes that Berryman's proffered
expert opinion of mental impairment, to the extent it is said to be due to sexual molestation, is not
"based on sufficient facts or data" required under Federal Rule of Evidence 702.
On the other hand, the Court accepts the fact that in the months following the head injury
described in Dr. White's social history, Berryman's alcohol consumption increased and his response
to conflict became increasingly violent. These violent episodes included Berryman's attack on Mr.
Perez, an argument with his mother (over pick up truck tires), his altercation with his father-in-law,
Rev. Fuller, and ultimately the sexual assault and stabbing death of Ms. Hildreth. Acceptance of the
chronology [*279] of violent acts following head injuries, however, does not signal the Court's
endorsement of the theory that alcohol induced seizures were causative of the violence. Even with
the addition of the neurological test results, which are assumed for the sake of argument to support
the presence of a seizure disorder, Berryman has come no closer than he did at trial to establishing
he actually experienced a seizure when he attacked Ms. Hildreth.
First, there is no dispute about what a seizure means. When a person experiences a seizure or
partial seizure, he loses consciousness or partial consciousness, perhaps succumbs to convulsions,
loses track of what he is doing, becomes disoriented, and cannot remember what he did while
experiencing the seizure. Although he may exhibit aggressive behavior, this behavior consists of
non-directed violence, such as toward a person who might be trying to come to his aid. He would
not be able to perform complex tasks such as carrying out a plan of action or engaging in forcible
sexual intercourse. Even Dr. Benson conceded during his trial testimony (on cross examination)
that if Berryman had experienced an alcohol induced seizure, he would not have been able [*280]
to commit rape or attempted rape.
The evidence, however, clearly demonstrates that significant goal-directed violence and sexual
assault was perpetrated against Ms. Hildreth at the location of her death. Contrary to Berryman's
contention, the evidence does not support the notion that intercourse between Berryman and Ms.
Hildreth was voluntary. Accepting the proffered evidence that Ms. Hildreth had been in Berryman's
truck before the crime and that he and Ms. Hildreth were seen together by the concessionaires at
Lake Woollomes within two weeks other death, the fact they may have been together is not
sufficient to raise even an inference the sexual contact inflicted on Ms. Hildreth before her death

Page 100
2007 U.S. Dist. LEXIS 51738, *

was consensual. In the first place, as reported in Mr. Morris's notes of his interview with Ms.
Hildreth's aunt, Brenda Clark, she stated she didn't care for him. More significantly, the condition of
Ms. Hildreth's body showed clear indications of a struggle. Her upper garments were pulled over
her breasts. Her lower garments were pulled off her right leg completely but still around her left
ankle. Her legs were separated and her arms were extended out to the sides of her body with her
elbows [*281] bent over her head suggesting she had been pinned down on the dirt. There were
circular impressions in the dirt that appeared to have been made by her buttocks and thighs. She had
a stab wound in the right front neck region, abrasions on both sides of her neck, abrasions on her
right pelvis, and a patterned abrasion on her face over her right cheek and jaw. Further, there were
drag marks in the dirt and no foot or sandal prints associated with her feet. Moreover, with Dr.
Holloway conducted the autopsy, he noted she had sustained a blow to the left side of the back of
her head, which contributed to her death. Whether Berryman drank excessively or not, the condition
of Ms. Hildreth's body and the crime scene amply indicate that she was subjected to goal directed
violence. She was dragged or carried (not escorted) from Berryman's truck to a dirt clearing, had
her clothes rearranged to give Berryman access to her breasts and genitalia, was struck or grabbed
harshly, subjected to some sort of sexual intrusion, 109 sustained a stab wound to her neck which
caused her to bleed to death, and finally suffered from having Berryman apply sustained pressure to
her face with his shoe. Even if Berryman [*282] did not take Ms. Hildreth to that remote place
originally with the intent to kill her, but rather intended to engage in consensual sexual intercourse,
at some point, Ms. Hildreth's resistance became clear, and Berryman overcame that resistance with
deadly force. His conduct, as evidenced by the scene of the crime, was not consistent with voluntary
intercourse or a seizure. 110 The absence of evidence that Berryman's alcohol induced seizure
disorder was a factor at the time of the crime forecloses his ineffective assistance of counsel claim
challenging the failure of Messrs. Soria and Peterson to develop a mental state offense. See Henley
v. Crist, 67 F.3d 181, 186-87 (9th Cir. 1995) (in federal habeas proceedings, no expert testified that
the petitioner was mentally impaired at the time of the crime).
109 The sufficiency of the evidence to support rape as well as the constitutional adequacy of
the rape instructions are discussed in connection with Claims 12, 29, 35, 50, 71, and 71 A.
See Part XDC., infra.
110 In further support for this conclusion, the Warden points to the testimony of Crystal
Armendariz, Andrew Bonner, and Melinda Pena that although Berryman had been drinking
on the [*283] night of Ms. Hildreth's death, he did not appear intoxicated, was able to
function normally, including having sexual intercourse with Ms. Pena, driving to various
locations, and conversing with members of the Clark-Bonner-Armendariz household. The
Court considers this evidence along with the concession of Dr. Benson that a person in the
throes of a seizure would not be able to perform complex tasks, including rape.
Considering all the evidence, both offered in post-conviction proceedings and adduced at trial,
the introduction of mental state evidence during guilt phase proceedings would not have altered the
verdict of first degree murder or the finding as true the rape murder death eligibility special
circumstance. Neither the neurological tests nor Dr. White's social history report connect
Berryman's mental problems with his conduct on the night he killed Ms. Hildreth. The proffered
evidence does not satisfy Berryman's burden of demonstrating a reasonable probability of a
different outcome. The alleged inadequacies in mental defense development did not lead to
Berryman's conviction. Rather, it was the fact that he took Ms. Hildreth out to a remote agricultural
area, sexually assaulted [*284] her and then stabbed her, that led to his conviction. Claims 15 and
16 are denied. The request for an evidentiary hearing as to Claim 15 is denied.

Page 101
2007 U.S. Dist. LEXIS 51738, *

XIII. Berryman's Assertion that His Attorneys' Were Constitutionally Incompetent for
Failure to Adequately Review and Develop Forensic Tire Track Evidence (Claim 30).
In Claim 30, Berryman alleges ineffective assistance of his trial counsel for failure to
adequately prepare the defense criminalist, Stephan A. Schliebe, to challenge the tire track evidence
linking Berryman to the crime scene. He does not request an evidentiary hearing for this claim.
A. Statement of the Facts Relevant to the Defense Criminalist.
As noted in the summary of the guilt phase proceedings, Mr. Moench presented circumstantial
evidence that Berryman's pick up truck had been at the scene of Ms. Hildreth's murder. The
evidence supporting this contention was presented in the form of photographs of tire tracks
observed by investigators at the crime scene when compared to "tire roll" tests of actual tires seized
from Berryman's truck and the Clark residence. Defense expert, Mr. Schliebe, testified to cast doubt
on this theory. Mr. Moench, however, brought out on cross examination [*285] that Mr. Schliebe
did not examine the actual tires seized from Berryman's pick up truck, although they were made
available to him. See Part III. A., supra. Rather, Mr. Schliebe's analysis was limited to examination
of "tire rolls" prepared by prosecution criminalist, Mr. Laskowski, and comparison photographs of
the crime scene. Nonetheless, Mr. Schliebe testified that one of the prosecution test impressions did
show a consistent pattern with a photograph of a tire track at the crime scene, even though none of
the comparison photographs showed an exact match. The tire roll with the consistent pattern to the
crime scene was the limited spare.
B. Berryman's Contentions.
Berryman relies on Strickland v. Washington, 466 U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d 674,
for his challenge to the constitutional adequacy of his trial counsel. In addition, he cites Ake v.
Oklahoma, 470 U.S. 68, 105 S. Ct. 1087, 84 L. Ed. 2d 53 (1985), for the proposition that the
Constitution grants criminal defendants the right to services ancillary to effective legal
representation, including appointed experts. He claims that because Mr. Schliebe was not afforded
an opportunity to review exhibits in a meaningful [*286] manner, the prosecution was able to
capitalize on his lack of preparation during cross examination. Berryman clarifies in his traverse,
that this cross examination adversely impacted Mr. Schliebe's credibility to the jury. He concedes
that "Mr. Schliebe's opinion would not have been any different had he viewed the tires ... [b]ut his
opinion would not have been so easily discounted by the prosecutor and the jury for lack of
preparation." (Emphasis added.)
C. Analysis.
With respect to Mr. Schliebe's preparation, the California Supreme Court held:
[D]efendant does not establish ineffective assistance in defense counsel's asserted
failure to more fully prepare criminalist Schliebe for his testimony. He does not
demonstrate that fuller preparation would have yielded favorable results. Hence, he
cannot demonstrate that its omission adversely affected the outcome within a
reasonable probability.

6 Cal. 4th at 1082.
As Claim 30 is clarified by Berryman's traverse, however, the Court understands that he is not
claiming different or more favorable testimony would have resulted from better preparation, and

Page 102
2007 U.S. Dist. LEXIS 51738, *

thus, the California Supreme Court decision is inapposite. Rather, he is claiming that Mr. Schliebe's
[*287] credibility was damaged under Mr. Moench's cross examination. The claim is without merit.
As a preliminary matter, Berryman's reliance on Ake, 470 U.S. 68, 105 S. Ct. 1087, 84 L. Ed. 2d
53, for the proposition that he has a constitutional right to the assistance of a forensic expert on his
litigation team is unsupported. 111 Ake stands for the proposition that a criminal defendant who
demonstrates his sanity at the time of the offense is likely to be a significant factor in determining
guilt is constitutionally entitled to the assistance of a psychiatrist at state expense. Id. at 83. The
obligation for expert assistance in Ake is limited to psychiatric experts and in no way extends to Mr.
Schliebe.
111 The fact that Berryman does not provide a point-page reference to his Ake citation is not
lost on the Court.
Second, addressing the issue of prejudice as originally framed, Berryman has not established
any. Berryman hasn't alleged that Mr. Schliebe's credibility was determinative to the outcome of the
guilt verdict. Besides, the idea that rigorous cross examination by Mr. Moench significantly
diminished Mr. Schliebe's conclusions to the jury is speculative. Even if an offer or proof in [*288]
this regard has been made, it would be rejected because juror impressions in the deliberative
process would be strictly proscribed under Federal Rule of Evidence 606(b).
Claim 30 is denied.
Second, addressing the issue of prejudice as originally framed, Berryman has not established
any. Berryman hasn't alleged that Mr. Schliebe's credibility was determinative to the outcome of the
guilt verdict. Besides, the idea that rigorous cross examination by Mr. Moench significantly
diminished Mr. Schliebe's conclusions to the jury is speculative. Even if an offer or proof in this
regard has been made, it would be rejected because juror impressions in the deliberative process
would be strictly proscribed under Federal Rule of Evidence 606(b).
Claim 30 is denied.
XIV. Berryman's Assertion of Trial Error for the Trial Court's Overruling Defense
Objection to Questions Concerning Compensation Paid to Defense Forensic Expert (Claim
31).
In Claim 31, Berryman challenges the trial judge's failure to sustain a defense objection to the
prosecution question about Mr. Schliebe's compensation. No evidentiary hearing is requested.
Second, addressing the issue of prejudice as originally framed, Berryman has not [*289]
established any. Berryman hasn't alleged that Mr. Schliebe's credibility was determinative to the
outcome of the guilt verdict. Besides, the idea that rigorous cross examination by Mr. Moench
significantly diminished Mr. Schliebe's conclusions to the jury is speculative. Even if an offer or
proof in this regard has been made, it would be rejected because juror impressions in the
deliberative process would be strictly proscribed under Federal Rule of Evidence 606(b).
Claim 30 is denied.
XIV. Berryman's Assertion of Trial Error for the Trial Court's Overruling Defense
Objection to Questions Concerning Compensation Paid to Defense Forensic Expert (Claim
31).

Page 103
2007 U.S. Dist. LEXIS 51738, *

In Claim 31, Berryman challenges the trial judge's failure to sustain a defense objection to the
prosecution question about Mr. Schliebe's compensation. No evidentiary hearing is requested.
A. Statement of Facts Relevant to Evidence of Defense Expert Compensation.
During cross examination of Mr. Schliebe, Mr. Moench asked him what his fee was for the
examination of the exhibits which were the subject of his testimony. Mr. Soria immediately
objected and there ensued a lengthy side bar conference. RT-22: 3116-20. Following a review of
authorities [*290] including Penal Code § 987.9 and Evidence Code § 352, the trial court
ultimately overruled the objection. When the question was reiterated, Mr. Schliebe responded, "Are
you interested in knowing what Cal Lab charges for my time or my monthly salary?" Mr. Moench
replied, "assume Cal Lab presented a bill to the defense on this particular thing, how much were
you and/or your business compensated for this?" Mr. Schliebe then testified that his bill for
reviewing evidence was $ 2,500 and $ 1,300 for giving his testimony. Id.: 3121.
B. Berryman's Contentions.
In his argument, Berryman acknowledges the California Supreme Court decision upholding the
trial court ruling on the grounds that Evidence Code § 722(b) permits evidence of compensation and
expenses paid to expert witnesses and that Penal Code § 987.9 (providing a confidential procedure
for indigent criminal defendants to obtain investigative and expert funding) provides no exception.
See 6 Cal. 4th at 1071. He does not appear to dispute the applicability of Evidence Code § 722(b)
whether the expert is an independent contractor or is self-employed. He complains, however, that
the California Supreme Court failed to take into account that [*291] Mr. Schliebe was employed by
Cal Lab as a salaried employee and would receive the same salary whether he testified or not. He
claims a salaried employee testifying for the defense is no more subject to impeachment than a
salaried employee testifying for the prosecution, and since impeachment under § 722(b) is not
available for salaried prosecution witnesses, the statute discriminates. He provides no further
information or argument.
C. Analysis.
The starting point for analyzing Claim 31 is § 722 of the California Evidence Code. Subsection
(b) provides that "compensation and expenses paid or to be paid to an expert witness by the party
calling him is a proper subject of inquiry by any adverse party as relevant to the credibility of the
witness and the weight of his testimony." (Emphasis added.)
The Court understands Berryman's argument to be that expert witnesses who testified in the
People's case were not subject to the impeachment provisions of Evidence Code § 722(b), and that
this disparate treatment between prosecution and defense experts amounts to a constitutional
violation. This would include criminalist Gregory Laskowski, pathologist, John E. Holloway, M.D.,
serologist Gary Clayton [*292] Harmor, and fingerprint technician Opal L. Chappell. However, all
of these experts except serologist Gary Clayton Harmor were employed by the Kern County
government. Dr. Holloway was employed by the Kern County Coroner's Office, RT-17: 2256, Ms.
Chappell was employed by the Kern County Sheriff's Department, RT-18: 2413, and Mr.
Laskowski was employed by the Kern County Regional Criminalistics Laboratory, RT-19: 2600.
Accordingly, they would not have had their fees or expenses paid for by the party calling them,
within the meaning of § 722(b). Only Mr. Harmor was employed by a private company, Serological
Research Institute, RT-18: 2382. But Berryman never questioned Mr. Harmor about his
compensation, although he could have done so under the statute. There is no support in the record

Page 104
2007 U.S. Dist. LEXIS 51738, *

or the law for the discriminatory construction attributed to the California Evidence Code by
Berryman.
Claim 31 is denied on the merits.
XV. Berryman's Challenges to Sufficiency of the Evidence of Criminal Liability for
Murder (Claims 32 and 33).
In Claims 32 and 33 Berryman claims the trial evidence was insufficient to sustain his murder
conviction. Claim 32 alleges there was insufficient evidence to identify [*293] Berryman as the
perpetrator. Claim 33 alleges insufficient evidence to support first degree murder on alternate
theories of premeditated or rape murder. Berryman does not request an evidentiary hearing for
either of these claims.
A. Statement of Facts Relevant to Berryman's Criminal Liability for Murder.
As more fully set forth in the discussion of evidence presented during guilt phase proceedings,
see Part III.A., supra, the combination of circumstantial evidence in six categories identified
Berryman and his pick up truck as having been present at the crime scene where Ms. Hildreth was
killed. First, there were positive tire track comparisons between impressions documented at the
crime scene and two tires on Berryman's pick up truck, plus a limited spare tire which recently had
been removed from his truck. Second, there were positive comparison's between shoe impressions
at the crime scene, including on Ms. Hildreth's face, and the high top Brooks athletic shoes seized
from Berryman at the time of his interview by investigators. Third there was a positive correlation
between a gold-colored chain link found at the crime scene and three gold-colored chain links found
on the floor board [*294] of the cab as well as broken gold colored chain link necklaces hanging
over the rear view mirror of Berryman's pick up truck. Fourth, a latent finger print lifted off the
inside passenger window of Berryman's pick up truck matched the print of one of Ms. Hildreth's
thumbs taken at the autopsy. Fifth, one of two pubic hairs found on Ms. Hildreth's face was said to
have borne substantial similarities to Berryman's pubic hair samples. Sixth, blood found on the
canvas and on a shoe lace from Berryman's right (Brooks athletic) shoe was consistent with Ms.
Hildreth's blood type. Additional circumstantial evidence supports the notion that Ms. Hildreth was
raped, that is a vaginal swab revealed small amount of semen, verifiable by the presence of
spermatozoa 112 and the appearance of her body, as encountered by investigating authorities when
they arrived at the scene. Matters of timing from the testimony of Crystal Armendariz, David
Castillo, and Lorene Louis also are fully recounted in the statement of facts from the guilt
proceedings. See Part III.A., supra. In particular, both Mr. Castillo and Ms. Louis testified to have
seen Berryman's pick up truck near the crime scene at a time that [*295] was after Berryman
dropped Melinda Pena off at her house. RT-19: 2585-86 (Castillo); id.: 2593-94 (Louis) Next, as
emphasized by the Warden, trial testimony of Thellas Sanders demonstrates Berryman's knowledge
that Ms. Hildreth had been stabbed, before authorities had made this information public, and
Berryman's attempt to construct an alibi for his whereabouts with Melinda Pena at the precise time
Ms. Hildreth went missing and was killed demonstrates a consciousness of guilt. RT-17: 2319
(Sanders' testimony); RT-25: 3358, 3365.
112 Berryman's challenge to the rape conviction and rape murder special circumstance
finding describe evidence of rape in more detail. See Part XIX., infra.
It bears stating here that Mr. Moench conceded in his guilt phase summation that the evidence
supporting the People's case was largely circumstantial. RT-25: 3340. He emphasized, however,

Page 105
2007 U.S. Dist. LEXIS 51738, *

that raping Ms. Hildreth was Berryman's goal and that the killing took place in the course of that
act. He argued Berryman intended to kill her and also that he killed her because he didn't want her
telling Crystal about the sex (rape). Id.: 3356.
B. Berryman's Contentions.
Based on the timing of Berryman's departure from [*296] the company of Melinda Pena and
his return to the Clark residence, Berryman refers to the prosecution theory of his criminal
responsibility for Ms. Hildreth's murder as a physical impossibility. Accordingly, he further argues
that the jury's finding he was the perpetrator of Ms. Hildreth's death as an unreasonable
determination of the facts. He stresses he could not have committed sexual assault and murder of
Ms. Hildreth, and then changed his tires (specifically removing the limited spare, rim and all) from
his pick up truck between the time he dropped Melinda Pena off at her house and the time he
returned to the Clark residence.
With respect to the alternate theories of first degree murder (premeditated and rape felony
murder), Berryman points out that the prosecution theory during summation was focused on rape
felony murder. He then recites a portion of Mr. Moench's summation from the penalty proceedings
in which he (Mr. Moench) described that Berryman killed Ms. Hildreth in a rage because he was
upset she would tell her cousin, Crystal, about "what happened." Berryman implies the "what
happened" refers to consensual sex, and since Mr. Moench endorsed a view that the sex was
consensual, [*297] the rape felony murder theory is unsupported. He further points out there was
no connection drawn between the small amount of blood detected in Ms. Hildreth's vagina (along
with the presence of spermatozoa) and vaginal trauma. 113 Acknowledging that Ms. Hildreth's upper
garment was pulled up over her breasts and her lower garment was pulled down around her ankles,
Berryman suggests the "disarrangement" was occasioned by voluntary intercourse and that the
injuries to her body were inflicted after this voluntary intercourse.
113 In fact, as pointed out by Berryman's retained pathologist, Dr. Camparini, the presence
or absence of vaginal trauma has no bearing on whether sex was or was not consensual. See
discussion of Claims 12, 29, 35, 50, 71, and 71 A, Part XIX.A.2.C, infra.
C. Analysis.
In addressing the sufficiency of the evidence supporting the notion that Berryman was the
perpetrator of the crimes against Ms. Hildreth, the California Supreme Court held:
[A] rational trier of fact could surely have found beyond a reasonable doubt that
defendant was in fact the perpetrator. One need only recall the evidence relating to
defendant's pickup truck, its tires, and the tire tracks; defendant's [*298] shoes and the
shoe prints, defendant's jewelry clasp; the abrasion on Hildreth's right cheek displaying
a pattern similar to that of the sole of defendant's right shoe; the stain on the shoelace
of defendant's right shoe apparently produced by Hildreth's blood; defendant's and
Hildreth's pubic hairs found on the latter's body; Hildreth's right thumbprint on the
inside surface of the passenger-door window of defendant's pickup truck; and
defendant's self-incriminating statements to friends and acquaintances and to
investigating law enforcement officers.

6 Cal. 4th at 1083.

Page 106
2007 U.S. Dist. LEXIS 51738, *

The California high court similarly found the evidence sufficient to establish commission of a
rape to sustain the first degree murder conviction under the rape felony murder theory. 6 Cal. 4th
1084. The findings made by the trial court in denying Berryman's motion for judgment of acquittal
pursuant to Penal Code § 1118.1 also support the rape felony murder theory. Notwithstanding
evidence creating doubt about the timing of Berryman's actions, these factual findings are fully
sustainable by the record and cannot be upset on federal habeas. 28 U.S.C. § 2254(d)(2).
Moreover, even were the Court to evaluate the sufficiency [*299] of the evidence, the standard,
as articulated by Jackson v. Virginia. 443 U.S. 307, 319, 99 S. Ct. 2781, 61 L. Ed. 2d 560(1979), is
whether "any rational trier of fact could have found the essential elements of the crime beyond a
reasonable doubt." Viewed in the light most favorable to the prosecution, as Jackson requires, see
id., at 326, the evidence is sufficient to support both the finding of Berryman as the perpetrator and
that first degree murder was, at a minimum, supported by the rape felony murder theory. Claim 32
and 33 are denied.
XVI. Berryman's Challenge to the Validity of the Special Circumstance Finding Due to
Omission of the Intent to Kill Requirement (Claims 34, 42, and 43).
In Claims 34, 42, and 43, Berryman alleges the jury's death eligibility finding must be vacated
because the intent to kill requirement for the felony murder special circumstance under Carlos v.
Superior Court, 35 Cal. 3d 131, 197 Cal. Rptr. 79, 672 P.2d 862, was not satisfied. Claim 34
charges that to the extent he was convicted of first degree murder under the felony murder theory,
the jurors were not instructed to find the killing was intentional. Claim 42 alleges trial error and
Claim 43 alleges [*300] ineffective appellate counsel for failure to effectively raise the trial error
on direct appeal. No evidentiary hearing is requested.
A. Statement of the Facts and State of the Law Relevant to the Intent to Kill Requirement.
These claims involve the application of changes in California law after the populace enacted the
1978 death penalty law by initiative. In Carlos, 35 Cal. 3d at 153-54, decided in 1983, the
California high court held that intent to kill was a necessary element of the felony murder special
circumstance. This holding was overruled just four years later in People v. Anderson, 43 Cal. 3d
1104, 1147, 240 Cal. Rptr. 585, 742 P.2d 1306 (1987). Since Ms. Hildreth was killed after Carlos
was decided, but before Anderson was decided, Berryman's case is said to have been in the Carlos
window, wherein the former rule applies.
During jury selection, counsel and the trial court reviewed jury instructions to be read. Based
upon a change in the law occasioned by People v. Anderson, the trial judge, at Mr. Moench's
urging, eliminated the instruction that felony murder special circumstance required intent to kill. In
fact neither the pre-trial instructions nor the pre-summation instructions, [*301] informed the jury
of the intent to kill requirement. Prior to the pre-summation instructions, however, Mr. Moench
experienced a change of heart about the reach of the new rule announced in Anderson. RT-25:
3281-82. He conceded that because the present offense occurred during the Carlos window, the
intent to kill requirement for the felony murder special circumstance had to be met. To satisfy this
requirement, a special verdict form was devised to confirm the jury's finding that Berryman
intentionally killed Ms. Hildreth. Id. Anticipating the special verdict form, Mr. Moench in his guilt
phase summation, mentioned the fact that the jurors would be asked whether Berryman
intentionally killed Ms. Hildreth if they returned a verdict of first degree murder. RT-25: 3330. 114

Page 107
2007 U.S. Dist. LEXIS 51738, *

114 The Court has carefully read Mr. Moench's summation regarding the explanation of
felony murder and the felony murder special circumstance. In his summation there is quite a
bit of overlap between felony murder concepts and second degree murder under the theory of
implied malice. He told the jury that felony murder permitted a first degree murder
conviction even if the killing was unintentional, or accidental. Then, [*302] without clearly
defining the special circumstance finding, he stated that the killing had to be intentional. Mr.
Moench also was quite clear in his insistence that the killing was intentional.
It was not until the post-summation instructions, however, just before the jurors were sent out
for deliberations, that the trial judge explained the verdict forms, including the intentional killing
special verdict. Specifically, the trial judge instructed that if the jury unanimously and beyond a
reasonable doubt found Berryman guilty of first degree murder, the next step was to proceed to the
special verdict forms. The first special verdict form addressed whether the murder was committed
in the course of rape. If so, then the jurors proceeded to the second form which required a finding
on whether Berryman intentionally killed Ms. Hildreth. RT-26: 3467. In returning the verdict, the
jury responded affirmatively to all three inquiries: yes to first degree murder; yes to the finding that
the murder was committed in the course of the rape; and yes to the finding that the killing was
intentional. As part of the general instructions the jurors were told that they must agree
unanimously on whether [*303] Berryman was guilty of first degree murder "and any of the special
findings" they were directed to make. The general instructions also informed them that the
prosecutor's burden of proof was beyond a reasonable doubt.
B. Berryman's Contentions.
Despite the fact that the jurors were exposed to the intent to kill requirement prior to their
deliberations, Berryman stresses that the intent element does not appear on the actual jury
instructions and there is no indication that the intent to kill finding was made upon the proper
beyond a reasonable doubt standard of proof. He argues prejudice resulted because his intent to kill
was a close question on the facts of the case. He claims that although the issue was raised on direct
appeal, appellate counsel rendered constitutionally ineffective representation because he failed to
press the argument that the special finding of intentional killing did not satisfy standard of proof
and unanimity requirements.
C. Analysis.
The California Supreme Court addressed the instructional omission of the intent to kill
requirement on direct appeal, holding that the trial court "did indeed err" for its failure to instruct on
intent to kill for the special circumstance [*304] finding. Berryman, 6 Cal. 4th at 1089. Upon
conducting harmless error analysis, however, the court found the error to be harmless because of
the special verdict that Berryman intentionally killed Ms. Hildreth. Id.
The state court decision on the issue is entirely reasonable and fully supported by the record.
The jury was adequately instructed on the intent to kill requirement by inclusion of the special
verdict form, the trial judge's instruction about the special verdict form, and the strenuous argument
by Mr. Moench that Berryman actually intended to kill Ms. Hildreth. Further, the general
instructions directed the jurors to decide special findings unanimously and beyond a reasonable
doubt. The state court decision cannot be disturbed on federal habeas. 28 U.S.C. § 2254(d)(1).
There is no basis to address the Warden's Teague bar argument. The Court also finds that
Berryman's contention that the issue of his intent to kill was a close questions is without foundation.
Claims 34, 42, and 43 are denied on the merits.

Page 108
2007 U.S. Dist. LEXIS 51738, *

XVII. Berryman's Challenge to his First Degree Murder Conviction Due Errors
Regarding the Order of Deliberations (Claims 37 and 49).
In Claim 37, Berryman contends counsel [*305] were constitutionally ineffective for not
objecting to and securing a judicial clarification of the prosecutor's argument that the lesser
included offenses to first degree murder could not be considered unless and until the jury agreed
beyond a reasonable doubt that Berryman did not commit first degree murder. In Claim 49 he
argues trial error because the trial judge failed to give adequate instructions on the order of
deliberations concerning lesser included offenses to first degree murder. Berryman requests an
evidentiary hearing with respect to Claim 37.
A. Statement of the Facts Relevant to Instructions on the Order of Deliberations.
Second degree murder and voluntary manslaughter, as lesser included offenses of first degree
murder, were explained to jurors in pre-trial, pre-summation, and post-summation instructions. In
addition, these lesser included offenses were addressed in Mr. Moench's summation. As far as the
actual instructions, read to the jury both before and after the presentation of evidence, the trial judge
instructed:
Now, murder is classified into two degrees, and if you should find the defendant
guilty of murder, it will be your duty to determine and state in your [*306] verdict
whether you find the murder to be in the first or second degree.
If you are convinced beyond a reasonable doubt that the crime of murder has been
committed by the defendant, but have a reasonable doubt as to whether such murder
was of the first or the second degree, you must give the defendant the benefit of the
doubt and return a verdict fixing the degree as second degree.
Now, if the jury is not satisfied beyond a reasonable doubt that the defendant is
guilty of the offense charged, that being the offense of murder, and it unanimously so
finds, it may convict him of any lesser offense, if the jury is convinced beyond a
reasonable doubt that the defendant is guilty of such lesser offense.

RT-25:3310.
After these instructions were read, Mr. Moench delivered his summation, including a
description the manner in which jurors were to consider the varying degrees of murder in
completing the anticipated verdict forms. The issue of his summation on this subject has been
addressed in the discussion of Mr. Moench's judge-elect status in Claims 7, 8, 9, 10, and 23, Part
VII., supra. Specifically, Mr. Moench misspoke when explaining the order of deliberations on the
various degrees of homicide. [*307] He stated:
Only if, and you would have to find beyond a reasonable doubt, and unanimously,
everyone on the jury would have to agree beyond a reasonable doubt that he did not
commit a first degree murder.
Only if everyone of you, beyond a reasonable doubt believed that he [Berryman]
did not commit a first degree murder, then and only then would you go down and
consider murder second, or voluntary manslaughter.
... And only if there is a unanimous not guilty verdict in this area, then you would
go down to this, then you go down to murder second.

Page 109
2007 U.S. Dist. LEXIS 51738, *

RT-25:3332.
At this point in Mr. Moench's summation, the trial judge interrupted and called for a side bar
conference. During the side bar conference, the trial judge stated to counsel:
Let the record reflect we're at side bar, out of the hearing of the jury, [P] There's a
little concern, unless I misunderstood your argument, it sounded like you indicated to
the jury that they had to find the defendant not guilty beyond a reasonable doubt, in
other words, have to determine beyond a reasonable doubt that he was not guilty of
first before they can go down to second. If -- I may have misunderstood your argument,
but that's kind of the way it sounded to [*308] me.

Id.: 3333. In response, Mr. Moench said he would clarify the matter. Following the side bar
conference, Mr. Moench clarified:
If and only if you find unanimously the defendant is not guilty of Count 1, that is, this
first degree murder, then you would move down to count two.
If you find him guilty beyond a reasonable doubt of Count 1, you don't have to do
anything -- let me try that again.
If and only if you find him not guilty of the first degree murder in Count 1, and you
have to make that finding unanimously, that after a unanimous finding, then you would
sign the verdict that says we find the defendant to be not guilty of first degree murder.
Now, that's unanimous decision on your part. Then you would go down and discuss
and decide on whether or not he was guilty of the second degree murder, which is a
lesser included offense of Count 1, and if you find him guilty beyond a reasonable
doubt, that would have to be unanimous, then you would sign the verdict form.
If you find him to be not guilty of the lesser included offense of murder second, and
you would have to make that finding unanimously, then and only then you go down to
the voluntary manslaughter consideration.

Id. 3334-35.
Prior [*309] to sending the jury out for deliberations, the trial judge explained the verdict
forms:
Now, the Court will provide you with the verdict forms as to each count charged and
for the lesser offense to the Count 1.
...
Now, if you unanimously agree that the defendant is not guilty of murder in the
first degree, you will have your foreman date and sign the not guilty verdict of the
offense of murder in the first degree, and then you will go on to your determination of
whether the defendant is guilty or not guilty of murder in the second degree.
...

Page 110
2007 U.S. Dist. LEXIS 51738, *

Now, if you unanimously agree . . . that the defendant is not guilty of murder in the
second degree, and then you will determine whether the defendant is guilty or not
guilty of the lesser included offense of voluntary manslaughter.
If you unanimously agree that the defendant is guilty or not guilty of the lesser and
included offense of voluntary manslaughter, you will have your foreman date and sign
such guilty or not guilty verdict.

RT-26: 3464-66.
Berryman's Strickland expert, Mr. Simrin has offered an opinion that Mr. Moench's argument
was objectionable for suggesting that a defendant bore the burden of proof on determining
innocence. He opines [*310] that Berryman's trial counsel were constitutionally ineffective for
failing to object to and request a curative instruction regarding Mr. Moench's incorrect statement.
He further concludes that the subsequent statement by Mr. Moench and the guilt phase instructions
read by the trial judge were insufficient to overcome the suggestion to the jury that Berryman and
not the prosecution bore the burden of proof.
Mr. Soria states in his declaration he did not know why an objection was not interposed to Mr.
Moench's argument. He also states that the law on whether the jury was permitted to consider a
lesser included offense before there was a verdict on the greater offense was unsettled at the time of
Berryman's trial. The matter was not put to rest until the Supreme Court issued it's decision in
People v. Kurtzman, 46 Cal. 3d 322, 250 Cal. Rptr. 244, 758 P.2d 572 (1988), which was during
Berryman's trial. 115 Mr. Soria states it is unlikely he kept abreast of new cases by reading advance
sheets during the trial.
115 The Kurtzman case was decided August 18, 1988. The pre-summation instructions were
read to the jury on October 17, 1988, the argument proceeded on October 17 and 18, 1988,
and [*311] the concluding instructions were read on October 18, 1988.
B. Berryman's Contentions.
Berryman concedes that under Stone v. Superior Court, 31 Cal. 3d 503, 519, 183 Cal. Rptr. 647,
646 P.2d 809 (1982) and Kurtzman, 46 Cal. 3d at 324-25, a trial court may restrict jurors from
returning a verdict on a lesser included offense before acquitting on a greater offense, but may not
preclude the jury from considering lesser offenses during deliberations. This was the specific
holding by the California Supreme Court reviewing his arguments on direct appeal. See, 6 Cal. 4th
at 1073. He argues that this process is completely different, however, from requiring the jurors to
find that Berryman was not guilty of first degree murder beyond a reasonable doubt before they
could consider lesser included offenses. He contends that when Mr. Moench "clarified" the
misstatement (after having been questioned at the side bar by the trial judge), the misstatement
about the standard of proof remained uncorrected. He further claims Mr. Moench's summation
essentially reversed the burden of proof and precluded the jurors from giving adequate
consideration to the alternatives of second degree murder and voluntary [*312] manslaughter.
Next, Berryman argues that the standard utilized by the California Supreme Court in denying relief
on this claim, that is the requirement that the prosecutor committed bad faith for a finding of
misconduct, 6 Cal. 4th at 1073, has been overruled by People v. Hill, 17 Cal. 4th 800, 823, n. 1, 72
Cal. Rptr. 2d 656, 952 P.2d 673 (1998).

Page 111
2007 U.S. Dist. LEXIS 51738, *

In his traverse, Berryman additionally argues that changes made to the standard jury instructions
after the Kurtzman decision reflect the erroneous nature of the instructions read at Berryman's trial.
In the post-Kurtzman instructions on the order of deliberations, discretion has been conferred on the
jurors "to choose the order in which [they] evaluate each crime and consider the evidence pertaining
to it." This is in contrast to what Berryman refers to as the "acquittal first" instruction read to his
jury.
He argues that the prejudice resulting from the misstatement of the order of deliberations was
devastating to his proffered trial defense. Since Berryman's primary hope was to secure a conviction
of voluntary manslaughter or second degree murder, the argument that the greater offense must be
disproved beyond a reasonable doubt reinforced [*313] the argument that the offense committed
was rape felony murder. Berrryman maintains that there is a reasonable probability that his jury
would have found no rape, no premeditation, and no intent to kill, had it received proper
instructions.
C. Analysis.
The California Supreme Court addressed the issue presented in Claim 37, under the theory of
prosecutorial misconduct rather than ineffective assistance of counsel. The court first set out the
rule from Stone, 31 Cal. 3d at 519, and Kurtzman, 46 Cal. 3d at 324-25, that a trial court may not
preclude jurors from considering lesser offenses during deliberations, but may restrict them from
returning a verdict on a lesser offense before acquitting on the greater offense. 6 Cal. 4th at 1073.
In the Kurtzman decision, the court "impliedly rejected a 'strict acquittal-first rule under which the
jury must acquit of the greater offense before even considering lesser included offenses.'" Id.
(quoting Kurtzman, 46 Cal. 3d at 333). Rather, California adheres to a "modified acquittal first
rule." The state high court stated that even if Mr. Moench's remarks had amounted to a
misstatement of the law, there was no reasonable likelihood the jury would [*314] have construed
the complained of remarks to eliminate consideration of second degree murder or voluntary
manslaughter during deliberations. The court also found Mr. Moench's misstatements were not
intentional or made in bad faith, and therefore, independently not actionable. Id.
As relevant to the instructional error challenge in Claim 49, the California court rejected
Berryman's contention that his jury was charged with the "strict acquittal-first rule" disapproved in
Kurtzman, even taking into account that some of the language in the instructions suggested the jury
was required to deliberate on the charges and allegations in a specified order. Berryman, 6 Cal. 4th
at 1076- 77. The court further determined that a reasonable juror "would have understood the
instructions and employed the instructions ... simply to govern how the jury was to return its
verdicts and findings after it completed its deliberations on the charges and allegations." Id.
Berryman is correct that Mr. Moench's pre-side bar summation charged the jury to find beyond
a reasonable doubt that Berryman "did not commit first degree murder" before deciding whether he
was guilty of second degree murder. (Emphasis added.) He [*315] also told the jury that the lesser
included offenses could not be considered until there was a unanimous decision acquitting
Berryman of the greater offense. Both of these statements are misstatements of the law. The first is
ambiguous as to whether Berryman, as opposed to the prosecution, must bear the risk of nonpersuasion to prove the commission of first degree murder. The second constitutes a misstatement
because under Kurtzman, and its progeny, jurors cannot be precluded from considering lesser
included offenses before rendering a verdict on the greater offense, they can only be precluded from
deciding on a verdict for a lesser offense before deciding on a verdict for a greater offense. Under

Page 112
2007 U.S. Dist. LEXIS 51738, *

Hill, 17 Cal. 4th at 823, n. 1, Berryman is further correct that Mr. Moench's good or bad faith in
misstating the law is now irrelevant under California law to establishing prosecutorial misconduct.
Berryman is not correct, however, when he states that the trial judge erroneously charged the
jury on the order of deliberating on lesser included offenses. Consistent with California law, the
jury was instructed under the modified acquittal-first rule. In fact, and as Berryman concedes,
Kurtzman [*316] squarely holds that a trial court may require a jury to return a verdict on a greater
offense before returning a verdict on a lesser offense, even though the instructions may not prohibit
the jury from "considering or discussing" the lesser offenses before returning a verdict on the
greater offenses. 46 Cal. 3d at 329. Taking all the instructions together, even with the argument of
Mr. Moench on summation, this is the charge the jury received.
Accordingly, Mr. Soria's failure to stay abreast on current California law, while neglectful of his
responsibilities as a lawyer, was harmless. His concomitant failure to interpose an objection to Mr.
Moench's misstatements of the law also was harmless. The trial court clearly rectified the error and
correctly instructed the jury. The Court therefore finds unpersuasive Mr. Simrin's opinion that the
post-side bar clarification summation given by Mr. Moench, after his error was pointed out to him,
coupled with the trial court's instructions failed to correct the initial misstatements. Taken as a
whole, the instructions in no way informed or even suggested to the jury that Berryman bore the
risk of non-persuasion on his guilt or innocence. Under [*317] these circumstances, it is not
necessary to address the Warden's Teague-bar contention that the unconstitutionality of a strict
acquittal-first instruction is a new rule. This was not the charge.
Separately, Mr. Moench's misstatements were insignificant in light of the trial judge's side bar
interruption, Mr. Moench's correction of his misstatements after the side bar, and correct postsummation instructions by the trial court. Accordingly the misstatements did not render the trial
fundamentally unfair. See Donnelly v. DeChristoforo, 416 U.S. 637, 647-48, 94 S. Ct. 1868, 40 L.
Ed. 2d 431 (1974). Nor can it be said they "so infected the trial process with unfairness as to make
the resulting conviction a denial of due process." See id. at 643, quoted by Darden v. Wainwright,
477 U.S. 168, 181, 106 S. Ct. 2464, 91 L. Ed. 2d 144 (1986); Thompson v. Borg, 74 F.3d 1571,
1576 (9th Cir. 1996). See also Ortiz v. Stewart, 149 F.3d 923, 934 (9th Cir. 1998) (court
consistently has refused to find a due process violation where improper prosecutorial remark is an
isolated or one-time event). The trial judge's instructions were not erroneous, Mr. Moench's
misstatements were overcome by the correct [*318] instructions, and trial counsel's failure to
object to Mr. Moench's misstatement does not constitute ineffective counsel. Claims 37 and 49 are
denied on the merits. The request for an evidentiary hearing as to Claim 37 is denied.
XVIII. Berryman's Challenges to Lesser Included Offense Jury Instructions (Claims 39,
40, 41, 44, 45, 46, 47, 48, and 51).
The remaining guilt phase instructional challenges relate to lesser included offenses. The first
sub-category is comprised of Claims 39, 40, 41, and 51, which challenge the omission of proper
implied malice instructions to support the lesser included offense of second degree murder. The
second sub-category is presented in Claims 44 and 45 regarding the absence of instructions on the
lesser included offense of involuntary manslaughter. The third sub-category, comprised of Claims
46, 47, and 48, involves the absence of instructions on the defense of accident. The gravamen of all
these claims is the contention that Berryman's jury was faced with an all or nothing choice between
capital murder and acquittal because the instructions on the lesser included offenses were
incomplete, erroneous, inapplicable, or omitted. His overall challenge is [*319] based on Beck v.
Alabama, 447 U.S. 625, 627, 100 S. Ct. 2382, 65 L. Ed. 2d 392 (1980), which stands for the

Page 113
2007 U.S. Dist. LEXIS 51738, *

proposition that "a death sentence may not be imposed after a jury verdict of guilt of a capital
offense when the jury was not permitted to consider a verdict of guilt of a lesser included noncapital offense, and when the evidence would have supported such a verdict." Berryman contends
the net result of the alleged defects is that the jury necessarily disregarded the inadequate and
incomplete lesser included defenses on which they were instructed, and voted for capital murder.
Berryman requests an evidentiary hearing with respect to Claims 40 and 46 in this group of claims.
A. Statement of the Facts Relevant to Lesser Included Offense Instructions.
Berryman's jurors were instructed on murder, its lesser included offenses, special circumstances,
and rape both prior to the presentation of the prosecution and defense cases and prior to both
parties' closing arguments. RT-17: 2216-27; RT-25: 3293-3317. In the first reading, the jury was
told:
In order to prove the commission of the crime of murder, each of the following
elements must be proved, one, that a human being was killed; two, [*320] that the
killing was unlawful; and three, that the killing was done with malice aforethought or
occurred during the commission or attempt to commit a felony inherently dangerous to
human life. Rape is a felony inherently dangerous to human life.

RT-16: 2216. The trial court then went on to define malice as either express or implied.
Regarding implied malice, the court instructed:
Malice is implied when the killing results from an intentional act involving a high
degree of probability that it will result in death, which act is done for a base, antisocial
purpose, and with a wanton disregard for human life, or when the killing results from
an intentional act, the natural consequences of which are dangerous to life, which act
was deliberately performed by a person who knows that his conduct endangers the life
of another, and whose acts -- and who acts with conscious disregard for life.

Id.: 2217. The court also explained that willful killing meant intentional killing. Id. Next, the
court instructed about felony rape murder based on either a completed rape or attempted rape, and
the rape murder special circumstances. Id.: 2219, 2220. After completing instructions of first degree
murder and [*321] special circumstances, the court explained that second degree murder and
voluntary manslaughter were lesser included offenses of first degree murder. Id.: 2223. The concept
of express and implied malice for murder were not re-explained, but the jury was told that there is
no malice element in voluntary manslaughter. Id.
Following the close of evidence, the prosecution and defense attorneys participated in a jury
instruction conference. As Mr. Soria recites in his September 17, 2001 declaration in support of
Claim 40, Mr. Peterson had the primary responsibility for drafting jury instructions in the guilt
phase whereas Mr. Soria argued the guilt phase on summation. 116 Pursuant to that division of labor,
Mr. Peterson advanced his list of requested instructions at the pre-summation conference. Just prior
to the jury instruction conference, however, Mr. Peterson's wife was in a serious automobile
accident with life-threatening injuries. Mr. Peterson did not appear in court from Thursday, October
6, 1988 until Monday October 17, 1988. When he did resume his participation, he requested
instructions on second degree murder and voluntary manslaughter, but not involuntary
manslaughter. RT-25: [*322] 3259-61. Over the objections of Mr. Moench, the trial court agreed to

Page 114
2007 U.S. Dist. LEXIS 51738, *

give those lesser included offense instructions. Id. 3261-62. Mr. Peterson again confirmed during
the jury instruction conference that an instruction on involuntary murder would not be requested. Id.
at 3268. Nor was there a request to include instructions on the defense of accident.
116 Mr. Soria also delivered the opening statement and conducted the examination of
witnesses during the guilt phase. Mr. Peterson was primarily responsible for argument and
eliciting evidence during penalty proceedings.
As read, the pre-summation instructions mirrored the pre-trial instructions delivered earlier.
Murder was defined as malice murder or felony murder. RT-25: 3303. Malice was then explained as
express malice or implied malice, with both concepts defined. Id.: 3304. The definition of implied
malice given before the presentation of evidence was repeated verbatim here. Id. First degree
murder was then defined as premeditated malice murder or felony rape murder. Id.: 3305-06. This
was followed by the rape murder special circumstance instruction. Id.: 3306-08. With respect to
second degree murder, the court instructed that if [*323] the jury were to convict Berryman of
murder, it was required to determine whether the murder was in the first or second degree. Id.:
3310. Also, if the jurors were convinced Berryman committed murder, but had a reasonable doubt
whether the offense was in the first or second degree, they were to give Berryman the benefit of the
doubt and return a verdict of second degree murder. Id. The trial court did not instruct on the
theories of second degree murder other than just to inform the jurors that they had to choose
between first and second degree. Nor were they instructed on involuntary manslaughter or the
defense of accident.
With respect to the omission of instructions on accident and involuntary manslaughter,
Strickland expert Mr. Simrin opines that trial counsel were ineffective for not requesting them
because it is impossible to tell from the record whether the jury based its first degree murder verdict
on premeditated murder or felony murder. Mr. Soria also avers in a supporting declaration
puzzlement over the omission of involuntary manslaughter and accident instructions since he
argued to the jury that Ms. Hildreth's death was accidental. 117 The accidental character of the death
[*324] stems from the fact that the knife wound on Ms. Hildreth's neck was only 3/4 of an inch
deep, was only fatal because she was so thin, and the fact that the knife was broken in three pieces.
He argued that the breakage of the knife could not have occurred in the course of intentionally
inflicting a 3/4 of an inch wound. It had to have been intentionally broken following "an explosion
of emotions" after Ms. Hildreth had been accidentally stabbed.
117 In the course of this argument, Mr. Soria also conceded that if there had been a rape, the
fact that the killing was accidental would make no difference.
B. Berryman's Contentions.
Three theories underlie the various claims of omission an error: (1) trial error, for the trial
court's failure to read omitted instructions or correct erroneous instructions sua sponte; (2)
ineffective assistance of trial counsel for failure to request them; and (3) ineffective assistance of
appellate counsel for failure to raise the trial court's errors on appeal. Berryman claims the jury
should have been instructed that second degree murder may be predicated on implied malice, where
the killing resulted from an intentional act known to be dangerous and performed [*325] with
knowledge of the danger in conscious disregard for human life. He maintains involuntary
manslaughter should have been defined as the "commission of an act, ordinarily lawful, which
involves a high degree of risk of death or great bodily harm, without due caution and

Page 115
2007 U.S. Dist. LEXIS 51738, *

circumspection." Finally, an instruction of the defense of accident should have informed the jurors
that a person who commits an act through misfortune or accident, in the absence of evil design,
intention, or culpable negligence, is not considered by the law to be capable of committing a crime.
Under Berryman's view of the facts in these habeas proceedings, Ms. Hildreth's death was "no
more than a lover's tryst gone bad," citing to the fact that the murder weapon was a steak knife
either Berryman or Ms. Hildreth could have brought to the crime scene, innocently. He points out
that Ms. Hildreth went with him voluntarily to an isolated spot, generally viewed as a "lover's lane."
After voluntary intercourse, he argues they became "engaged in a tussle, 118 ... that the knife was
produced from some unknown location," and that Ms. Hildreth was stabbed as "an unintended part
of the struggle." He re-emphasizes in his traverse [*326] that the trial court decided to give implied
malice instructions because the jury could have found consensual sex, as argued by Berryman, and
then that the killing occurred during an altercation. He also reiterates in his traverse that there was
evidence the stabbing death of Ms. Hildreth was unintentional and accidental, and thus wholly
consistent with the theory of implied malice second degree murder, involuntary manslaughter, and
the defense of accident. He claims this case is controlled by United States v. Lesina, 833 F.2d 156,
160 (9th Cir. 1987) (reversing conviction of defendant who severely stabbed victim while both
were drunk for trial court's failure to give an instruction on accidental death).
118 The altercation which supposedly followed the voluntary intercourse is said to have
concerned whether Ms. Hildreth was going to tell Berryman's girlfriend and her cousin,
Crystal Armendariz, about their encounter (or "relationship").
He argues that the trial court should have given all of these instructions sua sponte, since there
was substantial evidence supporting them and they were not incompatible with the Berryman's
presentation of the case. See People v. Breverman, 19 Cal. 4th 142, 155-56, 77 Cal. Rptr. 2d 870,
960 P.2d 1094 (1998). [*327] As it was the partial instructions given on second degree murder
served to eliminate a practical alternative to a first degree murder special circumstance murder
verdict. Moreover, with respect to the implied malice instruction given, Berryman argues that no
instruction connecting that concept to second degree murder was given to the jury, and that in any
event, the instruction was defective because it created a mandatory presumption of malice if
predicate facts were established. He claims this presumption placed the burden of disproving malice
on him. In any event, he maintains, since the theory of premeditated murder was largely discounted
during the trial proceedings in favor of felony rape murder, it was especially important to provide
the jury with a meaningful choice of lesser included offenses.
With respect to his ineffective assistance of trial counsel claim, he alleges trial counsel's failure
to request complete jury instructions was inexplicable and unreasonable. The prejudice claimed is
that had the correct and complete instructions been given, Berryman would not have been convicted
of capital murder. Foreshadowing Claim 52, 119 Berryman argues in his traverse that a plausible
[*328] reason Mr. Peterson didn't request complete instructions is that he was preoccupied and
distracted by the fact that his wife had been in a serious automobile collision.
119 The ensuing analysis here is dispositive as to Claim 52. See Part XXI. infra.
The assertion that appellate counsel was constitutionally ineffective stems from his failure to
raise the trial error on direct appeal. He argues his case is analogous to the situation in Turner v.
Duncan, 158 F.3d 449, 459 (9th Cir. 1998), where the trial court omitted an entire page out of the
CALJIC manual and appellate counsel failed to raise the omission on direct appeal.

Page 116
2007 U.S. Dist. LEXIS 51738, *

C. Analysis.
The Warden raises a number of procedural defenses, including Teague-bar. Because all of the
claims in this group are manifestly without merit, the Court does not address these procedural
defenses. 120 In the first place, the concept of implied malice as the foundation for second degree
murder was explained to the jury. As found by the California Supreme Court, the instruction given
was perfectly acceptable:
There is no reasonable likelihood that the jury misconstrued or misapplied the
challenged instruction as a "mandatory presumption" of implied malice, [*329] less
still as one that reduced the People's burden of persuasion in any way. Indeed, a
reasonable juror would have understood and employed the instruction in accordance
with what it purported to be, to wit, a definition of implied malice -- a definition, we
may note that is adequate, [citations omitted.]

6 Cal. 4th at 1078. The finding that the implied malice instruction created no impermissible
presumption of malice cannot be disturbed on federal habeas. 28 U.S.C. § 2254(d)(1).
Notwithstanding the propriety of the implied malice instruction, the jury found Berryman guilty of
a completed rape and returned a special verdict form finding that he intentionally killed Ms.
Hildreth. This is tantamount to a finding of express malice. There can be no prejudice for failure to
provide further or amplified instructions on implied malice when the jury determined the killing
was intentional and malice was express. See Brecht, 507 U.S. at 637.
120 The Court notes that although the allegation of a league-bar is to be resolved before
courts address the merits, Bohlen, 510 U.S. at 389, such a threshold inquiry here is pointless.
As stated in connection with the analysis of Claims 1, 8, 9, 10, and 23, [*330] see Part
VII.C., supra, it's not a matter of whether a new rule was announced after Berryman's
conviction became final, or alternatively whether an old rule is being applied in a new way,
there is simply no rule, period, because the allegations are totally unsupported by the record.
120
On the subject of involuntary manslaughter, the California Supreme Court held:
Defendant contends that the court erred by failing to instruct the jury sua sponte on involuntary
manslaughter as a lesser included offense.
There was no error. A court is not obligated to instruct sua sponte on involuntary manslaughter
as a lesser included offense unless there is substantial evidence from which a rational trier of fact
could find beyond a reasonable doubt [citation] that the defendant killed his victim "in the
commission of an unlawful act, not amounting to felony; or in the commission of a lawful act which
might produce death, in an unlawful manner, or without due caution and circumspection." (Pen.
Code, § 192, subd. (b)). Such evidence is lacking here. To be sure, one might speculate that
defendant killed Hildreth as he perpetrated some unspecified misdemeanor or performed some
unspecified act with criminal [*331] negligence. But speculation is not evidence, less still
substantial evidence. [Citation.]
Id. at 1080-81. This finding is similarly resistant to collateral attack on federal habeas. 28
U.S.C. § 2254(d)(1) and (2).

Page 117
2007 U.S. Dist. LEXIS 51738, *

The claim that lesser included offense omissions violated Berryman's due process rights under
Beck v. Alabama, 447 U.S. at 627 also is without merit because instructions on the lesser included
offenses of second degree murder and voluntary manslaughter were given. In Schad v. Arizona, 501
U.S. 624, 647, 111 S. Ct. 2491, 115 L. Ed. 2d 555 (1991), the high Court rejected the notion that a
jury must be instructed on every lesser included offense and upheld a capital sentence in that case
because the jury was not faced with the all-or-nothing choice between a capital murder conviction
and acquittal. That principle applies here. In any event, there is no support for the notion that the
jury chose rape felony murder because that was the only alternative to acquittal.
Finally, as the Warden argues, Berryman's assertion of the accident defense is meritless because
applicable statute requires the absence of evil design, intention, or culpable negligence. In contrast,
here, the record [*332] demonstrates that Berryman took Ms. Hildreth to a remote location where
she was physically abused, sexually violated, and stabbed to death. There is no evidence suggesting
the stabbing was accidental, 121 much less "substantial evidence." There is no evidence that Ms.
Hildreth and Berryman fought over some threat on her part to expose their liaison to Berryman's
girlfriend. Crystal Armendariz. The jury's rape finding defeats Berryman's theory in this regard.
Lesina, 833 F.2d 156 also is inapposite. In that case, the evidence was that the defendant grabbed a
knife to remove it from the area where he and his girlfriend were fighting, and as he attempted to
throw it back over his head, the victim, a mutual friend who had entered the fray to attempt to break
up the fight, collided with the knife, sustaining a deep, penetrating wound. Id. 157. The defendant
was convicted of second degree murder after the trial court refused an instruction of accident. Id. at
160. The Ninth Circuit reversed in light of the considerable evidence presented at trial that
supported the accident theory. Here, in contrast, no evidence supports that Berryman accidently
stabbed Ms. Hildreth during a fight over whether [*333] she would reveal her "relationship" with
Berryman. Again, in his arguments, Berryman discounts the rape conviction and the more than
sufficient evidence supporting that conviction.
121 It may be that Berryman did not intend for Ms. Hildreth to die, but there is nothing to
suggest that he did not intend to press the knife blade to her neck.
Claims 39, 40, 41, 44, 45, 46, 47, 48, and 51 are denied on the merits. Berryman's request for an
evidentiary hearing with respect to Claims 40 and 46 is denied.
XIX. Berryman's Challenges to the Rape Conviction and Rape Murder Special
Circumstance Finding (Claims 12, 29, 35, 50, 71, and 71A).
In Claims 12, 29, 35, 50, 71, and 71A, Berryman advances a number of legal challenges to his
rape conviction and the rape murder special circumstance finding. In Claim 12 he alleges he wasn't
given adequate notice that the rape murder special circumstance could have been based on
attempted rape in the alternative to actual, completed rape. In Claim 29 he alleges trial counsel were
constitutionally ineffective for failure to retain an independent pathologist to testify about the lack
of physical evidence of a completed rape. 122 In Claim 35 he alleges the evidence [*334] adduced at
trial was legally insufficient to support the rape murder special circumstance. Claim 50 alleges that
the trial court committed reversible error for not instructing the jury that intent to rape must precede
the killing and that the victim must have been alive when the intercourse occurred. Claim 71 alleges
that trial counsel were constitutionally ineffective for failure to develop and present evidence that
Berryman and Ms. Hildreth had been alone together a few days before the homicide. Finally, in
Claim 71 A he alleges prosecutorial misconduct for the suppression of witness statements that

Page 118
2007 U.S. Dist. LEXIS 51738, *

placed the victim in Berryman's truck prior to the night she was killed. Berryman requests an
evidentiary hearing with respect to Claims 12, 29, and 71A.
122 Claim 29 also addresses the issue of whether evidence supports the prosecution
contention during penalty proceedings that Berryman stood on Ms. Hildreth's face for three to
five minutes as she lay dying. See discussion of this portion of Claim 29 together with Claim
75 in Part XXIV., infra.
A. Statement of the Facts Relevant to the Rape Conviction and Rape Murder Special
Circumstance Finding.
The relevant facts consist of a description [*335] of specified trial proceedings, trial testimony,
and post-conviction declaration testimony.
1. Relevant Trial Proceedings and Testimony.
The information filed in the case alleged murder, the rape murder special circumstance, plus a
weapon enhancement in the first count, and rape, plus a weapon enhancement in the second count.
As relevant here, the rape murder special circumstance allegation in the information provides:
[T]he murder of Florence Hildreth was committed by defendant RODNEY
BERRYMAN while the defendant was engaged in the commission of the crime of rape
or the immediate flight after committing the crime of rape, in violation of Penal Code
Section 261(2), within the meaning of Penal Code Section 190.2(a)(17).

RT-17: 2214-15.
The information was read to the jury in the course of pre-trial instructions prior to opening
statements and the presentation of evidence. Among other things, the pre-trial instructions defined
murder, its lesser included offenses, special circumstances, and rape. Notwithstanding the language
of the information which covered only the actual commission of rape, the pre-trial instructions, read
directly after the information, defined felony murder as the killing [*336] of a human being that
"occurs as the result of the commission of or the attempt to commit the crime of rape" and the rape
murder special circumstance as the commission of murder "while the defendant was engaged in the
commission of or attempted commission of rape, or that the murder was committed during the
immediate flight after the commission, attempted commission, of rape." Id.: at 2219, 2221. No
comments or objections were interposed to these pre-trial instructions by defense counsel or the
prosecutor.
Evidence at trial pertaining to sexual assault was presented by the testimony of pathologist Dr.
Holloway and the results of laboratory tests. Dr. Holloway noted there was no evidence of trauma
to Ms. Hildreth's vaginal vault. The criminalist, Gregory Laskowski, collected a vaginal swab from
her body during the autopsy. Later forensic testing of the swab revealed a small amount of Ms.
Hildreth's blood and a small amount of semen, verifiable by the presence of spermatozoa. As noted
above, Berryman could not be identified as the person who deposited the semen.
Pre-summation instructions, read after the close of guilt phase evidence repeated the concept
that first degree felony murder [*337] and the felony murder special circumstance were predicated
on the alternative theories of completed or attempted rape. Discussion concerning attempted rape as
the predicate for the rape murder special circumstance was generated by Berryman's motion for
judgment of acquittal pursuant to Penal Code § 1118.1. After the prosecution put on its case in chief

Page 119
2007 U.S. Dist. LEXIS 51738, *

(and before the defense began its case), Mr. Peterson argued that both the rape murder special
circumstance and the rape charge had to be resolved in Berryman's favor because rape cannot be
committed against a victim who has expired. Alternatively, Mr. Peterson argued no rape occurred
because there was no evidence of trauma to the victim's vaginal vault.
Finding that substantial evidence had been presented to support a jury finding of a completed
rape, the trial judge first noted that the presence of the victim's blood on the vaginal swab specimen
indicated she was alive during intercourse (although no expert testimony had been adduced to
support this notion). Addressing the issue of penetration, the trial judge observed that despite the
fact a pool of fluid believed to be semen had been deposited on Ms. Hildreth's abdomen and inner
thighs, [*338] the occurrence of penetration was not precluded. The deposit could have meant no
more than that Berryman withdrew from Ms. Hildreth's vagina before ejaculation. The judge then
spoke to the matter of consent, noting that the victim's body position and the state of her clothing
was "more consistent, and the jury could find, someone forcibly removing that clothing for the
purpose of making her available for sexual intercourse." During the course of the argument on this
motion, Mr. Moench conceded that the evidence he presented in the People's case in chief might be
susceptible to an inference that the intercourse occurred after death, in which case the attempted
rape theory should be used. Defense counsel did not object or ask for more time to prepare their
defense case. Thus, when the jury was instructed on the guilt phase issues, the concept of attempted
rape was presented both in the context of the felony rape murder definition and the rape murder
special circumstance consistent with how it was presented before the parties put on their cases.
To punctuate the concept that rape requires a live victim, Berryman's trial counsel offered the
following instruction:
The prosecution must also [*339] prove beyond a reasonable doubt that an act of
sexual intercourse was accomplished against the victim's will by means of force,
violence, or fear of immediate and unlawful injury on the victim or another person, and
that the rape was accomplished with a "person," not a dead body. Rape must be
accomplished against a person's will. A dead body cannot consent to or protest a rape,
nor can it be in fear of immediate and unlawful bodily injury. The essential guilt of
rape consists in the outrage to the person and feelings of the victim of the rape. If you
have a reasonable doubt that an act of sexual intercourse was accomplished against the
victim's will as opposed to a dead body, you may not convict the defendant of first
degree murder on the felony murder rule.

The trial court refused this and additional proffered instructions on the grounds that the other
instructions adequately covered their content. The instruction read to Berryman's jury provides:
In order to prove the commission of the crime of rape, each of the following elements
must be proved, one, that two persons engaged in an act of sexual intercourse. Two,
that the two persons were not married to each other. Three, that the [*340] act of
intercourse was against the will of one of the persons. And four, that such act was
accomplished by means of force, violence, or fear of immediate and unlawful bodily
injury to such person.

Page 120
2007 U.S. Dist. LEXIS 51738, *

After closing instructions were read, Mr. Soria continued to argue there was still a reasonable
doubt about Berryman's identity as the perpetrator, and that because there was no injury to Ms.
Hildreth's vagina vault, there was no rape. He refrained from arguing there was no rape because Ms.
Hildreth's death preceded the penetration. 123
123 As Berryman argues, this omission was logical since the jury was instructed that
attempted rape could support the rape murder special circumstance.
2. Evidence Developed in Post-Conviction Proceedings.
The post-conviction evidence for these claims consists of five declarations. They are from trial
counsel Mr. Soria, trial pathologist Dr. Holloway, retained expert pathologist Silvia O. Comparini,
M.D., juror David Armendariz, and one of Berryman's federal habeas attorneys, Mr. Morris.
a. Declaration of Charles J. Soria, Executed August 20, 2001.
Mr. Soria reports that his defense strategy at the guilt phase proceedings was based on the belief
that the prosecution [*341] intended to proceed on the theory of a completed rape to support the
death eligibility rape murder special circumstance. He avers this belief was based conversations
with the original prosecutor in the case, Lisa Green, who "indicated" the completed rape as opposed
to attempted rape theory was the predicate for the rape murder special circumstance. Hence, the
defense motion for judgment of acquittal was predicated on the theory that the prosecution could
not prove the victim was alive during intercourse. Mr. Soria avers he was surprised when the
prosecutor, Mr. Moench, changed the allegation to attempted rape after conclusion of the People's
case. He states the defense was misled. Had attempted rape been alleged in the first instance, he
insists, a different strategy would have been formulated. But, by the time the prosecutor changed
theories, it was too late. Mr. Soria does not explain what different strategy he would have developed
if attempted rape had been alleged in the information.
b. Declaration of John E. Holloway, M.D., Executed July 25, 2001.
Dr. Holloway states that at trial he was not asked about the significance of the trace of blood
determined to be on the vaginal swab [*342] taken from Ms. Hildreth during the autopsy. Contrary
to the statement of the trial judge, Dr. Holloway clarifies that the trace of blood does not establish
Ms. Hildreth was alive at the time of intercourse: "In my opinion, the trace of blood in the vagina
was not evidence that the victim was alive at the time of the intercourse. The trace of blood could
have been present before the intercourse occurred." In other words, she could have been dead at the
time of intercourse. He also states that the trace of blood should not be attributed to menstruation,
but that many other causes, such as minor injuries, would account for the trace of blood. He repeats
his trial testimony that the autopsy revealed no trauma to the vagina as the source of the blood.
Finally, he states that the defense could have benefitted from the opinion of another pathologist at
trial.
c. Declaration of Silvia O. Comparini, M.D., Executed October 10, 2001.
Dr. Comparini first observes that where a female does not give consent, an erect adult penis
cannot enter through the narrow passage from the external genitalia to the vagina (introitus) without
inflicting abrasions. From this, she concludes that Ms. Hildreth was not [*343] subjected to nonconsensual intercourse because there was no trauma to the introitus or to the external genitalia. Dr.
Comparini further notes that the fact there was no trauma to the vagina (or vaginal vault) is
irrelevant, because vaginal tearing does not occur as the result of even forcible penetration by a

Page 121
2007 U.S. Dist. LEXIS 51738, *

penis. With respect to blood observed on the vaginal swab, Dr. Comparini states that it is most
likely the blood was deposited when the swab was introduced into the vagina without use of a
speculum. The swab could have picked up blood present or oozing in the introitus. The presence of
blood on the swab was "not evidence that Ms. Hildreth was alive at the time semen was deposited."
(Emphasis in original.) The presence of sperm on the swab could have been residue from previous
intercourse up to five days earlier. Finally, the "glossy material" or dried fluid deposited on Ms.
Hildreth's left inner thigh was deposited above the dust on her body, and accordingly "had to [have]
be[en] deposited by ejaculation outside of the genitalia." d. Declaration of David Armendariz,
Executed February 4, 2001.
With respect to the rape challenges, Mr. Armendariz confirms that the combination of [*344]
the rape with the weapon provided the special circumstances that justified the death penalty.
e. Declaration of Jesse Morris, Jr., Executed October 2, 2001.
As summarized in the discussion of Claims 15 and 16, Part XII.A.2., supra, Mr. Morris
interviewed the proprietors of a refreshment stand at the Lake Woollomes recreational park, who
remembered seeing Ms. Hildreth in Berryman's company at the park about a week or two before her
death. Mr. Morris also interviewed Crystal Armendariz and her mother Brenda dark in February of
1996 and confirmed that both stated Ms. Hildreth had been in Berryman's pick up truck prior to the
night of her death. Both witnesses also reported that they conveyed this information to a
prosecution investigator. Mr. Morris states there was no mention of the fact that witnesses observed
Ms. Hildreth in Berryman's truck prior to her death in any discovery materials handed over to
Berryman's trial defense attorneys.
B. Berryman's Contentions.
Berryman's argument does not acknowledge that attempted rape instructions were read to the
jurors at the beginning of the trial proceedings. 124 His argument assumes that the first time the
attempted rape theory was raised was [*345] after all evidence was presented and that impetus for
the introduction of this theory was the failed defense motion for acquittal pursuant to Penal Code §
1118.1.
124 The Warden's argument also does not recite that the attempted rape theory was
introduced at the beginning of the proceedings.
In his first challenge to the rape murder special circumstance, Berryman complains that he
didn't have adequate notice required under the Sixth Amendment that his death eligibility could be
predicated on attempted rape as opposed to an actual completed rape. He argues that because the
trial court refused the defense instruction specifying that rape required a live victim, the issue of
attempted rape nonetheless was presented to the jury. He argues he was prejudiced by the change in
prosecution theory because defense counsel didn't have time to rebut a new and different allegation
with evidence of consensual intercourse. The foundation for consensual intercourse now advanced
is evidence that Ms. Hildreth had been seen in Berryman's truck and together with Berryman on
previous occasions, and thus it would have been reasonable to surmise she went with him
voluntarily on the night other death. These [*346] facts comprise both an ineffective assistance of
counsel claim and a prosecutorial misconduct claim. Additional evidence relied upon to negate a
completed rape consists of the post-conviction declarations of Dr. Holloway and Dr. Comparini to
the effect that the trace of blood observed on the vaginal swabs taken during Ms. Hildreth's autopsy
do not establish her vitality at the time of penetration. Berryman maintains that because the trial

Page 122
2007 U.S. Dist. LEXIS 51738, *

judge interpreted the presence of a trace of blood as evidence of Ms. Hildreth's vitality at the time
of penetration, it is reasonable the jury also improperly interpreted this evidence in the same
manner.
Separately, he argues that because the trial court refused the proffered instruction that rape
required a live victim, the jury could have convicted him of rape, even though Ms. Hildreth was
already dead when Berryman conceived the notion of having sex with her body. He claims the trial
court erred because the live victim principle was not covered by other instructions as the trial judge
stated. On the same state of the evidence, he argues the evidence actually presented at trial was
insufficient to support the rape murder special circumstance because [*347] Ms. Hildreth was dead
at the time of intercourse.
C. Analysis.
In his first challenge to the rape murder special circumstance, Berryman complains that he
didn't have adequate notice required under the Sixth Amendment that his death eligibility could be
predicated on attempted rape as opposed to an actual completed rape. He argues that because the
trial court refused the defense instruction specifying that rape required a live victim, the issue of
attempted rape nonetheless was presented to the jury. He argues he was prejudiced by the change in
prosecution theory because defense counsel didn't have time to rebut a new and different allegation
with evidence of consensual intercourse. The foundation for consensual intercourse now advanced
is evidence that Ms. Hildreth had been seen in Berryman's truck and together with Berryman on
previous occasions, and thus it would have been reasonable to surmise she went with him
voluntarily on the night other death. These facts comprise both an ineffective assistance of counsel
claim and a prosecutorial misconduct claim. Additional evidence relied upon to negate a completed
rape consists of the post-conviction declarations of Dr. Holloway and Dr. Comparini [*348] to the
effect that the trace of blood observed on the vaginal swabs taken during Ms. Hildreth's autopsy do
not establish her vitality at the time of penetration. Berryman maintains that because the trial judge
interpreted the presence of a trace of blood as evidence of Ms. Hildreth's vitality at the time of
penetration, it is reasonable the jury also improperly interpreted this evidence in the same manner.
Separately, he argues that because the trial court refused the proffered instruction that rape
required a live victim, the jury could have convicted him of rape, even though Ms. Hildreth was
already dead when Berryman conceived the notion of having sex with her body. He claims the trial
court erred because the live victim principle was not covered by other instructions as the trial judge
stated. On the same state of the evidence, he argues the evidence actually presented at trial was
insufficient to support the rape murder special circumstance because Ms. Hildreth was dead at the
time of intercourse.
C. Analysis.
Acknowledging the importance of the rape conviction, as evidenced by Mr Armendariz's
declaration, there is no merit to the contention that the completed rape finding was unsupported
[*349] by the evidence because there was no penetration, or if there was penetration, the sexual
intercourse was consensual or alternatively, occurred after Ms. Hildreth was dead. The California
Supreme Court so held after reviewing the trial proceedings and making entirely reasonable
findings. 6 Cal. 4th at 1084. See also Jackson, 443 U.S. at 319 (limiting review to whether "any
rational trier of fact could have found the essential elements of the crime beyond a reasonable
doubt"). Because these claims introduce additional evidence developed during post-conviction
proceedings, however, the Court is compelled to factor in this evidence when evaluating the

